<html>
<title> - THE FORMULATION OF EFFECTIVE NONPROLIFERATION POLICY</title>
<body><pre>[Senate Hearing 106-655]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-655
 
          THE FORMULATION OF EFFECTIVE NONPROLIFERATION POLICY

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                       MARCH 21, 23, 28, 30, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                     U.S. GOVERNMENT PRINTING OFFICE
64-521 CC                  WASHINGTON : 2000


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

       Proliferation: Overview and the Formulation of Effective 
                Nonproliferation Policy--March 21, 2000

Cambone, Stephen A., Ph.D., Director of Research, Institute for 
  National Strategic Studies, National Defense University, 
  Washington, D.C................................................    44
    Prepared statement...........................................    47
Cirincione, Joseph, Director, Nonproliferation Project, Carnegie 
  Endowment for International Peace, Washington, D.C.............    55
    Prepared statement...........................................    58
Joseph, Hon. Robert G., Director, Center for Counter 
  Proliferation Research, National Defense University, 
  Washington, D.C................................................    35
    Prepared statement...........................................    39
Tenet, Hon. George J., Director of Central Intelligence..........     3
    Prepared statement...........................................     8

   India, Pakistan, and North Korea: The Future of Nonproliferation 
                         Policy--March 23, 2000

Ganguly, Sumit Ph.D., Visiting Fellow, Center for International 
  Security and Cooperation, Stanford University..................    96
    Prepared statement...........................................   100
Ikle, Fred C., Former Director, Arms Control and Disarmament 
  Agency.........................................................    92
Lehman, Ronald F., Former Director, Arms Control and Disarmament 
  Agency.........................................................    85
    Prepared statement...........................................    88

  Iran and Iraq: The Future of Nonproliferation Policy--March 28, 2000

Butler, Hon. Richard, Former Executive Chairman, United Nations 
  Special Commission on Iraq (UNSCOM), Diplomat In Residence, 
  Council on Foreign Relations...................................   128
Cordesman, Dr. Anthony H., Senior Fellow and Co-director, Middle 
  East Program, Center for Strategic and International Studies...   132
Ekeus, His Excellency Rolf, Former Executive Chairman, United 
  Nations Special Commission on Iraq (UNSCOM), Ambassador of 
  Sweden.........................................................   125

 Adapting Nonproliferation Policy to Future Challenges--March 30, 2000

Carter, Hon. Ashton B., Former Assistant Secretary of Defense for 
  International Security Policy; John F. Kennedy School of 
  Government, Harvard University, Cambridge, Massachusetts.......   186
    Prepared statement...........................................   190
Hadley, Hon. Stephen J., Former Assistant Secretary of Defense; 
  Shea and Gardner, Washington, D.C. Illinois....................   177
    Prepared statement...........................................   181
Rumsfeld, Hon. Donald H., Former Secretary of Defense, Rumsfeld 
  and Associates, Chicago, Illinois..............................   162
    Prepared statement...........................................   166

                                 (iii)

  


                             PROLIFERATION:
                    OVERVIEW AND THE FORMULATION OF
                   EFFECTIVE NONPROLIFERATION POLICY

                              ----------                              


                        Tuesday, March 21, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 2:29 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
presiding. Present: Senators Lugar (presiding), Biden, and 
Kerry.
    Senator Lugar. This hearing of the Senate Committee on 
Foreign Relations is called to order.
    Today the committee begins a series of four hearings on 
United States and intelligence nonproliferation policy. No 
issue better illustrates the new challenges, complexities, and 
uncertainties faced by the United States and the world than the 
proliferation of weapons of mass destruction and their delivery 
means. Bilateral and multilateral efforts to stop proliferation 
are perhaps the most important foreign and national security 
policies we are implementing today.
    When the former Soviet Union collapsed just over 8 years 
ago, a new era in world history began. Many suggested the 
dangers of nuclear war have been dispelled by the dissolution 
of the Soviet Union. Instead, we now face a world that is more 
turbulent, unpredictable, and in some respects more violent 
than the one we left in the early 1990's.
    Hopes for enduring peace have given way to the reality of 
disorder and conflict. The aspiring nuclear powers of today are 
not constrained by the patterns of Cold War competition. They 
do not need a Manhattan Project. The weapons programs of rogue 
nations and regional powers do not require high standards or a 
large number of weapons. These programs are harder to detect 
and to identify as nations are increasingly able to conceal 
their efforts and move ahead rapidly.
    In addition, the motives and methods of these new trans-
national threats are very different from those of traditional 
nuclear powers. Ballistic missiles and weapons of mass 
destruction provide a cost effective deterrent for countries 
who do not welcome American leadership. Rogue nations, regional 
powers, and terrorist groups view ballistic missiles and 
weapons of mass destruction as a means to intimidate or 
terrorize their neighbors and to deter the United States.
    Our nonproliferation efforts have been rewarded with 
several important accomplishments. When the Soviet Union 
collapsed, the Ukraine, Belarus, and Kazakhstan became the 
third, fourth, and eighth largest nuclear powers in the world. 
The addition of three more nuclear weapons states would have 
drastically changed the strategic landscape. Fortunately, these 
nations chose to embrace the nuclear Nonproliferation Treaty 
and adhere to the START I Treaty and the number of nuclear 
weapons states was reduced by three.
    Although this tremendous achievement was due in large part 
to Congressional programs and policies designed to assist in 
the dismantlement, the system has worked. And despite these and 
other improvements, several factors foreshadow a decrease in 
the effectiveness of international measures to combat nuclear 
proliferation.
    For example, India and Pakistani tests in 1998, Iran 
intransigence with UNSCOM, and Iranian and North Korean 
ambitions continue to confound nonproliferation efforts and are 
producing dangerous stresses on international norms. Some 
states in high tension regions have become disillusioned with 
the international community's uneven enforcement and what they 
view as the limited capability to enforce multilateral 
treaties.
    Indeed, the degradation of the UNSCOM regime sends a signal 
that transgressors can outlast international resolve. The 
confluence of political and strategic factors in high tension 
regions may provide the impetus for new nuclear programs, 
stimulate advanced technological developments in existing 
programs, or cause some states to reassess their security 
postures.
    Our country must undertake an effort to identify those 
nonproliferation efforts that have proven successful and seek 
ways to intensify these activities. Likewise, we must 
acknowledge that some policies have proven to be ineffective. 
In some cases, the actions of proliferators and rogue states 
have succeeded despite United States and international efforts. 
We must alter and improve our programs and policies that have 
proven unsuccessful and modify our efforts to reflect changes 
in this strategic environment. That is the purpose of these 
four hearings that the chairman has asked me to conduct.
    We are especially pleased that the Director of Central 
Intelligence, George Tenet, has agreed to begin our hearings 
with testimony on the current state of the nonproliferation 
threat facing our country. Mr. Tenet will be joined at the 
witness table by Mr. John Lauder, Director of the 
Nonproliferation Center at the Central Intelligence Agency, and 
Mr. John McLaughlin, Deputy Director of Intelligence at the 
Agency.
    Only with a complete understanding of the threats facing 
our country can we make rational decisions on the policy we 
must implement to ensure the safety of the American people. 
Following Mr. Tenet's statement and a brief round of questions 
on his testimony, we will invite a second panel consisting of 
Ambassador Robert Joseph, the Director of the Center for 
Counter Proliferation Research at the National Defense 
University, Mr. Steve Cambone, the Director of Research at the 
Institute for National Strategic Studies at the National 
Defense University, and Mr. Joseph Cirincione, the Director of 
the Nonproliferation Project at the Carnegie Endowment for 
International Peace. They will provide insight on the 
formulation of nonproliferation policy as they see it.
    Our next hearing will analyze the India-Pakistan situation, 
in which a downward spiral in regional relations threatens to 
continue to escalate tensions between the nations that have 
recently tested nuclear weapons. The next will focus on Iraq 
and Iran. It appears that international resolve is faltering 
with regard to efforts to ensure and verify that Iraq 
dismantles its weapons of mass destruction and missile 
programs, and likewise Iran continues to flout international 
law with continued attempts to acquire long range missile 
capabilities and an indigenous nuclear weapons capability.
    Our series will conclude with a discussion of proposed 
policy innovations to improve or alter current United States 
and multilateral nonproliferation policy to achieve the stated 
goals and reduce the threats to American national security, 
international law, and the global nonproliferation regime. It 
is my hope that these hearings will lead to a set of policy and 
program recommendations that will be helpful in updating or 
altering where necessary United States and international 
efforts to reflect current and future nonproliferation 
challenges and threats.
    As he appears, I will call upon the distinguished ranking 
member of the committee, Senator Biden, for an opening 
statement or comments that he may have. But for the moment, I 
call upon Director Tenet. Let me point out that we have asked 
Director Tenet to testify directly today on the threats of 
proliferation as opposed to other issues. We are hopeful that 
members will respect that and that we will keep on the track of 
proliferation and nonproliferation today with the Director.
    Director Tenet.

    STATEMENT OF HON. GEORGE J. TENET, DIRECTOR OF CENTRAL 
                          INTELLIGENCE

ACCOMPANIED BY JOHN E. McLAUGHLIN, DEPUTY DIRECTOR FOR INTELLIGENCE, 
            CENTRAL INTELLIGENCE AGENCY; AND JOHN A. LAUDER, SPECIAL 
            ASSISTANT TO THE DIRECTOR OF CENTRAL INTELLIGENCE FOR 
            PROLIFERATION, AND DIRECTOR, NONPROLIFERATION CENTER, CIA

    Mr. Tenet. Thank you, Senator Lugar.
    The issue of proliferation, as we have testified previously 
to other committees, we believe is maybe one of the most 
important challenges to our country's security as we proceed 
forward. Indeed, we face a world where technology develops and 
spreads at the speed of light and becomes obsolete just as 
fast, but also a world in which nation states are still 
important players, but nation states are no longer the only 
players, particularly in the context of proliferation, where 
corporations, nongovernmental organizations, terrorist groups, 
organized crime groups, and even single individuals can have a 
very important impact.
    We have witnessed continued missile development in Iran, 
North Korea, Pakistan, and India. Add to this the broader 
availability of technologies relevant to biological and 
chemical warfare, nuclear tests in South Asia, as well as 
continuing concerns about other nuclear programs and the 
possibility of shortcuts to acquiring fissile material. We are 
also worried about the security of Russian WMD materials, 
increased cooperation among rogue states, more effective 
efforts by proliferants to conceal illicit activities, and 
growing interest by terrorists in acquiring weapons of mass 
destruction capabilities.
    Our efforts to halt proliferation are complicated by the 
fact that most weapons of mass destruction programs are based 
on dual use technologies and materials that have civil as well 
as military applications. In addition, a growing trend toward 
indigenous production of weapons of mass destruction-related 
equipment decreases to some extent the effectiveness of 
sanctions, interdictions, and other tools designed to counter 
proliferation.
    Although U.S. intelligence is increasing its emphasis and 
resources on many of these issues, there is continued and 
growing risk of surprise. We focus much of our intelligence 
collection and analysis on some ten states, but even concerning 
those states there are important gaps in our knowledge. Our 
analytical and collection coverage against most of these states 
is stretched and many of the trends that I just noted make it 
harder to track some key developments, even in states of the 
greatest intelligence focus. Moreover, we have identified well 
over 50 states that are of concern as suppliers, conduits, or 
potential proliferants themselves.
    Let us look first at the growing missile threat. We are all 
familiar with Russian and Chinese capabilities to strike at 
military and civilian targets throughout the United States. To 
a large degree, we expect our mutual deterrence and diplomacy 
to help protect us from this, as they have for much of the last 
century. Over the next 15 years, however, our cities will face 
ballistic missile threats from a wider variety of actors: North 
Korea, probably Iran, and possibly Iraq.
    In some cases this is because of indigenous technological 
development and in other cases because of direct foreign 
assistance. While the missile arsenals of these countries will 
be fewer in number, constrained to smaller payloads, and less 
reliable than those of the Russians and the Chinese, they will 
still pose a lethal and less predictable threat. North Korea 
already has tested a space launch vehicle, the Taepo Dong 1, 
which it could theoretically convert into an ICBM capable of 
delivering a small biological or chemical weapon to the United 
States, although with significant inaccuracies. It is currently 
observing a moratorium on such launches, but North Korea has 
the ability to test its Taepo Dong 2 with little warning. This 
missile may be capable of delivering a nuclear payload to the 
United States.
    Most analysts believe that Iran, following the North Korea 
pattern, could test an ICBM capable of delivering a light 
payload to the United States in the next few years. Given the 
likelihood that Iraq continues its missile development, we 
think too it could develop an ICBM some time in the next decade 
with the kind of foreign assistance that I have talked about.
    These countries calculate that possession of ICBM's would 
enable them to complicate and increase the cost of U.S. 
planning and intervention, enhance deterrence, build prestige, 
and improve their abilities to engage in coercive diplomacy.
    As alarming as the long range missile threat is, it should 
not overshadow the immediacy and seriousness of the threat that 
U.S. forces, interests, and allies already face overseas from 
short and medium-range missiles. The proliferation of medium-
range ballistic missiles, driven primarily by North Korean No 
Dong sales, is significantly altering strategic balances in the 
Middle East and Asia.
    Against the backdrop of this increasing missile threat, the 
proliferation of biological and chemical weapons takes on more 
alarming dimensions. Biological and chemical weapons pose 
arguably the most daunting challenge for intelligence 
collectors and analysts. Conveying to you an understanding of 
the work we do to combat this threat is best dealt with in 
closed session, but there are some observations and trends that 
I can highlight here today.
    First, the preparation and effective use of biological 
weapons by potentially hostile states, by non-state actors, 
including terrorists, is harder than some popular literature 
seems to suggest. That said, potential adversaries are pursuing 
such programs and the threat the United States and our allies 
face is growing in breadth and sophistication.
    About a dozen states, including several hostile to western 
democracies--Iran, Iraq, Libya, North Korea, and Syria--now 
either possess or are actively pursuing offensive biological 
and chemical capabilities for use against their perceived 
enemies, whether internal or external. Some countries are 
pursuing an asymmetric warfare capability and see biological 
and chemical weapons as a viable means to counter overwhelming 
U.S. conventional military superiority. Other states are 
pursuing biological weapons programs for counterinsurgency use 
and tactical applications in regional conflicts, increasing the 
probability that such conflicts will be deadly and 
destabilizing.
    Beyond state actors, there are a number of terrorist groups 
seeking to develop or acquire biological and chemical weapons 
capabilities. Some such groups, like Usama bin Ladin's, have 
international networks, adding to uncertainty and the danger of 
surprise attack. There are fewer constraints on non-state 
actors than on state actors.
    Adding to the unpredictability are the lone militants or 
the ad hoc groups here at home and abroad who may try to 
conduct a biological or chemical weapons attack. Nor should we 
forget that biological weapon attacks need not be directed only 
at humans. Plant and animal pathogens may be used against 
agricultural targets, creating potential economic devastation 
and the possibility that a criminal group might seek to exploit 
such an attack for economic advantage.
    One disturbing trend that numbers alone do not reveal is 
that biological weapons programs in particular are becoming 
more dangerous in a number of ways. First, as deadly as they 
now are, BW agents could become even more sophisticated. Rapid 
advances in biotechnology present the prospect of a new array 
of toxins or live agents that require new detection methods, 
preventative measures, and treatments. On the chemical side, 
there is the growing risk that new and difficult to combat 
agents will become available to hostile countries or sub-
national groups.
    Second, BW programs are becoming self-sufficient, 
challenging our detection and deterrence efforts and limiting 
our interdiction opportunities. Iran, for example, driven in 
part by stringent international export controls, is acquiring 
the ability to domestically produce raw materials and the 
equipment to support indigenous biological agent production.
    Third, countries are taking advantage of denial and 
deception techniques, concealing and protecting both biological 
and chemical weapons programs. Biological weapons in particular 
lend themselves to concealment because of their overlap with 
legitimate research in commercial biotechnology. The 
technologies used to prolong our lives and improve our standard 
of living can quite easily be adapted to cause mass casualties. 
Even supposedly legitimate facilities can readily conduct 
clandestine BW research and can convert rapidly to agent 
production, providing a mobilization or a breakout capability.
    Fourth, advances are occurring in dissemination techniques, 
delivery options, and strategies for BW and CW use. We are 
concerned that countries are acquiring advanced technologies to 
design, test, and produce highly effective munitions and 
sophisticated delivery systems.
    Turning now to nuclear proliferation, the growing threat is 
underscored by developments in South Asia, where both India and 
Pakistan are developing more advanced nuclear weapons and 
moving toward deployment of significant nuclear arsenals. Iran 
also aspires to have nuclear weapons and Iraq probably has not 
given up its unclear ambitions, despite a decade of sanctions 
and inspections. Nor dare we assume that nuclear is out of the 
business just because the Agreed Framework froze Pyongyang's 
ability to produce additional plutonium at Yongbang.
    I would like to now turn to a discussion of the problem of 
nuclear security and smuggling. We are concerned about the 
potential for states and terrorists to acquire plutonium, 
highly enriched uranium, and other fissile materials, and even 
complete nuclear weapons. Acquisition of any of the critical 
components of nuclear weapons development program, weapons 
technology, engineering know-how, and weapons usable material 
would seriously shorten the time needed to produce a viable 
weapon.
    Iran or Iraq could quickly advance to nuclear aspirations 
through covert acquisition of fissile material or relevant 
technology. The list of potential proliferators with nuclear 
weapons ambitions is not limited to states, however. Some non-
state actors, such as separatist and terrorist groups, have 
expressed an interest in acquiring nuclear or radiological 
weapons. Fortunately, despite press reports claiming numerous 
instances of nuclear materials trafficking, we have no evidence 
that any fissile materials have actually been acquired by a 
terrorist organization. We have also no indication of state-
sponsored attempts to arm terrorist organizations with the 
capability to use any type of nuclear materials in a terrorist 
attack.
    That said, there is a high risk that some such transfers 
could escape detection and we must remain vigilant.
    Similarly, we have no evidence that large organized crime 
groups with established structures and international 
connections are as yet involved in the smuggling of nuclear 
materials. It is the potential that such involvement may occur 
or may be ongoing yet undetected that continues to be of 
concern to us.
    Let us now take a quick look at the countries who are 
suppliers of weapons of mass destruction-related weapons 
technology. Russian and Chinese assistance to proliferant 
countries has merited particular attention for several years. 
Last year Russia announced new controls on transfers of 
missile-related technology. There have been some positive signs 
in Russia's performance, especially in regard to transfers of 
missile technology in Iran. Yet the overall program and 
assistance to the Iranians is deeply troubling to us. Still, 
expertise and materials from Russia has continued to assist the 
progress of several other states.
    The Chinese story is a mixed picture. China has taken steps 
to improve its nonproliferation posture over the last few years 
through its commitments to multilateral arms control regimes 
and the promulgation of export controls, but it remains a key 
supplier of WMD-related technologies to developing countries.
    There is little positive that can be said about North 
Korea, the third major global proliferator, whose incentive to 
engage in such behavior increases as its economy continues to 
decline. Successes in the control of missile technology, for 
example through the Missile Technology Control Regime, have 
created a market for countries like North Korea to exploit 
illicit avenues for conducting sales activities in this area.
    Missiles and related technology and know-how are North 
Korean products for which there is a real market. North Korea's 
sales of such products over the years have dramatically 
heightened the missile capabilities of countries such as Iran 
and Pakistan.
    While Russia, China, and North Korea continue to be the 
main suppliers of ballistic missile and related technology, 
longstanding recipients such as Iran might become suppliers in 
their own right as they develop domestic production 
capabilities. Other countries that today import missile-related 
technology, such as Syria and Iraq, may also emerge in the next 
few years as suppliers. Over the near term, we expect that most 
of their exports will be of shorter-range ballistic missile-
related equipment, components, and materials. But as their 
domestic infrastructures and expertise develop, they will be 
able to offer a broader range of technologies that could 
include longer range missiles and related technology.
    Iran in the next few years may be able to supply not only 
complete Scuds, but also Shahab-3's and related technology, and 
perhaps even more advanced technologies if Teheran continues to 
receive assistance from Russia, China, and North Korea.
    Mr. Chairman, the problems may not be limited to missile 
sales. We also remain very concerned that new or non-
traditional nuclear suppliers could emerge from the same pool. 
This brings me to a new area of discussion that now, than ever 
before, we risk substantial surprise. This is not for lack of 
effort. It results from significant efforts on the part of 
proliferators.
    There are four main reasons. First and foremost, denial and 
deception; second, the growing availability of dual use 
technologies; third, the potential of surprise is exacerbated 
by the growing capacities of countries seeking WMD to import 
talent that can help make dramatic leaps on things like new 
chemical or biological agents or delivery systems. In short, 
they can buy the expertise that confers the advantage of 
technological surprise.
    Scientists with transferable know-how continue to leave the 
former Soviet Union, some potentially for destinations of 
proliferation concern. As you know, plugging this brain drain 
and helping provide alternative work for the former Soviet 
Union's weapons of mass destruction infrastructure and key 
scientists are key goals of U.S. nonproliferation policy, as 
well as a variety of U.S. and international cooperation 
programs with Russia and other former Soviet states.
    Finally, Mr. Chairman, let me just close--I provided a 
detailed statement dealing with North Korea, Russia, and other 
countries. Let me just close with one concern about Russia. Our 
greatest concern, regardless of the path that Russia takes, 
remains the security of its nuclear weapons and its materials. 
Moscow appears to recognize some of its vulnerabilities. 
Indeed, security seems to have been tightened somewhat during 
the Chechnya conflict. But economic difficulties and pervasive 
criminal corruption throughout Russia potentially weaken the 
reliability of nuclear personnel.
    With regard to its nuclear weapons, Moscow appears to be 
maintaining adequate security and control, but we remain 
concerned about reports of lax discipline, labor strikes, poor 
morale, and criminal activities. An unauthorized launch or 
accidental use of a Russian nuclear weapon is unlikely as long 
as current technical and procedural safeguards built into the 
command and control system remain in place.
    With regard to its nuclear material, Russia's nuclear 
material is dispersed among many facilities involved in the 
nuclear fuel cycle, more than 700 buildings at more than 100 
known facilities. Its physical security and personnel 
reliability vary greatly. Security at weapons production 
facilities is better than at most research laboratories and 
buildings at fuel fabrication facilities that have not received 
physical security upgrades.
    There are few known cases of seizures of weapons-usable 
material since 1994. This may be due to several factors: U.S. 
assistance to improve the security of these facilities, a 
possible decrease in smuggling, or smugglers becoming more 
knowledgeable about evading detection. Our analysts assess that 
undetected smuggling has occurred, however, although we do not 
know the extent or the magnitude of the undetected thefts.
    Mr. Chairman, there is more I could say, but I know you 
have many questions. We appreciate the opportunity to be with 
you here today. This is a very important subject for our 
community and we would welcome the opportunity to return at any 
time.
    Thank you, sir.
    [The prepared statement of Mr. Tenet follows:]

                 Prepared Statement of George J. Tenet

                              INTRODUCTION

    Mr. Chairman, as we face a new century, we face a new world. A 
world where technology, especially information technology, develops and 
spreads at lightning speed--and becomes obsolete just as fast. A world 
of increasing economic integration, where a US company designs a 
product in Des Moines, makes it in Mumbai, and sells it in Sydney. A 
world where nation-states remain the most important and powerful 
players, but where multinational corporations, non-government 
organizations, and even individuals can have a dramatic impact.
    This new world harbors the residual effects of the Cold War--which 
had frozen many traditional ethnic hatreds and conflicts within the 
global competition between two superpowers. Over the past 10 years they 
began to thaw in Africa, the Caucasus, and the Balkans, and we continue 
to see the results today.
    It is against this backdrop that I want to describe the realities 
of our national security environment in the first year of the 21st 
century: where technology has enabled, driven, or magnified the threat 
to us; where age-old resentments threaten to spill-over into open 
violence; and where a growing perception of our so-called ``hegemony'' 
has become a lightning rod for the disaffected. Moreover, this 
environment of rapid change makes us even more vulnerable to sudden 
surprise.

                          TRANSNATIONAL ISSUES

    Mr. Chairman, bearing these themes in mind, I would like to start 
with a survey of those issues that cross national borders. Let me begin 
with the proliferation of weapons of mass destruction (or WMD)--an 
issue of particular concern to this Committee today.
    We have witnessed continued missile development in Iran, North 
Korea, Pakistan, and India. Add to this the broader availability of 
technologies relevant to biological and chemical warfare, nuclear tests 
in South Asia, as well as continuing concerns about other nuclear 
programs and the possibility of shortcuts to acquiring fissile 
material. We are also worried about the security of Russian WMD 
materials, increased cooperation among rogue states, more effective 
efforts by proliferants to conceal illicit activities, and growing 
interest by terrorists in acquiring WMD capabilities.
    Our efforts to halt proliferation are complicated by the fact that 
most WMD programs are based on dual-use technologies and materials that 
have civil as well as military applications. In addition, a growing 
trend toward indigenous production of weapons of mass destruction-
related equipment decreases, to some extent, the effectiveness of 
sanctions, interdictions, and other tools designed to counter 
proliferation.
    Although US intelligence is increasing its emphasis and resources 
on many of these issues, there is continued and growing risk of 
surprise. We focus much of our intelligence collection and analysis on 
some ten states, but even concerning those states, there are important 
gaps in our knowledge. Our analytical and collection coverage against 
most of these states is stretched, and many of the trends that I just 
noted make it harder to track some key developments, even in the states 
of greatest intelligence focus.
    Moreover, we have identified well over 50 states that are of 
concern as suppliers, conduits, or potential proliferants.

The Missile Threat

    Let's look first at the growing missile threat We are all familiar 
with Russian and Chinese capabilities to strike at military and 
civilian targets throughout the United States. To a large degree, we 
expect our mutual deterrent and diplomacy to help protect us from this, 
as they have for much of the last century.
    Over the next 15 years, however, our cities will face ballistic 
missile threats from a wider variety of actors--North Korea, probably 
Iran, and possibly Iraq. In some cases, this is because of indigenous 
technological development, and in other cases, because of direct 
foreign assistance. And while the missile arsenals of these countries 
will be fewer in number, constrained to smaller payloads, and less 
reliable than those of the Russians and Chinese, they will still pose a 
lethal and less predictable threat.

  <bullet> North Korea already has tested a space launch vehicle, the 
        Taepo Dong-1, which it could theoretically convert into an ICBM 
        capable of delivering a small biological or chemical weapon to 
        the United States, although with significant inaccuracies. It 
        is currently observing a moratorium on such launches, but North 
        Korea has the ability to test its Taepo Dong-2 with little 
        warning; this missile may be capable of delivering a nuclear 
        payload to the United States.

  <bullet> Most analysts believe that Iran, following the North Korean 
        pattern, could test an ICBM capable of delivering a light 
        payload to the United States in the next few years.

  <bullet> Given the likelihood that Iraq continues its missile 
        development--we think it too could develop an ICBM capability 
        sometime in the next decade with the kind of foreign assistance 
        I've already discussed.

    These countries calculate that possession of ICBMs would enable 
them to complicate and increase the cost of US planning and 
intervention, enhance deterrence, build prestige, and improve their 
abilities to engage in coercive diplomacy.

  <bullet> As alarming as the long-range missile threat is, it should 
        not overshadow the immediacy and seriousness of the threat that 
        US forces, interests, and allies already face overseas from 
        short- and medium-range missiles. The proliferation of medium-
        range ballistic missiles (MRBMs)--driven primarily by North 
        Korean No Dong sales--is significantly altering strategic 
        balances in the Middle East and Asia.

The Biological and Chemical Threat

    Against the backdrop of this increasing missile threat, the 
proliferation of biological and chemical weapons takes on more alarming 
dimensions. Biological and chemical weapons pose, arguably, the most 
daunting challenge for intelligence collectors and analysts. Conveying 
to you an understanding of the work we do to combat this threat is best 
dealt with in closed session, but there are some observations and 
trends that I can highlight in this unclassified setting.

  <bullet> First, the preparation and effective use of biological 
        weapons (BW) by both potentially hostile states and by non-
        state actors, including terrorists, is harder than some popular 
        literature seems to suggest. That said, potential adversaries 
        are pursuing such programs, and the threat that the United 
        States and our allies face is growing in breadth and 
        sophistication.

  <bullet> Second, we are trying to get ahead of those challenges by 
        increasing the resources devoted to biological and chemical 
        weapons and by forging new partnerships with experts outside 
        the national security community.

  <bullet> Third, many of our efforts may not have substantial impact 
        on our intelligence capabilities for months or even years. 
        There are, and there will remain, significant gaps in our 
        knowledge. As I have said before, there is continued and 
        growing risk of surprise.

    About a dozen states, including several hostile to Western 
democracies--Iran, Iraq, Libya, North Korea, and Syria--now either 
possess or are actively pursuing offensive biological and chemical 
capabilities for use against their perceived enemies, whether internal 
or external.
    Some countries are pursuing an asymmetric warfare capability and 
see biological and chemical weapons as a viable means to counter 
overwhelming US conventional military superiority. Other states are 
pursuing BW programs for counterinsurgency use and tactical 
applications in regional conflicts, increasing the probability that 
such conflicts will be deadly and destabilizing.
    Beyond state actors, there are a number of terrorist groups seeking 
to develop or acquire biological and chemical weapons capabilities. 
Some such groups--like Usama bin Ladin's--have international networks, 
adding to uncertainty and the danger of a surprise attack. There are 
fewer constraints on non-state actors than on state actors. Adding to 
the unpredictability are the ``lone militants,'' or the ad hoc groups 
here at home and abroad who may try to conduct a biological and 
chemical weapons attack. Nor should we forget that biological weapons 
attacks need not be directed only at humans. Plant and animal pathogens 
may be used against agricultural targets, creating both potential 
economic devastation and the possibility that a criminal group might 
seek to exploit such an attack for economic advantage.
    One disturbing trend that numbers alone do not reveal is that BW 
programs in particular are becoming more dangerous in a number of ways.

  <bullet> First: As deadly as they now are, BW agents could become 
        even more sophisticated. Rapid advances in biotechnology 
        present the prospect of a new array of toxins or live agents 
        that require new detection methods, preventative measures and 
        treatments. And on the chemical side, there is a growing risk 
        that new and difficult-to-combat agents will become available 
        to hostile countries or sub-national groups.

  <bullet> Second: BW programs are becoming more self-sufficient, 
        challenging our detection and deterrence efforts, and limiting 
        our interdiction opportunities. Iran, for example--driven in 
        part by stringent international export controls--is acquiring 
        the ability to domestically produce raw materials and equipment 
        to support indigenous biological agent production.

  <bullet> Third: Countries are taking advantage of denial and 
        deception techniques, concealing and protecting BW and CW 
        programs. BW in particular lends itself to concealment because 
        of its overlap with legitimate research and commercial 
        biotechnology. The technologies used to prolong our lives and 
        improve our standard of living can quite easily be adapted to 
        cause mass casualties. Even supposedly ``legitimate'' 
        facilities can readily conduct clandestine BW research and can 
        convert rapidly to agent production, providing a mobilization 
        or ``breakout'' capability.

  <bullet> Fourth: Advances are occurring in dissemination techniques, 
        delivery options, and strategies for BW and CW use. We are 
        concerned that countries are acquiring advanced technologies to 
        design, test, and produce highly effective munitions and 
        sophisticated delivery systems.

Nuclear Proliferation

    Turning now to nuclear proliferation, the growing threat is 
underscored by developments in South Asia, where both India and 
Pakistan are developing more advanced nuclear weapons and moving 
towards deployment of significant nuclear arsenals.
    Iran also aspires to have nuclear weapons and Iraq probably has not 
given up its unclear ambitions despite a decade of sanctions and 
inspections.
    Nor dare we assume that North Korea is out of the business just 
because the Agreed Framework froze Pyongyang's ability to produce 
additional plutonium at Yongbang.
Nuclear Security and Smuggling
    I would like to turn now to a discussion of the problem of nuclear 
security and smuggling. We are concerned about the potential for states 
and terrorists to acquire plutonium, highly-enriched uranium, other 
fissile materials, and even complete nuclear weapons. Acquisition of 
any of the critical components of a nuclear weapons development 
program--weapons technology, engineering know-how, and weapons-usable 
material--would seriously shorten the time needed to produce a viable 
weapon.

  <bullet> Iran or Iraq could quickly advance their nuclear aspirations 
        through covert acquisition of fissile material or relevant 
        technology.

    The list of potential proliferators with nuclear weapons ambitions 
is not limited to states, however. Some non-state actors, such as 
separatist and terrorist groups, have expressed an interest in 
acquiring nuclear or radiological weapons.
    Fortunately, despite press reports claiming numerous instances of 
nuclear materials trafficking, we have no evidence that any fissile 
materials have actually been acquired by a terrorist organization. We 
also have no indication of state-sponsored attempts to arm terrorist 
organizations with the capability to use any type of nuclear materials 
in a terrorist attack. That said, there is a high risk that some such 
transfers could escape detection and we must remain vigilant.
    Similarly, we have no evidence that large, organized crime groups 
with established structures and international connections are--as yet--
involved in the smuggling of nuclear materials. It is the potential 
that such involvement may occur, or may be ongoing--yet undetected--
that continues to be a concern.
Suppliers Of WMD Technology
    Let us now look at the countries who are the suppliers of WMD-
related weapons technology.

Russia

    Russian and Chinese assistance to proliferant countries has merited 
particular attention for several years. Last year, Russia announced new 
controls on transfers of missile-related technology. There have been 
some positive signs in Russia's performance, especially in regard to 
transfers of missile technology to Iran. Still, expertise and materiel 
from Russia has continued to assist the progress of several states.
China
    The China story is a mixed picture. China has taken steps to 
improve its nonproliferation posture over the last few years through 
its commitments to multilateral arms control regimes and promulgation 
of export controls, but it remains a key supplier of WMD-related 
technologies to developing countries.

North Korea

    There is little positive that can be said about North Korea, the 
third major global proliferator, whose incentive to engage in such 
behavior increases as its economy continues to decline. Successes in 
the control of missile technology--for example, through the Missile 
Technology Control Regime--have created a market for countries like 
North Korea to exploit illicit avenues for conducting sales activities 
in this area. Missiles, and related technology and know-how, are North 
Korean products for which there is a real market. North Korea's sales 
of such products over the years have dramatically heightened the 
missile capabilities of countries such as Iran and Pakistan.

Syria and Iraq

    While Russia, China, and North Korea continue to be the main 
suppliers of ballistic missiles and related technology, long-standing 
recipients--such as Iran--might become suppliers in their own right as 
they develop domestic production capabilities. Other countries that 
today import missile-related technology, such as Syria and Iraq, also 
may emerge in the next few years as suppliers.
    Over the near term, we expect that most of their exports will be of 
shorter range ballistic missile-related equipment, components, and 
materials. But, as their domestic infrastructures and expertise 
develop, they will be able to offer a broader range of technologies 
that could include longer-range missiles and related technology.

  <bullet> Iran in the next few years may be able to supply not only 
        complete Scuds, but also Shahab-3s and related technology, and 
        perhaps even more-advanced technologies if Tehran continues to 
        receive assistance from Russia, China, and North Korea.

    Mr. Chairman, the problem may not be limited to missile sales; we 
also remain very concerned that new or nontraditional nuclear suppliers 
could emerge from this same pool.

Potential for Surprise

    This brings me to a new area of discussion: that more than ever we 
risk substantial surprise. This is not for a lack of effort on the part 
of the Intelligence Community; it results from significant effort on 
the part of proliferators.
    There are four main reasons. First and most important, 
proliferators are showing greater proficiency in the use of denial and 
deception.
    Second, the growing availability of dual-use technologies is making 
it easier for proliferators to obtain the materials they need.
    Third, the potential for surprise is exacerbated by the growing 
capacity of countries seeking WMD to import talent that can help them 
make dramatic leaps on things like new chemical and biological agents 
and delivery systems. In short, they can buy the expertise that confers 
the advantage of technological surprise.

  <bullet> Scientists with transferable know-how continue to leave the 
        former Soviet Union, some potentially for destinations of 
        proliferation concern.

  <bullet> As you know, plugging this ``brain drain'' and helping 
        provide alternative work for the former Soviet Union's WMD 
        infrastructure and key scientists are key goals of US 
        nonproliferation policy, as well as a variety of US and 
        international cooperation programs with Russia and other former 
        Soviet states.

    Finally, the accelerating pace of technological progress makes 
information and technology easier to obtain and in more advanced forms 
than when the weapons were initially developed.
    We are making progress against these problems, Mr. Chairman, but I 
must tell you that the hill is getting steeper every year.

                               TERRORISM

    Let me now turn to another threat with worldwide reach--terrorism.
    Since July 1998, working with foreign governments worldwide, we 
have helped to render more than two dozen terrorists to justice. More 
than half were associates of Usama Bin Ladin's Al-Qa'ida organization. 
These renditions have shattered terrorist cells and networks, thwarted 
terrorist plans, and in some cases even prevented attacks from 
occurring.
    Although 1999 did not witness the dramatic terrorist attacks that 
punctuated 1998, our profile in the world and thus our attraction as a 
terrorist target will not diminish any time soon.
    We are learning more about the perpetrators every day, Mr. 
Chairman, and I can tell you that they are a diverse lot motivated by 
many causes.
    Usama Bin Ladin is still foremost among these terrorists, because 
of the immediacy and seriousness of the threat he poses. The 
connections between Bin Ladin and the threats uncovered in Jordan, 
Canada and the United States during the holidays are still being 
investigated, but everything we have learned recently confirms our 
conviction that he wants to strike further blows against America. 
Despite these and other well-publicized disruptions, we believe he 
could still strike without additional warning. Indeed, Usama Bin 
Ladin's organization and other terrorist groups are placing increased 
emphasis on developing surrogates to carry out attacks in an effort to 
avoid detection. For example, the Egyptian Islamic Jihad (EIJ) is 
linked closely to Bin Ladin's organization and has operatives located 
around the world--including in Europe, Yemen, Pakistan, Lebanon, and 
Afghanistan. And, there is now an intricate web of alliances among 
Sunni extremists worldwide, including North Africans, radical 
Palestinians, Pakistanis, and Central Asians.
    I am also very concerned about the continued threat Islamic 
extremist groups pose to the Middle East Peace Process. The Palestinian 
rejectionist groups, HAMAS (Islamic Resistance Movement) and PIJ 
(Palestine Islamic Jihad), as well as Lebanese Hizballah continue to 
plan attacks against Israel aimed at blocking progress in the 
negotiations. HAMAS and PIJ have been weakened by Israeli and 
Palestinian Authority crackdowns, but remain capable of conducting 
large scale attacks. Recent Israeli arrests of HAMAS terrorist 
operatives revealed that the group had plans underway for major 
operations inside Israel.
    Some of these terrorist groups are actively sponsored by national 
governments that harbor great antipathy toward the United States. 
Although we have seen some dramatic public pressure for liberalization 
in Iran, which I will address later, and even some public criticism of 
the security-apparatus, the fact remains we have yet to find evidence 
that the use of terrorism as a political tool by official Iranian 
organs has changed since President Khatami took office in August 1997.
    Mr. Chairman, we remain concerned that terrorist groups worldwide 
continue to explore how rapidly evolving and spreading technologies 
might enhance the lethality of their operations. Although terrorists 
we've preempted still appear to be relying on conventional weapons, we 
know that a number of these groups are seeking chemical, biological, 
radiological, or nuclear (CBRN) agents. We are aware of several 
instances in which terrorists have contemplated using these materials.

  <bullet> Among them is Bin Ladin, who has shown a strong interest in 
        chemical weapons. His operatives have trained to conduct 
        attacks with toxic chemicals or biological toxins.

  <bullet> HAMAS is also pursuing a capability to conduct attacks with 
        toxic chemicals.

    Terrorists also are embracing the opportunities offered by recent 
leaps in information technology. To a greater and greater degree, 
terrorist groups, including Hizballah, HAMAS, the Abu Nidal 
organization, and Bin Ladin's al Qa'ida organization are using 
computerized files, e-mail, and encryption to support their operations.
    Mr. Chairman, to sum up this part of my briefing, we have had our 
share of successes, but I must be frank in saying that this has only 
succeeded in buying time against an increasingly dangerous threat. The 
difficulty in destroying this threat lies in the fact that our efforts 
will not be enough to overcome the fundamental causes of the 
phenomenon--poverty, alienation, disaffection, and ethnic hatreds 
deeply rooted in history. In the meantime, constant vigilance and 
timely intelligence are our best weapons.

                            REGIONAL ISSUES

    At this point, Mr. Chairman, I'd like to leave the transnational 
issues and turn briefly to some of the regions and critical states in 
the world.

CHINA

    Mr. Chairman, let us begin with China, which has entered the new 
century as the world's fastest rising power.
    The leadership there is continuing its bold, 20-year-old effort to 
propel the nation's economy into the modern world, shedding the 
constraints of the old Communist central command system. The economy is 
the engine by which China seeks world prestige, global economic clout, 
and the funding for new military strength, thereby redressing what it 
often proclaims as a hundred years of humiliation at the hands of 
Western powers. Domestically, it also was the engine that Deng Xiaoping 
and his successors calculated would enable the Party to deliver on its 
unspoken social contract with the Chinese people: monopoly of political 
power in exchange for a strong China with a higher standard of living 
for its citizens.
    But events conspired last year to tarnish Beijing's achievements 
and to make the leadership generally ill-at-ease:

  <bullet> China put on an impressive display of military might at its 
        50th anniversary parade in Beijing, but the leadership today 
        sees a growing technological gap with the West.

  <bullet> Inside China, the image of domestic tranquillity was 
        tarnished by last April's appearance of the Falungong spiritual 
        movement. Their audacious, surprise demonstration outside the 
        leadership compound called into question the Communist Party's 
        ability to keep all ``unapproved'' civic organizations at bay.

  <bullet> Even the return of Macau in late December--the fall of 
        another symbol of a divided China--was overshadowed by the 
        actions of Taiwan President Lee Tenghui and the continuing 
        controversy over his assertion that his island's relations with 
        the mainland should be conducted under the rubric of ``state to 
        state'' rather than ``one China.''

    Lee's statement led China to worry that Taiwan's return to Beijing 
rule is less likely than before and Beijing remains unwilling to 
renounce the use of force.
    As you know, last Saturday [CHEN SHWAY-BIEN] Chen Shui-bian was 
elected President on Taiwan in a closely fought contest. Beijing issued 
a White Paper a month before the election to press the new President 
into retreating from Lee's statement and return to a mutually agreeable 
consensus on one-China. The Chinese also wanted to try to warn him 
against extending the political distance from reunification. So far 
Beijing's reaction has been restrained. Chinese leaders have stated 
since Chen's election that they have a ``wait and see'' attitude and 
both sides have traded public statements regarding their own views of 
the basis for resuming the cross-strait dialogue.
    Although Beijing today still lacks the air and sealift capability 
to successfully invade Taiwan:

  <bullet> China has been increasing the size and sophistication of its 
        forces arrayed along the Strait, most notably by deploying 
        short-range ballistic missiles.

  <bullet> China received the first of two modern, Russian-built 
        Sovremennyy destroyers last month. The ship joined the East Sea 
        Fleet, which regularly conducts operations near Taiwan.

    In the coming year, we expect to see an uncertain Chinese 
leadership launching the nation deeper into the uncharted waters of 
economic reform while trying to retain tight political control. Thus 
far, Beijing's approach has largely succeeded. But the question remains 
open whether, in the long run, a market economy and an authoritarian 
regime can co-exist successfully.

INDIA-PAKISTAN

    Mr. Chairman, let us now move from the China-Taiwan rivalry to the 
deep-seated competition between India and Pakistan. Mr. Chairman, last 
spring, the two countries narrowly averted a full-scale war in Kashmir, 
which could have escalated to the nuclear level.

  <bullet> Since then, changes in government in both countries have 
        added new tensions to the picture. The October coup in Pakistan 
        that brought to power Gen. Musharraf--who served as Army chief 
        during the Kargil conflict with India last summer--has 
        reinforced New Delhi's suspicion about Islamabad's intentions.

  <bullet> Pakistanis are equally suspicious of India's newly elected 
        coalition government in which Hindu nationalists hold 
        significant sway.

    Clearly, the dispute over Kashmir remains a potential flashpoint.

  <bullet> We are particularly concerned that heavy fighting continued 
        through the winter, unlike in the past.

  <bullet> Both sides are postured in a way that could lead to more 
        intense engagements later this year.
  <bullet> Thus, Mr. Chairman, our concern persists that antagonisms in 
        South Asia could still produce a more dangerous conflict on the 
        subcontinent.

RUSSIA

    Now moving to Russia. As you know, we are now in the post-Yeltsin 
era, and difficult choices loom for the new president Russians will 
choose on Sunday (26 March).
    He will face three fundamental questions:

  <bullet> First, will he keep Russia moving toward further 
        consolidation of its new democracy or will growing public 
        sentiment in favor of a strong hand and a yearning for order 
        tempt him to slow down or even reverse course?

  <bullet> Second, will he try to build a consensus on quickening the 
        pace of economic reform and expanding efforts to integrate into 
        global markets--some Russian officials favor this--or will he 
        rely on heavy state intervention to advance economic goals?

  <bullet> Finally, will Moscow give priority to a cooperative 
        relationship with the West or will anti-US sentiments take 
        root, leading to a Russia that is isolated, frustrated, and 
        hostile? This would increase the risk of an unintended 
        confrontation, which would be particularly dangerous as Russia 
        increasingly relies on nuclear weapons for its defense--an 
        emphasis reflected most recently in its new national security 
        concept.

  <bullet> As these questions indicate, a new Russian President will 
        inherit a country in which much has been accomplished--but in 
        which much still needs to be done to fully transform its 
        economy, ensure that democracy is deeply rooted, and establish 
        a clear future direction for it in the world outside Russia.

    Russian polls suggest that Acting President Putin will win the 26 
March election; the only possible wrinkle is voter turnout, since a 50% 
turnout is needed to validate the election. Putin appears tough and 
pragmatic, but it is far from clear what he would do as president. If 
he can continue to consolidate elite and popular support, as president 
he may gain political capital that he could choose to spend on moving 
Russia further along the path toward economic recovery and democratic 
stability.
    At least two factors will be pivotal in determining Russia's near-
term trajectory:

  <bullet> The conflict in Chechnya. Even though public support for the 
        war remains high, a protracted guerrilla war could diminish 
        Putin's popularity over time, and further complicate relations 
        with the US and Europe.

  <bullet> The economy. The devalued ruble, increased world oil prices, 
        and a favorable trade balance fueled by steeply reduced import 
        levels have allowed Moscow to actually show some economic 
        growth in the wake of the August 1998 financial crash. 
        Nonetheless, Russia faces $8 billion in foreign debt coming due 
        this year. Absent a new IMF deal to reschedule, Moscow would 
        have to redirect recent gains from economic growth to pay it 
        down, or run the risk of default.

    Over the longer term, the new Russian president must be able to 
stabilize the political situation sufficiently to address structural 
problems in the Russian economy. He must also be willing to take on the 
crime and corruption problem--both of which impede foreign investment.
    In the foreign policy arena, US-Russian relations will be tested on 
a number of fronts. Most immediately, Western criticism of the Chechen 
war has heightened Russian suspicions about US and Western activity in 
neighboring areas, be it energy pipeline decisions involving the 
Caucasus and Central Asia, NATO's continuing role in the Balkans, or 
NATO's relations with the Baltic states. Moscow's ties to Iran also 
will continue to complicate US-Russian relations, as will Russian 
objections to US plans for a National Missile Defense. There are, 
nonetheless, some issues that could move things in a more positive 
direction.

  <bullet> For example, Putin and others have voiced support for 
        finalizing the START II agreement and moving toward further 
        arms cuts in START III--though the Russians will want US 
        reaffirmation of the 1972 ABM treaty in return for start 
        endorsements.

  <bullet> Similarly, many Russian officials express a desire to more 
        deeply integrate Russia into the world economy. The recent deal 
        with the London Club on Soviet-era debt suggests Putin wants to 
        keep Russia engaged with key international financial 
        institutions.

    One of my biggest concerns--regardless of the path that Russia 
chooses--remains the security of its nuclear weapons and materials. 
Moscow appears to recognize some of its vulnerabilities; indeed, 
security seemed to have been tightened somewhat during the Chechen 
conflict. But economic difficulties and pervasive criminality and 
corruption throughout Russia potentially weaken the reliability of 
nuclear personnel.
    With regard to its nuclear weapons, Moscow appears to be 
maintaining adequate security and control, but we remain concerned by 
reports of lax discipline, labor strikes, poor morale, and criminal 
activities.

  <bullet> An unauthorized launch or accidental use of a Russian 
        nuclear weapon is unlikely as long as current technical and 
        procedural safeguards built into the command and control system 
        remain in place.

    With regard to its nuclear material, Russia's nuclear material is 
dispersed among many facilities involved in the nuclear fuel cycle--
more than 700 buildings at more than 100 known facilities. Its physical 
security and personnel reliability vary greatly. Security at weapons 
production facilities is better than at most research laboratories and 
buildings at fuel fabrication facilities that have not received 
physical security upgrades.

  <bullet> There are few known cases of seizures of weapons-usable 
        nuclear material since 1994. This may be due to several 
        factors: US assistance to improve security at Russian 
        facilities, a possible decrease in smuggling, or smugglers 
        becoming more knowledgeable about evading detection. Our 
        analysts assess that undetected smuggling has occurred, 
        although we don't know the extent or magnitude of the 
        undetected thefts.

IRAN

    Turning now to Iran--the recent landslide victory for reformers in 
parliamentary elections, Mr. Chairman, tell us that further Change in 
Iran is inevitable. The election of President Khatami in 1997 was the 
first dramatic sign of the popular desire for change in Iran. Khatami 
has used this mandate to put Iran on a path to a more open society. 
This path will be volatile at times as the factions struggle to control 
the pace and direction of political change.
    A key indicator that the battle over change is heating up came last 
July when student protests erupted in 18 Iranian cities for several 
days. The coming year promises to be just as contentious with a new 
pro-reform Majles (Parliament) convening in late May or early June.

  <bullet> The first round of the Majles elections in February gave 
        resounding endorsement to the reformists who gained an absolute 
        majority of the 148 seats in the 290 seat Majles, with 65 more 
        seats to be decided in April runoffs. Many Iranians, 
        particularly the large cohort of restive youth, will demand 
        that the reformers carry out their mandate for change.

  <bullet> The reformists' success in advancing their agenda will 
        depend on their ability to keep their center-left coalition 
        together and to maintain party discipline in the Majles; 
        historically, Iranian parties have tended to splinter and 
        dissipate their strength.

  <bullet> The course of political change in Iran will also depend on 
        what lessons the Iranian conservatives take from their 
        electoral defeat. Some claim to have gotten the message that 
        they must change with the times, but the recent assassination 
        attempt on a prominent reformist politician in Tehran suggests 
        some elements are still wedded to the politics of terror.

  <bullet> We worry that conservatives also might try to reverse their 
        losses by invalidating some election results. In fact, they 
        have already done so in three cities already. The isolated 
        protests that this caused suggests that any further effort to 
        overturn the Majles elections nationwide would be sure to send 
        people into the streets.

    With control of the Majles and a mandate for change, the reformists 
are likely to introduce an ambitious slate of reform legislation. But 
all legislation must be approved by the conservative-dominated Council 
of Guardians before it can become law, providing hardliners an 
opportunity to water down many of the reforms. Supreme Leader Khamenei 
and key institutions such as the Revolutionary Guard Corps and the 
large parastatal foundations also are outside the authority of the 
Majles and in a position to fight a stubborn rearguard against 
political change.

  <bullet> Moreover, even as the Iranians digest the results of the 
        Majles elections, the factions will begin preliminary 
        maneuvering for the presidential election scheduled for mid-
        2001, which is almost certain to keep the domestic political 
        scene unsettled.

  <bullet> The conservatives will have to be careful, however, because 
        if they overplay their hand they run a risk of radicalizing 
        young Iranians already impatient at the pace of political and 
        social change.

IRAQ

    With regard to Iraq, Saddam faced a difficult start in 1999--
including the most serious Shia unrest since 1991 and significant 
economic difficulties.

  <bullet> The Shia unrest was not confined to the south but also 
        affected some areas of Baghdad itself, presenting Saddam's 
        regime with a major security problem. On the economic side, to 
        rein in inflation, stabilize the dinar, and reduce the budget 
        deficit, Saddam was forced to raise taxes, ease foreign 
        exchange controls, and cut non-wage public spending.

    Saddam has, however, shown himself to be politically agile enough 
to weather these challenges. He brutally suppressed the Shia uprisings 
of last spring and early summer. The regime is still gaining some 
revenue from illegal oil sales. Increased access to food and medical 
supplies through the oil for food program has improved living 
conditions in Baghdad.
    A major worry is Iraqi repair of facilities damaged during 
Operation Desert Fox that could be associated with WMD programs. 
Without inspections, it is harder to gauge Saddam's programs, but we 
assume he continues to attach high priority to preserving a WMD 
infrastructure. And Iraq's conventional military remains one of the 
largest in the Middle. East, even though it is now less than half the 
size during the Gulf War.

  <bullet> He can still hurt coalition forces, but his military options 
        are sharply limited to actions like sporadically challenging 
        no-fly-zone enforcement.

    In sum, to the extent that Saddam has had any successes in the last 
year, they have been largely tactical. In a strategic sense, he is 
still on a downward path. His economic infrastructure continues to 
deteriorate, the Kurdish-inhabited northern tier remains outside the 
grip of his army, and although many governments are sympathetic to the 
plight of the Iraqi people, few if any are willing to call Saddam an 
ally.

THE BALKANS

    Mr. Chairman, looking briefly at the Balkans--
    There are a few signs of positive long-term change are beginning to 
emerge there as a new, more liberal government takes the reins of power 
in Croatia. Political alternatives to the dominant ethnic parties in 
Bosnia also are beginning to develop, capitalizing on the vulnerability 
of old-line leaders to charges of corruption and economic 
mismanagement. Despite this progress, there is still a long way to go 
before the Balkans move beyond the ethnic hatreds and depressed 
economies that have produced so much turmoil and tragedy. Of the many 
threats to peace and stability in the year ahead, the greatest remains 
Slobodan Milosevic--the world's only sitting president indicted for 
crimes against humanity.
    Unfortunately, Mr. Chairman, I must tell you that Milosevic's hold 
on power has not been seriously shaken in the past few months. He 
retains control of the security forces, military commands, and an 
effective media machine. His inner circle remains loyal or at least 
cowed. The political opposition has not yet developed a strategy to 
capitalize on public anger with Milosevic.
    Milosevic is still struggling, however, with serious economic 
problems. The Serbian economy is in a virtual state of collapse, and 
Serbia is now the poorest country in Europe. Inflation and unemployment 
are rising, and the country is struggling to repair the damage to its 
infrastructure from NATO air strikes. The average wage is only $48 a 
month and even these salaries typically are several months in arrears. 
Basic subsistence is guaranteed only by unofficial economic activity 
and the traditional lifeline between urban dwellers and their relatives 
on the farms.

  <bullet> Milosevic's captive media are trying--with some success--to 
        blame these troubles on the air strikes and on international 
        sanctions. Nonetheless, as time passes, we believe the people 
        will increasingly hold Milosevic responsible. Moreover, a 
        sudden, unforeseen economic catastrophe, such as hyperinflation 
        or a breakdown of the patched-up electric grid, could lead to 
        mass demonstrations that would pose a real threat to him.

    Tensions are escalating, meanwhile, between Milosevic and 
Montenegrin President Djukanovic, who has taken a variety of steps that 
break ties to the federal government.
    Milosevic has used Yugoslav forces to block Djukanovic's actions 
and to implement a strategy of gradual economic strangulation, cutting 
off many of Montenegro's trading routes to Serbia and the outside 
world, with the aim of forcing Djukanovic to back down or take 
confrontational action that would justify FRY military intervention.
    As you know, Mr. Chairman, Milosevic wants to crush Djukanovic 
because he serves as an important symbol to the democratic opposition 
in Serbia and to the Serbian people that the regime can be successfully 
challenged. Djukanovic controls the largest independent media operation 
in Yugoslavia, which has strongly criticized the Milosevic regime over 
the past several years for the Kosovo conflict, political repression 
and official corruption. Both Milosevic and Djukanovic will try to 
avoid serious confrontation for now, but a final showdown will be 
difficult to avoid.

KOSOVO

    Regarding Kosovo, Mr. Chairman, the international presence has 
managed to restore a semblance of peace, but it is brittle. The UN 
Mission in Kosovo and KFOR accomplished much but have been unable to 
stop daily small-scale attacks, mostly by Kosovar Albanians against 
ethnic Serbs. This chronic violence has caused most of the remaining 
80,000-100,000 Serbs to congregate in enclaves in northern and eastern 
Kosovo, and they are organizing self-defense forces.
    The campaign to disarm and disband the former Kosovo Liberation 
Army has had success, but both sides continue to cache small arms and 
other ordnance. There is even a chance that fighting between Belgrade's 
security forces and ethnic Albanians will reignite should Belgrade 
continue to harass and intimidate the Albanian minority in southern 
Serbia, and should Kosovo Albanian extremists attempt to launch an 
insurgency aimed at annexing southern Serbia into a greater Kosovo.

NORTH KOREA

    Mr. Chairman, let me now turn to North Korea. North Korea's 
propaganda declares 1999 the ``year of the great turnaround.'' This is 
a view not supported by my analysts, however. Indeed, we see a North 
Korea continuing to suffer from serious economic problems, and we see a 
population, perhaps now including the elite, that is losing confidence 
in the regime. Mr. Chairman, sudden, radical, and possibly dangerous 
change remains a real possibility in North Korea, and that change could 
come at any time.
    The North Korean economy is in dire straits. Industrial operations 
remain low. The future outlook is clouded by industrial facilities that 
are nearly beyond repair after years of under investment, spare parts 
shortages, and poor maintenance.

  <bullet> This year's harvest is more than 1 million tons short of 
        minimum grain needs. International food aid has again been 
        critical in meeting the population's minimum food needs.

  <bullet> Trade is also down. Exports to Japan--the North's most 
        important market--fell by 17 percent from $111 million to $92 
        million. Trade with China--the North's largest source of 
        imports--declined from nearly $200 million to about $160 
        million, primarily because China delivered less grain.

    Kim Chong-il does not appear to have an effective longterm strategy 
for reversing his country's economic fortunes. Kim's inability to meet 
the basic needs of his people and his reliance on coercion makes his 
regime more brittle because even minor instances of defiance have 
greater potential to snowball into wider anti-regime actions.

  <bullet> Instead of real reform, North Korea's strategy is to garner 
        as much aid as possible from overseas, and the North has 
        reenergized its global diplomacy to this end. It is negotiating 
        for a high-level visit to reciprocate Dr. Perry's trip to 
        P'yongyang. It has agreed to diplomatic talks with Japan for 
        the first time in several years. It has unprecedented 
        commercial contacts with South Korea, including a tourism deal 
        with a South Korean firm that will provide almost $1 billion 
        over six years.

  <bullet> But P'yongyang's maneuvering room will be constrained by 
        Kim's perception that openness threatens his control and by the 
        contradictions inherent in his overall strategy--strategy based 
        on hinting at concessions on the very weapons programs that he 
        has increasingly come to depend on for leverage in the 
        international arena.

    Squaring these circles will require more diplomatic agility than 
Kim has yet to demonstrate in either the domestic or international 
arenas.

COLOMBIA

    Mr. Chairman, let me now return to our own hemisphere to discuss 
one final area--Colombia.
    Of President Pastrana's many challenges, one of the most daunting 
is how to end the decades-old war with the FARC insurgents. There is 
some good news here. The FARC lacks the military strength and popular 
support needed to topple the government. And since last year, the 
Colombian armed forces have begun to improve their performance, making 
better use of air power to foil large-scale insurgent attacks.

  <bullet> The bad news is that the hundreds of millions of dollars the 
        FARC earns annually through its involvement in the illicit drug 
        trade and other criminal activity make the group an enduring 
        and potent security threat. It has greatly expanded its control 
        in rural areas in recent years and steadily improved its 
        battlefield performance. In many parts of Colombia the military 
        remains in a defensive posture, as hardline insurgents and 
        illegal paramilitary groups struggle for control of the 
        hinterlands.

    Meanwhile, the long-standing pattern in which Colombian guerrillas 
both talk and fight is continuing.

  <bullet> The peace process with the FARC--to which the Pastrana 
        government is firmly committed--is proceeding, albeit slowly. 
        The two sides recently agreed on a negotiating agenda, but most 
        observers expect progress to be difficult. The FARC has refused 
        to disarm or halt its attacks while negotiations are underway.

  <bullet> Pastrana must also contend with other armed groups, such as 
        the smaller ELN insurgency and illegal paramilitary groups. 
        Each of these insist on a role in any final settlement. A 
        dialogue with the ELN appears to be setting the stage for 
        substantive talks, but the government continues to refuse to 
        negotiate with the paramilitaries.

    Colombia is starting to recover from an economic recession--its 
worst ever--but still suffers from record unemployment and a fiscal 
deficit that constrains spending on the military and development 
programs aimed at pacifying the countryside and weaning farmers from 
coca cultivation. Opinion polls indicate that the Colombian public 
worries most about the economy and disapproves of the government's 
austerity program.

                               CONCLUSION

    Mr. Chairman, this has been a long briefing, and I'd like to get to 
your specific questions On these and other subjects. Before doing so, I 
would just sum it up this way. The fact that we are arguably the 
world's most powerful nation does not bestow invulnerability; in fact, 
it may make us a larger target for those who don't share our interests, 
values, or beliefs. We must take care to be on guard, watching our 
every step, and looking far ahead. Let me assure you that our 
Intelligence Community is well prepared to do that.
    Thank you, Mr. Chairman. Now, I'd welcome any questions from you 
and your colleagues.

    Senator Lugar. Well, thank you very much for that 
testimony.
    Let me suggest to my distinguished ranking member that we 
have questions maybe for 10 minutes each and if we have more we 
will proceed.
    Director Tenet, you mentioned some of the ups and downs of 
proliferation in the last 8 years since the end of the Soviet 
Union. I was particularly interested in your statement that as 
many as 50 states may have the potential to produce weapons of 
mass destruction, 10 you are monitoring actively at the agency, 
but there is no evidence that fissile material has passed into 
the hands of a terrorist group. You have detected some 
smuggling that we do not know all the particulars about.
    On balance, is the proliferation situation danger on the 
increase or the decrease in the last 8 years. As we try to take 
a look at this non-hysterically and sort of clinically, are we 
in a situation of increasing danger of proliferation difficulty 
or decreasing, as you see it?
    Mr. Tenet. Well, I think, Senator, it is fair to say, 
because of the broader availability of technology and because 
of the fact that many more countries have developed an 
interest, I think we have more proliferation concerns than we 
once had. This is booming business for us. There are many 
reasons for this, but the fact is is that with technology's 
availability and with the availability of expertise and then 
with the availability of growing indigenous production 
capability, indigenous research capabilities, the accessibility 
of people who can help develop weapons, chemical and biological 
weapons, this is in many ways, while we have successes to point 
to, I think this is a growing problem.
    I talked about the growing threat of medium-range ballistic 
missiles. This is a threat that is here and now and will spawn 
additional proliferation unless we can think forward to how we 
can limit what this proliferation behavior looks like in the 
future. And there are no easy answers on the policy side here.
    Senator Lugar. Well, I agree with your analysis. For many 
Americans this is counterintuitive. The Cold War ended. The 
Soviet Union declined 8 years ago. Clearly, the level of 
interest of the American public in these issues, has declined 
precipitously along with it. We have become preoccupied often 
with very important domestic issues while all of this is going 
on out here.
    Occasionally, in a hearing of this variety there is sort of 
a wake-up call that, whether we are interested in it or not as 
a public, given the number of actors, the detritus left over 
from the Cold War, and the unreliability of some of the 
players, we have more problems.
    Let me just ask, though, why do we have problems? What are 
the motivations of either nation states or of particular 
groups, political, religious, etc. to participate in the 
proliferation of weapons of mass destruction? And you are 
suggesting that there are many attempts to make it continue. 
Why do people continue in this way, given the dangers to them, 
quite apart from the dangers to those around them?
    Mr. Tenet. Well, Senator, I will take first crack at it and 
I will give some of these experts an opportunity. But in many 
instances it is about legitimacy, political legitimacy. It 
gives you a seat at the table. It gives you tools that you 
previously did not have. When you are unfettered from the 
superpower competition, there is a great equality with which 
people then develop capability to threaten American interests, 
American forces, and those of our allies.
    The genie got out of the bottle, and the way we move 
information and technology today, virtually, borders become 
somewhat irrelevant to the movement of material or ideas or 
technologies. As a consequence, we live in a world that the 
speed with which information moves also affords people the 
opportunity to avail themselves of information that empowers 
them.
    So it is not only nation states that it happens. We have 
classically always understood how to deal with nation states, 
with treaties and regimes and sanctions. Now you are talking 
about single actors, like a fellow like bin Laden, who is 
immune from the traditional kinds of tools we have at our 
disposal that we apply to a nation state. I worry about 
organized crime groups getting involved to be the conduit 
between one nation and another or one nation and a group.
    So as a consequence, I think you have got a much more 
sophisticated problem on your hands, with motivations that 
really range from the ability to inflict harm or the ability to 
have an increased international standing and to make a case for 
your cause. That legitimacy is not something people should 
scoff at.
    John, do you have a different view?
    Mr. McLaughlin. I would just add to that, Senator. It is 
probably no accident that we have seen an acceleration in 
proliferation in the last decade. A lot of nations looked at 
the Gulf War and realized that they could never take the United 
States on in a frontal collision in a conventional sense, that 
they could not prevail. So a lot of the weapons the Director 
has talked about--chemical, biological, short, medium-range 
missiles--give countries that cannot take us on directly an 
asymmetric advantage. That is one thing they are looking for.
    The other thing I would add to the list of factors the 
Director mentioned is a factor of leverage that comes to some 
of the countries that become WMD states and subsequently 
suppliers. A country like North Korea, for example, does not 
have many other leverage points to bring to bear in the 
intelligence community. Once it shows us and the rest of the 
world that it has long-range missile capabilities, North Korea 
knows that we pay attention, and that is something that they 
then use as leverage to bargain with us for other things they 
want.
    Then the final factor I would mention is to a large degree 
in many cases it is about money. In other words, many states 
that do not have other sources of revenue--North Korea is one, 
but there are some developed states that also make a lot of 
money on this--states that have trouble generating revenue from 
other sources can generate a lot of revenue here.
    Those are some of the motives.
    Senator Lugar. Once again I agree with your analysis. 
National state recognition, a seat at the table, the idea that 
you may not have to be a superpower, but you can enter a 
different club, a different type of negotiation; that you may 
not want to use these weapons of mass destruction, but the very 
fact that you have done testing elevates your nation's status.
    Or as you suggest, even if you do not have such aspirations 
as that, leverage. If you are a nation state that feels 
weakness, then the leverage may come through intimidation, 
blackmail, but at least it catches people's attention that you 
may have a missile program and you may extend that to have 
nuclear warheads or some delivery capacity.
    Then, you also suggest that weapons of mass destruction 
provide individuals, bin Laden or others, with capabilities 
that elevate them beyond normal levels. Finally, money, and 
that could be the case with countries that do have these 
weapons or have materials of weapons of mass destruction and 
are finding it a lucrative market at a time of near-bankruptcy 
or fiscal difficulty.
    So all of these supplement your first response as to why we 
have more of a problem, because essentially, following this 
reasoning, you could get a long list of countries or groups or 
people all of whom find something interesting in this area, 
given its extraordinary dangers.
    Let me just ask this third question, which may have been 
answered by the first two. What should be our policy or our set 
of policies? Is there any opportunity of rollback? In other 
words, are we fated to have one generation after another of 
these situations spawning more and more nations, more and more 
groups, more and more people? Or is there something out there 
in terms of the international regime, international law, United 
States foreign policy, that says enough is enough and you begin 
then to mop up, roll back, get things back into some form that 
is essentially manageable? Because if so, this is the way we 
ought to be moving our own policy.
    Otherwise, it seems to me we have to think of a whole new 
set of policies that fit the other situation. What is your view 
as to whether we have any chance? We did accomplish some 
rollback, as we cited in the opening statement, in the case of 
Ukraine, Belarus, and Kazakhstan. But even before that we have 
had testimony in the open from Brazilians that they decided not 
to go down that route, from Argentines likewise, probably other 
countries who thought about it at one point, but on balance 
decided this was not for them.
    So what are the prospects for the future?
    Mr. Tenet. This is the part in the hearing where I get the 
State Department witnesses to show up, but we will take a crack 
at it. I think, Senator, in each of these cases I think our 
engagement is absolutely key. I am going to answer your 
question with some questions, but why would the Russians 
believe that a relationship with the Iranians in terms of 
ballistic missiles is more important than a relationship with 
the United States where you have an enormous amount of 
leverage, whether it is at the IMF or whether it is in 
contractual obligations that we enter into, the industrial 
partnerships we can pursue?
    The question is what is the quality of the engagement, what 
are the carrots and the sticks? How do we think about each of 
these instances of proliferation?
    In the Russian-Iranian context, people look at it as a 
transaction. I do not think it is about a transaction. It is 
about a strategic interest that the Russians have had way 
before it was the Soviet Union. It is about oil, it is about 
the way oil flows north and south with regard from Russia to 
Iran vice east and west.
    The question is, if you are not engaged and we do not think 
about each of these places from the perspective of what we can 
do to change their behavior, you can do the traditional kinds 
of things, interdiction, sanctions, emphasis on arms control 
regimes. All of those are helpful, but in the world we are 
migrating to my sense is you have to get underneath that 
behavior. You have to offer a series of initiatives and 
benefits that make it worth their while to move in another 
direction.
    Now, each of these countries will be somewhat different. 
Some of the things that John and I talked about are going to be 
difficult to displace. But it is not an immutable proposition 
that we cannot do something about this if we can somehow think 
about using our tools and our aid and our money and our 
influence in a way that lets people understand that it is not 
in their interest to see a region blow up and see medium-range 
missiles become ICBM's and have instability reign.
    I do not know what you guys would say.
    Mr. Lauder. I certainly think that, as your question 
implies and as Director Tenet's answer also makes clear, one of 
the reasons that the proliferation problem is so difficult as a 
policy problem, so difficult as an intelligence problem for us, 
is that it is so broad indeed, it is so diverse, that we are 
talking about countries spread across the globe, we are talking 
about a variety of weapons systems, and one size of policy, one 
size of intelligence attack, does not necessarily fit all of 
these.
    But at the same time, as you implied in your question, 
Senator, one should not despair of rollback. There have been 
instances in which states have abandoned programs. Part of the 
burden that we have in intelligence is to help the policy 
community to find the motivations of these states, the 
particular actors that will help lead a state to give up the 
pursue of weapons of mass destruction, and that is the 
challenge for us.
    Senator Lugar. In essence, Director Tenet and Mr. Lauder, 
your answer is the United States must become involved 
bilaterally with these countries. That was the case of the 
rollbacks we have seen to date, and you are suggesting that is 
we are to replicate these successes we will have to apply 
leverage, diplomatic and otherwise. We have leverage and if we 
are serious we must try to roll back with that leverage.
    Mr. Tenet. We and our allies have leverage.
    Senator Lugar. Yes.
    Mr. Tenet. We cannot do this alone, but I think 
collectively there is a lot of leverage that I think can be 
exploited.
    Senator Lugar. Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Mr. Chairman, I would 
ask unanimous consent that my opening statement be placed in 
the record at this time.
    Senator Lugar. So ordered.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I thank you for presiding over this important 
hearing, the first of four that you will chair over the coming 10 days. 
We owe a debt of gratitude also to Chairman Helms for arranging these 
hearings.
    Nonproliferation--combating the spread of weapons of mass 
destruction--is the single most important objective of U.S. foreign 
policy.
    These weapons pose a risk of catastrophic devastation to all 
humanity. They pose a risk to U.S. forces and to the American people, 
despite our unrivaled military and economic power. And precisely 
because we are not safe from weapons of mass destruction, they also 
pose a threat to America's power in the world.
    For over a generation, we have patiently built the framework of 
world-wide nonproliferation policy.
    The Nuclear Non-Proliferation Treaty of 1968, the Biological and 
Toxic Weapons Convention of 1972 (which builds on the Geneva Protocol 
of 1925), and the Chemical Weapons Convention of 1993 bind the vast 
majority of nations not to acquire or use these horrendous weapons.
    These formal treaties are buttressed by a vital set of supplier-
country export control regimes: the Missile Technology Control Regime; 
the Australia Group; and the Nuclear Suppliers Group.
    Using these treaties, export control regimes, and active 
diplomacy--which includes pressuring countries, helping them to settle 
regional disputes, and offering them an American security umbrella--we 
have achieved some amazing nonproliferation successes:

  <bullet> Nuclear weapons were removed from Ukraine, Kazakhstan and 
        Belarus;

  <bullet> Russia, with U.S. and other foreign assistance, destroyed 
        many weapons and secured its fissile material;

  <bullet> South Africa destroyed its nuclear weapons and joined the 
        Non-Proliferation Treaty;

  <bullet> South Korea, Taiwan, Argentina and Brazil all dropped their 
        nuclear weapons programs;

  <bullet> North Korea violated the Non-Proliferation Treaty, but then 
        ended its reprocessing of spent nuclear fuel and, last year, 
        suspended its testing of long-range ballistic missiles; and

  <bullet> The use of chemical weapons in the Iran-Iraq War (and by 
        Saddam Hussein on his own citizens) led not to a rush by other 
        countries to build such weapons, but rather to the Chemical 
        Weapons Convention and negotiations on a compliance protocol to 
        the Biological Weapons Convention.

    Despite these successes, however, almost every day it seems we face 
new proliferation threats, among them:

  <bullet> India and Pakistan's nuclear and missile tests;

  <bullet> North Korea's testing of a space launch vehicle and sale of 
        No Dong missiles to Iran and Pakistan;

  <bullet> The spread of missile and nuclear technology to Iran; and

  <bullet> The lack of inspections in Iraq.

    I could go on, but I am sure that the Director of Central 
Intelligence, George Tenet, will illuminate the threat for us much 
better than I can.
    The United States must take the leadership role to stem 
proliferation threats. We are the only nation willing and able to do 
that.
    And yet, I posit, Mr. Chairman, that the best and, indeed, the only 
way to meet that threat successfully is through cooperation--with our 
allies, and even with those we may not consider allies. We do share a 
common interest with most nations in this regard.
    Let me give three examples:

          1. The President's Expanded Threat Reduction Initiative--
        which includes the rightly famous Nunn-Lugar Program--combats 
        ``loose nukes'' and develops job opportunities for Russian 
        weapon experts who might otherwise be tempted to sell their 
        skills to unsavory buyers. This program, which greatly reduces 
        the nuclear and biological weapons threat, could not be 
        accomplished without Russian help.

          2. The review conference for the Non-Proliferation Treaty 
        will start in four weeks in New York. Five years ago we 
        accomplished the monumental task of extending that treaty--
        which commits nations not to develop nuclear weapons ever--
        indefinitely. This was achieved only because a great many 
        nations, friendly and not-so-friendly, coalesced under U.S. 
        leadership for a common interest.
          Yes, one or two nations have not abided by this treaty, and 
        three weapons-capable nations refused to sign it. But over 150 
        countries have accepted it, and their willingness to impose 
        sanctions on a violator was crucial to obtaining the 1994 
        Nuclear Framework Agreement with North Korea. And

          3. Multilateral export controls, to deny rogue states 
        sensitive technologies, would fall apart without U.S. 
        leadership and the full support of our allies.

    Nonproliferation is a two-way street. U.S. leadership on 
nonproliferation also means honoring our international commitments, 
such as the ABM Treaty and the Non-Proliferation Treaty. Our allies are 
more likely to work with us when we address difficult problems like 
North Korea through diplomacy.
    What nonproliferation leadership does not mean is abandoning the 
ABM Treaty, and ``going it alone.'' We simply cannot have a successful 
nonproliferation policy that way.
    The Senate's rejection of the Comprehensive Nuclear Test-Ban Treaty 
and the determination of some in this body to abrogate the ABM Treaty 
have created a dangerous perception that the United States will no 
longer honor its own nonproliferation obligations. Many see us as 
walking away from Article 6 of the Non-Proliferation Treaty, which 
requires further progress in nuclear arms control.
    One result of that perception is the refusal of some other 
countries to open negotiations on capping the production of fissile 
material. Another price will be an acrimonious NPT review conference.
    Some experts think the NPT may fall apart--not next month, but in 
the coming months or years--because of mistrust of the United States. 
That risk will rise if we abrogate the ABM Treaty and Russia ends the 
START process, or if China's reaction to missile defense sparks an arms 
race in South Asia.
    In sum, I see nonproliferation as an amazingly successful U.S. 
policy, but one that may now be at a critical crossroads. That is why I 
am so grateful to you, Mr. Chairman, and to Chairman Helms for holding 
these hearings.
    To help explain the challenges we face and how we might meet them, 
we have several distinguished witnesses before us today.
    George Tenet, the Director of Central Intelligence, is living proof 
that Senate staffers can find even harder jobs off the Hill. The U.S. 
Intelligence Community that Mr. Tenet heads performs a vital service 
for us all. I hope, Mr. Chairman, that you will make sure it gets all 
the support it needs to give U.S. policy makers timely information on 
other countries' capabilities, plans and actions.
    Our second panel will feature Bob Joseph, Steve Cambone [cam-BONE] 
from the National Defense University, and Joe Cirincione [sir-in-see-
OH-knee] of the Carnegie Endowment for International Peace.
    Ambassador Joseph is a distinguished former Ambassador to the ABM 
Treaty's Standing Consultative Commission who testified before this 
committee last year on ballistic missile defense.
    Dr. Cambone is a political scientist who was Director of Strategic 
Defense Policy in the Defense Department and later was staff director 
of the Rumsfeld Commission. I enjoyed our exchanges earlier this month 
at Stanford.
    Mr. Cirincione heads the Carnegie Endowment's nonproliferation 
program. He just finished hosting a 2-day conference that has become 
the premier event at which the world's experts exchange information and 
ideas on nonproliferation.
    I welcome all our witnesses to this hearing, and I look forward to 
hearing their testimony. Thank you, Mr. Chairman.

    Senator Biden. Gentlemen, I am going to depart from the 
questions I had written for you--I may ask consent to submit 
them in writing if we do not get back to it--and follow up on 
what I think is the interesting and instructive way in which 
the chairman has gotten us into this discussion here.
    Basically, what we are talking about, but we are not even 
saying out loud because we have not articulated it yet, is 
there are two developing schools of thought. One is saying, 
ding-dong, the witch is dead, nonproliferation policies and 
schemes that we have had for the last 50 years do not work, 
they have failed, and we either have to jettison them 
completely and move toward a unilateral defensive posture that 
allows us to counter threats as they arrive by demonstrating 
that the new efficacy with which weapons can be delivered to 
our soil can be stopped, either by a bullet hitting a bullet or 
by increased intelligence capability or by conventional force.
    There is another school of thought that says you cannot do 
that--you must engage the world, you must engage them 
bilaterally, multilaterally; you have to use all different 
kinds of weapons in your arsenal that include everything from 
arms control regimes to leverage financially to conventional 
threats to intelligence initiatives, as well as defensive 
measures.
    I notice when you were asked by the chairman what were the 
things, why is this proliferation on the ascendancy--as the 
chairman said, the American people say, wait a minute, the 
Soviet Union is gone, that thing we worried about, we do not 
climb under our desks any more in grade school like we did--you 
and I are old enough to have done that, and I think Senator 
Kerry is as well. You do not do that in grade school any more 
because the threat is not there.
    Senator Kerry. No.
    Senator Biden. He is as old as I am. He does not want to 
admit it.
    You know, we do not do that any more. I feel, quite 
frankly, less secure about the likelihood of a nuclear weapon 
or a biological weapon or a chemical weapon being detonated or 
exploded somewhere in the world today than I did in the year 
1978 or 1987.
    That does not mean it is not the same devastating 
consequence for us as if one were detonated--that is the bad 
news. The good news is it is not likely that we will retaliate 
with 2,000 ICBM's heading toward Moscow if that happens. It is 
less likely that happens.
    But when you were asked why countries pursue weapons of 
mass destruction, you gave three answers, and I noticed that 
one very important one, that seems to generate the--how can I 
say it--the intensity of those who say the arms control regime 
has been a failure and we should abandon it. The one you did 
not mention was ideology. You mentioned asymmetric advantage, 
you mentioned forces us to pay attention, it is about money. 
But you did not use the one that our friends on the right most 
often use, that this is an ideological drive for supremacy that 
people have, whether it is the communist government of North 
Korea or--and the list can go on.
    I noticed, Mr. McLaughlin, you said the asymmetric 
advantage. I do not know what the heck you mean by that. I do 
not get the asymmetric advantage argument. For example, in the 
Gulf--we talk about North Korea and there is a school of 
thought that says deterrence does not work because you know how 
those North Koreans are, you know how that leadership is. They 
are not going to--knowing the certain fact that they know they 
could be obliterated within 28 minutes, totally completely 
annihilated, not have a single stick standing on their soil if 
we conclude that we wish to do that, is of no consequence 
because we know they are not going to pay attention to us, they 
know we will not have the will, they know they will be able to 
leverage us on South Korea, and they will move and we will not 
respond because we are afraid they will be able to hit Los 
Angeles or Seattle or wherever.
    I find that fascinating because I look at the Gulf and the 
Gulf War. Let me ask you a question. Did Saddam Hussein have 
any biological or chemical weapons available to him while we 
were marching on him?
    Mr. Tenet. I believe the judgment of the intelligence 
community at the time was that he did.
    Senator Biden. He did?
    Mr. Tenet. And we do not believe he used them.
    Senator Biden. I wonder why. What about this asymmetric 
advantage? Why the hell did he not use them? Talk about an 
irrational guy, we all talk about. Why did he not use them?
    Mr. Tenet. I think the asymmetric--perhaps in the context 
of a conventional military conflict when you are looking at us, 
it may not be as likely as people thought at the time. But let 
me give you another example.
    Senator Biden. Sure.
    Mr. Tenet. We would probably have high confidence in 
telling you where a medium range ballistic missile was launched 
from in the next 10 minutes. I would have a lot less confidence 
telling you how a particular aerosol with a chemical or 
biological application used in an air filtration system in a 
hotel somewhere was placed there--
    Senator Biden. Absolutely.
    Mr. Tenet [continuing]. --in terms of the traceability of 
who is responsible for its use. So that asymmetry is in the 
world that we are going into, where the state actor has 
competitors who are not state actors or who may not have the 
kind of direct state sponsorship we once saw in the seventies 
or eighties. That asymmetry is real, and the asymmetry gets 
even more real when we are talking about computers hacking.
    Senator Biden. I got it, okay. So we are not talking about 
the asymmetry of the state actors having an advantage. I 
misunderstood you then. That helps me. That clarifies my 
concern.
    But ironically, what is motivating the essence of our 
change in policy, I would suggest, Mr. Chairman, is this idea 
that there are certain significant actors on the international 
scene that are motivating our reassessment of whether or not we 
in fact have any regime that makes any sense relative to 
states, relative to states.
    None of the unilateral answers we are coming up with as a 
potential to thwart state aggression does anything to deal with 
these asymmetries that we just talked about. It does not have a 
darn thing to do with whether or not somebody puts a chemical 
or biological agent in the air ducts of this building and takes 
out the building.
    So one of the things that is helpful, and what I did in my 
opening statement, Mr. Chairman, and I mean this sincerely, is 
to thank you and the chairman of the full committee for taking 
what I know will be under your leadership a serious, 
thoughtful, dispassionate look at this question that the public 
at large has not even focused on yet. They have no notion 
whether or not we are about to abandon a policy of 50 years, 
start a new policy, amend a policy. They have no notion.
    I was at a conference in Palo Alto with a group of--and 
your folks were represented out there, and one of our 
witnesses, one of the most respected people in the field--I do 
not share his view exactly about what we should do. But there 
were, what, 25, 30 people out there. They were talking about 
what the public is ready to assume. I was the only politician.
    I can tell you, the public has not even thought about this, 
absolutely has not even thought about that. They are going to 
be real surprised when they find out we are going to spend 2, 
5, 10, 20, 30, 50, $80 billion, $100 billion, whatever the 
number is, for a National Missile Defense. They are going to 
wake up and go, huh, for a number of reasons. Not that they 
disagree with it or agree with it. They do not know.
    So what I am trying to get at here is I hope in the process 
here--for example, you have been asked as an Agency, and I am 
not asking you to respond in detail unless you want to now, you 
have been asked as an Agency to tell us what the North Korean 
threat is, and you have done a marvelous job of it. I 
compliment you on it. I think it is real, I think it is 
legitimate.
    I have not disagreed with you over the years, in the 10 
years I have spent on the Intelligence Committee and then all 
the times I have had the opportunity to interact with you 
folks--I do not doubt for a minute your assessment of the 
threat. But I have a question. Has anybody asked you, tasked 
you, to tell us what the corresponding threat would be if as a 
consequence of meeting the North Korean threat we conclude that 
we have to abandon ABM or other nonproliferation regimes on 
China?
    Do they go from 18 to 800 intercontinental ballistic 
missiles? Do they go from 18 to 10 and cut them? Does Japan go 
nuclear if in fact China rapidly increases as a consequence of 
their concerns, causing an arms race in the region? What does 
India do? Has anybody tasked you and said, what do you think 
India is going to do?
    Mr. Tenet. We are actually in the middle of that discussion 
right now, Senator.
    Senator Biden. I sincerely hope--and I am one who is on 
this issue from Missouri. I realize the threat, and I realize 
this is not necessarily about National Missile Defense. But 
this is part of--at least I am going to ask the next panel 
whether or not there is a correlation between our 
nonproliferation objectives and our arms control initiatives.
    Can you in fact affect proliferation and abandon arms 
control regimes that are international in scope or more than 
bilateral in scope? Can you do that? Because that is what is 
going to be proffered here. That may be the choice this 
President or the next President is faced with.
    So I am hopeful, and I will have plenty of opportunities 
over the months to intercede with you fellows and ask you your 
opinions, and you have always been there whenever any of us 
have needed it and you have given us straight answers. I am 
very anxious--I am agnostic right now personally, not that it 
matters to anybody except me, I am agnostic on the issue of 
National Missile Defense.
    If you tell me we can hit a bullet with a bullet and we can 
get eight out of ten or nine out of ten incoming missiles with 
a National Missile Defense that, once we start pouring cement 
in Alaska, that are going to come in the next 2, 5, or 10 years 
from North Korea, and nothing else will happen worldwide, we 
will eliminate those MIRV'ed warheads in the Soviet Union, in 
Russia, China will stay at 18, and so on and so forth, then 
fine, I am for it.
    But if you come back and tell me, or I sitting as the 
President of the United States or the President asking my 
opinion, and you all came back and said, ``Well, yeah, we can 
get those missiles coming out of Korea in the next 5 years, but 
that means in the next 8 years our best judgment is Japan is 
going to go nuclear, we are going to have 600 missiles, 
intercontinental ballistic missiles in China, and there is 
going to be an arms race in the subcontinent''; I am not so 
sure that is a good deal for my granddaughters. I am not so 
sure I have done the right thing.
    So I hope you are going to get a chance to do that, and I 
hope the President will have the benefit of your best 
assessment of what is likely to happen globally with this issue 
before we make a final decision on what to do. But again, I 
will get back to the issue of proliferation and arms control 
regimes and whether they are related at another round.
    I thank you for letting me go on, Mr. Chairman.
    Senator Lugar. Thank you very much, Senator Biden. I think 
the Senator's questions illustrate the importance of the 
hearings, and this is, in essence, a very public national 
conversation among actors in the drama. We have responsibility 
as Senators. You have clearly responsibilities with the Central 
Intelligence Agency in the evaluations that you are making. And 
we are discussing what our agenda should be and what our 
priorities are, and we are doing so in public with those who 
have joined us in this hearing.
    Senator Biden. Mr. Chairman, in a sense for the first time. 
This is the beginning of a dialogue. I do not know of any 
policy we have ever been able to sustain that has not been 
based upon the informed consent of the American people, that we 
have been able to sustain. I hope this is the beginning of that 
process.
    Senator Lugar. And to sustain the dialogue today, Senator 
Kerry.
    Senator Kerry. Well, Mr. Chairman, thank you very much. 
Thank you for holding this hearing on a very timely and 
important issue. I appreciate Senator Biden's series of 
questions. There were a lot of questions and obviously they 
were unanswered at this moment, but I think it was important to 
put those questions out there.
    Let me add to the dialogue a little bit if I can, and I 
hope I will have time to ask a couple of questions. But I want 
to make a few observations. Number one, I agree completely with 
the need to assess fully the breadth of impact that may occur 
with this rush to respond to one perceived threat without 
perhaps thinking through thoroughly how it will affect other 
real threats that we have lived with for a long period of time.
    For instance, if you can develop a ballistic missile 
defense system that has the capacity to protect you, you have 
to assume a high hit capacity. And if you establish a high 
enough hit capacity, interception capacity, you have 
significantly altered whatever balance any other country 
currently postures in the world. Albeit we are not in the same 
posture we were with the former Soviet Union, but there are 
still tensions and there are still realities of nuclear 
weapons, and people make their assessments based on their 
judgments of the current state of deterrence.
    That deterrent balance is altered by the deployment of a 
missile defense system because obviously it affects what people 
think is their ability to strike back. It is the mutual assured 
destruction theory that protected us for so many years.
    If you cannot knock down enough missiles to have impacted 
that equation, then the question ought to be properly asked why 
you are deploying a missile defense in the first place. And we 
have not asked that question, and we certainly have not found 
the answer for it.
    Secondly, I do not hear a lot of talk about the problem of 
proliferation, which is usually talked of in strategic nuclear 
terms, when the United States is indeed one of the greatest 
proliferators in the world itself with respect to conventional 
weapons. You cannot have a discussion about proliferation 
without including conventional as well as nuclear.
    The spread of conventional weapons has an impact on 
people's perceptions and security calculations, and the United 
States is the world's greatest arms seller. I have been trying 
to pass a code of conduct for weapons transactions for a number 
of years. I have some very strong conservative members of the 
House who, happily, are supportive of this because we have had 
a habit of selling weapons to authoritarian, human rights 
violating, non-democratic entities in the world, and those 
weapons invariably wind up in the hands of one slaughterer or 
another somewhere on the face of the planet.
    So arms sales raise a perception problem with respect to 
the overall attitude about proliferation.
    I would also ask the question--I am not sure there is an 
answer--to what degree the unspoken fictions of nuclear policy 
might have had an impact on other countries' decisions, i.e., 
Israel, South Africa, India, and Pakistan, long before India 
and Pakistan exploded weapons in their tit for tat? Those 
unspoken realities had a profound impact on other people's 
perceptions and desires to join the nuclear club, i.e., Iraq, 
Iran, and others.
    Containing conventional proliferation is very hard when our 
allies are also in a race, for economic reasons, to sell 
weapons because of its relationship to jobs and to the economy.
    Finally, I would say that I have perceived in my travels--I 
have been a happy participant and a rewarded one in a sense at 
the World Economic Forum for the last 8 to 10 years, where I 
find there is a great exchange, some years better than others, 
with respect to less developed countries. But there is clearly 
a growing envy in the world, a growing sense of the 
disproportionate allocation of the benefits of globalization 
and technology and increasing potential for backlash.
    I find that some countries are actually driven in their 
weapons policies by desires to rectify imbalances that they 
perceive in the other order of things, and that to a certain 
degree they just want to get to the table. They want to be 
taken seriously, they want to be a player. So that also I think 
is something that has to be taken into account as we talk about 
proliferation policies, that something more on the economic 
table might have an impact on some people's attitudes about who 
benefits and where we are heading in our current paradigm.
    So I think there is a lot more to this discussion than just 
the strategic balance. There are a lot of issues on the table. 
Other than North Korea, I cannot say that we have been 
particularly proud ourselves in our nonproliferation efforts in 
the last years. I just cannot tell you that it has been on our 
table up here as a major priority, that it has been brought to 
us as a major priority, that it has been part of the 
international dialogue in the way that it ought to be.
    Maybe that is partly because in the transitional period in 
Russia there have been so many other crises to face in economic 
terms and there has just been so much on the table it has been 
hard to get to, and the politics of Russia and the Duma and the 
nationalism and other ingredients that were released with the 
end of the Cold War have stolen some of the ability to have 
leadership that could make some of these choices in a 
depoliticized way. That also has impacted the choices available 
to us, obviously. Yeltsin's weakness, the Duma, the 
nationalistic potential of certain candidates for president, 
all of these things play into it.
    But I must say that, unless the United States can ratify a 
treaty itself, show restraint itself, and put this issue more 
on the international table, I think we are whistling Dixie in 
terms of any efforts to try to get many people to follow our 
lead. And I would be interested to have your reaction to what I 
have said, Mr. Director and ambassadors, if you would respond, 
to whether or not these other considerations are indeed 
legitimate, should they be factored in and should we show more 
leadership ourselves with respect to this issue.
    Mr. McLaughlin. Well, we will stay away from direct policy 
recommendations, Senator. But I think your comments really 
underline what for me is the most important aspect of this 
problem, and I think it came out also in the remarks of Senator 
Biden and Senator Lugar, and that is the sheer complexity of 
the proliferation problem contrasted with other comparable 
problems that we wrestle with as an intelligence community and 
as a Nation.
    We put, the Director puts, at the head of his list in his 
worldwide threat testimony trans-national issues, and when you 
look at the other ones on that list, things like counter-
narcotics and counterterrorism. They are equally serious and 
equally deadly, but there is a tighter focus to them and a 
clearer objective that is not obscured by multiple disciplines, 
and in the case of proliferation we have to look at biological 
issues, chemical issues, physical science issues.
    Look at narcotics by comparison. The war on narcotics 
starts with the portion of our operation that assesses the 
narcotics crop worldwide. To start at a comparable place in the 
proliferation world, we have to assess so many other things, a 
range of things that is vastly broader, just as a starting 
point. Then we have to bring together multiple disciplines and 
the secondary and tertiary consequences of practically 
everything, as you pointed out, Senator Kerry, are more 
dramatic than they are in the case of battles against things 
like counternarcotics or counterterrorism.
    So I would just observe that your comments point up the 
complexity of the problem, the difficulty of formulating a 
bumper sticker policy on it, and the steep hill we have to 
climb in moving from analysis to correction of this problem.
    Senator Kerry. But let me give a simple example. When 
China--the MD-11, when China was engaged in the transfer and we 
knew pretty well it was, we did not really do anything. I mean, 
we kind of voiced it, but we certainly did not invoke any of 
the kind of sanctions that we have contemplated for that kind 
of violation of proliferation.
    Many people would argue that is because we were overly 
concerned with our policy of ``engagement.''
    Mr. McLaughlin. Bear in mind, in the intelligence business 
our job is to figure out what is happening.
    Senator Kerry. Sure, but you have got to comment on cause 
and result. Cause and effect is something you have to 
interpret.
    Mr. McLaughlin. Indeed. In that case our job was to detect 
the transfer of the M-11's back in the early nineties, and we 
did that and reported it. Then it becomes a matter of how do 
you pursue a policy toward China that balances--
    Senator Kerry. Maybe I can just ask you factually if the 
CIA observed any action that I did not?
    Mr. McLaughlin [continuing]. --Well, there is--again, 
without commenting on policy, there has been a robust 
counterproliferation dialogue with China over a period of years 
now, triggered in part by the episode you referred to and by 
some other episodes that came to light. As a result of that, 
there has been some improvement in China's proliferation 
behavior, particularly on the nuclear side, in terms of the 
technology they transfer to other countries, a marked 
improvement on the nuclear side, with some footnotes that you 
might add to that.
    They still do proliferate, though, components of missile 
systems, though they no longer, to the degree we can detect it, 
proliferate whole missile systems, turnkey operations, as they 
once did. So the picture on China is mixed. They have responded 
to that dialogue to some degree, but they have not, for 
example, expressed support for the annex of the MTCR. The annex 
of the MTCR, which is the major regime that counters the 
proliferation of missiles, it is in the annex that the real 
teeth are that operate against transfer of missile technology, 
and the Chinese have not yet agreed to support that.
    So there is work yet to be done in that dialogue with the 
Chinese, and the dialogue has been slow since some incidents of 
several months ago.
    Senator Kerry. Well, have any of you ever observed in your 
life experience any weapons system that was deployed that 
created a technological advantage, that was not subsequently 
met and matched by a perceived opponent or even by an ally?
    Let me answer the question for you. I have done a review. 
There is not one. And in fact, the United States led the way on 
every single technological advance in the nuclear race with the 
exception of Sputnik. We MIRV'ed, we deployed hydrogened 
weapons and the silent submarine. And we were met each time, 
step for step.
    So the question has to be asked, if you go down this road 
continually believing there is a technological fix each time, 
where does it take us? Where has it taken us? What is your 
sense of that?
    Mr. Tenet. My sense is, my sense is, Senator, that there 
may be a mix of those options that you have to employ, because 
I think there needs to be a carrot and a stick. I do not think 
each of these--one of the problems I have in judging how people 
are going to behave is we dangerously mirror image people in 
terms of the way the Russians and the Americansdevelop weapons 
systems.
    How many ballistic missiles does somebody in North Korea 
have to develop before they think they have to use them? What 
is the deterrence thought process that those people go through? 
How do the Iranians look at how they may use ballistic missiles 
or what will deter them from further use?
    These are very serious questions. So the question 
ultimately is, it may be some of technology, it may be some of 
an arms control regime, it may be some of the carrot. It may be 
all of these things wrapped up in a regime where we are making 
the either I am going to do this or I am not going to do that.
    I think a little bit of the danger is to dismiss one or the 
other and not understand how they may play, because in each of 
these places we will have a different sense of interests, a 
different sense of deterrence, a different sense of why they 
are going down this path. I think we have to do that 
calibration a little bit better than we have in terms of it is 
an either-or proposition, because I do not think it is. I think 
technology may be very helpful. It may not be the only thing 
that works, and that is what we have to think through.
    But in the missile arena the concern I have is, and it is a 
serious one, the medium range problem is right here today. It 
affects us in the Middle East, in Asia, it affects American 
forces. It will affect future proliferation decisions that 
countries will work there. So how you protect yourself and at 
the same time dissuade others from going down the road is a 
complicated issue.
    Senator Kerry. Well, I understand that, George, and I 
appreciate it.
    Mr. Chairman, I do not want to abuse the time. Let me just 
finish by saying that we have to apply our common sense and our 
experience through life to making certain kinds of judgments 
about threats. We lived for a long time with 10,000 warheads 
aimed at us and with about an equivalent number aimed at our 
enemy. We did not use them, either of us, and now we are trying 
to reduce the number further.
    I have never subscribed to the school of thought that we 
can put the genie back in the bottle and you can reduce our 
strategic stockpiles to nothing. I do not believe that. You 
could go back to the way you fought World War One, where men 
are in trenches and you have got more sophisticated weapons and 
we are throwing them at each other.
    But there has been in this balance, frankly, a safety 
measure. It is one of the reasons we did not invade North 
Vietnam. It is one of the reasons we did not have a land war on 
the Asian continent. It is one of the reasons that there has 
been restraint.
    It seems to me that if Korea has one, two, three ICBM's, 
are they going to throw them at a country that has 2500, or are 
they going to deliver anthrax to our reservoirs or to our 
subway stations, or are they going to bring the weapon in a 
suitcase? I mean, you know those threats. We have talked about 
them on the Intelligence Committee.
    I am far more concerned, tenfold more concerned, about 
renegade terrorists and rogue nation wreaking havoc with 
computer systems and food supplies and water supplies than I am 
somebody lobbing one missile or two missiles at us, given what 
the return delivery would be.
    So we have got to be more sensible as we think about this 
and as we approach this, Mr. Chairman. I hope we are going to 
apply the rigorous test of common sense to the question of 
expenditure and deployment that we are now facing.
    I thank the chair.
    Senator Lugar. Thank you very much, Senator Kerry.
    Two quick questions. Do you have any reason to believe that 
there might be a change in Iranian policy, given the elections 
and given the Secretary of State's statement? Do any of you 
have a comment?
    Mr. Tenet. I think that our analysts would say that the 
focus of the recent election will almost totally be on domestic 
policy, what the pace of reform may look like, how Khatamei 
uses this mandate that he has received electorally and what he 
needs to do to maintain a constituency that is growing and how 
fast he implements reform and where he believes he can move 
quickly. That will be counterbalanced by institutions that the 
conservatives can still control.
    But on the issues that we follow on the security side, we 
do not see any diminution in the support for terrorism and we 
certainly have grave concerns about the weapons of mass 
destruction programs, and I do not think those are issues that 
the reformist agenda can really take on in the near term.
    Senator Lugar. The final question is, given the dangers 
that we have been discussing, why do nation states supply 
others with either materials or weapons of mass destruction? Do 
they not understand the risks to themselves or do they believe 
that they are unlikely to be vulnerable for a variety of 
reasons?
    How would you describe what you perceive to be the 
motivation of proliferators?
    Mr. Tenet. Well, sometimes the motivation is the strategic 
interest of what I can offer, what I can offer someone that 
allows me to maintain a leverage in a strategic relationship. 
Sometimes countries do not have the kind of export control laws 
or capabilities that we might like. Sometimes the companies 
that are quite active here operate under the purview of 
governments. Sometimes they do, sometimes they do not.
    So for all of the reasons we talked about at the front end, 
they seek their own legitimacy in these relationships, 
sometimes consciously, sometimes unconsciously in terms of 
where their economies take them. But I think there is the power 
of influence, the power of the transaction and money, and the 
power of the strategic relationship and the long-term influence 
it buys you, particularly when it is the only thing you have to 
give somebody.
    I think that that is something we need to focus on in 
proliferation, to see why that occurs and can you wean somebody 
away from a relationship and offset the need to sell something 
with a set of other relationships that become more lucrative 
over time to your economy and your country.
    Senator Lugar. And that influence would work with a nation 
state. As you added, Director Tenet, sometimes it may occur 
because the state is weak to the point it does not know that 
proliferation is occurring.
    Mr. Tenet. Right.
    Senator Lugar. In that case, our ability to influence that 
state, of course, is limited.
    Senator Biden, do you have any further questions?
    Senator Biden. I have one question.
    I have one question for any of you who wish to answer it 
and then one question for Director Tenet specifically. I 
personally--and we all have our favorites as to what the most 
dangerous parts of the world are here. But I personally 
consider South Asia to be the most dangerous place in the 
nuclear armed world these days.
    Director, you told the Armed Services Committee earlier 
this year that India and Pakistan ``have begun to establish a 
doctrine--the doctrine and tactics to use these weapons.'' I 
think that was a quote, at least I am told by my staff that was 
a quote you used. Would you be able to or willing--I know you 
are able to. Would you be willing to expand in open session 
here, if it is appropriate, on that?
    Mr. Tenet. No, sir.
    Senator Biden. Well, at some point I think it may be useful 
for the chairman and I to have an opportunity to speak with you 
to expand on that, so we have a better sense of what you mean.
    Mr. Tenet. Yes.
    Senator Biden. At least so I have. The chairman may already 
know.
    And my one very serious question for you, Mr. Tenet, is 
there is some question in California as to whether or not you 
have misused your office by using agents to advance the 
Georgetown Hoyas in the NIT tonight. I want it on the record as 
to whether or not you have used in any way the Agency to 
determine what the Golden Bears of California are likely to do 
tonight.
    Mr. Tenet. The President signed a finding last night, 
Senator, and the Cal Bears will not be showing up tonight. 
[Laughter.]
    Senator Biden. Well, the President being a Georgetown 
graduate himself, I suspect that may be true.
    I do not have any further questions. I am just delighted, 
having gone to Syracuse, that you are not in the Sweet 16. But 
at any rate, having said that, I have no further questions, Mr. 
Chairman.
    Senator Lugar. Well, it is just as well, because we have 
tried very hard to keep this on proliferation.
    Senator Biden. Well, we are proliferating too many 
Georgetown guys, that is the problem.
    Mr. Tenet. You never know.
    Senator Lugar. We thank the panel. We appreciate very much 
your testimony, and I would like to call forward now our second 
panel, which will include Mr. Robert Joseph, Mr. Steve Cambone, 
Mr. Joseph Cirincione. [Pause.]
    Senator Lugar. Gentlemen, we thank you very much for coming 
to our hearing today. Let me suggest, if possible, that you 
summarize your statements. They will be all made part of the 
record in full. The chair would just observe that we have 
received word from the floor that a vote and in fact the only 
roll call vote this afternoon will occur at 4:00 o'clock. So we 
will get started and then take a short recess while the 
Senators vote and return to complete the testimony and the 
questioning.
    Mr. Joseph.

   STATEMENT OF HON. ROBERT G. JOSEPH, DIRECTOR, CENTER FOR 
 COUNTER PROLIFERATION RESEARCH, NATIONAL DEFENSE UNIVERSITY, 
                        WASHINGTON, D.C.

    Ambassador Joseph. Mr. Chairman, Senator Biden, thank you 
for the opportunity to testify today. It is an honor for me to 
have been invited to appear again before this committee. The 
views I will express are personal and do not necessarily 
reflect those of the Department of Defense, the National 
Defense University, or any agency of the U.S. Government.
    I do, Senator, as you know, have a prepared statement that 
I will submit for the record. In it I describe the broad 
principles that I consider to be essential to guide our 
policies in meeting the proliferation challenge. In my 
introductory remarks, I would like to emphasize three somewhat 
more concrete points.
    The first is the need to treat proliferation as a security 
threat. This may seem obvious, but I believe that it is often 
forgotten in debates over the merits of specific policy 
proposals, and it is also quite different from how we have 
traditionally practiced nonproliferation. In the past we 
approached proliferation more as a political problem than as a 
threat to our security. The clear, urgent, and overwhelming 
threat was of course from the Soviet Union and it was against 
this threat that we concentrated our resources, structured our 
forces, and designed our deterrent strategy.
    In contrast, while the United States did actively seek to 
dissuade others from acquiring weapons of mass destruction, the 
security implications of proliferation were generally more 
removed. For example, the regional rivalries that once 
encouraged the nuclear weapons aspirations of Argentina and 
Brazil and South Africa and that still drive those of India and 
Pakistan were not considered central to our security 
calculations, and perhaps as a consequence our nonproliferation 
policy took a different course than our security policy, a 
course that was based primarily on multilateralism and the 
building of international norms.
    Today it is my assessment that we no longer have the luxury 
of approaching proliferation as a political problem. We are 
confronted with a very diverse range of threats, including both 
states and terrorist groups that tell us that they view the 
United States as their enemy. We also know that a number of 
these states and groups are seeking weapons of mass 
destruction, perhaps to deter us from intervening into their 
regions, perhaps to employ against our forces or those of our 
friends and allies, or simply to threaten or even kill our 
people.
    Nuclear, chemical, and biological weapons, as well as 
increasingly longer range missiles as a means of delivery, are 
seen by most of our likely adversaries as possessing 
substantial utility, either for use against their neighbors or 
as instruments of warfare to overcome the conventional 
superiority of the United States.
    No longer confined to being weapons of last resort, these 
weapons and particularly, I would argue, biological weapons may 
very well become weapons of choice in the future. As a result, 
the contemporary environment is very different from that of the 
Cold War. It is more complex and I would argue more dangerous. 
It requires us to think differently about the motives and 
consequences of proliferation and about the tools to counter 
it.
    This leads to my second point, the need for a comprehensive 
strategy to deal with the proliferation challenge. There are 
several components to this strategy, beginning with the need to 
adapt those tools that have long been part of the effort to 
prevent proliferation, such as arms control and export 
controls, to be responsive to the conditions of today.
    For example, arms control can be an important tool of U.S. 
security policy. Treaties like INF and START have enhanced our 
security. Both were carefully negotiated with great attention 
to the implications for the deterrent postures of the parties 
and both establish detailed measures for monitoring compliance.
    By contrast, early nonproliferation treaties were comprised 
of at least three parts idealism for every part realism. They 
sought to establish norms against the possession and use of WMD 
without effective verification or enforcement provisions. This 
was clearly the case for the Nuclear Nonproliferation Treaty as 
well as the Biological Weapons Convention. The norms identified 
in both of these treaties and later in the Chemical Weapons 
Convention have and continue to make an important contribution 
to nonproliferation. However, these treaties have little impact 
on those states that do not respect international norms. In 
fact, for such states these treaties are often seen in the most 
cynical of ways, as an opportunity to further their own weapons 
programs.
    This was true for the Soviet Union when it signed the 
Biological Weapons Convention in the early 1970's and it is 
also the case today for those countries of greatest concern to 
us from a security perspective. States like North Korea and 
Iraq have a demonstrated record of flaunting norms and 
manipulating verification measures, such as IAEA safeguards, 
and there is in my view no more bitter irony than to listen to 
Russian officials tell us that Iran as a member in good 
standing of the NPT is not only deserving but entitled to the 
dual use technology that Moscow has contracted to sell it and 
that we know will be helpful to further Iran's nuclear weapons 
program.
    Because membership in these international conventions 
bestows legitimacy and, at least for the NPT, access to 
sensitive materials and technologies, my recommendation for 
dealing with states such as North Korea, Iraq, and Iran is not 
to seek their participation in these conventions, but rather to 
keep them out. Instead of offering concessions for commitments 
that we know will be violated, we should practice strict 
containment of these regimes, beginning in our own national 
nonproliferation and security policies.
    We should also seek to convince others to follow this same 
path. This will be difficult. We will be confronted with hard 
choices regarding standards of evidence and intelligence 
sharing and in other cases we will be trying to persuade third 
countries that may have much different perceptions of and 
economic incentives for dealing with these rogue states.
    We faced many similar challenges in the past when we sought 
to contain a much larger and more powerful threat. It was not 
easy. Certainly we did not win in every case. But we persisted 
and, most important, we led and ultimately we prevailed.
    American leadership is equally important today. This is not 
the first time that within the international community the lure 
of arms control idealism has prevailed over hard-nosed security 
judgments. Yet we know from history that we cannot afford to go 
along with the crowd. Instead, we must chart our course based 
on a realistic assessment of the threat and the need to counter 
it with sound security policies.
    Looking to the upcoming NPT review conference later this 
spring, I am confident the United States will come under 
significant criticism for falling short in meeting its 
commitment under article 6. Already we have encountered the 
initiative from Brazil, Mexico, and others pushing what they 
call the new agenda that seeks the speedy and total elimination 
of nuclear weapons and to take other measures that would serve 
to delegitimize nuclear weapons.
    These and other proposals, such as adopting a no first use 
policy, must be resisted. Our nuclear weapons continue to be 
essential to our deterrent strategy and to the credibility of 
our security guarantees to others. If the reliability of this 
deterrent is placed in doubt, whether in the NPT context or 
through other arms control initiatives such as the 
Comprehensive Test Ban, the result will likely be further 
proliferation both by potential adversaries and perhaps even 
friends.
    It is of course imperative that the United States fulfill 
its obligations under the NPT and we have done so to date. In 
terms of article 6, we have an outstanding record in 
negotiating reductions in strategic forces and in taking 
unilateral actions to reduce and eliminate theater nuclear 
weapons. We have no apologies to make.
    In addition to refining tools such as arms control and 
export controls, we need to be very creative in designing new 
initiatives that can have the greatest impact in denying access 
to sensitive expertise, materials, and technologies. Perhaps 
the best example is the cooperative threat reduction program 
with Russia and with other former Soviet states. The numbers of 
warheads, silos, launchers, and heavy bombers eliminated or 
deactivated under this program are impressive and send a very 
clear message. We can find solutions that contribute both to 
nonproliferation and directly to our own security. These two 
goals need not be mutually exclusive.
    Finally, as part of our comprehensive strategy we must 
prepare to deal with the consequences of proliferation from 
deterrence to defense to consequence management. Here again, 
our policies must fit the circumstances and conditions of 
today. Old models of deterrence are not likely to be 
successful. In a situation involving a rogue state armed with 
nuclear, chemical, or biological weapons, deterrence will be 
less stable and more likely to fail than deterrence as we knew 
it in the Cold War context.
    As a consequence, the threat of retaliation that formed the 
basis of our deterrent policy in the past is not likely to be 
sufficient. Therefore, it is essential that the United States 
acquire the capabilities to deny the enemy the benefits of 
these weapons. These capabilities, including passive and active 
defenses as well as improved counterforce measures, such as the 
ability to destroy deep and hardened underground targets and 
mobile missiles, offer the best chance to strengthen deterrence 
and provide the best hedge against deterrence failure.
    A further dimension of the WMD threat that undercuts 
deterrence is the growing ability of adversaries to deliver 
these weapons against the United States homeland. This is most 
visible with the North Korean long-range missile program, but 
also includes the potential for unconventional delivery, 
especially of biological agents.
    For rogue states, acquiring the capability to strike our 
population centers makes essential our development of new 
defensive capabilities. In this context, I commend the 
initiatives undertaken by the Senate to ensure that our first 
responders are trained to deal with chemical and biological 
incidents and for the passage of the National Missile Defense 
Act.
    I do not want to leave the impression that the threat of 
punishment is unimportant for deterrence. From our examination 
at the National Defense University of the real world case of 
deterring Iraq's use of chemical and biological weapons in 
Desert Storm and from our extensive experience in gaming, we 
have concluded that in fact our nuclear weapons are the single 
most important instrument we have for deterring the use of 
chemical and biological weapons by rogue states. Conventional 
superiority, which in certain critical ways can be seen as 
vulnerable, especially if the enemy uses his weapons of mass 
destruction capabilities early in a conflict, is not enough. 
Our conventional and nuclear forces must work together to 
enhance deterrence in a very complex and dangerous environment 
that requires tailoring our deterrent and defense postures to 
specific adversaries.
    My third point, and I will be very brief, is that all of 
the components of the strategy that I have outlined should be 
considered to be complementary. The skill is bringing together 
all of these instruments in a coherent and mutually reinforcing 
manner that promotes both nonproliferation and our own national 
security.
    Some have argued that acquiring military capabilities to 
deter and defend against weapons of mass destruction will 
undercut nonproliferation, either because it will be viewed as 
an admission that prevention is doomed to failure or, 
alternatively, because these capabilities will be seen as 
provocative and therefore will serve as an encouragement to 
further proliferation. I reject this argument on two grounds.
    First, I believe that if the United States can acquire the 
military capabilities to deter and defend against the 
proliferation threat we will undercut the incentives to 
proliferate in the first instance. Second and equally 
important, these defensive capabilities will ensure that we 
have a hedge against deterrence failure. Our military forces 
and our people need new tools to protect them from new threats, 
including those of weapons of mass destruction.
    In conclusion, preventing proliferation and especially the 
spread of nuclear weapons has long been a stated goal of U.S. 
policy, beginning in the months immediately following the 
conclusion of World War II that ended with the only use of 
nuclear weapons in history. As the most important leader of the 
international community, the United States should retain this 
goal and should work toward its achievement.
    But we must do so recognizing the real world conditions 
that exist and the threats that we face. While we should strive 
to take advantage of every opportunity to shape these 
conditions, we must do so understanding the strengths and 
limitations of all of the tools available to us, from diplomacy 
to arms control to the application of force.
    Thank you for your attention. I look forward to comments 
and questions.
    [The prepared statement of Ambassador Joseph follows:]

                 Prepared Statement of Robert G. Joseph

    Mr. Chairman, distinguished Members, thank you for the opportunity 
to testify today. It is an honor for me to have been invited to appear 
again before this Committee.
    The views I will express are personal and do not necessarily 
reflect those of the National Defense University, the Department of 
Defense or any agency of the Government.
    I have been asked to address the question of how to design a sound 
nonproliferation policy as part of our national security strategy. I 
believe this to be one of the most important challenges that we face as 
a nation and am encouraged that this Committee has taken up this 
critical task. More so than at any time in the past, the spread of 
weapons of mass destruction--nuclear, chemical and biological--
represents a profound and urgent threat at home and abroad.
    At least until the end of the Cold War in the early 199Os, we 
treated proliferation more as a political problem than as a security 
threat. This was true for countries of concern in South America, South 
Asia and in Africa. Although this may not have been the best foundation 
for policy, it was understandable. The clear, urgent and overwhelming 
threat was the Soviet Union. It was against this threat that we 
concentrated our resources, structured our forces and designed our 
deterrent strategy. We knew the Soviet threat was real and we were 
determined in fashioning and implementing sound diplomatic and defense 
policies and programs in response.
    In contrast, while the United States certainly did care about and 
actively sought to dissuade potential proliferators from acquiring 
nuclear weapons, the security implications of proliferation were 
generally more removed and abstract. For example, the regional 
rivalries that once encouraged the nuclear weapons aspirations of 
Argentina and Brazil--and that still drive those of India and 
Pakistan--were not central to our security calculations. Perhaps as a 
consequence, our nonproliferation policy throughout this period took a 
different course. Although various tools such as forceful diplomacy and 
arms exports were used in specific cases, our policy was based 
primarily on multilateralism and the building of international norms.
    Today we no longer have the luxury of approaching proliferation as 
a political problem. We are confronted with a wide range of threats 
that include both states and terrorist groups that view the United 
States as the enemy. They tell us this. We also know from what they are 
saying and doing that a number of these states and groups are seeking 
to acquire weapons of mass destruction (WMD), either to deter us from 
intervening into their regions, or to employ against our forces or 
those of our friends and allies, or simply to threaten or kill our 
people.
    Nuclear, chemical and biological weapons--as well as increasingly 
longer-range missiles as a means of delivery--are seen by our most 
likely adversaries as possessing substantial utility either for use 
against neighbors or as instruments of asymmetric warfare to overcome 
the conventional superiority of the United States. No longer confined 
to being weapons of last resort, these weapons--and particularly 
chemical and biological weapons--may well become the weapons of choice.
    As a result, the contemporary security environment is very 
different from that of the Cold War. It is more complex and, I would 
argue, more dangerous. It requires us to think differently about the 
motives and implications of proliferation and about the tools to 
counter it. These include diplomacy and arms control, export controls 
and sanctions, interdiction and, if prevention fails, deterrence and 
defense. None of these tools is a ``silver bullet.'' All must be 
brought together into a coherent national strategy.
    To design an effective nonproliferation policy in this new security 
setting, it is useful to start with the fundamentals that can help to 
define sound policy. Three principles stand out as guides. The first is 
to establish realistic goals that can contribute, individually and 
collectively, to our national security. We must set our objectives high 
and work toward the outcome we would like to achieve--but we must 
understand that our ability to affect the outcome we desire will be 
limited.
    This is not a call to abandon the goal of stopping, and even 
reversing, proliferation. In fact, I believe we must re-double our 
efforts in this regard, especially in those critical areas where we can 
have the greatest impact in denying access to sensitive technologies, 
materials and expertise. These include national and international 
export controls and cooperative threat reduction programs such as with 
Russia and other former Soviet states. On this point, Mr. Chairman, I 
agree with your stated position that the first line of defense is 
preventing proliferation at its source. If we do so with discipline and 
accountability, we can make a real contribution to our security.
    I am much more cautious about the role of arms control in 
nonproliferation. I believe that arms control can be an important tool 
of U.S. security policy. Treaties like INF and START have enhanced our 
security. If it were to be ratified and implemented without changes to 
its basic provisions, and specifically the ban on land-based MIRVed 
missiles, START II would also make a substantial contribution. All of 
these treaties were carefully negotiated with great attention to the 
implications of their provisions for the defense and deterrent postures 
of the parties, and, of course, all established detailed measures for 
monitoring and verifying compliance.
    By contrast, early nonproliferation arms control treaties were 
comprised of at least three parts idealism for every part realism. They 
sought to establish international norms against the possession and use 
of nuclear, biological and chemical weapons--without effective 
verification or enforcement provisions. This was clearly the case for 
the Nuclear Non-Proliferation Treaty (NPT) and the Biological Weapons 
Convention (BWC).
    The norms identified in both the NPT and BWC, and later in the 
Chemical Weapons Convention (CWC), have and continue to make an 
important contribution to the goals of nonproliferation. For most 
states, membership in these treaty regimes makes proliferation an 
unacceptable choice. For others, including several that at one time 
pursued the acquisition of nuclear weapons but later abandoned this 
pursuit due to changes in their own security calculations, these 
treaties added a further incentive to change course. In sum, these 
norms should be maintained and strengthened.
    However, these treaties have little impact on those states that do 
not respect international norms. In fact, for such states, these 
treaties are viewed in the most cynical way: as an opportunity to 
further their weapons programs. This was the case for the Soviet Union 
when it used the BWC as a cover for an expanded offensive biological 
weapons program.
    Today, for those countries of greatest concern to us from a 
security perspective--those that our State Department has branded as 
rogues--this is also clearly the case. States like North Korea and Iraq 
have a demonstrated record of flaunting norms and manipulating 
verification measures, such as IABA safeguards. And there is no more 
bitter irony than to listen to Russian officials tell us that Iran, as 
a member in good standing of the NPT, is not only deserving but 
entitled to the dual use technology that Moscow has contracted to sell 
it, and that we know will be helpful to further Iran's nuclear weapons 
program.
    Because membership in these international conventions bestows 
legitimacy and, at least for the NPT, access to sensitive materials and 
technologies, my recommendation for dealing with states such as North 
Korea, Iraq and Iran is not to seek their participation in these 
conventions but rather to keep them out. Instead of offering 
concessions for commitments that we know will be violated, we should 
practice strict containment of these regimes, beginning in our own 
national nonproliferation and security policies.
    We should also seek to convince others to follow this same path, 
while recognizing that pursuing such a course will be unpopular and 
difficult to sustain. We will be confronted with hard choices regarding 
standards of evidence and intelligence sharing, and in other cases we 
will be trying to persuade third states that may have much different 
perceptions of, and economic incentives for dealing with, these rogue 
states. We faced many of the same challenges in the past when we sought 
to contain a much larger and more powerful threat. It was not easy and 
we certainly did not win every challenge. But we persisted and, most 
important, we led. In the end, we also prevailed.
    A corollary to the first principle is to do no harm. In the past, 
we--the United States and the international community--have been 
unwilling to confront the limitations of norm building as a basis for 
policy. The result has been harm to the cause of nonproliferation. 
Perhaps it is because, at least for some states, arms control has 
become an end in itself.
    Or perhaps it is a reluctance to accept the fact that regimes like 
those in North Korea and Iraq neither share the same goals as we, nor 
play by the same rules. Whatever the reason, it seems it is difficult 
for the international community to chart a course based on a realistic 
assessment of the threat and the need to counter the threat with sound 
security policies.
    Within the international community the lure of arms control 
idealism almost inevitably prevails over hard-nosed security judgments. 
For example, looking to the upcoming NPT Review Conference later this 
spring, I am confident that the United States will come under 
significant criticism for falling short in meeting its commitment under 
Article VI of the NPT to negotiate ``effective measures relating to 
cessation of the nuclear arms race at an early date and to nuclear 
disarmament.'' Already we have encountered the initiative from Brazil, 
Mexico and others pushing what they call the ``new agenda'' that seeks 
the ``speedy and total elimination'' of nuclear weapons, and to take 
other measures that would serve to de-legitimize nuclear weapons. Such 
proposals, and they are hardly new, must be resisted and their 
underlying arguments must be refuted.
    It is, of course, imperative that the United States fulfill its 
obligations under the NPT, as we have done so to date. In terms of 
Article VI, we have an outstanding record in negotiating reductions in 
strategic forces and in taking unilateral actions to reduce and 
eliminate theater nuclear weapons. In fact, even before START II 
implementation, U.S. deployed strategic warheads have been reduced by 
about 50 percent. With START II, that number will be reduced by a 
further 40-50 percent. A START III Treaty at 2,000-2,500 warheads would 
represent a reduction of about 80 percent from the Cold War arsenal. 
The United States has also eliminated 80 percent of its theater nuclear 
stockpile.
    Moreover, in the context of the Nunn-Lugar Cooperative Threat 
Reduction program, we have assisted Russia and others in the 
destruction and dismantlement of their nuclear forces. The numbers of 
nuclear weapons eliminated are very impressive: 380 ICBMs and 354 
silos; 91 SLBMs and 176 SLBM launchers; and 57 heavy bombers. In all, 
over 4,900 warheads have been deactivated under the program. The United 
States has no apologies to make.
    Most important, these measures have both served our national 
security and promoted the goals nonproliferation. They have 
demonstrated that the relationship between security and 
nonproliferation objectives can be reinforcing and certainly need not 
be mutually exclusive. In contrast, proposals for elimination or 
radical reductions in nuclear weapons would undermine our national 
security and international stability in a way that would likely fuel 
proliferation.
    In this context, we must recognize that our nuclear weapons 
continue to be essential to our deterrent strategy. The credibility of 
this deterrent should not be placed in doubt, whether in the context of 
the NPT Review Conference or through other arms control initiatives. 
Here, perhaps the prime example is the Comprehensive Test Ban Treaty 
(CTBT)--a treaty that could call into question the reliability of our 
nuclear deterrent.
    There is no evidence that the Test Ban Treaty will reduce 
proliferation. None of the so-called ``unrecognized'' nuclear weapon 
states--India, Pakistan and Israel--will be convinced by this Treaty to 
give up their weapons programs. Most important, those countries that 
are currently seeking nuclear weapons--including Iran and North Korea--
will either not sign the Treaty or, more likely, will sign and cheat. 
These states have demonstrated the value they place in weapons of mass 
destruction and are not going to give them up because others pledge not 
to test.
    Contrary to its advertised purpose, the CTBT could actually lead to 
more proliferation not only by our potential adversaries but also by 
allies and friends who have long relied on the American nuclear 
umbrella as a cornerstone of their own security policy. In other words, 
if the Treaty were to lead to uncertainties that called into question 
the reliability of the U.S. nuclear deterrent, the result could well be 
further rather than less proliferation.
    The United States has for many years relied on nuclear weapons to 
protect and defend our core security interests. In the past, nuclear 
weapons were the central element of our deterrent strategy. In today's 
security setting our nuclear weapons play a less prominent role. But in 
a world where weapons of mass destruction and long-range missiles are 
increasingly available to rogue states, they remain an indispensable 
component of our national security strategy.
    By calling into question the credibility of the ``extended 
deterrent'' that our nuclear weapons have provided for allies in Europe 
and Asia, the CTBT could also spur proliferation by those states that 
have long relied on the U.S. nuclear guarantee. For over half a 
century, the United States has successfully promoted nonproliferation 
through the reassurance of allies that their security and ours were 
inseparable. U.S. nuclear weapons have always been a unique part of 
this bond. Allies in Europe and Asia continue to benefit from this 
protection. Should the U.S. nuclear deterrent become unreliable, and 
should U.S. allies begin to fear for their security having lost faith 
in the U.S. guarantee, it is likely that some of these states--
especially those located in conflict-laden regions--would revisit the 
question of whether they need their own national deterrent capability.
    Maintaining a reliable and credible nuclear deterrent has also 
contributed to the reassurance of other important friends in regions of 
vital interest. Countries like Taiwan have to date shown considerable 
restraint in light of the nuclear, chemical and biological threats in 
their region. They have done so in large part because they see the 
United States as committed and capable of coming to their defense. 
While strong security relations have encouraged these states to abstain 
from their own nuclear programs, an unreliable U.S. nuclear deterrent 
might actually encourage nuclear weapons development by these states.
    A second principle to guide sound nonproliferation policy is to 
pursue--with determination and consistency over the long term--
meaningful approaches that have the prospect of success in impeding 
proliferation. Many of the tools that can contribute to 
nonproliferation have been around for years. National and international 
export controls and sanctions, for example, were long considered a 
central part of the West's security strategy.
    In the past, the United States and our allies were successful in 
denying key technologies to the Soviet bloc, such as advanced machine 
tools and high speed computing capabilities that would have undercut 
our collective security. This was possible for two main reasons. First, 
we had a consistent policy on controls and established effective 
internal and external mechanisms for enforcing the policy. Second, the 
United States exercised leadership with allies in setting up a standing 
coordinating agency to monitor transactions and to ensure compliance. 
This was never easy or popular. But U.S. leadership and the perception 
of a common threat made it work.
    Since the end of the Cold War, there has been neither effective 
U.S. leadership nor an appreciation of a common threat from 
proliferation, including by many of our allies. Given the absence of 
consensus on the threat, there is little agreement on the types and 
levels of technologies that should be denied. Consequently, export 
controls have lacked focus and the mechanisms that were in place have 
been eviscerated.
    Even in our own government, the emphasis on export controls has 
been significantly diminished as policy has consistently promoted 
commerce and trade over security considerations. If we are to design a 
sound nonproliferation policy, we must begin by restoring a proper 
balance. Only then will we be able to promote meaningful international 
controls.
    Renewing an effective export control regime, one that is responsive 
to legitimate export needs while denying key technologies to 
proliferators, will require several actions. First, the Administration 
and Congress should work to identify the most pressing proliferation 
issues, in terms of both the target regimes and the technologies of 
concern. Too broad a definition will likely result in an unworkable 
system, while too narrow a definition will allow for damaging leakage 
of technologies.
    One of the most difficult aspects of an effective export control 
policy is to secure the support other nations in a position to provide 
similar technologies. In part because our current policies are viewed 
as inconsistent and ineffective, we have achieved little success in 
influencing others. Once a consistent national policy is established, 
the Administration should undertake a concerted effort, at the highest 
levels, to seek support for the policy both at home and abroad.
    My expectation is that such an effort could pay significant 
dividends in slowing and making more costly the weapons programs of 
proliferators. Yet, leading by example, while essential, will not be 
sufficient. More direct means, including the application of sanctions, 
will be required to deal with supplier countries like Russia and China, 
both of whom have dismal records in assisting nuclear weapon and 
missile programs of other states.
    Next, because of the inevitable competition between the need for 
enhancing exports to the benefit of U.S. corporations and the need to 
deny certain goods and technologies to proliferators, the 
Administration and the Congress should work to establish an effective 
process for enforcement of the policy. The current system, with split 
responsibilities and cumbersome procedures for resolving disputes among 
the agencies involved has proven to be a failure.
    Given the inherent conflict of interests among the Department of 
Defense, the Department of State, and the Department of Commerce, 
assigning the lead to any one of the Departments is only a formula for 
continued bickering and delays in administering export control 
policies. For this and other reasons, it may well be time to consider 
the recommendations of the Deutch Commission (Commission to Assess the 
Organization of the Federal Government to Combat the Proliferation of 
Weapons of Mass Destruction) to create a National Director for 
Combating Proliferation and to empower that individual with staff and 
resources adequate to meet the bureaucratic challenges that have 
impeded past nonproliferation policy. This may be the only way to 
ensure that the concerned agencies are able to secure a fair hearing, 
and that decisions that balance security with trade can be made 
expeditiously.
    A third principle of a sound nonproliferation policy is to prepare 
to deal with the consequences of proliferation and to treat 
proliferation for what it is: a central security threat to the United 
States. If the United States can acquire the military capabilities to 
deter and defend against the proliferation threat, we will undercut the 
incentives to proliferate in the first instance. Equally important, 
these capabilities will ensure that we have a hedge against deterrence 
failure.
    Experience suggests that countries determined to acquire chemical 
and biological weapons and, as we look to the future, nuclear weapons 
as well, will ultimately succeed. Given that the states developing and 
improving such weapons today are our most likely adversaries in the 
future, we must be ready to deter these states--and especially their 
use of weapons of mass destruction. If deterrence fails, we must be 
prepared to fight and win even if these weapons are used against us.
    It is in this area of counterproliferation that I have conducted 
most of my work at the National Defense University. From this research, 
ranging from bioterrorism and consequence management to doctrine and 
adversary use concepts, a number of conclusions are evident.
    Old models of deterrence are not likely to be successful. In a 
situation involving a rogue state armed with nuclear, chemical or 
biological weapons, deterrence will be less stable and more likely to 
fail than deterrence as we knew it in the East-West context. The 
conditions that we valued in our deterrent relationship with the Soviet 
Union--such as mutual understandings, effective communications and 
symmetrical interest and risks--simply do not pertain with states like 
North Korea. Moreover, such countries are much more prone to risk 
taking than was the Soviet leadership.
    As a consequence, the threat of retaliation or punishment that 
formed the basis for our deterrent policy in the Cold War is not likely 
to be sufficient. Therefore, it is essential that the United States 
acquire the capabilities to deny an enemy the benefits of these 
weapons. These capabilities--including passive and active defenses as 
well as improved counterforce means (such as the ability to destroy 
deep and hardened underground targets and mobile missiles)--offer the 
best chance to strengthen deterrence, and provide the best hedge 
against deterrence failure.
    A further dimension of the WMD threat that undercuts deterrence is 
the growing ability of adversaries to deliver these weapons against the 
United States homeland, including against our cities. This is most 
visible with the North Korean long-range missile program but also 
includes the potential for unconventional delivery, especially of 
biological agents. For rogue states, acquiring the capability to strike 
our population centers denies us the convenience and simplicity of 
thinking in terms of fighting a purely theater war, and makes essential 
our development and deployment of new defensive capabilities. In this 
context, I commend the initiatives undertaken by the Senate to insure 
that our first responders are trained to deal with chemical and 
biological incidents, and for the passage of the National Missile 
Defense Act.
    I do not want to give the impression that the threat of punishment 
is not unimportant. Although not adequate by itself, such a threat 
remains essential for deterrence of both initial use and follow-on use 
of WMD by rogue states. Here, conventional superiority alone cannot 
provide for a credible deterrent. In fact, despite sustained and 
determined efforts by some to de-legitimize our nuclear weapons and 
assertions that their utility ended with the Cold War, our nuclear 
weapons play a unique and indispensable role in deterring the use of 
chemical, biological and nuclear weapons in regional contexts. This is 
in addition to the hedge our nuclear weapons provide against the 
strategic uncertainties associated with Russia and China--two states 
that continue to value and modernize their nuclear forces.
    From our examination of the real-world case of deterring Iraqi 
chemical and biological use in Desert Storm, and from our extensive 
experience in gaming, we have concluded that our nuclear weapons are 
the single most important instrument we have for deterring the use of 
chemical and biological weapons against us by rogue states. 
Conventional superiority, which in certain critical ways is perceived 
as vulnerable, especially if the enemy uses his WMD capabilities early 
in a conflict, is not enough. Our conventional and nuclear forces must 
work together to enhance deterrence in a very complex and dangerous 
environment.
    In conclusion, preventing proliferation--and especially the spread 
of nuclear weapons--has long been a stated goal of U.S. policy, 
beginning in the months immediately following the conclusion of World 
War II and continuing to the present. Every Administration, from 
President Truman forward, has made nonproliferation a central element 
of American foreign policy. This was evident in the Baruch proposals 
and in President Eisenhower's Atoms for Peace initiative. It was also 
apparent in the negotiation of the Nuclear Non-Proliferation Treaty 
under President Johnson and in the conventions on prohibiting 
biological and chemical weapons negotiated under Presidents Nixon and 
Bush respectively. Presidents Kennedy and Carter were not only eloquent 
but also passionate in their stated goal of preventing the further 
spread of nuclear weapons, and President Reagan held the vision of 
eliminating these weapons altogether.
    As the most important leader of the international community, the 
United States should retain these goals and work toward their 
achievement. But we must do so recognizing the real world conditions 
and threats that we face. While we should strive to take advantage of 
every opportunity to shape these conditions, we must do so 
understanding both the strengths and limitations of the tools available 
to us--from diplomacy to the application of force. The skill is 
bringing together all of these instruments into a coherent and mutually 
reinforcing policy that promotes nonproliferation and our national 
security.

    Senator Lugar. Thank you very much, Mr. Joseph. Dr. 
Cambone.

 STATEMENT OF STEPHEN A. CAMBONE, PH.D., DIRECTOR OF RESEARCH, 
  INSTITUTE FOR NATIONAL STRATEGIC STUDIES, NATIONAL DEFENSE 
                  UNIVERSITY, WASHINGTON, D.C.

    Dr. Cambone. Thank you, Senator. It is a pleasure to be 
here. Senator Biden, it is a pleasure to resume that national 
conversation that you called for out in Palo Alto.
    Let me say as well that these are my personal views and not 
of the Institute or the Defense University or the Department.
    I would like to associate myself with the comments that 
Ambassador Joseph has made and perhaps focus in on just a 
couple points and see if I can be responsive to some of the 
questions raised in the first session. With that, let me say 
that I am going to concentrate first on the state actor issue 
in this opening statement and we can pick up the non-state 
actors in the ensuing conversation.
    Let me say that, with respect to the state actors, I think 
we should be treating proliferation as a strategic operation 
conducted by these state actors. They are conducted with the 
aim of gaining specific advantage in domestic or regional or 
global affairs, and in most cases both the suppliers and the 
buyers are using proliferation to pursue political or military 
objectives that are inimical to the interests of the United 
States, to its friends and to its allies.
    In so doing, I would argue, they also pose, Senator, a 
challenge to the international system and its stability, 
because the stability of that system in fact in the end depends 
upon the leadership of the United States and the assurances 
that it and its allies have given to one another that they will 
in fact deter aggression and maintain international stability. 
It is against that target that proliferation ultimately is 
aimed and that it is a process that has been ongoing for some 
time and indeed precedes our current set of considerations 
about missile defense and other responsive measures.
    If that is right, then our proliferation policy ought to 
begin, not end but begin, by concentrating on what might be 
called deterrent operations of one kind or another, and it 
should frustrate the specific purposes for which these actors 
who are involved in proliferation are aiming. I think that this 
contrasts, as a point of departure at least, from current 
policy, which aims principally at the promotion of universal 
adherence to broadly directed agreements, with the objective of 
creating international norms condemning proliferation, which in 
turn are supported by monitoring regimes and so on.
    This approach as a point of departure is insufficient, 
given the stakes that are involved and the determined character 
of the regimes that are the targets of our nonproliferation 
policy. So therefore, Senator, I would argue once again the 
first line of defense against this proliferation threat has got 
to be deterrence, modified as appropriate to our current 
circumstances. That needs in turn to be followed by a second 
line consisting of tailored measures aimed at disrupting 
specific proliferation activities, overt or covert as the case 
may be, and that might respond to specific and particular 
threats, and those operations should be carried out by 
coalitions of the willing.
    The third line of defense is to rally international opinion 
in support of those kinds of operations, as well as then to 
seek in international opinion agreement on other measures that 
we might take to stem proliferation.
    Let me say, though, that it is going to be a hard task, for 
all the reasons that Mr. Tenet has outlined. I will not go over 
the ground he did, but I would like to point to one change that 
is important. That the prior restraints that we saw on 
proliferation that were imposed by the Cold War have given way 
to a very much more relaxed strategic environment, where the 
interests of the major powers are not equally threatened and 
may even be advanced by proliferation activities.
    This conclusion seems reasonable based on the consistent 
reporting from the intelligence community over the last few 
years that Russia and China are persistent suppliers of 
technology, materials, and expertise of concern. This is an 
enormous change, it seems to me, from what we faced during the 
Cold War.
    In light of the realities we face, the current approach to 
policy, universal adherence, global bans and so forth, is 
insufficient. The problem we face is not the failure of most 
states to adhere to their commitments or to find new reasons to 
ban new classes of weapons. That is not the problem. Instead it 
is that we are facing strategic operations conducted by some 
states and entities unconstrained by those norms and hostile to 
the United States and its allies.
    Meeting the challenge does not mean we throw over the 
successes we have had in our nonproliferation policy, whether 
we talk about INF, START, comprehensive threat reduction 
programs and the like. There is no reason to throw those 
overboard. The permanent extension, the indefinite extension of 
the NPT in '95 was a notable success. These should not be 
overthrown. But clearly the evidence before us attests that 
they are not being effective in meeting the strategic challenge 
we face, that more is needed.
    So let me then, with some trepidation, offer a few points 
that we might consider in the coming months as we try to reform 
our nonproliferation policies. First, at the upcoming NPT 
review conference we really should resist pressures to have the 
United States and others invest even further in the concepts of 
universal adherence, global disarmament, and reliance on 
international inspection regimes. I think we have to instead 
reiterate that we face a strategic threat and that we need to 
find a way to enhance our deterrent prospects to meet that 
threat, to include having credible and capable nuclear forces.
    Second, the Export Administration Act, I know, is before 
the Senate. It is an enormously contentious issue which I dare 
not red very far into, except to make one suggestion. That is 
as part of the Act that we establish a database of sales that 
take place by entities both in the West and to entities in 
countries of concern, that allows us to track what is being 
sold and that allows us to manipulate the data in that base in 
order to be able to give ourselves indicators and warnings of 
potential behavior that is of concern to us by proliferators.
    Third, as we draw down the nuclear offensive forces we 
clearly have got to restructure them, and I think we should do 
it with a mind to what our requirements are going to be in a 
new environment in which not just Russia and China are posing 
threats to the United States, but in which we face a 
multiplicity of threats. It may mean that we have to think 
again about how we are going to arm those strategic offensive 
forces, to include new designs on nuclear weapons.
    I do not know that this last point is true, but I suspect 
that if it is true we may find ourselves with the requirement 
to test, and therefore I would suggest that pursuing a 
Comprehensive Test Ban Treaty at this time really is not in our 
interest. I would say that offense alone again is not 
sufficient. We need missile defense of one variety or another. 
We can take that up in our subsequent conversation.
    Finally, the points made by Mr. Tenet I can only reinforce. 
As you know, Senator, I was the Executive Director for the 
Rumsfeld Commission. That commission did publish an 
intelligence side letter, which the DCI was very kind to 
receive. In fact he has gone a long way in implementing many of 
the recommendations that were part of that intelligence side 
letter. But the Intelligence Community needs more help and they 
need it now, and they need it not so much in the area of 
collection perhaps, but certainly in the area of analysis.
    Let me conclude with the following thought and, Senator 
Biden, this is part of my thought following our earlier 
conversation. We have to address the international community. 
There is no way we can do this unilaterally and without regard 
to their interests. We are a leading state and a democratic 
state to boot. Therefore the opinions of others matter to us.
    But what matters in the end is how they judge the capacity 
that we show in melding together our military and technical 
capabilities along with the appropriate diplomatic arts to 
build coalitions, to isolate bad actors, and in the end develop 
mechanisms that rehabilitate former adversaries, but still 
address the underlying causes of instability in the regions in 
which we are operating.
    I would submit that as our current policy exists today we 
are unable to pass that test. I will offer in conclusion to you 
one thought. Current policy today gives us very little 
indication of how we are going to deal with the eventuality 
that Iran--one day in the next 2, 5, or 10 years--may come into 
possession of a nuclear weapon. I do not think we know how to 
proceed from where we are to dealing with that outcome, and it 
is with that outcome in mind that I think we need to step back 
and assess our proliferation policies and ask how we will 
address them in the future.
    [The prepared statement of Dr. Cambone follows:]

              Prepared Statement of Dr. Stephen A. Cambone

  [Dr. Cambone is Director of Research for the Institute for National 
 Strategic Studies at the National Defense University, Washington, DC. 
The views expressed in his testimony are his own and do not necessarily 
      represent those of INSS, NDU or the Department of Defense.]

                              INTRODUCTION

    The United States needs a modern nonproliferation policy. The 
policy needs to take into account the realities we face today and the 
consequences we will confront as a result of the proliferation that has 
occurred over the last decade or so and that will continue to take 
place in the coming years.
    In recent years U.S. policy has come to view proliferation as trade 
in contraband among states that otherwise are or would be members in 
good standing of the international community. Instead, our policy 
should approach proliferation as a strategic operation by which the 
parties engaged in activities of concern seek to gain specific 
advantage(s) in domestic, regional or global affairs. Put another way, 
proliferation is not a serious problem primarily because it represents 
a failure on the part of modern states to accede to new or abide by 
their existing international obligations. In fact, many contemporary 
agreements have near-universal participation and compliance. It is a 
serious problem because the relatively few states engaged in the 
practice, both suppliers and buyers, are using proliferation to pursue 
political or military objectives inimical to the interests of the U.S., 
its friends and allies. In addition, proliferators pose a threat to the 
international system. It depends for its stability on the leadership of 
the U.S., its friends and allies and the assurances they have given 
each other with respect to crisis management and deterring aggression. 
By challenging their leadership and calling into question their 
assurances, proliferators create opportunities they exploit to their 
advantage.
    If this assessment is correct, that a relatively few parties engage 
in proliferation and do so for straightforward strategic reasons--the 
consequences of which are quite far reaching--then this suggests the 
basis of a modern nonproliferation policy. The policy should aim at 
frustrating the specific purposes for which the relative few actors 
involved practice it. This contrasts with current policy. It aims at 
the promotion of universal adherence to broadly directed agreements. 
The objective is to create international norms condemning 
proliferation, supported by monitoring regimes to detect and discourage 
proliferation practices. This approach is insufficient given the stakes 
that are involved and the determined character of the regimes that are 
the targets of the policy.
    Because the practical manifestation of proliferation is military in 
form even if the ultimate purpose is political--greater influence in 
domestic, regional or global affairs--the first line of defense against 
proliferation is deterrence. Further, a second line of defense needs to 
be devised and implemented consisting of tailored measures aimed at 
disrupting specific proliferation operations or responding to 
particular threats, carried out by coalitions of the willing. The third 
line of defense is rallying international opinion, which has no 
interest in proliferation, in support of the first two approaches. I 
will concentrate on the first and touch on the last two in my 
discussion of near term initiatives.
    A modernized policy should also have a broader definition of 
proliferation than that associated with nuclear weapons. It needs to 
integrate efforts to control the proliferation of technology, materials 
and expert assistance to biological and chemical weapons programs as 
well. And it should integrate efforts to address programs to develop 
the means for delivering NBC weapons by ballistic missiles. New high 
technology will need to be addressed as well. One example is advanced 
computers. Of concern in the past because of their essential role in 
weapons programs, computers have become weapons of proliferation 
concern in their own right with the advent of information warfare 
conducted in cyberspace. Another example is stealth technology. The key 
point is the integration of these efforts.
    To argue that the U.S. needs to revise its nonproliferation policy 
and the broader arms control policy of which it is a part is not to 
argue that we lack past and current successes in either area of policy. 
Cold War-era nonproliferation policy did slow the rate at which nuclear 
and other technologies of concern found their way into the hands of 
states hostile to our interests and those of our allies. 
Nonproliferation policy was instrumental in rolling back the nuclear 
programs of Brazil, Argentina and South Africa. Nonproliferation policy 
was also important in discouraging states with the evident capacity of 
doing so from developing nuclear weapons programs. The indefinite 
extension of the NPT in 1995 was an important development. In the field 
of arms control more broadly there have been notable successes. The 
Intermediate range Nuclear Forces treaty (INF), the two START 
agreements, the London Protocol to START I, the CFE treaty and the 
mutual, unilateral reduction in deployed theater nuclear forces by the 
U.S. and Russia are the most significant.
    With these successes noted, it remains the case that the majority 
of the treaties, conventions, agreements and laws we have in hand were 
created during the Cold War to addresses its problems. What we need is 
a fresh look at today's problems and those we know are looming and to 
devise as appropriate new approaches to address them.

                            REALITIES TODAY

    In the context of a broader definition of proliferation concern, 
the reality of the problem we face is quite daunting.
    The prior constraint on proliferation imposed by the Cold War has 
given way to a more relaxed strategic environment where the interests 
of the major powers are not equally threatened and may be advanced by 
proliferation. Russia, for example, does not express the same concern 
as the U.S. over the progress of Iran's nuclear programs or its 
development of ballistic missile capability. China does not seem to 
share the U.S. concern about the evolution of Pakistan's nuclear and 
ballistic missile programs. These conclusions seem reasonable based on 
the consistent reporting of the Intelligence Community over the last 
few years that Russia and China are persistent suppliers of technology, 
materials and expertise of concern.
    Regional powers have found the global market a boon for the 
development of nuclear, biological and chemical weapons (NBC) and the 
means for delivering them by ballistic missiles over longer and longer 
ranges. In addition to the specialized aid countries like Russia and 
China have supplied to proliferators, the global market makes available 
at relatively low cost dual-use assets--personnel, technology and 
materials--essential for developing NBC weapons and delivery systems. 
In addition to the major suppliers, whose conduct is impeded if not 
prevented by agreements such as the London Suppliers Group, MTCR and 
Australia Group, there has grown up a secondary source of supply 
provided by the North Korea, Pakistan and others. These secondary 
suppliers are not affected by the constraints adopted by responsible 
suppliers. For both primary and secondary suppliers the global market 
eases the ability of governments or entities with an interest in doing 
so to export or import the specialized equipment and materials 
essential to the manufacture or assembly of NBC devices and delivery 
systems.
    As far as is known, the mechanisms of the global market have not 
been used to transfer fissile material--which is used in nuclear 
weapons. At the same time, we cannot be certain that such transfers 
have not occurred. The operations by the U.S. and the UK, respectively, 
to remove at risk material from Kazakhstan and Georgia highlight the 
potential availability of such material. It is not beyond the realm of 
possibility that the ongoing trade between North Korea and Pakistan, 
neither with a surfeit of hard cash, is based on a barter arrangement: 
ballistic missile technology from North Korea in return for weapons-
grade uranium (or even plutonium if recent press reports are correct) 
from Pakistan.
    The ability of the U.S. and other interested governments to gather 
the intelligence needed to address proliferation concerns is heavily 
stressed. The number of competing tasks, the complexity of the market 
environment and the acknowledged capacity of proliferators to deny 
information about their activities and deceive about their intentions 
and capabilities makes timely and accurate intelligence collection and 
analysis difficult.

Consequences of proliferation in the future

    A number of emerging powers in addition to the Russian Federation 
and China will directly threaten the U.S. with NBC weapons delivered 
over varying ranges by land- or sea-launched systems. Emerging powers 
will also threaten U.S. allies and friends. These emerging powers are 
likely to pose threats to one another and in some cases to Russia and 
China, e.g., Iran and Iraq, India and China, contributing to heightened 
regional tensions and further complicating efforts to address the 
consequences of proliferation. Their missile delivery systems and the 
weapons they carry will vary in sophistication, but all are likely to 
have profited from proliferation activities by Russia, China, North 
Korea and Pakistan and are likely, therefore, to pose a technically 
credible threat.
    While we concentrate on the military-technical aspect of 
proliferation, in the end its strategic-political effects may be more 
profound. Some of those effects are already evident. Friends and U.S. 
allies are taking measures to enhance their own security in light of 
the new threats. Following the flight of North Korea's Taepo Dong I 
over its territory, Japan announced it would deploy a reconnaissance 
satellite to monitor regional developments, particularly in North 
Korea. Concerned about North Korean missiles, South Korea is seeking 
its own medium range offensive strike capability as a deterrent. Saudi 
Arabian officials are reported to have visited Pakistani missile 
facilities, no doubt motivated by developments in Iran and Iraq. Israel 
is deploying its ARROW theater missile defense and is reported to be 
exploring submarine launched missile systems as measures to reinforce 
its deterrent posture.
    These developments among U.S. allies and friends will have their 
own consequences over time, not all of which we can foresee. For the 
moment, at least, they are taking place within the context of U.S. 
security commitments. It is not impossible to imagine that some allies 
and friends, uncertain of U.S. commitments or anxious to insulate 
themselves from the unpleasant consequences of being implicated in a 
crisis managed by the U.S., would seek to develop separate or 
independent approaches to addressing proliferation threats. These 
approaches could include both military efforts, as in the case of South 
Korea, or political efforts to fashion regional or global security and 
proliferation agreements that are not fully in U.S. interests.

                FOUNDATION OF A NONPROLIFERATION POLICY

Resist casting nonproliferation as a ``norm''

    In recent years the international community, whether narrowly 
focused on nuclear nonproliferation or more broadly on the range of 
technologies of concern, has characterized its efforts as the creation 
and enforcement of ``norms'' of behavior.
    It is argued that the members of the various nonproliferation 
regimes, in acceding to the regime, have declared the action(s) or 
item(s) subject to control illegal and illegitimate. This is especially 
evident in the context of the NPT. Its original object was to slow the 
spread of nuclear capability beyond the five nuclear weapons states 
acknowledged by the NPT. That purpose has evolved over to time such 
that today it is seen as the vehicle for the elimination of nuclear 
weapons. From this perspective proliferation is viewed as the 
equivalent of trade in contraband, i.e., an illegal act and an affront 
to the moral sensibilities of the international community.
    Curiously, however, the international community has not sought to 
punish the violator(s), for example by expulsion from the regime and 
denial of the real benefits associated with membership. Instead, the 
instinct of the international community has been to abolish the trade 
and work to reform the bad actors, to bring them into conformity with 
the norms of the community. Regime members fear that expulsion would 
undermine the universality of the norms and in that way legitimize the 
illegal behavior. For those proliferators clever enough to have 
understood this, the abolitionist tendencies of the international 
nonproliferation community have created an opportunity to extort 
compensation for their contraband, all the while seeking ways to 
preserve whatever advantages they may have accrued through the 
acquisition or sale of the contraband. This, I think, is the tale told 
in the case of North Korea's nuclear weapons and ballistic missile 
programs. This is not where we began with Iraq, but recent developments 
suggest it is the course on which we now find ourselves.
    Moreover, the application of the norms is without differentiation 
with respect to the states to whom they are applied. In the case of 
nuclear weapons they are said to pose a moral challenge to the 
international community irrespective of whether they are possessed by 
the U.S. or North Korea. The aim, as one leading member of the NPT-
related NGO community put it, is universal nuclear disarmament, the 
sooner the better. Leaving aside the suggestion of ``moral 
equivalence'' between the U.S. and North Korea, this view undermines 
the foundation of the regime. That is, it was the nuclear deterrent 
effect that was provided by the U.S., France and the United Kingdom 
during the Cold War that made sense of an agreement like the NPT. It 
remains the case that the assurances of international stability broadly 
and of direct security commitments in the case of allies and friends of 
the U.S. that holds the NPT bargain together.
    The underlying purpose and object of nonproliferation policy is 
increasingly obscured by an appeal to the creation and enforcement of 
international norms. So too have the necessary components of a 
successful nonproliferation policy, specifically, and arms control 
policy more broadly. Proliferation is a conscious effort by small 
number of states and entities to undermine the efficacy of deterrence. 
The pernicious, if unintended, effect of ``norming,'' particularly in 
the case of nuclear nonproliferation, is to weaken the deterrent 
capability that gives those norms the possibility of having practical 
effect.
    In my view the norms associated with nonproliferation policy should 
be understood as expressions of the higher principles that guide the 
conduct of international affairs. These are reflected in our own 
Constitution and laws and reflected in the conduct of our affairs over 
two hundred years. The same can be said for other Western states.
    In making this observation I do not dismiss the commitments the 
U.S. and others have made in various agreements and treaties. None is 
more subject to debate in this regard than the obligation it and other 
nuclear weapon states (NWS) have assumed under Article VI of the NPT:

        . . . to pursue negotiations in good faith on effective 
        measures relating to cessation of the nuclear arms race at an 
        early date and to nuclear disarmament, and on a treaty on 
        general and complete disarmament under strict and effective 
        international control.

    This obligation is not a ``norm'' independent of and superior to 
those imposed on U.S. policy by our own Constitution and laws. But it 
does impose on us an obligation to create the conditions and devise the 
``effective measures'' that allow for the goals of Article VI to be 
approached.
    As the earlier discussion indicates, current conditions are not 
conducive to a nonproliferation and related arms control policy based 
on the concept of creating and enforcing norms. Far from our 
expectations that we could build upon the favorable conditions that 
seemed to have been created by the end of the Cold War, we confront 
conditions in which large and small states alike find it advantageous 
to ignore norms and pursue their more immediate national interests.
    Hence, in my view creating conditions under which nonproliferation 
and other arms control agreements might operate successfully in the 
first order of business. And the creation of those conditions depends 
now and for the foreseeable future, as it did in the Cold War, upon an 
effective American deterrent strategy, including but hardly limited to 
a continuing role for nuclear weapons.
Develop policies that enhance U.S. deterrent potential
    U.S. deterrent policy has not been static. With the evolution of 
the Cold War, and now with the changes in the post-Cold War 
environment, the U.S. has adjusted both its deterrent forces and 
policies. With respect to offensive nuclear forces, as noted, 
negotiated agreements and unilateral actions have reduced the number of 
deployed weapons. Moreover, the U.S. is prepared to reduce its forces 
further and to explore reductions beyond levels already identified.
    But in the face of technological advances and the realities 
outlined above, a deterrence policy based primarily on nuclear weapons 
is not enough. This is not a new development. Since the late 1950s the 
U.S. has continually shifted the balance of its deterrent from a 
primary reliance on nuclear weapons of the ``New Look'' to the mix of 
nuclear and conventional forces at the heart of NATO's strategy of 
``flexible response.'' The Gulf War taught us that now deterrence also 
requires conventional forces that are protected against long-range air 
and missile strikes, rapidly deployable, stealthy in their operation 
and able to strike with precision against an adversary's ``center of 
gravity'' from the outset of a campaign. Kosovo taught us the value of 
information operations. If these are some of the lessons the U.S. has 
learned, it is certain that potential adversaries have learned these, 
and more, as well and are considering how to overcome U.S. 
capabilities.
    Discouraging the acquisition of NBC-related and other advanced 
technologies by countries of concern is an essential element of a U.S. 
deterrent strategy. But it is evident that a deterrent based primarily 
on nuclear weapons is insufficient. The capability of the U.S. to 
retaliate for nuclear (or chemical or biological) use has not 
discouraged the acquisition or development of these weapons by North 
Korea, India, Pakistan and possibly Iran. Clearly more is needed to 
deter such behavior.
    Nonproliferation policy needs to assure the continued development 
or adaptation of U.S. military capabilities. International and bi-
lateral agreements need to provide the U.S., and by extension its 
allies, with flexibility in such fields as missile defense, cyber 
operations, intelligence collection and covert operations, advanced 
conventional munitions and delivery systems stand at the top of the 
list. And, given the inclination of proliferators to place their 
factories, depots, headquarters and bases underground, we may need to 
consider as well whether we have the nuclear weapons we currently 
deploy are a credible deterrent or if new designs are needed. Put 
another way, nonproliferation agreements need to be subjected to a net 
assessment. Given the realities of proliferation, does a proposed 
agreement provide the U.S., its allies and friends with long-term 
deterrent advantages over prospective proliferators?

Promote narrower purposes for the nonproliferation regimes and mobilize 
        friends of the regimes in support

    It was earlier remarked that U.S. nonproliferation policy should be 
broadened to include chemical and biological weapons, the means for 
delivering weapons over long distances and new weapons, such as 
computers, in addition to the traditional emphasis on nuclear weapons. 
But while the scope should be broadened, U.S. policy needs a narrower 
but more attainable objective for its nonproliferation efforts. That 
purpose is to reduce direct threats to the U.S., its forces and our 
allies. That policy objective will succeed best when allies and friends 
share it and contribute to its accomplishment. Like the U.S., they have 
an interest in discouraging regional powers from acquiring means to 
gain by force or threats of using force what they cannot acquire 
through accepted international practices. This narrower focus, rooted 
in national interest as opposed to abstract norms, does not resolve the 
difficulties we face today in discouraging proliferation. But it does 
help strip away the apparent contradictions related to nonproliferation 
policies.
    An example helps to make the point. Judged by their own objectives 
and criteria, the CTR program with Russia has been far more effective 
than persuading the Russians to abandon their altogether legal and 
lucrative trade with Iran in civilian nuclear technology. The CTR is 
not a matter of norm setting. It is a matter of mutual national 
interest. For the U.S. it increases confidence that nuclear weapons 
will not be transferred out of Russia. For Russia it provides much 
needed assistance for the performance of state functions on which its 
domestic and international credibility depends. Restricting Russia's 
nuclear trade with Iran is in American interest. It is not, however, in 
Russian interest. Moreover, under the NPT regime it is a legal 
activity. An appeal to Russia based on the norms of the NPT not only 
poses a false issue--the trade after all is legal--but it obscures the 
larger point that both Iran and Russia have national interests that are 
served by the trade. Discovering and understanding that interest, 
evaluating its implications for the security of the U.S. and its allies 
and friends and gathering international support in opposition, if that 
is appropriate, may be more difficult than an appeal to international 
norms. It is, however, more likely to create a firmer, less equivocal, 
base in both domestic and international public opinion if action in 
opposition to Russian and Iranian interests proves necessary.
    To test this proposition we might consider how would the U.S. 
respond if in the next 12-36 months evidence is adduced that Iran, 
actually or virtually but in violation of its NPT commitments, were in 
possession of a nuclear device? If the response were driven by a 
determination to sustain the norms of the NPT regime, we would be 
required to compel Iran's compliance with the NPT as we have with North 
Korea. But what is the likely success of this approach? Iran is a 
country with an increasingly popular form of government. It is not an 
isolated regime. Nor is it a bankrupt country, friendless and isolated 
in the international system. It has friends in the Muslim and Arab 
world and it engages the interests of many of our allies. It is a key 
to stability in the Middle East/Southwest Asia region. If North Korea 
has been able to trade its illicit activity for compensation, if Iraq 
has been able to wear down the determination of the international 
community, what might we expect of Iran? And if, having made a point of 
demanding Iranian compliance with the norms of the NPT, Iran either 
retains openly or is widely suspected of retaining covertly a nuclear 
weapons capability, what standing can be accorded the NPT and its 
norms? Moreover, having attempted to rally opinion to sustain the NPT, 
how difficult will it be to rally support for an alternative policy, 
for example of containment aimed at rollback? If we could not sustain 
this approach with Iraq, what prospect do we have to sustain it with 
Iran?
    This alternative point of departure could declare Iran's 
acquisition of a nuclear device a threat to the security of the U.S. 
and its allies and friends and to international peace and stability. It 
might be accompanied by an effort to have it expelled from the NPT and 
other international organizations until Iran permits uninhibited 
inspections of its facilities. The U.S. could seek to contain Iran and 
motivate neighboring states to pose a crushing military challenge such 
that Iran gives up the game and is brought into compliance with its NPT 
obligations. This is a difficult course, one obviously fraught with 
dangers and uncertainty.
    Another choice would be for the U.S. to seek a rapprochement with 
Iran as a new player on the regional scene. But this would require a 
full overhaul of the NPT regime and its accompanying norms. It would 
require a policy that made sense of the status of Israel as well as 
Pakistan and, India which did not at the same time give encouragement 
to others capable of developing nuclear weapons but who have so far not 
done so.
    The point here is not to define policy in response to an event that 
may not occur. It is to illustrate that our current policy, rooted in 
the preservation of norms, needs reconsideration in light of recent 
precedent setting events and the complexity that would surround a sharp 
challenge to those norms, in this example acquisition by Iran of a 
nuclear capability. And it is to suggest that a more narrowly focused 
policy, animated by national interests that can be clearly articulated 
and that give rise to predictable course(s) of action, may prove better 
suited to rallying support to meet a security challenge while still 
preserving the norms of the regime.

                         NEAR-TERM INITIATIVES

    A series of steps over time is needed for building a modern 
proliferation policy. Following is a set of steps that might be taken 
in the near term.
                         NPT REVIEW CONFERENCE

    The U.S. should affirm its commitment to the principles and 
practices of the NPT. The U.S. should affirm that it recognizes and 
accepts, as one of the declared nuclear weapons states party to the 
treaty, the special responsibilities it has undertaken to advance the 
purpose and object of the treaty consistent with its rights as a 
sovereign state, its rights and responsibilities under the UN Charter, 
and its solemn obligations to allies.
    In plain language this means that the NPT does not supersede other 
rights and obligations of the U.S. nor does it undermine the legitimacy 
of nuclear weapons as an element of U.S. security policy.
    The U.S. should reiterate its policy, as articulated by 
Undersecretary of Defense Slocombe, that a commitment to negotiate 
nuclear disarmament is one made in the context disarmament on a 
broader, global scale. It should, as a consequence, reject any effort 
to establish a time-bound schedule for nuclear disarmament.
    The U.S. should also reiterate that its obligations on 
nonproliferation stem from the NPT itself and not from the ancillary 
documents that have been produced through the Preparatory Committees 
(PrepComs) and Review Conferences (RevCons). In particular, the 
Principles and Objectives adopted at the last RevCon imposes no new 
obligations on the U.S.
    The U.S. should resist efforts to upgrade the role of the PrepComs 
and RevCons to assemblies charged with devising plans for the 
implementation of disarmament proposals or assessing the compliance of 
NPT parties with those plans.
    The U.S. should reject the premise that the nonproliferation regime 
now depends for its viability on an interlocking set of treaties and 
agreements--e.g., ABMT, START, CWC, BWC, CTBT. The exercise by the U.S. 
of its rights under a treaty, e.g., amending or withdrawing from the 
ABMT, does not relieve it of its obligations under other treaties. More 
to the point, such an action by the U.S. does not relieve other states 
of their obligations. Each of these agreements stands on its own legal 
foundation.

                    EXPORT AND LICENSING PROCEDURES

    It is with considerable trepidation that I raise export and 
licensing procedures given the active consideration of the Export 
Administration Act (EAA) by the Senate. It is my view that such 
procedures are a critical element of our nonproliferation policy. But 
in the same way that we have to realize that ``norms'' will not pose a 
substantial barrier to those who choose to violate them, the same is 
true of export and licensing procedures.
    There are precious few assets needed by proliferators--technology, 
materials, experts--that cannot be obtained relatively easily in the 
global market place. (Fissile material for weapons is one asset 
difficult, though perhaps not impossible to come by.) It is true that 
not all of those assets will be cutting edge. They don't need to be 
such to be of use to proliferators. They need only be good enough to 
get the job done. This is true for computers used in weapon design, 
commercial mixing bowls used by bakeries that can mix solid fuel for 
missiles and three axis winding machines best used to make shaft for 
golf clubs but also adequate to make re-entry vehicle ablative shields.
    I would urge that as we revise our export and licensing procedures 
we do so with an eye to making them useful for two purposes. First, we 
must assure that the transfer and use of assets known to be essential 
to proliferation activity of greatest concern are accounted for and 
controlled. Second, rather than try to control an impossibly long dual-
purpose list, we should develop a comprehensive and easily manipulated 
database of items shipped to countries or actors of concern. The U.S. 
and other countries must be willing to contribute to the database if it 
is to be a useful tool. Algorithms could reduce the information and 
keyword searches developed with reference to projects proliferators are 
known or are suspected to be working on. Knowing, for example, that 
Iran has an interest in solid rocket motors would allow analysts to 
search the database to determine whether it has obtained the winding 
machines it would need for their manufacture. Then, at least, we would 
have a better idea of the state of its ambitions and be able to take 
more focused measures to prohibit the transfer of or interdict 
shipments we can reasonable associate with its solid rocket motor 
effort. Third, analysts need to be trained in alternative, creative 
pathways to proliferation that can circumvent established export 
controls. Care needs to be taken that a focus on known programs and 
pathways does not blind them to innovative technical routes.

                            NON-STATE ACTORS

    Proliferation policy needs to take into account non-state actors. 
This includes suppliers as well as actors who may or may not be acting 
with the blessing of their government. Some of the efforts directed at 
state actors can make it more difficult for non-state suppliers to meet 
demand. Complicit behavior by governments in the conduct of entities 
ostensibly under the control presents an especially difficult challenge 
for current policy.
    With respect to non-state actors, e.g., terrorists or ``liberation 
groups'' that threaten the use of NBC weapons or conduct cyber 
operations, the need for deterrent and defense measures, to include a 
role for law enforcement and ``consequence management'' is critical. As 
the Deutch Commission on the Organization of the Government for 
Combating Proliferation argued, the overriding problem may be less 
available means than a poor government organization for meeting the 
threat.

                  INTELLIGENCE COLLECTION AND ANALYSIS

    The key to an active proliferation policy is good intelligence. But 
good intelligence is hard won when it comes to the proliferators of 
greatest concern. They have learned a great deal about how we collect 
intelligence and how we analyze it. As a result, they have become 
better at deception and denial. Advances in technology also make 
collection more difficult as information is becoming better protected.
    But improvements are possible. The Rumsfeld Commission, in its 
``Intelligence Side Letter'' outlined a number of improvements, many of 
which have been embraced by the intelligence community. More money, 
less for collection than for the hiring and training of analysts 
devoted to studying the strategic intentions, military doctrine and 
technical capabilities of proliferators is needed. Wider ranging 
cooperation with allied and friendly governments ought to be pursued as 
well. But in the end, given the sensitive nature of intelligence, we 
will need to rely on our own resources.

                       BALLISTIC MISSILE DEFENSE

    In my judgment defense is essential as a compliment to our 
offensive forces--conventional and nuclear--in deterring aggression by 
regional powers against U.S. allies and friends or the U.S. itself. An 
initial deployment should be competent to defeat the current and 
anticipated threat against the U.S. and its allies, even if this 
requires basing elements of an NMD-capable systems abroad. It should 
also include a research, development and testing regime structured to 
discourage regional powers from exploiting the global market for 
technologies to overcome our defense. And, it should give clear 
indications to potential adversaries of the conduct, e.g., expanded 
arsenals, threatening deployments, aggressive testing, hostile acts 
against states in the region, that would cause us to consider expanding 
our initial deployment.

                       OFFENSIVE FORCE REDUCTIONS

    The U.S. has indicated its willingness to reduce its current 
nuclear offensive forces to the START III level of 2,000-2,500 deployed 
warheads. There are calls to reduce the number even lower, to the level 
of 1,000 or even 500 warheads. Before going beyond the START III level 
the U.S. needs to review its requirements for offensive forces in a 
world of multiple nuclear offensive threats.
    During the Cold War force sizing and the characteristics of the 
forces were driven primarily by the Soviet threat. Today Russia still 
poses a significant threat to the U.S. China is modernizing its 
offensive forces and will present within the decade a more technically 
capable and substantially larger threat than it does today. North Korea 
and Iran lead a group of states that have larger arsenals of short to 
intermediate range missiles that can deliver NBC weapons to threaten 
U.S. forward deployed forces and allies. In addition, North Korea and 
Iran are both likely to pose a direct threat to the U.S. India has the 
capability to use its space launch vehicles to deliver payloads over 
ICBM ranges and is developing missiles dedicated to the ICBM mission. 
We need to consider the role of our reduced nuclear forces in deterring 
these threats and capabilities.
    The credibility of the nuclear deterrent will turn on its evident 
technical capacity to hold at risk in a timely and responsive fashion 
those targets that pose the greatest risk to the U.S. and its allies 
and which are most highly valued by an adversary. In an age in which 
such targets are more often than not mobile or buried underground, and 
in which concerns about any nuclear use and collateral damage is high, 
this puts an enormous strain on the nuclear forces. In my view we need 
to carefully consider whether the forces we would deploy at reduced 
aggregate numbers will be structured and equipped to deter effectively 
in a proliferated world.

                                  CTBT

    It is for this reason that I believe the U.S. should not ratify the 
CTBT. Pending a careful review of our forces, we may discover that we 
need new designs for our weapons--the delivery vehicle, the warhead or 
both--to address adequately requirements that are emerging. We need to 
have high confidence that any system changes that affect warhead 
performance, modifications to existing weapon designs to create new 
capabilities or new designs developed to meet new requirements are 
safe, reliable and, in the minds of an adversary, credible. I do not 
believe that the scientific community would certify warheads developed 
under these conditions without testing. A policy that called for a 
review that could result in the need for new weapon designs and testing 
would not elicit broad, bi-partisan support here at home and would be 
met with stiff opposition abroad. This leads back to the special 
obligation the U.S. carries for enforcing deterrence. Without credible 
forces deterrence strategic are very risky.

                           REASSURING ALLIES

    A nonproliferation policy that included limited national missile 
defense and modernized nuclear forces at lower aggregate numbers would 
need to be explained to our allies. In truth, that is a task in which 
the Administration is currently engaged, at least as it affects defense 
and lower offensive forces. But the explanation would need to go beyond 
the unsatisfying military-technical argument so frequently heard. For 
in the end while allies expect that we know how to use our military-
technical capability to deter and defend, it is on our political-
strategic judgment that they rely for their security. Knowing the U.S. 
can win a war they would rather not see fought and over which they may 
have little control is not a position any self-respecting allied 
government can sustain.
    The judgment they rely on is how best to meld our military-
technical capability with the diplomatic arts related to the building 
of coalitions, the isolating of ``bad actors,'' and the development of 
mechanisms for rehabilitating former adversaries while addressing the 
underlying causes of instability. This is a delicate balance that the 
U.S. has long struck in Europe, the Middle East, South and Southwest 
Asia and in Northeast Asia.
    But as the discussion of Iran and its possible possession of a 
nuclear weapons suggested, our judgment and resulting actions could be 
constrained by a nonproliferation policy more devoted to creating and 
sustaining norms than preserving regional security. A clear and 
uncompromising commitment to regional security, careful nurturing of 
our relations with friends in the region, diplomacy with our European 
allies that anticipates the event and sketches a coordinated response, 
these are actions more likely to assure allies and blunt any 
destabilizing consequences of an Iranian nuclear weapon. They are 
likely to be more reassuring than will proceedings in UN Security 
Council, IAEA and other places to fashion a response.

               ADDRESSING THE ``INTERNATIONAL COMMUNITY''

    As a great democracy and leader of the international community, the 
U.S. cannot be disdainful of international opinion. We are obligated to 
take its criticism of our actions and policies with same seriousness 
with which criticism is offered. Toward that end, the revision of 
nonproliferation policy has to be pursued in the open and with 
consistency among its many components. Unipolar American hegemony is 
not an ambition shared by many in the U.S. We do ourselves no harm, and 
may garner goodwill, in seeking to draw as many friends and allies as 
possible into our nonproliferation effort.
    But in the end the U.S. needs to be clear that it intends to treat 
the consequences as proliferation as a significant strategic challenge. 
As such its first line of defense is a credible ability to deter the 
use of NBC weapons and newer, advanced technologies. Treaties, 
agreements and other instruments of international law are valuable to 
the extent that they reinforce that credibility. Those instruments can 
serve as well to reduce deployed forces and to decrease the possibility 
of conflict through miscalculation. They can even slow and at time help 
to roll back proliferation. But the test of their value in the end is 
always the same; in the end, do they enhance the credibility of 
deterrence under the conditions they are meant to create?

    Senator Lugar. Thank you very much, Dr. Cambone.
    At this point we will have a short recess and we will 
return and continue our dialogue. Pardon us for leaving you 
right at this moment, but we will come back fresh. Thank you.
    [Recess from 4:05 p.m. to 4:27 p.m.]
    Senator Lugar. The hearing is resumed.
    We are very pleased that you are here, Mr. Cirincione. We 
look forward to your testimony. Please proceed.

  STATEMENT OF JOSEPH CIRINCIONE, DIRECTOR, NONPROLIFERATION 
     PROJECT, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, 
                        WASHINGTON, D.C.

    Mr. Cirincione. Senator Lugar, thank you. It is an honor to 
testify before this committee. As someone who spent 9 years on 
committee staff, I understand the relative value of expert 
testimony, so I will be brief, and perhaps we can have--
    Senator Lugar. Well, not too brief.
    Mr. Cirincione [continuing]. --more of a conversation up 
here.
    I guess there are two essential points I would like to 
make, Senator. The first is that, despite some analysts' 
feelings that the existing nonproliferation regime, this 
interlocking network of treaties, organizations, and 
arrangements, is ill suited to the tasks of the new century, I 
would say that this regime has withstood quite well the test of 
history, and it has one overwhelming argument in its favor; it 
works.
    We have to remember before there was a nonproliferation 
regime the kind of world the United States feared. President 
John Kennedy warned us in the beginning of the 1960's that he 
feared that by the end of that decade 15, 20, or 25 nations 
could acquire nuclear weapons, not just small nations, not the 
rogue states of the day, but the large industrial nations. 
Sweden had a nuclear weapons program, Italy had a nuclear 
weapons program. We were worried about what path Germany and 
Japan might take.
    Fortunately, with bipartisan cooperation through the 
1960's, by the end of the decade only one new nation, China, 
joined the existing four nuclear weapons states. And in fact, 
the regime that was then built has successfully, although not 
completely, contained the spread of nuclear weapons. We run on 
average about one new nuclear weapons state a decade. That is 
not a bad historical record. I would rather it was none. I 
would rather we were reducing this. But on average, the 
nonproliferation regime has seen only one failure per decade.
    Let me remind you of the scene almost 15 years ago when 
experts and government officials looked then at the 
proliferation risks posed by the top ten states of concern: 
India, Israel, South Africa, Pakistan, Argentina, Brazil, Iraq, 
Libya, South Korea, and Taiwan. Today, 15 years later, three of 
these--South Africa, Argentina, and Brazil--have abandoned 
their nuclear weapons programs; two, South Korea and Taiwan, 
would be a risk only if their regional situation sharply 
deteriorates; one, Libya, is of moderate concern; one, Iraq, 
remains of high concern; and three, India, Pakistan, and Israel 
now have nuclear weapons.
    There are other states that bear watching, but over the 
past 15 years only two new nations of high concern must be 
added to this list, North Korea and Iran, for a total of seven 
countries remaining on the active nuclear proliferation watch 
list.
    At this same time, the nonproliferation regime has allowed 
us to accomplish some impressive achievements. Perhaps the most 
historically significant is the denuclearization of Ukraine, 
Belarus, and Kazakhstan after those new nations inherited 
thousands of nuclear weapons from the Soviet Union in 1991 and 
the implementation of the Nunn-Lugar-Domenici cooperative 
threat reduction programs in these states.
    I must apologize to you, Senator, for using outdated 
figures in my prepared testimony. I hope you will allow me to 
correct the record, because in fact over the past few months--
or you could correct it for me--for the modest expenditure of 
approximately $3 billion, we have actually through the Nunn-
Lugar-Domenici programs dismantled well over 4,800 nuclear 
warheads, eliminated hundreds of nuclear ballistic missiles and 
ballistic missile silos and nuclear submarine launch tubes, and 
well over 50 long-range bombers--a truly impressive record from 
one of the key elements in the nuclear nonproliferation regime.
    On other fronts, during the last 20 years the Intermediate 
Nuclear Force Treaty eliminated an entire class of missiles 
from the arsenals of the United States and the Soviet Union. 
UNSCOM inspectors in Iraq uncovered and verified the 
destruction of far more biological and chemical weapons and 
facilities than were destroyed by the bombing during the 
Persian Gulf War in 1991. The Agreed Framework with North 
Korea, for all its problems, is successfully containing, 
perhaps reversing, the nuclear weapons program that threatened 
to plunge the Korean peninsula into war in 1994. A recent 
Council on Foreign Relations task force concluded, ``The Agreed 
Framework stands as the major bulwark against a return to the 
kind of calamitous military steps the United States was forced 
to consider in 1994 to stop North Korea's nuclear weapons 
program.''
    Meanwhile, South Africa dismantled its arsenal and joined 
the NPT and the African Nuclear-Free Zone, Algeria flirted with 
a secret nuclear program but abandoned its ambitions and joined 
the NPT in 1995, and, as I mentioned, Argentina and Brazil 
formalized the end of their nuclear programs by acceding to the 
NPT in 1995 and 1998 respectively.
    The regime has sustained some serious setback and defeats. 
There may be more in the future. Overall, however, the treaty 
regime has done a remarkable job of checking the unrestricted 
global proliferation Kennedy feared. One of the primary reasons 
is that this regime has enjoyed the bipartisan support of both 
major parties during most of its existence.
    In fact, people do not appreciate the powerful role played 
by Republican presidents in constructing this regime. In my 
testimony I refer to this as a Republican-built regime. Richard 
Nixon was not at all naive when he unilaterally ended the 
United States' biological weapons programs or when he launched 
the negotiations for the Biological Weapons Convention which 
banned biological weapons globally without, I might add, a 
verification regime. He was not naive when he negotiated the 
SALT I Treaty and the Anti-Ballistic Missile Treaty.
    I do not believe President Reagan was naive or idealistic 
when he negotiated the Intermediate Nuclear Weapons Reduction 
Treaty eliminating this entire category of missiles. President 
Reagan, of course, opposed the SALT II Treaty negotiated by his 
predecessor Jimmy Carter while he was a candidate; but as 
President he observed those treaty limits and then went out and 
negotiated one of the most far-reaching arms control pacts in 
history, the START I Treaty, and allowed his predecessor, 
President George Bush, to build on that and sign and negotiate 
the START II Treaty in 1993, which was the most sweeping arms 
reduction pact in history. President Bush also signed the 
treaty he had negotiated, the Chemical Weapons Convention, 
which prohibits chemical weapons worldwide, and he took very 
far-reaching unilateral steps in 1991 eliminating many of the 
tactical nuclear weapons that the United States had accumulated 
and sharply reducing the alert status of many of our nuclear 
forces.
    This is a very impressive record of accomplishment by 
Republican presidents, in cooperation in many instances with a 
Democratic Congress. I think that formula has proved 
historically to be the one that actually has led to the most 
successes. For whatever reasons, Republican presidents seem to 
be the ones that are able to implement many of these far-
reaching arms control treaties.
    Let me just end, sir, by suggesting that it would be a 
shame if we ignored this Republican legacy in our haste to 
devise new methods and new policies that may sound good, may 
sound tough, but have very little historical evidence to back 
them up. I am very leery of any efforts that would burn the 
bridge while we are still standing on it.
    I have to identify myself with the words of President 
Clinton in remarks just last Thursday to the Carnegie 
International Nonproliferation Conference. He said, ``I believe 
we must work to broaden and strengthen verifiable arms control 
agreements. The alternative is a world with no rules, no 
verification, and no trust at all. It would be foolish to rely 
on treaties alone to protect our security, but it would also be 
foolish to throw away the tools that sound treaties do offer--a 
more predictable security environment, monitoring inspections, 
the ability to shine a light on threatening behavior and 
mobilize the entire world against it.''
    I completely agree. These international norms matter, they 
work, and they can continue to work as long as we work in a 
bipartisan fashion to expand and strengthen these regimes.
    Thank you, Senator, for allowing me to offer these brief 
observations.
    [The prepared statement of Mr. Cirincione follows:]

                Prepared Statement of Joseph Cirincione

    the national security importance of the nonproliferation regime
    Thank you for the privilege of testifying before the Committee. My 
testimony is based on a new book I have just edited, Repairing the 
Regime: Preventing the Spread of Weapons of Mass Destruction. It will 
be published in late April jointly by the Carnegie Endowment for 
International Peace and Routledge. It is an honor to discuss these 
issues with you today.
    By way of background, I served for nine years on the professional 
staff of the House Armed Services Committee and the Government 
Operations Committee, beginning in 1985. My duties included tracking 
and analyzing developments in nuclear and ballistic missile programs 
and nuclear policy issues. I continued this analytical work during four 
years as a senior associate at the Henry L. Stimson Center in 
Washington and now for two years in my current position at the Carnegie 
Endowment.

Overview

    The first post-Cold War decade was in many ways a period of 
progress and global growth. The world's population grew 10 percent to 6 
billion people. The American economy enjoyed its longest peacetime 
expansion ever, with the Dow Jones industrial average rocketing from 
2600 to almost 12,000. Many other economies also prospered, as Asian 
countries expanded, crashed, and rebounded. Not coincidentally, the 
world's nations now spend 30 to 40 percent less on defense than they 
did during the Cold War, despite several major regional conflicts. 
Computers increased exponentially in speed, cell phones multiplied even 
faster, and the Internet grew from a backup system for nuclear war to 
an indispensable global network linking students, experts, and nations. 
It was a remarkable decade for the sciences, particularly astronomy, as 
space- and ground-based instruments extended our vision closer to the 
far edges of the universe and the beginning of time.
    In one crucial area, though, the past decade failed to live up to 
expectations. The threat of the mass destruction of human beings by the 
most heinous weapons ever invented still haunts world capitals and 
vexes military and political leaderships. During the 1 990s, fears that 
some group or nation would use internationally banned biological or 
chemical weapons actually increased. United Nations inspectors after 
the 1991 Persian Gulf War discovered that Iraq had assembled hundreds 
of weapons filled with VX and sarin nerve gas and two dozen others with 
biological agents, including anthrax, botulinum toxin, and aflatoxin. 
The 1995 sam gas attack on the Tokyo subway by the Japanese cult Aum 
Shinrikyo led some experts to warn of future ``super-terrorism'' 
battles. U.S. Secretary of Defense William Cohen calls it ``a grave new 
world of terrorism--a world in which traditional notions of deterrence 
and counter-response no longer apply.'' \1\
---------------------------------------------------------------------------
    \1\ ``Prepare for a Grave New World,'' Washington Post, July 26, 
1999, p. A19.
---------------------------------------------------------------------------
    Other experts caution that the media and fictional novels have 
exaggerated the chemical and biological weapon threats. Few can ignore, 
however, the brooding presence of the mountain of nuclear weapons and 
nuclear materials that still fill global arsenals. As the new 
millennium begins, eight nations possess almost 32,000 nuclear bombs 
containing 5,000 megatons of destructive energy. The equivalent of 
about 416,000 Hiroshima-size bombs, this global arsenal is more than 
sufficient to destroy the world. \2\
---------------------------------------------------------------------------
    \2\ The Royal Swedish Academy of Science in 1982 concluded that a 
thermonuclear war using approximately 5000 megatons would destroy all 
major cities of 500,000 population or greater in the United States, 
Canada, Europe, the U.S.S.R., Japan, China, India, Pakistan, Korea, 
Vietnam, Australia, South Africa and Cuba. Theoretically, in 1985 the 
United States and the Soviet Union had the ability to destroy the world 
three times over with their strategic nuclear weapons and could still 
do so at least once today. Carl Sagan and others warned that a war 
involving as low as 100 megatons could trigger a Nuclear Winter. This 
would involve, say, hitting 100 cities with 1-megaton warheads. This 
would induce such a drop in global temperatures and reduction of light 
that the resulting starvation and weather extremes would conceivably 
reduce the population of the planet to prehistoric levels. By this 
measure, we had then the ability to destroy the world 148 times in 1985 
and 50 times over today.
---------------------------------------------------------------------------
    With the collapse of the Soviet Union, the danger is no longer a 
global thermonuclear war. Americans do not fear thousands of Soviet 
warheads screaming over the Pole; nor do Russians worry about volleys 
of American warheads pulverizing their nation. However, there remains a 
very real danger that nuclear, biological or chemical weapons will be 
used in smaller--but still horrifically deadly--numbers. Whether 
delivered in the cargo hold of a ship, the belly of an airplane or the 
tip of a missile, the use of just one modern thermonuclear weapon would 
be the most catastrophic event in recorded history. A 1-megaton bomb 
would destroy fifty square miles of an urban area, killing or seriously 
injuring one to two million people. \3\ Even a smaller, more portable 
device of 100 kilotons (eight times larger than the Hiroshima bomb but 
small by today's standards) would result in a radiation zone twenty to 
forty miles long and two to three miles wide in which all exposed 
persons would receive a lethal dose of radiation within six hours. \4\
---------------------------------------------------------------------------
    \3\``The Effects of Nuclear War,'' Office of Technology Assessment, 
Congress of the United States, (Washington, D.C., 1979). The Public 
Broadcasting Service has constructed a website that allows users to 
plot the effects of a nuclear detonation on their city:
      (http://www.pbs.org/wgbh/pages/amex/bomb/sfeature/mapablast.html)
    \4\ Lachlan Forrow, Bruce G. Blair, Ira Helfand, George Lewis, 
Theodore Postol, Victor Sidel, Barry S. Levy, Herbert Abrams, Christine 
Cassel, ``Accidental Nuclear War--A Post-Cold War Assessment,'' New 
England Journal of Medicine, April 30, 1998. The authors conclude: 
``U.S. and Russian nuclear-weapons systems remain on high alert. This 
fact, combined with the aging of Russian technical systems, has 
recently increased the risk of an accidental nuclear attack. As a 
conservative estimate, an accidental intermediate-sized launch of 
weapons from a single Russian submarine would result in the deaths of 
6,838,000 persons from firestorms in eight U.S. cities. Millions of 
other people would probably be exposed to potentially lethal radiation 
from fallout. An agreement to remove all nuclear missiles from high-
level alert status and eliminate the capability of a rapid launch would 
put an end to this threat.'' See:
      (http://www.nejm.org/content/1998/0338/0018/1326.asp) or
      (http://www.psr.org/consequences.htm).
---------------------------------------------------------------------------
    It is not difficult to find official expressions of concern about 
the mounting proliferation problems.
  <bullet> President Clinton on several occasions has cited ``the 
        unusual and extraordinary threat to the national security, 
        foreign policy, and economy of the United States posed by the 
        proliferation of nuclear, biological, and chemical weapons and 
        the means of delivering such weapons.'' \5\
---------------------------------------------------------------------------
    \5\ National Emergency declared by Executive Order 12938 on 
November 14, 1994, reissued on November 12, 1998 and Letter to the 
Speaker of the House and President of the Senate, November 12, 1998.
---------------------------------------------------------------------------
  <bullet>  Secretary of Defense William Cohen said, ``Of the 
        challenges facing the Department of Defense in the future, none 
        is greater or more complex than the threat posed by weapons of 
        mass destruction.'' \6\
---------------------------------------------------------------------------
    \6\ Defense Reform Initiative Report (Washington, D.C., Department 
of Defense: November 1997), p. 19.
---------------------------------------------------------------------------
  <bullet> Secretary of State Madeleine Albright noted, ``The 
        proliferation of weapons of mass destruction is the single most 
        pressing threat to our security.'' \7\ She and then-Russian 
        Foreign Minister Yevgeny Primakov agreed at the 1998 ASEAN 
        summit that nonproliferation was the ``premier security issue 
        of the post-Cold War period.''
---------------------------------------------------------------------------
    \7\ Remarks to the NATO-Russia Permanent Joint Council, May 28, 
1998.
---------------------------------------------------------------------------
  <bullet> Lieutenent General Patrick Hughes, Director of the Defense 
        Intelligence Agency, concluded bluntly in his annual testimony 
        to Congress, ``The proliferation of nuclear, chemical, and 
        biological weapons, missiles, and other key technologies 
        remains the greatest direct threat to U.S. interests 
        worldwide.'' \8\
---------------------------------------------------------------------------
    \8\ Lieutenant General Patrick M. Hughes (USA), Statement for the 
Record, Senate Select Committee on Intelligence, January 28, 1998.
---------------------------------------------------------------------------
  <bullet> In January 1992, the member states of the United Nations 
        Security Council declared that the spread of weapons of mass 
        destruction constituted a ``threat to international peace and 
        security.'' Chapter VII of the UN Charter authorizes the 
        Security Council to impose economic sanctions or to use 
        military force to counter such threats.
    One might expect that the response would be to redouble efforts to 
stop the spread of these deadly weapons, including the ratification of 
treaties and agreements to prevent and reduce the threats. In fact, the 
reverse is occurring.

The NonProliferation Regime

    The first and strongest line of defense against the spread or use 
of weapons of mass destruction remains the nonproliferation regime--an 
interlocking network of treaties, agreements, and organizations. 
Centered around a series of treaties including the nuclear Non-
Proliferation Treaty (NPT), the Chemical Weapons Convention, and the 
Biological Weapons Convention, the regime is buttressed by numerous 
multilateral and bilateral agreements, norms and arrangements. \9\
---------------------------------------------------------------------------
    \9\ For a detailed description of the regime, see Repairing the 
Regime, Appendix I, ``The International Nonproliferation Regime.''
---------------------------------------------------------------------------
    The nonproliferation regime has been built over the past fifty 
years by many nations, but almost always with the leadership of the 
United States. It has grown most quickly and most surely when both 
major U.S. political parties shared in the construction. The 
initiatives of one president or Congress would often be fulfilled by 
the next, regardless of party affiliation. Over these decades, 
Republican presidents have often led the efforts, as described below.
    Now, a series of crises has shaken confidence in the regime. It 
urgently needs repair and revitalization but suffers from inattention 
and the mutual mistrust of many of its members. As we enter the new 
century, concerns with missile and nuclear programs in North Korea, 
Iran, and Iraq remain unresolved; the slow-motion arms race in South 
Asia keeps both nations intent on deploying nuclear weapons; Russia--
the world's largest warehouse of nuclear weapons, materials and 
expertise--spirals in economic decline; China modernizes its nuclear 
arsenal, Japan partners with the United States in missile defense, and 
the three nations link with the Koreas, Taiwan, India, and Pakistan to 
form an Asian nuclear reaction chain that vibrates dangerously with 
each nation's defense deployments. Meanwhile, international 
negotiations at the Conference on Disarmament and the Non-Proliferation 
Treaty review sessions drift inconclusively. The U.S. Senate delivered 
a stunning rejection of the Comprehensive Test Ban Treaty three years 
after it was signed; and it appears that President Clinton may complete 
his eight years in office without signing a single strategic nuclear 
reductions treaty, as compared with the two his predecessor signed 
during his four-year term.
    My testimony concentrates on nuclear proliferation, but 
increasingly the once distinct areas of nuclear, chemical, and 
biological weapons proliferation form an integrated whole. Developments 
in one area--good or bad--inevitably reverberate throughout the system. 
As I detail the overall proliferation trends and the state of global 
efforts to stop the spread of these weapons, it may help illuminate one 
of central issues now much in debate: Is it military might or ``pieces 
of paper'' that best ensure national security?
The Regime Works
    The need for military counters to the proliferation of weapons of 
mass destruction remains a necessary condition of international 
affairs. Certainly, the threat of devastating retaliation helps deter 
the use of these weapons. Today, conventional forces alone threaten 
national destruction on a scale that few leaders would risk. Nations 
also have a variety of counterforce options deployed and in development 
to strike mass destruction weapons, launchers, and facilities before 
they can be used. Finally, should all else fail, a third line of active 
missile defenses might provide some protection. Missile defenses, 
however, have a dual nature. While they promise an alluring 
technological solution to one type of mass destruction delivery system, 
mere talk of their introduction stimulates the very arsenals they hope 
to deter. Whatever their shortcomings, military defenses are essential 
elements of a successful nonproliferation strategy.
    Historically, the nonproliferation regime has one great factor in 
its favor: It works. Not even the most fervent advocate would claim the 
regime works perfectly, and there exists a long line of experts ready 
to discuss in detail the flaws in the regime.
    Nonetheless, since its birth in the 1960s, the nonproliferation 
regime has, if not prevented, at least greatly restricted, the spread 
of mass destruction weapons. President John F. Kennedy worried in the 
early 1960s that while only the United States, the Soviet Union, the 
United Kingdom, and France then possessed nuclear weapons, fifteen or 
twenty nations could obtain them by the end of the decade. However, 
with determined bipartisan presidential efforts and global cooperation, 
only China had joined the ranks of the five recognized nuclear-weapon 
states by 1970.
    Fifteen years ago, experts and governments warily eyed the nuclear 
proliferation risks posed by the top ten states of concern: India, 
Israel, South Africa, Pakistan, Argentina, Brazil, Iraq, Libya, South 
Korea, and Taiwan. \10\ Today, three of these (South Africa, Argentina, 
and Brazil) have abandoned their nuclear-weapon programs, two (South 
Korea and Taiwan) would be a risk only if their regional situation 
sharply deteriorates, one (Libya) is of moderate concern, one (Iraq) 
remains of high concern, and three (India, Pakistan, and Israel) now 
have nuclear weapons. There are other states that bear watching, but 
over the past fifteen years only two other nations of high concern must 
be added to the list: North Korea and Iran, for a total of seven 
countries remaining on the active nuclear proliferation ``watch list.''
---------------------------------------------------------------------------
    \10\ See, for example, Roger Molander and Robbie Nichols, Who Will 
Stop the Bomb? (New York: Facts on File Publications, 1985); Council on 
Foreign Relations, Blocking the Spread of Nuclear Weapons, American and 
European Perspectives, (New York: Council on Foreign Relations, 1986); 
Leonard S. Spector, Going Nuclear, (Cambridge, Mass.: Ballinger 
Publishing Company, 1987).
---------------------------------------------------------------------------
    At the same time, the governments have used the instruments of the 
regime on a number of fronts with impressive results. Perhaps the most 
historically significant is the successful denuclearization of Ukraine, 
Belarus, and Kazakhstan (after those new nations had inherited 
thousands of nuclear weapons from the dissolution of the Soviet Union 
in 1991) and the implementation of the Nunn-Lugar-Domenici Cooperative 
Threat Reduction programs in the states of the former Soviet Union. 
These programs provide, for example, financial and technical assistance 
to help the states of the former Soviet Union fulfill their obligations 
under the first Strategic Arms Reduction Treaty (START I). For the cost 
of one B-2 bomber ($2.5 billion over the last seven years) these 
programs have funded the deactivation of 4,838 nuclear warheads and the 
elimination of 387 nuclear ballistic missiles, 343 ballistic missile 
silos, 136 nuclear submarine launch tubes, and 49 long-range nuclear 
bombers in the former Soviet Union.
    On other diplomatic fronts, the Intermediate Nuclear Forces Treaty 
eliminated an entire class of missiles from the arsenals of the United 
States and the Soviet Union (846 U.S. and 1,846 Soviet missiles, 
including the modern Pershing II and SS-20 systems). UNSCOM inspectors 
in Iraq uncovered and verified the destruction of far more biological 
and chemical weapons and facilities than were destroyed in the massive 
bombing and ground assaults of the 1991 Persian Gulf War. The Agreed 
Framework with North Korea, for all its problems, is successfully 
containing and perhaps reversing a nuclear weapons program that 
threatened to plunge the Korean peninsula into war in 1994. A Council 
on Foreign Relations Task Force concluded, ``The Agreed Framework 
stands as the major bulwark against a return to the kind of calamitous 
military steps the United States was forced to consider in 1994 to stop 
North Korea's nuclear program.'' \11\
---------------------------------------------------------------------------
    \11\ U.S. Policy Toward North Korea: A Second Look, Report of an 
Independent Task Force Sponsored by the Council on Foreign Relations 
(Washington, D.C.: Council on Foreign Relations, July 27, 1999).
---------------------------------------------------------------------------
    Meanwhile, South Africa dismantled its arsenal of six clandestine 
nuclear devices in the early 1990s and joined the NPT and the African 
Nuclear Free Zone. Algeria flirted with a secret nuclear program but 
renounced such ambitions and joined the NPT in 1995. Argentina and 
Brazil formalized the end of their nuclear programs by acceding to the 
NPT in 1995 and 1998, respectively.
    The regime has sustained serious setbacks and defeats; there may 
very well be more in the near future; and there remains a distinct 
possibility of a catastrophic collapse of the regime. Overall, however, 
the treaty regime has done a remarkable job of checking the 
unrestricted global proliferation Kennedy feared.
A Global Leadership, Now Divided
    The regime is a true international effort. Large states and small 
have all played crucial roles. Ireland, for example, introduced the 
United Nations resolution in 1961 that began the negotiations for the 
Non-Proliferation Treaty. South Africa played a key role in the 
extension and strengthening of the NPT in 1995, and Australia was 
instrumental in securing the successful negotiation of the 
Comprehensive Test Ban Treaty in 1996. States capable of making nuclear 
weapons but who have eschewed their development, such as Canada, 
Sweden, South Africa, and Brazil, are critical to efforts to forge a 
new agenda for the regime.
    The United States, however, plays a unique role. While some 
demonize it as the source of many of the regime's problems, the United 
States remains the one nation in the world with the resources, status, 
and potential leadership capable of galvanizing international 
nonproliferation efforts. That leadership role has always been 
strongest when it has enjoyed the support of both major political 
parties. The relative inability of the United States to lead now can be 
traced in large part to the fierce partisan divide that characterizes 
American politics at the turn of the century.
    The proliferation policy debates of the past few years have been 
heavily influenced by calls from influential members of the U.S. 
Congress for increases in military spending, for more resolute 
opposition to arms control treaties, and for the rapid deployment of 
new weapons systems, particularly missile defenses.
    Numerous senators, for example, argued in the days after the South 
Asian nuclear tests for a program to field a national missile defense 
system. As Senate Majority Leader Trent Lott said in support of such a 
program, ``Only effective missile defense, not unenforceable arms 
control treaties, will break the offensive arms race in Asia and 
provide incentives to address security concerns without a nuclear 
response.''
    Hundreds of articles and speeches have cited the South Asian tests 
and the Korean and Iranian missile launches as proof that future 
threats are inherently unpredictable, intelligence estimates are 
consistently unreliable, the proliferation of weapons of mass 
destruction is fundamentally unstoppable, and, thus, the only truly 
effective response is reliance on American defense technology. Several 
expert commissions and congressional investigations have also endorsed 
this view. The reports of the Rumsfeld Commission on the Ballistic 
Missile Threat to the United States in 1998 and the Cox Committee on 
U.S. National Security and the People's Republic of China in 1999 were 
particularly influential in shaping media and political elite opinion. 
The impact is global. A regime in need of repair and revitalization 
remains in a state of suspended anticipation.

A Republican-Built Regime

    It was not always this way. The nonproliferation regime has enjoyed 
bipartisan support in the United States for most of the past fifty 
years. In fact, a quick historical review indicates that many may have 
overlooked the important role Republican presidents played in creating 
and nurturing the regime.
    Efforts to contain the spread of weapons of mass destruction began 
immediately after World War II, spurred by the initiatives of 
Presidents Truman, Eisenhower, and Kennedy. \12\ As part of his 
efforts, President Dwight D. Eisenhower proposed the creation of the 
International Atomic Energy Agency (IAEA) to promote the peaceful uses 
of atomic energy while the world's nuclear powers ``began to diminish 
the potential destructive power of the world's atomic stockpiles.'' 
\13\
---------------------------------------------------------------------------
    \12\ For a more complete history, see Joseph Cirincione, ``The Non-
Proliferation Treaty and the Nuclear Balance,'' Current History, May 
1995, available at:
      (http://www.stimson.org/campaign/currhst.htm)
    \13\ President Eisenhower warned in a speech to the United Nations 
on December 8, 1953, ``First, the knowledge now possessed by several 
nations will eventually be shared by others--possibly all others. 
Second, even a vast superiority in numbers of weapons . . . is no 
prevention, of itself, against the fearful material damage and toll of 
human lives that would be inflicted by surprise aggression.'' Nations 
naturally had begun building warning and defensive systems against 
nuclear air attacks. But, he cautioned, ``Let no one think that the 
expenditure of vast sums for weapons and systems of defense can 
guarantee absolute safety for the cities and citizens of any nation. 
The awful arithmetic of the atomic bomb does not permit of any such 
easy solution.''
---------------------------------------------------------------------------
    President Kennedy presented a ``Program for General and Complete 
Disarmament'' to the United Nations on September 25, 1961. His 
ambitious plan included all the elements that negotiators still pursue 
today: a comprehensive nuclear test ban; a ban on the production of 
fissile materials for use in weapons (plutonium and highly enriched 
uranium); the placement of all weapons materials under international 
safeguards; a ban on the transfer of nuclear weapons, their materials, 
or their technology; and deep reductions in existing nuclear weapons 
and their delivery vehicles, with the goal of eventually eliminating 
them. In his short tenure, President Kennedy was able only to secure 
the Limited Test Ban Treaty, ending nuclear tests in the atmosphere, 
underwater, and in outer space.
    In 1968, President Lyndon Johnson successfully completed 
negotiations for the Treaty on the Non-Proliferation of Nuclear 
Weapons. President Richard Nixon signed the treaty, bringing it into 
force, at a Rose Garden ceremony on March 5, 1970. ``Let us trust that 
we will look back,'' he said, ``and say that this was one of the first 
and major steps in that process in which the nations of the world moved 
from a period of confrontation to a period of negotiation and a period 
of lasting peace.''
    President Nixon followed his treaty signing with efforts that 
successfully established in the early 1970s the Non-Proliferation 
Treaty Exporters Committee (known as the Zanger Committee) to control 
the export of nuclear-weapons-related materials and equipment. He 
negotiated and implemented the Anti-Ballistic Missile Treaty limiting 
defensive armaments and the companion Strategic Arms Limitation Treaty 
(SALT) limiting offensive arms, both signed in May 1972.
    President Nixon also dramatically announced in November 1969 that 
the United States would unilaterally and unconditionally renounce 
biological weapons. He ordered the destruction of all U.S. weapons 
stockpiles and the conversion of all production facilities for peaceful 
purposes. \14\ At the same time he announced that after forty-four 
years of U.S. reluctance, he would seek ratification of the 1925 Geneva 
Protocol prohibiting the use in war of biological and chemical weapons 
(subsequently ratified under President Gerald Ford on January 22, 
1975). The president renounced the first use of lethal or 
incapacitating chemical agents and weapons, unconditionally renounced 
all methods of biological warfare, and threw the resources of the 
United States behind the effort to negotiate a Biological Weapons 
Convention. The treaty, signed by President Nixon on April 10, 1972, 
and ratified by the Senate in December 1974, prohibits the development, 
production, stockpiling, acquisition, and transfer of biological 
weapons.
---------------------------------------------------------------------------
    \14\ At the time the United States had a formidable biological 
weapons capability. The weapon thought most likely to be used was the 
E133 cluster bomb, holding 536 biological bomblets, each containing 35 
milliliters of a liquid suspension of anthrax spores. A small explosive 
charge would, upon impact, turn the liquid into aerosol to be inhaled 
by the intended victims. At the time the program was dismantled, the 
United States held in storage some 40,000 liters of anti-personnel 
biological warfare agents and some 5,000 kilograms of antiagriculture 
agents. All were destroyed. The Soviet Union had a similar, if not 
larger, program. Former first deputy director of Biopreparat Kenneth 
Alibek testified before the U.S. Senate that the Soviet program 
employed over 60,000 people and stockpiled hundreds of anthrax weapon 
formulation and dozens of tons of smallpox and plague. See:
      (http://www.fas.org/irp/congress/1998--hr/alibek.htm)
---------------------------------------------------------------------------
    As a candidate, Ronald Reagan opposed the SALT II treaty negotiated 
by President Jimmy Carter, but as president, Reagan observed the 
treaty's limits for years after assuming office. In his second term, 
President Reagan negotiated and signed on December 8, 1987, the 
landmark Intermediate-Range Nuclear Forces Treaty, a process begun by 
President Jimmy Carter's two-track policy of deployment and 
negotiation. The treaty required the destruction of all U.S. and Soviet 
missiles and their launchers with ranges between 500 and 5,500 
kilometers (a treaty some argue should be globalized to prohibit all 
missiles of this range anywhere in the world). As Richard Speier 
details in chapter 14, President Reagan also began the first effort to 
control the spread of ballistic missile technology--the Missile 
Technology Control Regime--in 1987, and he negotiated the first 
strategic treaty that actually reduced (rather than limited) deployed 
strategic nuclear forces.
    President George Bush signed the Strategic Arms Reduction Treaty in 
1991 and kept the momentum going by negotiating and signing in January 
1993 the START II treaty, the most sweeping arms reduction pact in 
history. That same month President Bush also signed the treaty he had 
negotiated, the Chemical Weapons Convention, prohibiting the 
development, production, acquisition, stockpiling, transfer, or use of 
chemical weapons. Of particular significance in this time of 
negotiations deadlock, President Bush on September 27, 1991, announced 
that the United States would unilaterally withdraw all of its land- and 
sea-launched tactical nuclear weapons and would dismantle all of its 
land- and many of its sea-based systems. The president also announced 
the unilateral end to the twenty-four-hour alert status of the U.S. 
bomber force and the de-alerting of a substantial portion of the land-
based missile force. (On October 5, 1991, President Mikhail Gorbachev 
reciprocated with similar tactical withdrawals and ordering the de-
alerting of 503 Soviet intercontinental ballistic missiles.)
    In his first term, President Clinton seemed to be continuing the 
momentum established by his predecessors. Secretary of Defense William 
Perry and Secretary of Energy Hazel O'Leary firmly established and 
expanded cooperative threat reduction programs with the states of the 
former Soviet Union and helped convince Ukraine, Belarus, and 
Kazakhstan to abandon their inherited nuclear weapons and join the NPT 
regime. President Clinton successfully managed the indefinite extension 
and strengthening of the NPT in 1995; led efforts to conclude and sign 
the Comprehensive Test Ban Treaty in 1996; failed in 1996 but came back 
in 1997 to win Senate ratification of the Chemical Weapons Convention; 
and resisted repeated efforts to repeal the Antiballistic Missile 
Treaty.
    Today, thousands of dedicated civil servants in the United States 
and around the world toil to implement and strengthen the institutions 
Republicans and Democrats have built for pragmatic security needs and 
as a legacy for future generations. The lessons from history are clear; 
only by working together, in true bipartisan cooperation can Americans 
preserve this legacy and strengthen these critical elements of our 
national defense.
    As President Clinton told the Carnegie International Non-
Proliferation Conference only last Thursday:

          I believe we must work to broaden and strengthen verifiable 
        arms agreements. The alternative is a world with no rules, no 
        verification and no trust at all. It would be foolish to rely 
        on treaties alone to protect our security. But it would also be 
        foolish to throw away the tools that sound treaties do offer: A 
        more predictable security environment, monitoring inspections, 
        the ability to shine a light on threatening behavior and 
        mobilize the entire world against it. \15\
---------------------------------------------------------------------------
    \15\ Remarks of President William Clinton to the Carnegie 
International Non-Proliferation Conference, March 16, 2000, available 
in full at:
      (http://www.ceip.org/programs/npp/conference2000.htm)

    I completely agree.
    Thank you for the privilege of offering these few observations to 
the Committee.

    Senator Lugar. Well, thank you very much, Mr. Cirincione.
    Let me just say that I appreciate the history and the 
bipartisan aspects of this, including the contribution by 
Republican presidents and the contributions by Democratic 
presidents. I wish Senator Biden were here. Maybe he will 
return. But I would just say the two of us visited with Mr. 
Kosygin in the Kremlin 21 years ago, during this time that he 
characterized as safer.
    We did not feel particularly safe with regard to our 
country. Our physical security was fine throughout the meeting, 
but at that time the escape of a Russian ballerina had tied up 
all the aircraft, so we were not going to go anywhere but 
Russia until that was relieved.
    In another instance, with Senator Sam Nunn, in a bipartisan 
transition between the Bush Administration and the Clinton 
Administration we visited with President Yeltsin with regard to 
our Nunn-Lugar efforts at a time in which President Yeltsin was 
vocal in his threats to Ukraine to give up their weapons or 
take the consequences. We traveled to see Ukrainian President 
Kravchuk and offered U.S. assistance in dismantling the 
Ukrainian arsenal.
    All of this obviously bipartisan. In fact, President 
Yeltsin, just anecdotally, said he wondered why he had not been 
called by either President Bush or President Clinton, and we 
cheerfully pointed out, that he had us, we were prepared to 
speak for both.
    But in any event, this has been an ongoing process in my 
life and Senator Biden's and certainly former Senator Nunn, who 
still is active, and others. Your testimony today is very 
helpful in tracing some of the history of this.
    You have pointed out that arms control regimes have enjoyed 
success in limiting the spread of nuclear weapons. Do you have 
equal confidence with regard to chemical and biological weapons 
of mass destruction or with proliferation as it pertains to the 
Japanese sect or others from time to time who come along?
    In other words, to what extent have our arms control or our 
regimes with regard to nonproliferation had applicability to 
this? And even if one accepts the thought that these regimes 
are tremendously important and that to burn bridges, as you 
say, would be reckless and foolish, some supplementary effort 
will still be required.
    Now, it could be multilateral and Senator Biden has spoken 
to that earlier on and so did Director Tenet. When I asked 
unilateral, he said, no, multilateral, our allies, other people 
are important in working this out with us. But I think we are 
searching in these hearings, as well as maybe other 
policymakers are, for how do we deal with this extension to 
other threats that are less visible, where the regimes are 
clearly more porous in terms of the intent and maybe the 
motivation.
    Do you have any sort of general thoughts about this?
    Mr. Cirincione. Yes, sir, I do. I believe the greatest 
threats we face from weapons of mass destruction in fact come 
from non-state actors using some of these weapons in relatively 
small quantities. As Senator Biden was pointing out before, we 
are not worried about global thermonuclear war any more. We are 
not talking about the fate of the Earth. But even a single use 
of one of these weapons would be horrific, and if it was a 
nuclear weapon it would be the worst catastrophe that we have 
ever experienced.
    That is exactly why the Nunn-Lugar-Domenici Act is so 
important, because I have to tell you, while I am worried about 
chemical and biological weapons, I am much more worried about 
loose nukes in the states of the former Soviet Union. We 
continually underestimate the threat that exists from that 
enormous warehouse of nuclear materials, weapons, and 
scientific capability, and it is all the more urgent to be 
expanding and accelerating those programs.
    At the Carnegie Endowment we are releasing a study next 
month that calls for a tripling of those programs, done by a 
gentleman I believe you know, Matthew Bunn at Harvard 
University. This is generally in line with the views of many 
proliferation experts: We can do more, faster.
    With regards to chemical and biological weapons, it is 
critically important that there are international norms that 
say that these weapons are illegal, that you shall not develop, 
acquire, stockpile, or use these weapons. Without such 
international norms, what would stop a country from developing 
and marketing these?
    I think most experts would agree that the greatest danger 
occurs from state development of these weapons. It is still 
extremely difficult for a sub-national group to actually 
manufacture these weapons, and the greatest danger is that some 
existing arsenals will be diverted or conducted in secret and 
diverted to a sub-national group.
    Will people cheat on these conventions? Absolutely. The 
price of freedom is eternal vigilance. That does not mean we 
should therefore tear down the convention. People still commit 
murder; we do not repeal the laws. We work to expand the 
implementation of laws to prevent people from doing so. That is 
basically my philosophy on the nonproliferation regime: Expand 
it, develop new initiatives, new efforts, but do not pretend 
that we can exist in a world where only the U.S. is setting the 
rules and everybody else will then fall into line.
    Senator Lugar. Well now, Mr. Joseph and Dr. Cambone, I hear 
you saying that the problems with states that do not honor 
these conventions or violate the norms is so substantial, that 
we should not honor their promises at all. In other words, if 
their activities are so bad as to threaten our national 
security we must not treat them as a normal state. In other 
words, we must treat them like the pariahs they are.
    Dr. Cambone, as I recall, testified that, leaving aside the 
regimes, the fact is that much more direct measures or at least 
different measures are going to be required to deal with these 
specific threats from rogue states and other sources of weapons 
of mass destruction.
    How do you respond to Mr. Cirincione?
    Ambassador Joseph. Senator, I would first of all reiterate 
what I said in my introductory remarks, and that is that norms 
are important. The norms established by the NPT, the BWC, and 
the CWC do make a real contribution to nonproliferation. 
Certainly we should not throw them out. I think we should 
redouble our efforts in terms of strengthening them.
    Yet for a number of states--and they do not even have to be 
rogues--if they see that their security interest demands 
nuclear weapons, they will pursue them. India, Pakistan, and 
other states--for example, Israel--acquired nuclear weapons 
outside the context of these norms. They did not sign the 
treaties. They pursued nuclear weapons.
    Then there are those our State Department is fond of 
calling the rogues--states such as North Korea and Iran and 
Iraq--who have proven that they will exploit their membership 
in the NPT. In Iran's case it is also a member of the CWC. All 
are members of the BWC. All three are pursuing these weapons.
    In fact, it is a perversion of the very high goals of these 
treaties when one sees these states using their membership as a 
means of access for the very technology and expertise that will 
assist in their weapons programs. I think we have to deal with 
that.
    I think that, with regard to a third set of states, there 
are clear victories that one can point to in the context of the 
norms. We have talked about Brazil and Argentina, for example, 
two states that pursued nuclear weapons, that decided, because 
their security situation had changed, that they no longer 
required nuclear capability. I believe that norms were one more 
incentive for them for ruling out these programs.
    The same with South Africa. Clearly norms are important for 
some states, but they are not important for the rogues and they 
are not important for non-state actors, the terrorists. I think 
we must not throw away the norms, but we must add new tools to 
our nonproliferation strategy. We have added the cooperative 
threat reduction program. That has made a major contribution to 
nonproliferation.
    But we also have to add defensive capabilities in terms of 
ballistic missile defenses, in terms of passive defenses, in 
terms of conventional counterforce capabilities, and I would 
think tailored nuclear capabilities as well, because all of 
these make a contribution to deterring rogue countries. If we 
can demonstrate in their minds that these weapons will not have 
the effects that they believe they have, perhaps that will also 
contribute to nonproliferation. And if not--and my sense is 
that deterrence is likely to fail against these states--we will 
have a better hedge against deterrence failure.
    I think we need to bring all of these instruments together. 
We need to demonstrate leadership with allies and with others 
in the international community, and we need to explain our 
strategy which consists of all of these various tools.
    Senator Lugar. With the acquiescence of my colleague, may I 
ask Doctor--
    Senator Biden. Sure.
    Senator Lugar [continuing]. --Cambone to continue and to 
amplify on your point that we ought to advise our 
representatives to this forthcoming nonproliferation conference 
in ways that you have suggested, namely to resist really more 
of a regime situation and to think of something else.
    Dr. Cambone. My concern there, Senator, is endorsing and 
advancing a course of action which thus far has not yielded the 
type results that we would prefer suggests that we ought to 
take a moment and ask ourselves, is that course the proper one 
and if we stay on this course do we forego other means by which 
we may in fact deter the kind of behavior we worry about.
    For example, a time-bound schedule for further disarmament 
seems to me to be the farthest thing from the interest of the 
United States. It is not that we do not take seriously, as 
Ambassador Joseph said, our article 6 commitments. But if you 
read it carefully, what those article 6 commitments say is that 
we need to create the conditions, essential conditions under 
which we can go forward. I would submit we have not reached the 
point yet where those conditions have been met and for the 
moment at least the pursuit of the universal adherence and so 
forth does not quite get us there.
    So what do we need to do? In the first instance, I would 
argue do no harm to what we have accomplished. I would not 
argue for dismantling the NPT regime. I would not walk back the 
decision to improve the IAEA's ability to inspect. Those are 
not the kinds of measures that we need to take.
    Now, in response, members of the review conference will 
say, ``Well, we will repeal those things, because we do not 
think that you are keeping your commitments in a way that we 
expect and anticipate,'' and so we, whether it is Mexico or it 
is Brazil or it is another country, will say, ``Well, we are 
going to begin to withdraw our own commitments.''
    This then gets us to the question of what the real norms of 
international behavior are. It seems to me that the NPT and 
other nonproliferation agreements, as well as the arms control 
agreements we have, reflect a higher set of norms of 
international behavior and of confidence and trust among 
states. They are not themselves the norms of international 
behavior.
    So it seems to me that a state like Mexico or Argentina or 
Brazil or any of the other states that would make these kinds 
of threats do so for the purposes of advancing a particular 
point, a particular interest, in the review conference, but 
they do not have an interest any more than we do in seeing 
these regimes break apart. What they do have an interest in is 
being certain that their region of the world and the global 
environment as a whole is not destabilized by this activity.
    So we then as the leader of these regimes need to find the 
mechanisms that do two things: effectively deter on the one 
hand and will gather the kind of acquiescence on the part of 
the other partners in these regimes to those activities while 
we are trying still to look toward the ultimate objectives of 
the treaty. But we have got to do both, and at the moment we 
are in my view losing the battle on the nonproliferation side 
such that--and Joe rightly pointed to the states which in the 
past had potential nuclear capabilities have foregone them. I 
will submit to you, sir, that not one of them is incapable of 
returning to that behavior if in fact the international system 
becomes such that they feel themselves at risk.
    It is our place, it seems to me, to assure that that does 
not take place.
    Senator Lugar. Senator Biden.
    Senator Biden. Mr. Chairman, I am a little confused about 
the way we use ``deterrence,'' the word ``deterrence,'' and the 
way we use the word ``norms.'' I think that Dr. Cambone, as my 
grandpop would say, your definition of what constitutes an 
international norm, he would say the horse cannot carry that 
sleigh. It was never intended to be that norm.
    I think you have set the bar so high as to what the norm to 
be accomplished or set by arms control is so unrealistic that 
you build in its demise. I think the norm as I understood it as 
you talk about it, Ambassador Joseph, is more rational and 
reasonable. It is a norm that operates on the margins. It 
operates on the margins and does not in fact fundamentally 
alter what a country believes is national interest to be and 
its pursuit of that national interest, but if all other things 
considered it is a close call the norm makes the deal, impacts 
on the outcome, impacts on the decision that a country makes. 
Absent the norm, I would argue, certain countries would have 
made different decisions than they did make.
    Believe it or not, this is leading to a question.
    The second concern I have is the way you use 
``deterrence.'' I think anyone who has not been, as Frank 
Church used to say--I remember as a young Senator on this 
committee I asked him something one day, and he said, ``You are 
big on Catholic theology, are you not?''
    I said, ``Well, yeah, it is kind of an avocation of mine.''
    He said, ``Have you read Summa Theologica?''
    I said, ``Well, as a matter of fact, yes; I am probably one 
of the few people who ever have that I know.''
    He said, ``Well, remember the debate about how many angels 
you could fit on the head of a pin?''
    And I said, ``Yes.''
    And then, he said, ``Well, you will find that most experts 
who come and testify, they are nuclear theologians.'' He said 
that, which gets me to this point about deterrence.
    Anybody but those of us who have spent most of our adult 
lives dealing with this, this issue of nuclear proliferation, 
nuclear deterrence, et cetera, would not understand how we 
interchangeably use the word ``deterrence'' there. If the 
purpose of our nonproliferation regime is to deter someone from 
acquiring a capability to have a weapon of mass destruction, 
and particularly a nuclear one, that is one type of deterrence.
    But we do not mean to, but we interchangeably use the 
notion of deterrence relating to whether they would use it if 
they acquired it. I think that they should not--I know you all 
know the distinction and you all realize there is a 
distinction, but I do not think we, ``we'' the guys on this 
side, me, often enough make clear the distinction to the 
public.
    To conclude that we cannot deter North Korea from acquiring 
under an arms control regime, from acquiring a missile 
capability and/or a nuclear or biological or chemical 
capability under an arms control is not the same as concluding 
you cannot deter them from using it if they have it. I think it 
is really important that that distinction be made because it 
leads us down paths if you conclude they are not susceptible to 
deterrence in terms of use or if it is the same as the 
deterrence they flaunt with regard to regimes of 
nonproliferation, it gets you different places.
    So Ambassador Joseph, I was impressed the way you laid it 
out. I do not have a single disagreement with your 
characterization of how you would like to--and I mean this 
sincerely--construct this, the construct in which we should be 
dealing with weapons of mass destruction. But my problem is how 
you get from here to there.
    For example, we want to maintain the norms in terms of 
proliferation. We do not want to be perceived as being the 
former leader of the nonproliferation effort. We do not want to 
abandon that. Yet at the same time we talk about if we cannot 
get the Russians to amend ABM we should unilaterally withdraw 
from ABM. We set a timetable here that if the President cannot, 
or the next President cannot get it done about 18 months--
correct me, Steve, but I think it is 18 months out--the way it 
is written, he is expected to unilaterally notify that we are 
out of it.
    I know your concerns about CTBT. I think you are dead 
wrong, you think I am dead wrong, about whether or not 
reliability--whether anyone out there says, you know, gee whiz, 
they have got a nuclear stockpile problem, they are not 
reliable any more. I find that absolutely preposterous. In 
dealing 28 years with foreign leaders, I find it beyond 
comprehension that anyone would run the risk of thinking that 
we would have 6,000 or 3,000 or 1,000 nuclear weapons none of 
which would be reliable.
    Here we are worried about one, for Christ sake. You are 
talking about $30 billion to deal with one nuclear weapon. And 
we think that people, our allies, are going to conclude that we 
are not reliable.
    That is a different debate, but unrelated to that debate, 
whether I am right or you are right about that, it seems to me 
that the issue of not ratifying the Comprehensive Test Ban 
Treaty, abandoning the ABM Treaty, and as a consequence of 
that, not getting a START II or a projected START III 
agreement--I do not know how other nations out there who are 
not as sophisticated as we are do not conclude from that, Mr. 
Ambassador, that we have changed paths, that we have not made 
the judgment that nonproliferation and establishing a norm of 
nonproliferation is still our goal.
    So if I could figure out how to get to the mix of offensive 
and defensive--and I agree with Dr. Cambone that I can see a 
circumstance under which our ability to intercept or destroy 
incoming missiles would have a deterrent impact on whether it 
was worth all the effort to go ahead and build them. I 
acknowledge that, I acknowledge that.
    But I wonder, Mr. Ambassador, how you get from where we 
are, and you do not want us to leave in a generic sense, that 
is being the leader of nonproliferation and establishing the 
norm, and rejecting what the rest of the world either cynically 
or in fact believes are the rockbeds of that whole regime of 
nonproliferation.
    I am going to say one more thing and then stop and ask any 
of you to respond to anything I have just said. Sir, first of 
all, thank you for coming. I appreciate your doing this.
    I do not understand how we--how we get to the point--I 
think you make some very thoughtful suggestions about how 
institutionally we should alter, if we really care about 
nonproliferation, alter the mix of the dollars we spend as well 
as the institutional frameworks we have set up. I do not know 
quite how the hell, in the midst of this fundamental debate 
going on here, that is more fundamental and real than I think 
most of our colleagues even focus on, and that is are we 
basically going to make the decision to have our strategic 
doctrine rest upon the primary pillar of not deterrence, but 
defense, because that is really what this is about, I think, 
when you strip it all aside.
    So I do not know how in the context of that debate among 
the experts and those of us who have paid a lot of attention in 
our careers to this issue we ever get to the point of being 
able to do anything remotely approaching what you are 
suggesting. I do not mean that as a criticism. I am not sure 
how to get there.
    So here is my question. And by the way, I would like to, 
Mr. Chairman, ask that Joe's statements relating to his 
testimony before the Deutch Commission, which I thought was 
very powerful, be able to be entered into the record rather 
than take the time now. It relates to this. I do not want to 
have to go through it.
    Senator Lugar. We will place that in the record.
    [The information referred to follows:]

                               Testimony

                               before the

  Commission to Assess the Organization of the Federal Government to 
        Combat the Proliferation of Weapons of Mass Destruction

                                   by

   Joseph Cirincione, Director, Non-Proliferation Project, Carnegie 
                   Endowment for International Peace

                     April 29, 1999, Washington, DC


                                SUMMARY

    The spread of weapons of mass destruction is the single greatest 
security threat confronting the United States. While official 
assessments recognize the seriousness of these threats, the federal 
government has not redirected sufficient organizational and budgetary 
resources to manage effectively the varied responses to the new 
dangers. The government needs sustained, senior-level coordination 
(with commensurate budget authority) devoted to combating 
proliferation. At a minimum, the President should appoint a National 
Coordinator for the Non-Proliferation and Elimination of Weapons of 
Mass Destruction in Russia to integrate and prioritize all relevant 
U.S. programs in the states of the former Soviet Union.

                              THE PROBLEM

    Hardly a week passes without a new crisis or concern surfacing 
about the spread of weapons of mass destruction. Just this month, tests 
of new, medium-range ballistic missiles by both Pakistan and India 
increased fears of the eventual deployment of nuclear weapons on the 
subcontinent. Russia's continuing political and economic decline since 
the financial shocks of August 1998 threatens to weaken that nation's 
already tenuous safeguards over its nuclear arsenal and the loyalty of 
tens of thousands of nuclear scientists. Concerns with missile and 
nuclear programs in North Korea, Iran and Iraq remain unresolved; 
international negotiations at the Conference on Disarmament and the 
Non-Proliferation Treaty review sessions drift inconclusively; and it 
appears that President Clinton may complete his eight years in office 
without signing a single strategic nuclear reductions treaty, compared 
to the two his predecessor signed during his four-year term.
    The nonproliferation regime--the interlocking network of treaties, 
agreements and organizations painstakingly constructed by the United 
States and its partners over the past 40 years--is badly in need of 
repair and revitalization.
    Optimists often look to the United States to provide leadership in 
such times. While some demonize our country as the source of many of 
the regime's problems, the United States remains the one nation in the 
world with the resources, status and potential leadership capable of 
galvanizing international nonproliferation efforts.

                MATCHING RESOURCES TO THREAT ASSESSMENTS

    It is not difficult to find official expression of concern about 
the mounting proliferation problems.

  <bullet> President Clinton on several occasions has cited ``the 
        unusual and extraordinary threat to the national security, 
        foreign policy, and economy of the United States posed by the 
        proliferation of nuclear, biological, and chemical weapons and 
        the means of delivering such weapons.'' \1\
---------------------------------------------------------------------------
    \1\ National Emergency declared by Executive Order 12938 on 
November 14, 1994, reissued on November 12, 1998 and Letter to the 
Speaker of the House and President of the Senate, November 12, 1998.
---------------------------------------------------------------------------
  <bullet> Secretary of Defense William Cohen notes, ``Of the 
        challenges facing the Department of Defense in the future, none 
        is greater or more complex than the threat posed by weapons of 
        mass destruction.'' \2\
---------------------------------------------------------------------------
    \2\ Defense Reform Initiative Report, November 1997, p. 19
---------------------------------------------------------------------------
  <bullet> Secretary of State Madeleine Albright noted last year, ``The 
        recent nuclear tests in India, and now Pakistan, have reminded 
        us all that the proliferation of weapons of mass destruction is 
        the single most pressing threat to our security.'' She and 
        then-Russian Foreign Minister Yevgeny Primakov agreed at the 
        ASEAN summit last year, that nonproliferation was the ``premier 
        security issue of the post-Cold War period.'' \3\
---------------------------------------------------------------------------
    \3\ Remarks to the NATO-Russia Permanent Joint Council, May 28, 
1998.
---------------------------------------------------------------------------
  <bullet> Director of Central Intelligence George Tenet warned in his 
        annual threat assessment testimony, ``Societal and economic 
        stress in Russia seems likely to grow, raising even more 
        concerns about the security of nuclear weapons and fissile 
        material . . . We have . . . reports of strikes, lax 
        discipline, and poor morale, and criminal activity at nuclear 
        facilities . . . these are alarm bells that warrant our closest 
        attention and concern.'' \4\
---------------------------------------------------------------------------
    \4\ Statement of the Director of Central Intelligence George J. 
Tenet before the Senate Armed Services Committee hearing on Current and 
Projected National Security Threats, February 2, 1999, p. 1.
---------------------------------------------------------------------------
  <bullet> Lt. General Patrick Hughes, Director of the Defense 
        Intelligence Agency, concludes bluntly in his annual testimony 
        to Congress, ``The proliferation of nuclear, chemical, and 
        biological weapons, missiles, and other key technologies 
        remains the greatest direct threat to US interests worldwide.''

    These comments reflect the consensus view of the Joint Chiefs of 
Staff, the intelligence agencies and the expert community. But, however 
well intentioned these officials are, however clear their warnings, 
they have been unable to re-orient the government's resources and 
policies to confront the threats they so correctly identify.
    This does not mean that the Administration has not made progress. 
It has on a number of fronts, and some of it is very impressive. The 
most historically significant is the successful de-nuclearization of 
Ukraine, Belarus and Kazakhstan, and the implementation and expansion 
of the Nunn-Lugar-Domenici program in the states of the former Soviet 
Union. Both are bi-partisan success stories. The Administration also 
led the successful extension and strengthening of the Non-Proliferation 
Treaty in 1995, the successful negotiation and signing of the 
Comprehensive Test Ban Treaty in 1996, and the ratification of the 
Chemical Weapons Convention in 1997.
    Deputy Secretary of State Strobe Talbott's diplomatic efforts with 
India and Pakistan also made some progress over the past twelve months. 
Leaders of both nations agreed to sign the CTBT and opened up cordial 
bi-lateral talks and exchanges. The recent round of missile tests, 
however, demonstrates the limited impact of our efforts.
    Hundreds of dedicated officials toil daily for these and other 
programs. Arms control officials genuinely feel that they are doing all 
that they can under the circumstances and that the system simply cannot 
absorb any more.
    The problem is that these efforts are not commensurate with the 
threat. Despite the best intentions of many Administration officials 
and some members of Congress, the work performed, the resources 
devoted, and the political capital expended are simply not sufficient 
to deal with the problems we face. Many experts believe, for example, 
that with improved management, the Nunn-Lugar-Domenici programs could 
be expanded to two or three times their current size. There is an 
enormous amount of work remaining to be done in Russia and time may be 
running out. The Nunn-Lugar-Domenici programs were fully funded by 
Congress last year at $442 million. By comparison, the Congress added 
$450 million to the defense budget to purchase eight new C-130J 
transport planes that none of the military services requested and for 
which no valid military requirement exists. This is a serious threat/
resources mismatch.
    With the exception of the special effort made in South Asia, 
nonproliferation policies in general and Russia policy in particular 
seems to be proceeding as if nothing unusual happened over the past 
year. It is difficult to identify a senior official in charge of the 
Administration's nonproliferation policy, or in charge of our policy 
towards Russia. Resources have not been significantly increased; 
personnel have not been augmented; and top-level attention seems to 
wane soon after a crisis subsides. This is not simply an Administration 
problem. Congress has blocked several key nonproliferation agreements, 
such as the Comprehensive Test Ban Treaty, regularly threatens the 
budgets of others, such as the Agreed Framework with North Korea, and 
agencies preemptively scale back their budgetary requests anticipating 
congressional resistance to increased funding.
    Imagine, for a moment, that in addition to the Ballistic Missile 
Defense Organization, we had a Missile Proliferation Prevention 
Organization with a $4 billion annual budget culled from the 
departments of Defense, State and Commerce. This organization would 
have authority over Missile Technology Control Regime negotiations and 
compliance, intelligence estimates, export controls, sanctions policy, 
and a veto over trade policies with countries of proliferation concern. 
This would be a great leap forward in what some consider our most 
pressing proliferation concern. We could discuss precisely which 
authorities and tools it would need to curtail missile proliferation. 
But as soon as one begins designing an organizational scheme such as 
this, it becomes obvious that it is probably impossible. There would be 
too many bureaucratic obstacles to overcome, even assuming that 
Congress would not see this new agency as a threat to favored missile 
defense programs. The very offices we created to serve our national 
security during the Cold War would strongly resist any efforts to take 
away their responsibilities, authorities and budgets.
    So, we remain mired in a patchwork approach. Nonproliferation 
missions are often tacked on to existing positions. In some cases they 
are up-graded, such as the recent naming of an Assistant Secretary of 
Energy for Nonproliferation and National Security. In other cases, the 
missions are actually down-graded or merged into existing bureaucratic 
structures. For example, the former position of Assistant Secretary of 
Defense for Counter-Proliferation has become a deputy assistant 
position in the new Defense Threat Reduction Agency. It is difficult to 
track what has happened with the merger of the Arms Control and 
Disarmament Agency into the State Department, but it appears we may now 
have fewer senior officials working on nonproliferation. The 
consolidation has also eliminated direct access to the President and 
the National Security Council for some of government's most dedicated 
nonproliferation professionals.
    The net result is that the number one threat to our national 
security does not enjoy anywhere near a priority claim on budgets, 
senior positions or senior-level attention.

                        PRESIDENTIAL LEADERSHIP

    The nonproliferation agenda will never be able to compete in the 
government bureaucracy with programs that enjoy considerable industrial 
or trade interest. Nonproliferation programs do not require substantial 
government funding for manufacturing products nor generate billions of 
dollars in trade agreements. Thus, they will never build up large 
national constituencies to champion their causes. On the contrary, 
programs critical to stopping the proliferation of nuclear or missile 
technologies, for example, often stop lucrative trade deals or arms 
transfers and run counter to the goals of government agencies 
established to promote commerce or defense alliances.
    This is precisely why it is vital that nonproliferation advocacy 
and coordination take place at the highest possible level, to rise 
above the competing commercial and special interest agendas. At the 
presidential level, nonproliferation programs can tap into the 
substantial support that exists in the public for doing all that we can 
to stop the spread of these deadly weapons. Public opinion polls 
confirm that Americans believe the task of reducing the dangers posed 
by nuclear weapons is an important issue for presidential attention. 
They believe this is just as important as the domestic issues to which 
the President has dedicated enormous amounts of time and political 
capital, such as balancing the federal budget and improving race 
relations. \5\
---------------------------------------------------------------------------
    \5\ See, Public Attitudes on Nuclear Weapons: An Opportunity for 
Leadership, Henry L. Stimson Center, 1998 (on the Internet at: 
www.stimson.org/policy) and American Public Opinion and U.S. Foreign 
Policy, 1999 by the Chicago Council on Foreign Relations (summarized in 
Foreign Policy, Spring 1999, pp. 97-114 and on the Internet at: 
www.ccfr.org)
---------------------------------------------------------------------------

                            RECOMMENDATIONS

    To better combat the proliferation of weapons of mass destruction, 
the federal government should first ensure that there is a senior-level 
nonproliferation authority in each major department responsible for all 
of that department's proliferation-related programs and activities.
    The President should also appoint a senior administration official 
to coordinate these departmental activities, with the authority to 
coordinate budgets. It would be preferable if this individual were in a 
sub-cabinet position, similar to the former position of the drug czar. 
It could also be accomplished by elevating the position of the Senior 
Director for Nonproliferation and Export Controls at the National 
Security Council to a more senior level, again with significant budget 
authority.
    Short of a government-wide coordination of all nonproliferation and 
counter-proliferation activities, we should, at a minimum, appoint a 
National Coordinator for the Non-Proliferation and Elimination of 
Weapons of Mass Destruction in Russia to integrate and prioritize all 
relevant U.S. programs in the states of the former Soviet Union.
    Russia remains the world's largest warehouse of nuclear weapons, 
fissile material and expertise. We currently have some thirteen major 
threat reduction programs dealing with the nuclear and chemical weapons 
programs in Russia. They are scattered across several agencies and 
bureaus at the Departments of Defense, Energy, State, Commerce and the 
Customs Bureau. Often, these separate programs are doing work at the 
same facility in Russia, but without inter-agency coordination. There 
should be a coordinator in the Executive Office of the President to 
track and report on all these activities, to enforce intra-agency 
cooperation, and to improve and promote these joint efforts.
    Short of a national coordinator (or in conjunction with), the 
Department of Energy could serve a useful function by establishing at 
one of the national laboratories an analytical unit to monitor all 
official U.S. cooperative threat reduction activities. This unit would 
be responsible for gathering and updating information on all U.S. 
assistance programs, and making this information readily accessible to 
relevant U.S. officials, laboratory personnel, and contractors.
    Central coordination and responsibility may help us improve the 
ability of the government to respond more rapidly to future 
nonproliferation crises. It would have permitted us to respond more 
quickly to the August financial crisis in Russia and its obvious 
deleterious impact on Russian nuclear safeguards. It should facilitate 
the quick appointment of special envoys to tackle particular problems--
an approach that proved effective in the North Korea crisis of 1994.
    There are solutions to these problems, but they are neither simple 
nor cheap. The next few years may well determine whether the 
nonproliferation regime can be successfully repaired and revived, or if 
further shocks overwhelm our collective ability to sustain the security 
system that the United States helped create and nurture over the past 
40 years.

          Additional material submitted by Mr. Cirincione has been 
        maintained in the committee's files and is also available on 
        line at:

          http://www.ceip.org/programs/npp

    Senator Biden. Steve, I wonder--it surprised me, you saying 
that we should deal with the Nonproliferation Treaty in this 
conference in a way that we do not withdraw from commitments 
that we have already made. I am wondering, do you oppose the 
new inspection protocol that the United States signed with the 
IAEA? Do we want non-nuclear weapons states to sign the so-
called 93 plus 2 protocols allowing the IAEA to inspect non-
designated sites?
    How do these things fit in? On the one hand, I get confused 
that we do not have enough reliability and we cannot count on 
their honesty and their deportment and we have to know more. 
And then when we talk about regimes to enable us to know more, 
we come back and say: Whoa, whoa, that is going to be too 
intrusive for us. How do you deal with that, what I think is a 
conundrum here?
    So I have said a lot, I have asked a lot. Maybe I can start 
with you, Mr. Ambassador. Tell us how the heck we get from here 
to there to end up with the construct that you envision?
    Ambassador Joseph. You are giving me the easy question.
    I think, Senator, I would agree with you that we need to 
begin by exercising discipline in our language. We should use 
words as precisely as we can, and if we cannot be precise at 
least we can be consistent in our usage.
    Let me say in that context that I do not believe that we 
can effectively deter the acquisition of chemical, biological, 
or even nuclear weapons by rogue states. I think they are 
determined to acquire these weapons and they will use whatever 
means necessary, including arms control, as an avenue to get 
the technology and expertise to acquire those capabilities.
    In some cases we will not even know about it, and that is 
particularly true, we were told earlier by the DCI, in the 
context of chemical and biological weapons. There are many 
willing suppliers, we know that. There are other suppliers, 
unwitting perhaps, who will provide the technology. And there 
is, of course, the inevitable progress in indigenous 
capabilities to develop these weapons systems.
    We need to learn the right lessons from the Iraqi programs. 
I believe we were very surprised at how far along their nuclear 
weapons program had progressed. We were shocked at how 
extensive their biological program was. And we know they had a 
very capable chemical weapons program. One has to assume the 
same with regard to North Korea. Director Tenet made the same 
point.
    When I talk about deterrence I am talking primarily about 
deterrence of use. These weapons do represent the best way for 
these states to overcome our conventional superiority, 
especially if they are used early in a conflict. If they go toe 
to toe conventionally, they lose. They know that from Desert 
Storm. They have to get around that.
    In Desert Storm, we were successful in deterring Iraqi use. 
We have looked at that very closely. Partly it was as a result 
of the leadership's perspective in Baghdad that we--and perhaps 
they were mirror imaging--but that we the United States, and 
they probably also had Israel in mind, would respond with 
nuclear weapons.
    Another part of our success, and we know this from what 
their military leadership has said and what their POW's have 
said, is that they believed we were better able to operate in a 
chemical environment. We had better protective equipment. So 
here you find the synergy of deterrence both by the threat of 
punishment as well as by the ability to deny the opponent the 
utility of these weapons. That is what we need to seek to do.
    I think we can best do that--and here is where I go back to 
my first point, that proliferation is no longer a political 
problem--if we treat proliferation as a security threat. 
Proliferation is a threat in regions that we have decided are 
of vital interest to our Nation. We are the ones on the firing 
line. It is our forces that need to be protected. Whether from 
short range ballistic missiles or medium range ballistic 
missiles or long range ballistic missiles--and we see 
inevitably that march progressing--we need to provide the 
capabilities to defend against the threat.
    It seems to me that we do not have to make a decision 
whether or not nonproliferation tools are more important than 
national security tools--I do not think we need to do that. A 
lot of people like to pose it that way. I truly believe that 
these capabilities need to be seen in an interlocking way. We 
need to have a comprehensive strategy.
    Senator Biden. I agree. There is no disagreement with that. 
The question is how do you get there? And by the way, I would 
note parenthetically--this is pure Bidenism here--I think the 
reason why deterrence failed in the acquisition and our ability 
to persist in Iraq is a little bit like G.K. Chesterton once 
allegedly said, ``It is not that Christianity has been tried 
and found wanting; it has been found difficult and left 
untried.''
    I would argue that it is not that nonproliferation regimes 
have been tried and found wanting, as it relates to Iraq. It is 
that they have been found difficult and left untried, because 
our allies, our allies, did not stick with us. There is a 
mechanism by which we could have insisted on dealing with Iraq. 
If France, if all of Europe, stuck with us notwithstanding the 
veto by Russia or China in the Security Council, it would be a 
different world, a different world.
    But they did not, and so it is not that the regime, the 
idea, failed. It is people did not do the deal. They did not 
stick with the deal. They did not commit to stay the course.
    Now, we end up in the same place. The same place is it did 
not work, I acknowledge that. The same place is it did not 
work. But I find it interesting that we tend to discuss these 
things, understandably, as if they existed in a vacuum, as if 
they existed only in terms of our security interests. Well, 
there are a lot of other interests that that one security 
interest that we have are trumped by a larger security 
interest. The larger security interest is we make judgments 
on--you know, were you sitting as President and I your 
Secretary of State, Mr. Ambassador, and you said the French 
were not going to, I would say: Let us make it real clear to 
the French; I am willing to run the risk of breaking the bow on 
this one. I am in less jeopardy if there is not a NATO than I 
am in jeopardy if there is an Iran with nuclear weapons.
    But we do not make those hard choices. We only view them in 
terms of solutions, I respectfully suggest, that are not 
solutions, they are partial solutions. You give me the best 
system in the world that is a National Missile Defense system 
and you still do not do anything about what this man talks 
about. You do not do anything about what is realistically the 
likelihood of a nuclear weapon, a biological weapon, or a 
chemical weapon being used against us, and in the process you 
say, All bets are off, man; Brazil, you are on your own; India, 
go your route.
    And the last thing I will say, and I apologize, Mr. 
Chairman, for talking more about this, but it is kind of 
frustrating. It seems to me when we talk about India and 
Pakistan we are willing to think of nuclear weapons in terms of 
our ability to have a counter to their use against us. But I 
cannot imagine somebody 30 years from now not saying, You know, 
why the hell did not those guys figure this deal out? You got 
India, who got the living devil kicked out of them by China the 
last time they had a little dust-up, and you got China sitting 
there and you got it in a circumstance where India is going to 
exceed China in population in 10 to 15 years, and you got the 
Soviet Union that was the nuclear umbrella for India and the 
counterbalance for India relative to China gone. You got China 
deciding to play the strategic game relative to their interest 
in India with Pakistan. And we sat there and what did we do?
    We talked about an answer to our security interest in the 
region being National Missile Defense against China and against 
North Korea, when in fact maybe somebody should sit and say, 
Wait a minute, maybe we should have an article 5 arrangement. 
Bizarre idea, I realize, bizarre idea. It will flaunt every bit 
of conventional wisdom. Maybe we should have an article 5 
relationship with China--I mean with India, saying we will be 
your umbrella, we will work out a deal with you; you get 
attacked with nuclear weapons, we respond.
    That sure takes the pressure off, if they believed it and 
if we did it. I realize that is radical. But no one is willing 
to think outside of the box here. Tell me, how the hell are you 
going to keep the subcontinent from being armed and dangerous 
and it is the most likely place there will be an exchange? How 
do you do that?
    Ambassador Joseph. That one I cannot answer, Senator. But 
let me make very clear that I do not believe that a National 
Missile Defense is sufficient. I believe it is essential, it is 
an essential capability. It is far from sufficient. We need all 
the political instruments, and not just in the multilateral 
arms control context, but also export controls.
    As you say, the allies are to blame for the Iraqi programs, 
yes. But there was a lot of blame to go around. It was not just 
the allies.
    Senator Biden. No, not just.
    Ambassador Joseph. It was not just the allies and Russia, 
it was not just the allies, Russia, and China. You know, some 
of that blame--
    Senator Biden. Comes to us.
    Ambassador Joseph [continuing]. --it is right here. It is 
right here.
    Senator Biden. No, I agree.
    Ambassador Joseph. And things have gotten worse since then.
    Senator Biden. Right.
    Ambassador Joseph. We have not exercised leadership in the 
area of export controls. The only way that we held COCOM 
together--and overall that was rather successful--was with 
leadership. You ask how do we get there from here? We get there 
from here by leading and we reject solutions that will undercut 
both nonproliferation and our national security. And we promote 
solutions, and that is plural, we promote solutions that will 
enhance both our national security and the nonproliferation 
goals that we all share.
    Senator Biden. Well, I cannot argue with your goals. I just 
do not know how the devil you get there. But anyway.
    Dr. Cambone. Senator, if I may, the question asked about 
how we might keep the subcontinent from being armed and 
dangerous. It is armed and dangerous. They have already armed 
themselves and they are dangerous. So we have a new situation 
we are dealing with. It is not the one that we might have dealt 
with in 1995 or 1998. So we are confronted, it seems to me, 
with a new set of circumstances that we have to inquire whether 
the existing methods of dealing with them are going to be 
adequate.
    You can offer the article 5 commitment to the Indians.
    Senator Biden. I want to make it clear, I am not suggesting 
it. I am making a point.
    Dr. Cambone. I am not suggesting that--I understand that. 
But it raises, it seems to me, many of the same kinds of issues 
that you are concerned about in the context of the NMD. It is 
the same level of strategic implication for the intelligence 
system in either approach, and the question then becomes--
    Senator Biden. I would argue it is not, by the way. I would 
argue it is not. If India is not a major nuclear power, China 
does not feel the requirement to become a major nuclear power, 
Japan stays not nuclear, I would argue it is a very different 
world.
    I am not suggesting that that guarantee would guarantee 
that. But assume that was the outcome.
    Dr. Cambone. But that is not where we are, Senator.
    Senator Biden. No, because we have not done anything.
    Dr. Cambone. But see, I cannot--but where do we start the 
argument becomes the question. If we were in 1995 or we were at 
the point prior to the Chinese making their decisions, not on 
their advanced warheads, but on their current missile programs, 
then there might have been scope for, I think, the kind of 
argument you are making. But that is not where we are.
    The Indians do have options. The Chinese do have options, 
as do the Russians. So to make that kind of major commitment 
should have strategic consequences. I am not arguing that we 
ought not to explore it, only to suggest that it would indeed 
have the range of consequences you are raising.
    So then we going to the next sort of order, set of 
questions, which is on the whole, as you net them out, which do 
we prefer and which do we think, with all the other ancillary 
agreements that we are talking about here, are the ones that 
are going to meet the requirement?
    Senator Biden. Mr. Chairman, may I ask one more question?
    Senator Lugar. Go ahead.
    Senator Biden. I appreciate your indulgence here.
    I would like to go back to Iraq for a minute. At the time 
that Saddam Hussein was deciding whether or not to employ a 
weapon of mass destruction--and correct me if I am wrong, 
because I may be--I assume that he had to assume that General 
Powell and President Bush were not going to stop, as we did. 
And I am not second guessing that judgment. I am not playing a 
political game. I am not second guessing that judgment. It was 
a rational decision.
    I would assume as he is sitting there in one of his 
underground bunkers, in one of his palaces or one of his places 
in Baghdad or in the environs, that he has to make a call. He 
has got to assume these boys ain't stopping, 500,000 troops are 
coming, they are beating the living devil out of our folks, 
they ain't going to stop, they are going to come all the way to 
Baghdad and they are going to take me down.
    Why in that circumstance--I mean, is that a reasonable 
assumption that someone would have to think sitting there in 
the bunker? Or do we have any evidence he had intelligence that 
he knew that we were not going to pursue his forces throughout 
the country?
    Why would he not have used chemical weapons if he is as 
irrational a guy and as calculating and cares as little about 
his folks as we all say he does? Why did he not use them?
    Mr. Cirincione. If I might just start this briefly, I do 
not think he did believe that we were going to come all the way 
to Baghdad and destroy the core instruments of his power. But 
he knew that if he used chemical or biological weapons we would 
do so, and that was the threat that President Bush made very 
clear, that if he used those we would respond with overwhelming 
and devastating force.
    I do not believe, and I think the record bears me out on 
this, that President Bush intended ever to use a nuclear weapon 
as part of that overwhelming and devastating force. But we 
certainly had enough conventional forces in the region to 
destroy completely the Republican Guard and President Hussein 
and his family in a major attack on Baghdad. And I think he 
knew that and therefore he held that back, did not use those 
weapons, because he wanted to preserve his core assets.
    Senator Biden. Why do you guys think he did not use it?
    Ambassador Joseph. Senator, obviously it is very difficult 
to get into the mind of Saddam Hussein.
    Senator Biden. I know. But by the way, we are doing it now 
in North Korea. We are getting in the minds of the leader. We 
are making judgments. You guys have no problems making 
judgments about the mind and what is going to happen in North 
Korea.
    Ambassador Joseph. Well, I certainly hope I did not give 
the impression that I can get into the mind of the North Korean 
leaders, either. I think what we are trying to do is make 
informed assessments.
    Senator Biden. Right.
    Ambassador Joseph. Let me just point out that in the Bush 
letter, the very famous letter that was left on the table in 
Geneva, the President said there would be a terrible price, an 
overwhelming and devastating response, if there was use of 
chemical or biological weapons, comma, if Iraq supported 
terrorism, comma, or if Iraq torched the Kuwaiti oil fields, 
period.
    Obviously, they did not believe that an overwhelming and 
terrible price--and I believe that they believed this to mean a 
nuclear response--they tell us that--was credible in the 
context of either torching the oil fields or supporting 
terrorism, because they did both.
    I think in terms of chemical weapons, it is also clear from 
what we know that they made the assessment that they would be 
at a disadvantage, as I said earlier. We had better chemical 
defenses than they did. It would not have done them any good.
    That leads to the very interesting question, I think, of 
biological weapons, which would have had a much more 
devastating impact militarily. I do not know, but perhaps, 
perhaps, this was Sadam's one last instrument of regime 
survival if we did continue to go forward. I do not know, but I 
believe that to be the case.
    I also think it is very important to think about what Iraq 
would have done with biological and chemical weapons if it had 
even a few nuclear weapons. Clearly, one of the lessons from 
the Gulf that we often hear--and we hear it--usually in a quote 
from the Indian army chief of staff is do not go to war with 
the United States without nuclear weapons. Nuclear weapons 
could very well--even if there were only a few of them--make it 
safe for the use of chemical and biological weapons, which is 
their means for getting at our conventional superiority, their 
means for ratcheting up the cost to us in the context of their 
belief that we are very sensitive to taking casualties.
    Senator Biden. Thank you.
    Senator Lugar. Thank you very much.
    Let me just test the panel with one more proposition, which 
is less cosmic but maybe more topical. The comment has been 
made that the Cooperative Threat Reduction Act has been 
extremely important in battling proliferation and in reducing 
weapons. The Chemical Weapons Convention has been ratified by 
the United States and by Russia. We are both committed to the 
destruction of our chemical weapons in a 10-year period of 
time, and this is creating great exertion in this country to 
try to do that.
    In Russia the problem comes down to the fact that they 
literally have almost no money with which to do this. At least 
this is their claim. It is not absolutely zero, but nominal 
amounts. Under one proposition last year as we had the Nunn-
Lugar debate in the House and the Senate, we would have 
committed some funds to the destruction of 500 metric tons. 
Now, this is out of an estimated 40,000 metric tons in the 
seven locations in which we are working with the Russians on 
security, so that at least we have some confidence, and they do 
too, that proliferation will not occur from those situations 
while we figure out what to do with them.
    Now, it is an interesting proposition because, leaving 
aside all the chemical weapons that might be produced 
elsewhere, there is an inventory there of 40,000 metric tons 
that is currently safe but may not remain safe, secure, and 
stable. We really do not know how to prophesy the future. We do 
know the quantities and we do not know altogether sometimes 
about the stability even of the chemicals, I suppose.
    So the proposition that we have is should we spend United 
States taxpayer money to begin destruction of chemical weapons 
at one site with 500 metric tons. Now, the answer last year was 
no. Over on the House side as they wrestled with this either in 
the authorization or the appropriation stage, the argument was, 
after all, the Russians produced all of this, they sort of made 
their bed, let them sleep in it or take care of it. Why should 
we at our expense try to undo something that is this 
monumental?
    Now, on the other side some of us, and I was one of them, 
argued that admittedly 500 out of 40,000 is a very small amount 
and you can make the case that this is almost token effort, but 
it is a beginning, in working through the problem. On the other 
hand, we do not know how long the window of opportunity in 
history remains open, nor the disposition of these weapons over 
the course of time, so that it might be in our interests to 
begin dismantlement of these dangerous weapons.
    This may not be a fair rendition of the arguments, but I 
ask it anyway because you must have given some thought to this 
kind of situation and what advice would you give?
    Mr. Cirincione. May I start?
    Senator Lugar. Yes.
    Mr. Cirincione. My logic is very simple here. I do not 
believe that Russia is a stable nation. I do not believe that 
the dissolution of the Soviet Union is yet over. I am concerned 
about the continuing political disintegration of Russia. 
Therefore I am interested in destroying or helping the Russians 
to destroy as many weapons of mass destruction as they still 
have control of on their territory as possible.
    Therefore, last year I strongly urged that we spend that 
money, that we destroy those weapons, that it may just be the 
beginning of further assistance to Russia to destroy the 
weapons. That is a good national security investment as far as 
I am concerned. It is hard to find a better cost-benefit 
analysis than destroying weapons on the ground before they have 
the opportunity to be used against us. It is cheap at the 
prices we are talking.
    Senator Lugar. Particularly if they are willing to 
cooperate with us in their destruction.
    Mr. Cirincione. Particularly if they are willing to 
cooperate with us, as they are, and it could lead to even 
greater cooperation and more rapid destruction of the rest of 
the arsenal.
    Dr. Cambone. I suspect, Senator, the other argument you 
heard is the fungibility of funds. That is, money not spent 
destroying chemical stocks would be spent doing something else, 
prosecuting the war in Chechnya for example, and cooperating in 
the rise of oil prices and all the other kinds of political 
difficulties that have arisen with the Russians.
    So that leads me to ask whether the arrangement comes with 
some set of political agreements about cooperation, not just on 
the elimination of 500 metric tons out of 40,000, but are there 
some broader political commitments that each side makes to the 
other with respect to a wide variety of issues on which we have 
differences?
    My concern with many of the programs related to disarmament 
that we have with the Russians is that they themselves have 
become a bone of contention between us and them, and the more 
we lean on them to do things which they may not be willing to 
do the stiffer we make their opposition on a wide range of 
other subjects. But I think we have got to work this on two 
fronts simultaneously. One, we have got to find a way to 
normalize our relationship with the Russians, and in that 
context I think the kind of support and assistance that you are 
talking about makes a great deal of sense.
    But when you confront the situation we now find on the 
highly enriched uranium, where we are paying way above market 
prices to do a good deed, it is not the question of the money. 
We have the money to do it and it is a good thing to do. The 
question is what is the political consequence and how do they 
think about what their role in this operation is going to be.
    So I think it is the broader political commitments we need 
to assure in order to make the demolition of these systems a 
multiplier in our relationship and not a drag.
    Senator Lugar. I follow what you are saying. I would say 
this to be argumentative, that fungibility is always an issue 
here, but 86 percent of the cooperative threat reduction moneys 
have been spent with American contractors. So conceivably you 
still have 14 percent that is open to some question.
    Dr. Cambone. But the Russians did not have to spend the 
money to do the job. I am not arguing whether it was a Russian 
contractor or an American contractor. It was that they did not 
spend the money doing it.
    Senator Lugar. The very small defense budget could be 
stretched longer by not having to do it, so you had an 
obligation there.
    Dr. Cambone. Right, which is why I asked about the broader 
political agreements about conduct in a wide range of issues 
which these agreements it seems to me should cement, rather 
than being the leading edge of the relationship.
    Senator Lugar. Ideally they should. The difficulty of the 
issue comes when it is a bridge too far and the regime is 
unwilling to agree to a broader agenda, which sometimes happens 
with the Russians.
    Dr. Cambone. Then it is a matter of judgment.
    Senator Lugar. Do you have a thought, Ambassador?
    Ambassador Joseph. There are no perfect solutions to very 
complex problems. My sense is, as I stated in my opening 
remarks, the money that we have spent on Nunn-Lugar for the 
dismantlement and elimination of nuclear capabilities of the 
former Soviet Union has been money well spent. There are some 
things about the fungibility that are troubling. I have a real 
problem spending money in one area while the Russians are 
deploying new mobile missiles, for example. That is something 
that we need to look at very closely. But again, I think it has 
been money well spent.
    When we start to talk about chemical weapons, it is a very 
expensive proposition, as you know, sir. We would be just 
making one first step. It may be politically important, but I 
think we have got to look at our other priorities. We have a 
lot of money to spend in other areas of nonproliferation and 
counterproliferation. Personally, I would rank them higher. I 
wish we had enough money to do it all. But this is a real world 
constraint that we are dealing with.
    Senator Lugar. Well, certainly that was the judgment 
ultimately in our democracy last year. I just wonder. We have 
had the thought that the Russian situation might not remain 
stable. For example, we had the four nuclear power situation 
because it did not remain stable. So if three other countries 
bobbed up with significant nuclear weapons--I am not suggesting 
that Russia partitions itself into seven or something so that 
each one now has a pretty good stockade, in which they either 
cooperate with us in their new forms or they do not.
    But it is an interesting problem, given simply the size of 
the stocks, the detritus of the Cold War that we are still 
wrestling with. So it is a matter of priorities and it is a 
difficult call, and that is why I asked for your judgment.
    Well, I thank each one of you for staying with us even 
through our recess and our questions. You have contributed a 
great deal to this whole consideration and it has been a 
remarkable start for our hearings.
    Unless you have further thoughts--
    Senator Biden. No. Just thank you very much.
    Mr. Cirincione. Thank you, Senators. We are at your 
service.
    Senator Lugar. We are adjourned.
    [Whereupon, at 5:32 p.m., the committee was adjourned.]


       INDIA AND PAKISTAN: THE FUTURE OF NONPROLIFERATION POLICY

                              ----------                              


                        Thursday, March 23, 2000

                                        U.S. Senate
                             Committee on Foreign Relations
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:30 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar, presiding.
    Present: Senators Lugar and Biden.
    Senator Lugar. This hearing of the Senate Committee on 
Foreign Relations will come to order.
    Today, the committee continues its series of hearings on 
United States and international nonproliferation policy. We 
turn our attention to South Asia, where tensions between India 
and Pakistan have reached a high level, and the threat of 
potentially serious miscalculation by either side has become 
more likely.
    In 1998, the world was shocked by nuclear weapons tests in 
India and Pakistan. Although these countries were not 
signatories of the Nuclear Nonproliferation Treaty, these tests 
clearly represented a devastating setback to international 
norms and a setback to multilateral efforts to stem the spread 
of weapons of mass destruction. We must acknowledge that 
although our effort delayed the nuclear emergence of these 
nations, we were unable to secure their permanent non-nuclear 
status.
    Despite intensive bilateral and multilateral diplomatic 
efforts, little progress has been made in restraining a 
dangerous nuclear weapons and missile buildup in South Asia. 
Both sides continue to refine their nuclear infrastructure and 
test longer and more accurate ballistic missiles.
    But what went wrong? Was it the policy? Or its 
implementation? What steps must the United States and the 
international community now take to adjust nonproliferation 
policy to recent events on the ground? Furthermore, we need to 
engage in a forthright discussion on these steps necessary to 
prevent the crossing of the nuclear threshold by these two 
countries from escalating into nuclear war.
    Officials in both countries are talking more openly about 
going to war and the possible use of nuclear weapons. Although 
there is a strong element in posturing, in part to influence 
United States policy, such postures tend to heighten mistrust 
and tensions and threaten to become self-fulfilling. While the 
potential for going nuclear in a conflict may appear less 
likely than a limited conventional war, the deep-seated 
mistrusts, deficiencies in information about the activities and 
intentions of the other side, and the need to make decisions 
quickly under great pressure, can lead to miscalculation, 
including overreaction.
    Perhaps the clearest explanation of United States 
nonproliferation objectives toward India came in a recent 
interview with Deputy Secretary of State Strobe Talbott. And I 
quote from Secretary Talbott:
    Our disagreements with India over nuclear weapons have 
nothing to do with any exotic scenarios of future nuclear 
conflict between India and the United States, but rather 
concern over the whole nonproliferation regime. A consensus has 
emerged over the past 50 years on how best to stop nuclear 
proliferation, and as a result many countries that might have 
gone nuclear chose not to do so. It is in the United States' 
vital interest that we not see a wave of second thoughts by 
those countries because of the tests of India and Pakistan. 
That is why we are working closely with India on a structure 
that respects its valid security concerns, but at the same time 
makes India part of the solution rather than part of the 
problem of global nuclear proliferation.
    End of quote from Secretary Strobe Talbott.
    In hopes of advancing that agenda, the administration has 
outlined four benchmark issues for discussion and negotiation. 
First, Indian adherence to the CTBT and a commitment to work 
toward signing the Treaty. Second, a commitment from India to 
sign the Fissile Material Cutoff Treaty, which would bar the 
production of weapons-grade fissile material. Third, the 
implementation of further safeguards against the transferring 
of nuclear technology or materials. Lastly, an Indian agreement 
to forgo converting its nuclear capability into deployed 
materials. An additionally sensitive issue is how to help 
safeguard the Indian and Pakistani arsenal to prevent 
accidental war without handing them a user's manual.
    The question that must be answers is whether this is the 
best course of action, or might another strategy have better 
prospects for success?
    Military confrontations between India and Pakistan have a 
strong potential to escalate. India's and Pakistan's legacy of 
mistrust in bilateral dealings makes escalation both more 
likely and unpredictable. In such a scenario, the risk of 
nuclear exchange cannot be ruled out.
    Some have suggested that U.S. and international diplomatic 
efforts should be altered from a refusal to acknowledge Indian 
and Pakistani nuclear status to a policy of minimization. In 
other words, should our objective be one of rolling back or 
reversing the nascent nuclear programs of these two countries 
or should we seek to minimize or circumscribe the possible use 
of nuclear weapons and thereby reduce the dangerous possibility 
of nuclear war in South Asia?
    Clearly, one does not want to abandon universal adherence 
to the NPT, but how do we square these efforts with the equally 
important effort to reduce the chances of nuclear war in South 
Asia through confidence-building measures? In other words, how 
do we reduce the possibility of nuclear war in South Asia 
without forfeiting the recognition of India and Pakistan as 
nuclear power states? And similarly, how do we ensure that 
India and Pakistan do not become the source of technology and 
know-how of future nuclear powers?
    These are indeed difficult questions. I look forward to 
hearing from our panel today on their recommendations for 
future United States and international nonproliferation 
policies. Our witnesses are Dr. Ron Lehman, Director of the 
Center for Global Security Research at Lawrence Livermore 
National Laboratory and former Director of the Arms Control and 
Disarmament Agency; Dr. Fred Ikle, currently a Distinguished 
Scholar and Senior Advisor at the Center for Strategic and 
International Studies, and a former Director of the Arms 
Control and Disarmament Agency; and Sumit Ganguly, a Professor 
from Hunter University, who is currently a Visiting Fellow at 
the Center for International Security and Cooperation at 
Stanford University.
    As he arrives, I will call upon the distinguished ranking 
member, Senator Biden, for opening comments that he might make. 
But at this moment, it is a pleasure to have our witnesses 
before us. We look forward to hearing from you. And I call 
first upon you, Dr. Lehman.

 STATEMENT OF RONALD F. LEHMAN, FORMER DIRECTOR, ARMS CONTROL 
                     AND DISARMAMENT AGENCY

    Dr. Lehman. Thank you very much, Mr. Chairman.
    I am very pleased to be here again. And I am particularly 
pleased to be with this panel. I have two good friends on this 
panel, both of whom I respect greatly and value their advice 
and judgment.
    I am here in my personal capacity. That is the capacity in 
which I have been invited. I do have other hats, both 
professional and pro bono, for the U.S. Government, but I am 
not here representing any administration past and present, or 
any other organization. I just want to emphasize that.
    I have a prepared statement which I can submit for the 
record.
    Senator Lugar. It will be published in full. And let me 
just add that will be true for each of our witnesses today. And 
we will ask that you summarize or at least highlight those 
things that are most relevant.
    Dr. Lehman. We sometimes say that during the Cold War we 
were totally preoccupied with one issue. And that was the 
Soviet Union. In fact, it was never that easy. It was always 
more complex. One of the first delegations I was ever on was in 
fact a bilateral U.S.-Soviet delegation, but it was on 
nonproliferation. And in fact, among the issues we discussed at 
that time were both India and North Korea.
    A regime, an effort, perhaps even a comprehensive or almost 
comprehensive strategy developed in which we used a variety of 
tools. One was the spreading of international norms through the 
development of regimes. And indeed, by the end of the Cold War, 
practically all major states except for a few, were parties to 
the Nuclear Nonproliferation Treaty. By the time of the 1995 
NPT review, essentially the only major states that were not 
parties were India, Pakistan, Israel, and Cuba.
    The other regimes, the Biological Weapons Convention, had a 
somewhat lesser number of parties and signatories but, by and 
large, most of the non-parties are today Newly Independent 
States of the former Soviet Union. Most of the significant non-
parties to the Chemical Weapons Convention are in the Middle 
East. We have always had as a part of the U.S. effort this sort 
of oil slick effort at universalization. Some people think that 
is the total effort. The problem with that kind of thinking is 
that it does not accurately reflect U.S. strategic realities. 
And in fact, it does not reflect the real problems be resolved. 
A common cookie cutter approach to very different problems can 
often be very counterproductive.
    We had other tools in our toolbox. We had export controls. 
We had sanctions. We had geopolitical outreach, security 
guarantees, both positive and negative. But ultimately, the 
primary way of dealing with nonproliferation was to bring about 
changes in real security conditions and in the nature of the 
governments themselves.
    We made considerable progress. We even achieved rollback in 
some cases: several of the republics of the former Soviet 
Union, South Africa. We had progress even with North Korea. My 
name is Lehman. When you go to U.N. meetings, you are seated 
according to your Romanized last name. I was often between the 
two Koreas, for example, Ambassador Lee from South Korea and a 
Mr. Li from North Korea. And this resulted in my being in the 
photograph of the two shaking hands when Pyongyang announced 
the two Koreas in the U.N. agreement.
    Why did North Korea come to that conclusion? Why did North 
Korea sign the denuclearization agreement that prohibited 
plutonium separation and uranium enrichment on the whole Korean 
Peninsula? Why did they agree to an IAEA safeguards agreement? 
The world was changing, and they thought they needed to act. 
And indeed, we were encouraging them to think in those terms.
    It was a period at the end of the Cold War when we had 
pursued enhanced proliferation initiatives. We were refining 
export controls. UNSCOM had imposed unforeseen sanctions upon 
the Iraqis. Nonproliferation was, in many ways, on a roll.
    Even in South Asia, while the Indians still basically kept 
their fundamental public position, privately they were showing 
interest in fissile material cutoff, trying to find some 
alternative path for getting some recognition for their status 
while staying outside the NPT, which they viewed as a threat to 
their nuclear options.
    I mention this because we had momentum. Much of that 
momentum has been lost. Why has that momentum been lost? The 
answer, in part, is that a lot of the same political and 
technological changes that actually helped us build that 
momentum also complicated nonproliferation. I have in mind 
things like the technological revolution in information 
technology. It helped promote political change, but it also 
spreads knowledge and technology.
    The same with the globalization of technological talent. 
People are moving around. We hire people. We educate people. 
Many of them work for us. They promote our nonproliferation 
goals or, every now and then, work against them--and if you go 
look at troublesome programs around the world, you discover 
many of the leaders of these programs are Western educated. It 
is a dual-edged problem that you have to deal with.
    The question of how do we effectively engage nations such 
as India on nonproliferation is a tough question. Because there 
has been this tendency to think that since almost everybody is 
a part of the nonproliferation regimes, what we have is what I 
call the asymptotic problem. We are worried about the last few 
tough cases, what some people call the rogue states. But India 
is not a rogue state.
    In fact, we have sought many times--and I would commend Dr. 
Ikle for one of his efforts some years ago--we have sought to 
reach out to the Indians. It has never been easy. I joke 
sometimes, I have been through many years of India, and they 
all have one thing in common, they only last 6 months. It has 
not been an easy relationship for a lot of reasons which I will 
not go into. But what I do want to say is this.
    The Indians can influence the future of proliferation in 
very important ways. Not because they are a rogue state, but 
because they are not a rogue state. The very act of deciding in 
this time frame to go nuclear in a big and overt way sends a 
frightening signal and sets a precedent for other nations. Why 
would other nations do this? These issues and these regions are 
more closely interrelated than people realize.
    North Korea already has had an impact on India. Why? 
Because the Indians complain that the North Koreans are 
violating the NPT, and we are giving Pyongyang reactors. But 
India never undertook any obligations, and thus has not 
violated the NPT; and yet the West will not give India 
reactors. The Russians say the same thing about interactions 
with Iran.
    I do not want to give legitimacy to their arguments. There 
are counter arguments. But these things are interrelated. If 
things get out of control in North Korea, we have other 
countries in the region--of course, South Korea, but also 
Taiwan and perhaps Japan. So it is not just a question of 
small, poor nations being threatened. In fact, many of the 
nations who rely on the security guarantees of the United 
States as a main source of their security could revisit the 
question of nuclear weapons.
    So the message I want to leave here is that we need to 
develop a strategy for the modern age. We need to revisit the 
export control and sanctions questions. They have been greatly 
weakened by technological developments and by political change. 
But, on the other hand, I think both can be reinvigorated in 
some ways for certain purposes. And I have suggested in the 
paper how one might start to look at that.
    I also want to say that we really need to take a fresh look 
at what we mean by ``constructive engagement.'' And in that 
regard, I would like to commend the Nunn-Lugar and Nunn-Lugar-
Domenici and the Cooperative Threat Reduction Programs. They 
have matured greatly. One still has to recognize there are 
risks associated with these programs. You have to go in it with 
your eyes opened. But I think we have begun to develop measures 
of merit and real concrete ways to engage people and shape 
things.
    And I think if people would look at the lessons learned 
there and apply them more broadly, I think we might have a more 
effective policy. Let me stop there.
    [The prepared statement of Dr. Lehman follows:]

                 Prepared Statement of Ronald F. Lehman

    Mr. Chairman, Distinguished Members of the Committee on 
ForeignRelations, I am honored that you have asked me to appear again 
before this Committee to discuss how we might advance the 
nonproliferation objectives of the United States. You have asked me to 
address recent global and regional developments. Certainly, we face new 
opportunities and new challenges, many of which are not well understood 
in this age of rapid change and increasing globalization. To insure 
that we shape developments in the interests of the United States and 
its allies and friends around the world, we need the broader 
examination that you have suggested. I will do my best to contribute.
    As this Committee knows, I continue to assist the US government in 
a number of the areas, such as programs for cooperation in Russia, 
South Asia, and elsewhere. I personally consider these initiatives to 
be important, but today you have asked for my personal analysis of 
proliferation trends. Thus, it is important that I make clear that the 
views I express here are strictly my own. I do not speak for any other 
person or for any organization, study group, program, or Administration 
with which I have been or am now associated.
    Today I would like to highlight some key proliferation trends, 
concisely. I understand that there is particular interest in South 
Asia, the Korean Peninsula, and Russia in this context. Concerning 
these regional challenges, I would be pleased to take any questions you 
may have. I recognize that many of the technical details and 
complexities in regions of proliferation concern are important, and 
that time will not permit discussion of all of the key issues. If you 
wish, Mr. Chairman, I can provide, for the record and for the members 
present now, two papers--one on Korea and the other on South Asia--that 
could supplement my testimony.
    Let me begin by summarizing how we got where we are. As the 
recruitment of even the smallest micro-states to sign the NPT before 
the 1995 NPT Extension Conference illustrated, part of our basic 
nonproliferation strategy has been to seek ever wider international 
commitments not to acquire WMD, that is, to strengthen certain 
international norms.
    By a large margin, most of the 193 treaty signing nations are a 
party or signatory to the three major WMD treaties, the NPT, the BWC, 
and the CWC. India, Pakistan, Israel and Cuba are the only major non-
NPT parties. A number of the newly independent states of the former 
Soviet Union and a few others are non-parties to the BWC; most of the 
notable non-parties to the CWC are in the Middle East.
    Even taking into account illegal covert programs, only a few states 
are of immediate proliferation concern. The list, however, includes 
some of the most difficult regimes such as North Korea and Iraq and 
some of the most dangerous regions such as South Asia and the Middle 
East.
    Most nations have no interest in WMD and no potential for acquiring 
nuclear weapons except by gift or theft. Indeed, most of these are 
mini- or micro-states. Many nations have some theoretical capability to 
develop biological weapons, but the number of potential concern is 
perhaps in the few tens.
    From this perspective, we have long seen nonproliferation as an 
asymptotic problem, that is a problem of dealing with the last few 
tough cases.
    To prevent the further spread of WMD, parties to the three major 
WMD treaties typically agreed to measures to prevent the transfer of 
critical knowledge, technology, and materials to non-parties through 
export controls, safeguards, sanctions, and the like.
    By the end of the Cold War, regimes such as the Australia Group, 
the Missile Technology Control Regime, the Nuclear Suppliers Group, the 
IAEA, a modified CoCom, and the UN Arms Register were in place to 
manage trade in sensitive and some dual use items internationally. The 
addition of France and China to the NPT seemed to cement solidarity. 
Some nations including the United States adopted enhanced proliferation 
export controls requiring greater awareness and responsibility of the 
business community.
    Arms control regimes among the superpowers, in Europe, and globally 
through the CWC, promulgated very intrusive verification regimes among 
parties to the relevant treaties, increasing expectations for what arms 
control could achieve.
    The UNSCOM and IAEA inspection regimes and UN Security Council 
sanction imposed on Iraq suggested strong international commitment to 
enforce nonproliferation agreements.
    The January 1992 UN Security Council statement at the Head of State 
level that further proliferation would be viewed as a threat to 
international security was very strong diplomatic language.
    The end of the Cold War reduced the ideological fervor of the 
neutral and non-aligned factions permitting countries such as Argentina 
and Brazil to move toward modern economies and away from ``white 
elephant'' nuclear and missile programs. It also produced nuclear 
rollback in Ukraine, Belarus, and Kazakhstan, and facilitated rollback 
in South Africa. In South Asia, voices for similar economic reform were 
growing.
    Even North Korea found the need to change its relationship to the 
world. Pyongyang accepted the two Koreas approach to UN membership, 
concluded an IAEA Safeguards agreement, and as part of an NPT-plus 
strategy for that troubled peninsula, signed a denuclearization 
agreement that would provide for additional bilateral inspections and 
banned reprocessing and enrichment.
    Even as the Cold War was coming to an end, however, countervailing 
pressures were building that would dissipate this momentum. Some of 
these forces that would hinder nonproliferation were derived from the 
same forces that, as we brought the Cold War to an end, had accelerated 
nonproliferation in the first place. Key among these are:

  <bullet> the information technology and telecommunications 
        revolution,

  <bullet> the globalization of the high tech market place,

  <bullet> the world-wide competition for technological talent,

  <bullet> the increased priority of economic competitiveness,

  <bullet> the revisiting of the boundaries of sovereignty and 
        community,

  <bullet> the diminished sense of military danger,

  <bullet> the great expectation for universal democracy, human rights, 
        and the rule of law and with them peace enforcement and 
        disarmament,

  <bullet> the rapid economic growth and energy demands of the largest 
        Asian nations,

  <bullet> and differing demographics within rich and poor nations.

    A look at a few of the general consequences of these shifting 
forces along with examples of some specific complications, highlights 
the change in the fortunes of nonproliferation as the United States has 
pursued it.
    The violent breakup of Yugoslavia and subsequent ethnic violence 
there and elsewhere shook the credibility of important institutions 
that were expected to form a new security architecture, institutions 
such as NATO, CSCE, and the EU in Europe, and the UN globally. Over 
time, sanctions fatigue and the perceived ineffectiveness of punitive 
strikes in places like Iraq, Afghanistan, and the Sudan and divided 
views on the wisdom of various humanitarian interventions have created 
divisions that have resulted in the demise of UNSCOM, once trumpeted as 
proof that nonproliferation would be enforced.
    Failure of countries like Russia to catch the new economic wave, 
and the failure of countries like China to meet democratic expectations 
created international tensions that hinder emergence of anticipated 
strategic partnerships with the US, complicating cooperation on 
nonproliferation in Korea, South Asia, Iran and the Middle East. US 
efforts to sustain Chinese support for pressure on North Korea have 
been complicated variously by human rights, trade, and other strategic 
issues such as Taiwan. Russia's reaction to the Framework Agreement 
with North Korea was public anger that the sale the US proposed to a 
North Korea in violation of the NPT was similar to Russian nuclear 
reactor sales the US had opposed (1) to North Korea when it was not 
known to be in violation, (2) to an Iran that permits IAEA inspections, 
and (3) to an India that is not a party to the NPT.
    Nationalistic backlashes, often in response to transnational forces 
such as the very capitol, technology, labor, and culture flows that 
were forcing political and economic change and turmoil, hindered 
nonproliferation cooperation and arms control implementation. This 
frequently reopened divisions along the lines of economic, political, 
and security ``haves'' and ``have nots.'' In developing countries, this 
is often a generalized anti-Western sentiment even as Western influence 
grows. In other cases, the resentment is focused clearly at the US, 
sometimes even within western industrial democracies. Likewise, this 
coexists with the adoption of significant elements of American culture. 
In India, for example, hawkish national security positions have 
increasingly been associated in domestic politics with economic 
liberalization as the political price for change. In many cases, India 
has placed itself in the position of not being able to take ``yes'' for 
an answer on security issues because of domestic or international 
politics and the ease with which such spoilers, foreign and domestic, 
can damage those who compromise on these issues.
    Non-competitive state enterprises and underpaid technologists in 
China and the former Soviet Union and less competitive firms in the 
West dabble in unsavory, gray, and black market niches for military and 
dual use sales, further undercutting nonproliferation. The worst cases 
of this involve the Chinese relationship to the Pakistani nuclear 
effort, and network of technical cooperation and missile sales such as 
North Korea has with Iran, Pakistan, and others as reported by the 
Rumsfeld Commission.
    The need to be globally competitive and the internationalization of 
much education and production has placed a premium in business on 
removing obstacles to the flow of knowledge and technology, best 
transferred through experts and teams. This has created dynamism in 
technological change and transfer that has outpaced the ability of 
traditional governmental bureaucracies to keep pace. Confusion within 
industry and within government over the real state of the art, true 
foreign availability, the actual military significance of technology, 
and how the licensing process should work has created an export control 
system in which factions prefer to game the system rather than resolve 
differences on the basis of policy clarity and procedural efficiency. 
On the international level, this led to the abandonment of CoCom prior 
to locking in a comparable nonproliferation mandate for its successor.
    The foreign policy community, still significantly divided along 
regional and functional lines, has had even more difficulty optimizing 
US interests with the introduction of a more complex, less security 
centered agenda. Identifying commensurate values and even measures of 
merit when security, economic, human rights, environmental, and other 
issues must all be weighed together has proven difficult. We don't have 
a good understanding of the security implications of globalization. 
North Korea threatened to withdraw from the NPT if it were forced to 
submit to an IAEA suspect site inspection. Public arguments in the US 
and in Asia over how to respond varied, often creating dysfunctional 
logical interactions. Some argued Pyongyang's withdrawal would initiate 
a flood of withdrawals. Better to have them in the treaty and violating 
it that endangering it by other means. Others argued that our inability 
to defend Seoul meant that enforcement of the NPT against a military 
power was too dangerous, even explicitly stating that we could be 
tougher if they were weaker. One can imagine how this played. Still 
others, especially in South Korea, emphasized the fear that a tough 
stance might cause a North Korean collapse, which, even if not violent, 
would impose severe reunification costs on the South and upset the 
economy.
    Nation-states are increasingly exploring new balances of 
centralization and decentralization that have important implications 
for international relations. The question of whether and to what degree 
American local governments can enact international sanctions is before 
the US Supreme Court. Also international, transnational, and sub-
national communities, institutions, entities, groups, and organizations 
are increasingly acting on behalf of, in lieu of, and in opposition to 
functions and policies of various nation states including in areas 
related to international security, arms control, and disarmament. Both 
these governmental and non-governmental developments both assisted and 
complicated the resolution of international security issues related to 
nonproliferation. The Ottawa Landmine Convention by-passed the 
principle of consensus and certain practices of constructive engagement 
with, among others, the United States. In the case of the United 
States, the concluding process refused to consider the American request 
to give the US time to deal with the problem of the North Korean threat 
acrossthe DMZ. Much of the demand for an immediate, declaratory norm 
rejecting US security concerns and their nonproliferation implications 
in Korea and globally was driven by modern, networked transnational 
activists including numerous non-governmental organizations that, in 
fact, actually implement or fund important humanitarian de-mining on 
behalf of or, as necessary, in lieu of governments. Human institutions 
are still in flux in the face of globalization.
     The interaction of constructive engagement and the establishment 
of norms--whether they involve international security behavior, 
business best practices, or human decency--has been synergistic in some 
cases and disruptive in others. In the case of nonproliferation, the 
expectation that nuclear abolition could be near at hand has led many 
activists to focus on holding the future of the NPT hostage to dramatic 
commitments from the P-5. Even though India was not a party to the NPT, 
the effect of this hostage strategy during the NPT extension conference 
was to build up expectations among Indian doves that their disarmament 
demands would be met and among Indian hawks that the NPT, which they 
see as a threat to India's nuclear options, would be doomed. In fact, 
most nations favored a permanent extension of the NPT. The tactical 
gambit of threatening the NPT was thus counterproductive in many ways. 
The doves were damaged, and the hawks were frightened. The impact 
continued and continues today as Indian hawks and doves transferred 
their demands from the background of the NPT Review to the foreground 
of the CTBT negotiations. Many Indian hawks and doves had long been 
united in their support for a CTB, because, either substantively or 
tactically, each saw it as promoting their objectives at the expense of 
the nuclear weapons states. Their perceived defeat in the NPT extension 
combined with a view that the CTBT was being forced upon India by a 
circumvention of the consensus rule of the Conference on Disarmament 
did more than increase political opposition to signing the CTBT. It 
created an environment more supportive of nuclear testing and 
deployments. One cannot assert that India never would have tested 
without these unintended consequences. Domestic politics had been 
driving India that way more or less for some time. Still, prior to 
these developments, the logic of restraint carried more weight. As we 
approach the next NPT Review, we will likely see a new version of the 
hostage strategy, and we may yet see more unintended consequences.
    The themes and examples I have given above describe how things can 
go wrong because of complexities and uncertainties. The Committee, I 
know would be more interested in identifying some of the fundamentals 
that might guide positive actions.
    One of the most important fundamentals is to look at security 
concerns of other nations as objectively as we can. This is not easy 
nor are generalizations always useful. Still, above I described how 
nearly all nations are party to the NPT. And that is an important fact, 
but it is not the only way to look at the problem. If you look at the 
WMD potential of nations by population, you get a somewhat different 
picture. Half the world's population already lives in countries that 
have nuclear weapons. If you add to this group those who live in 
countries that could develop nuclear weapons or live in alliances with 
nuclear weapons, the number rises to about two-thirds. If you add in 
those people living in additional countries suspected of having covert 
WMD programs, the number may exceed three fourths.
    Yet, many of these nations do not seek nuclear weapons and other 
WMD precisely because they are part of the Western alliance structure 
that has permitted them to increase their security, freedom, and 
prosperity beyond anyone's greatest expectations at the end of World 
War II and the beginning of the Nuclear Age. Half of the world's GNP is 
in NATO. Three-fourths of the world's GNP is in nations that have 
defense alliances with the United States. American security commitments 
are a vital tool for nonproliferation in Europe and in the Asia Pacific 
region, and elsewhere as well.
    Most of the worlds population, indeed, its poorest nations, 
however, live outside reliable security architectures. And it is in 
many of these areas where absolute GNP is growing and the knowledge, 
technology, and materials for WMD already widespread. If we do not find 
a way to have confidence in their security, additional nations in 
troubled regions will look to WMD as a part of their security policy. 
Fortunately, the number may not be great. Unfortunately, the 
proliferation may not be confined only to those outside the western 
alliance structure. A failure to deal effectively with the dangers in 
Northeast Asia, for example, could result in proliferation among 
America's friends in the region including South Korea, Taiwan, and 
Japan.
    In this age of globalization, we also need to open up our thinking 
about what is the real post-Cold War threat, balancing both 
probabilities and consequences. The post-Cold War proliferation threat 
is not only nuclear. Biological weapons are of increasing concern, and 
chemical threats remain. Advanced conventional weapons and information 
warfare capabilities are also proliferating. Although the greatest 
destructive power remains in the hands of the long-standing nuclear 
weapons states, the probability of their use of WMD against each other 
is very low. The greatest probability of WMD use involves other states 
and increasingly non-state entities such as terrorists.
    Even in conventional arms, where American excellence and level of 
investment outpaces all others, globalization will have important 
leveling effects. Increasingly, the defense industrial base of the 
United States will look like the commercial industrial base, which will 
be a global industrial base, and thus increasingly a global defense 
industrial base. The United States should be able to maintain a 
comfortable overall lead for many years to come. Inevitably, however, 
the US is going to find that, just as is happening in high tech 
industry, it will not always be the best at everything or under all 
circumstances. The US military must be particularly alert to scenarios 
in which US forces may be particularly vulnerable to asymmetric 
responses and silver bullet technologies at times and places not of its 
own choosing. This will be particular telling in this age of ``Roy 
Rogers warfare'' in which casualties are expected to be small on both 
sides.
    Given this description of the changing strategic environment and 
its strategic consequences, what is to be done?
    Obviously, we need understand the proliferation aspects of 
globalization better. More efforts need to be made to bring the policy 
and technology communities together to understand the implications of 
trends already visible such as the change in human institutions and the 
interaction of ubiquitous supercomputing and wide-band networks. We 
need to understand what are the dangers and the defenses that 
biotechnology is bringing. Many issues like this need fresh thinking.
    We also need to revisit our policies and approaches what were once 
important nonproliferation tools. Consider export controls. Tactics of 
passive resistance, practiced by both sides, have hurt both 
nonproliferation advocates and business. Some improvements are possible 
just with streamlined procedures and new data processing. For some 
important technologies, the system still can work. For those were it is 
not working, we need to consider what might work. In some cases, the 
problem is getting international cooperation. We have succeeded in the 
past and catalytic events or effective diplomacy may create 
opportunities again. We also need to revisit the theory of export 
controls. Leak proof controls were never the case. The idea always was 
to delay and force a price. In some cases, like North Korea, this was 
to buy time. In other cases, like Argentina and Brazil, it was to 
provide incentives to enter the global economy as a full player. In 
response, the business community argues that economic ties and 
development can be important nonproliferation factors. Of course, this 
is true. Indeed, it is fundamental. I would only caution that business 
as usual is not the same as constructive engagement. We can give 
someone the rope to hang us. And an epidemic of WMD terrorism or 
regional disasters is not going to be conducive either to. free trade 
or the greatest freedoms. We need a better theory of constructive 
engagement with real measures of merit.
    We need also to think fresh thoughts about sanctions, international 
norms, and their relationship to constructive engagement. Too often 
today, international norms are simply asserted. Indeed, a particular 
declaration may be exactly right. The problem is that the better way to 
enhance security, prosperity, and freedom may be to engage directly 
those who are the cause of concern and take steps that move in the 
right direction, creating real conditions for positive change. In this 
regard, I would recommend taking a fresh look at some of the Nunn-
Lugar-Dominici and related Cooperative Threat Reduction programs with 
Russia and other Newly Independent States. They are maturing, providing 
some important lessons of do's and don'ts that can inform our thinking 
on what we mean by real constructive engagement and the development of 
effective international norms. They are not without real difficulties 
and risks. One must approach them with your eyes open and your feet 
squarely on the ground. In the face of much questioning and of 
considerable skepticism, they have never the less, always had 
bipartisan support. Today's improved efforts deserve even more 
consideration, and, I personally believe, greater support.
    To achieve a more effective way to turn globalization into a tool 
of nonproliferation will require a real coming together, not only to 
create a market place of ideas, but also a means of developing measures 
of merit for weighing different factors. In the end, the Legislative 
and Executive Branches will both have to step up to the challenge. Most 
of the players are in place, I only wish that the voices for a hard-
nosed approach to nonproliferation were not quite so overwhelmed by 
organizations with so many other competing concerns. But then this 
committee has heard my view before. My concern is that we need to 
insure that global nonproliferation policy, ours but more likely other 
nations, does not degenerate into business as usual combined with a 
neo-Kellogg-Briandism in which the nonproliferation total is 
disastrously less than the sum of the parts.

    Senator Lugar. Thank you very, very much for that 
testimony.
    Dr. Ikle.

 STATEMENT OF FRED C. IKLE, FORMER DIRECTOR, ARMS CONTROL AND 
                       DISARMAMENT AGENCY

    Dr. Ikle. Mr. Chairman, I am honored of course again to 
appear before your distinguished committee.
    And I want to be responsive to the excellent questions you 
placed in your opening remarks. Nonproliferation is a 55-year-
old policy and largely a bipartisan policy and continuous 
policy of the United States. Yet, we always tend to respond to 
the most immediate setback of that policy, the next country 
that becomes a nuclear power: the Soviet Union in 1949, France 
in the fifties, and most recently India and Pakistan.
    I think it is useful as we try to figure out what went 
wrong (as things did go wrong indeed) and where to go from 
here, to keep in mind, in a way, our nonproliferation policy 
has seven distinct elements.
    Does Senator Biden want to speak now?
    Senator Biden. No. I apologize for being late.
    Dr. Ikle. We still have six of these policies in our quiver 
as arrows to shoot. One we have lost for good. That was the 
first one, to try to abolish nuclear weapons. That was the 
purpose of the Baruch-Acheson-Lilienthal plan. That is now 
irretrievably lost. It was the only time in history when you 
could have abolished nuclear weapons through the rigorous 
control of all reactors anywhere in the world. It was 
technologically possible, which is interesting. It was 
politically impossible because of Stalin's Soviet Union.
    But we have the other six policies still, and we try to 
work with those. The second one we started right away in 1945--
secrecy and export controls. The Soviet Union would have 
developed nuclear weapons, despite our best effort on those 
policies, out of its own indigenous scientific and industrial 
capability. But without the successful espionage and without 
too much declassification of the Manhattan Project, it probably 
would have taken them 5 years longer or so.
    Then, later on, of course, we collaborated, as we did in 
the Manhattan Project, with the British on their nuclear 
program. And while we first kind of opposed the French on their 
``proliferation,'' we later on cooperated with them and helped 
them somewhat with their nuclear program. And meanwhile, the 
Soviet Union helped the Chinese. So the control against exports 
and the secrecy has been broken through from day one.
    And export control can delay the acquisition of nuclear 
weapons by other countries. It cannot prevent it in the event 
of a country that has a medium industrial and scientific 
capability. The main reason for the difficulty of using secrecy 
and export controls to prevent proliferation is that peaceful 
technologies are intertwined with weapons technologies.
    This is a fundamental fact we must keep in mind today: the 
difficulty of separating weapons uses from peaceful uses is the 
bane of all nonproliferation policy; in the nuclear area, in 
the chemical area, and especially in the biological area. So 
when our ebullient promoters of open science and technological 
aid and technology exports skirmished with our somewhat close 
mouthed and perhaps somewhat surly guardians of weapon secrets, 
it is always the latter who lose--the guardians.
    Note, for example, it is now U.S. policy (And we are all 
for it.) to make all new findings of the U.S.-funded genome 
project instantly available on the Internet. Imagine the uproar 
in the scientific community, should our government try to keep 
some of these discoveries secret for security reasons. It would 
be impossible. And this problem, and it is an important follow-
on, cannot be fixed by setting up an international organization 
that is supposed to promote peaceful uses on the one hand, 
while guarding weapons technologies on the other.
    Such a contradictory mission was the tragic flaw of the 
well-intended Atoms for Peace Project. Atoms for Peace, by 
spreading supposedly peaceful reactor technologies to every 
corner of the globe, also spread the wherewithal and know-how 
for making nuclear bombs. Atoms for Peace, let us be honest 
about it, is what helped start India, Iraq and North Korea on 
their weapons programs.
    We should have learned these lessons by now, but I am 
afraid we have not. The mistake is being repeated right now by 
our current reactor project for North Korea, which our allies 
are financing because we pressured them to do so. And it is not 
clear to me why the administration assumes that North Korea, 
which has violated nearly every previous proliferation 
agreement, as Ambassador Lehman pointed out, will now abide by 
the inspection provisions for these two new reactors. And as 
Ambassador Lehman alluded to, these reactors are not much safer 
than the reactor that Russia is helping Iran to build, and 
against which we have bitterly complained.
    I am afraid the same mistake could be repeated with the 
proposed verification protocol for the Biological Weapons 
Convention. Experts are largely agreed that the development of 
biological weapons agents is almost impossible to verify and, 
in certain circumstances, totally impossible. Yet this BWC 
Protocol would set up another international organization, again 
with the conflicted mandate on the one hand to spread the 
latest biotechnology to every rogue nation that has signed on, 
and on the other hand to pretend to verify what cannot be 
verified.
    Now our third policy against weapons proliferation also 
deals in a sense with export control, but it is far more 
effective. I think it is one of the most essential 
nonproliferation policies today. This policy enlists U.S. 
diplomacy and economic assistance to coax, to urge and to help 
governments to control the dangerous weapons materials and 
bombs that they have already accumulated.
    Mr. Chairman, you alluded to the question of whether we 
should help India to control the things that they now have 
built or are building more effectively. And of course, as you 
know best, this effort is still particularly important in the 
vast area of the former Soviet Union, and the effort is known 
here in this town as the Nunn-Lugar program. I can think of no 
greater accomplishment in the recent era in behalf of 
nonproliferation than this program.
    And I am aware, Senator Lugar, that you had to use your 
high prestige and your persuasiveness to persuade a number of 
your colleagues in your own party, my party, to keep supporting 
this program. This is of outstanding importance.
    The fourth policy against proliferation is the promotion of 
treaties, which is sort of a favorite sport of the arms control 
officials today. Now, among law-abiding countries, treaties can 
help. They can help to keep in place a decision governments 
made at one point that they do not want to acquire nuclear 
weapons, and it cements it in. So treaties can be useful.
    And also it is worth noting that in the case we are 
addressing today, India and Pakistan, both of these governments 
were honest enough not to sign the Nonproliferation Treaty. So 
they have not violated what they did not sign. By contrast, 
Iraq and North Korea have signed the Nonproliferation Treaty, 
undoubtedly with the intent of getting the peaceful assistance 
that the Treaty promises, and thus the better to make bombs.
    And, Mr. Chairman, I fear we have to keep this experience 
in mind as we evaluate the benefits and the drawbacks of the 
proposed protocol for the Biological Weapons Convention. What 
do we do when the treaties have been violated, as distinct from 
the non-violating actions by India and Pakistan? Usually, we 
turn the other cheek and politely invite the violator to sign 
another treaty. That happened in 1989, after Saddam Hussein had 
used poison gas against Iraq's own people and against Iran. We 
had a large conference, with all the diplomats gathering in 
Paris. Iraq had violated the 1925 Geneva Protocol, which even 
Hitler had not violated. Did we condemn Iraq in this conference 
about chemical weapons? Did we apply punitive sanctions?
    No. The diplomats gathered in Paris and resolved, with 
great resolution, to negotiate another treaty prohibiting 
chemical weapons again. This time it would be with 
verification. There was not a single diplomat who had the 
courage or the decency to stand up and say: ``We have seen the 
photographs of the horribly injured Iranian soldiers and the 
Kurds, against which you, Iraq, used poison gas. We have 
verified your violation. We do not need more verification. We 
need punishment.'' That did not happen.
    And it seems to me the same blithe disregard for 
enforcement occurred when North Korea violated, as Ambassador 
Lehman explained in greater detail, the commitments it had made 
in 1985 and a few years later again. What was the penalty North 
Korea had to suffer for violating the NPT agreement, violating 
the agreement to which Ambassador Lehman referred to, of the 
non-nuclear Korea?
    For promising once more, the third or fourth time--I do not 
know how you count it--not to build nuclear bombs, the North 
Korean dictatorship received the U.S. commitment to donate the 
fuel supply, food, plus the two reactors I already mentioned. I 
do not know what kind of signal that gave to India and Pakistan 
on this same question.
    The fifth policy is persuasion, which can be effective with 
friends and allies, and also has been effective with some of 
the Soviet Republics. Taiwan and the Republic of Korea come to 
mind. Brazil and Argentina we may have been helped along, and 
also their own diplomacy helped on that. So it is always a 
mixed picture. Proliferation is not a simple one-strand policy.
    And then there is a sixth policy, the imposition of 
economic sanctions. It is usually not effective, but it may 
have some benefit. Let me pass over that for the benefit of 
time.
    Let me go last, to the seventh policy to which some of your 
questions, Senator Lugar, have already referred to: the nonuser 
of nuclear weapons. That is to say, our reluctance and the 
reluctance now of other nuclear powers--ours since 1945--not to 
use nuclear weapons is very, very important, probably the most 
important strand today of our nonproliferation policy. It 
started in 1950, as we still had a nuclear monopoly and we 
almost were driven off the Korean Peninsula. The use of nuclear 
weapons was briefly considered, as you might recall from the 
history, but decided against.
    We confirmed non use, in a way, in Vietnam, when President 
Nixon pointed out that the idea of even considering nuclear 
weapons was an absolutely ridiculous option, even though it was 
the first war in history we lost. It was confirmed in a way by 
the Soviet Union, when they lost the war in Afghanistan. They 
did not even threaten, did not even mention nuclear weapons. We 
have become so used to this restraint that we almost tend to 
overlook its enormous importance.
    Half a century, or more, of non use has helped to keep 
these weapons in a very separate sphere as a military 
instrument that appears to be of extremely restricted utility. 
I think that is one aspect where our further work and 
discussion with India and Pakistan can really do some good. And 
you have already alluded to it in your opening remarks.
    Now, none of these policies, whether singly or in 
combination, will prevent the possibility that other countries, 
a few other countries, might start producing nuclear weapons. 
North Korea, Pakistan and India are probably not the last 
countries that have crossed our line. So we must think a bit 
ahead as to how we want to respond in future instances.
    I would say if it is a treaty violation, we should think 
hard and do something about the penalties. If it is not a 
treaty violation, we should at least think about the 
neighboring countries and their security concerns and whether 
the acquisition of nuclear weapons of one country--say Iraq--
will drive another country--say Iran--to follow like Pakistan 
has followed India.
    Or we can do what we did in the Republic of South Korea. We 
talked them out of their nuclear weapons program, and we 
reconfirmed our guarantee. And despite what North Korea has 
done in violating all these nonproliferation treaties, the 
Republic of Korea has not followed with its own revival of its 
nuclear programs. But the last thing we should do is to reward 
the violators of the Nonproliferation Treaty with gifts, as we 
are doing unfortunately with North Korea.
    Thank you, Mr. Chairman.
    Senator Lugar. Thank you very much, Dr. Ikle.
    Dr. Ganguly.

STATEMENT OF SUMIT GANGULY, PH.D., VISITING FELLOW, CENTER FOR 
  INTERNATIONAL SECURITY AND COOPERATION, STANFORD UNIVERSITY

    Dr. Ganguly. Mr. Chairman, Senator Biden, it is virtually 
kind of an anthropological ritual for every academic who comes 
before this committee to say how much of a pleasure it is and 
how honored he is or she is to be here.
    Senator Biden. You do not have to.
    Dr. Ganguly. Well, in my case, this is deeply felt, Senator 
Biden, because I have had an abiding interest in these matters 
of nonproliferation, arms control and regional security in 
South Asia. So I can honestly state that this is indeed both a 
rare honor and a particular privilege to be here today.
    I shall focus my remarks primarily on South Asia, because 
my two colleagues have already given you the broader picture, 
the larger ambit for the purposes of discussion. And I will 
focus my remarks very narrowly on the nuclear conundrum in 
South Asia.
    As I start, I find myself compelled to make some allusion 
to the somewhat unseemly debate that President Clinton found 
himself caught in as a consequence of his remarks to the Indian 
Parliament and prior remarks about South Asia being the most 
dangerous place on earth, leading the President of India to 
make the remark that this was an alarmist statement. I do not 
want to take a position on that particular issue, but I would 
like to underscore that there is a real danger of war in South 
Asia, with the accompanying danger of escalation to nuclear 
war.
    Given that the nuclear taboo, as Professor Ikle has 
outlined, has survived a number of different wars, a number of 
different challenges, it is in our interest, quite apart from 
humanitarian concerns, that the taboo not be broken, that the 
post-Hiroshima nuclear taboo lasts well into this century and 
beyond.
    What are the kinds of things that we can do in terms of 
trying to accommodate our nonproliferation interests, of 
pursuing our nonproliferation interests, while recognizing the 
reality that India and Pakistan crossed the nuclear Rubicon at 
two points in May 1998? I am going to basically talk about four 
different approaches.
    I will briefly talk about our current approach, which 
involves continuing a process of rollback, passive acceptance 
of Indian and Pakistani nuclear programs, large-scale economic 
incentives sort of in a fashion similar to that we have tried 
with North Korea to try and get them to give up their programs, 
and, fourth, I will argue for a policy of active management, 
which takes components of the other three, but asks for the 
formulation of a markedly different policy.
    To talk about continuing rollback, we can debate the 
motivations about why India and then, subsequently, Pakistan, 
in May 1998, chose to carry out nuclear tests. And indeed, 
there is a rather vigorous debate in the academic and strategic 
communities about why India tested, whether it was for reasons 
of prestige, status, its pecking order in the international 
system, whether it was a perceived security threat from China, 
the end of the Indo-Soviet alliance. These debates will go on 
and will get various faculty members tenure in the years ahead.
    But let us not be detained by those now. We will leave the 
questions of motivation aside for the moment. We can always 
return to this during the question and answer session if anyone 
is interested.
    The fact is both states are firmly committed to their 
nuclear weapons programs, regardless of their motivations. 
Secondly, I would argue that the current sanctions regime has 
only had a marginal effect in retarding the programs of India 
and Pakistan and, more importantly, Indian and Pakistani 
behavior. In the case of Pakistan, it has a little more bite, 
because Pakistan's chronically mismanaged economy, which was 
also more closely integrated into the global economy, has paid 
higher costs than the Indian economy. The Indian economy is 
still very hidebound and, as a consequence, our ability to 
influence Indian behavior through the use of sanctions remains 
still quite limited.
    Finally, I would argue, which is really an extension of the 
second point, that there has been very limited progress in 
terms of meeting our stated benchmarks. About the only area 
where we have seen any significant movement, and even that 
remains problematic, is the area of export controls. India 
always had a fairly good export control regime. It has rebuffed 
offers from Libya to sell oil at highly concessional rates, 
large sums of money were dangled by Iran, under the Khomeini 
regime, to India, and India turned those down.
    The Pakistanis also have a fairly good record in terms of 
not spreading the technology that they have acquired. But this 
is one area where I can see some progress being made. But 
beyond this benchmark, I have to sadly state that we have been 
woefully unsuccessful in pushing the other four benchmarks.
    To turn to passive acceptance, my second option, because 
clearly I would argue that the first option is not yielding the 
kinds of results that we would consider to be salutary. Passive 
acceptance--well, first of all, the biggest problem with 
passive acceptance of Indian and Pakistani nuclear programs 
would be there would be an outcry in this country, particularly 
in this city. There are people who have passionately committed 
themselves, significant portions of their lives, energy and 
resources to preventing the further spread of nuclear weapons, 
to upholding the NPT regime, and I believe it would encounter 
justifiably domestic opposition.
    Secondly, it would be disastrous for the NPT regime. 
Already Dr. Ikle has talked about this. Dr. Lehman has talked 
about this, about the dangers of the demonstration effects if 
India and Pakistan were simply accepted by the sole remaining 
superpower, since they had crossed the Rubicon, that we simply 
throw up our hands and say, well, that is just too bad. I think 
it would have terrible consequences for the NPT regime and 
corrode the regime in fundamental kinds of ways.
    So I think passive acceptance, while it may be something 
that one should just place on the table, it is not something 
that one should give more than 5 minutes of talk to.
    What about large-scale economic incentives? Huge amounts of 
money running into billions of dollars, well beyond what we 
have given North Korea, the promise of reactor technology, the 
promise of reliable reactors that do not produce a South Asia 
Chernobyl, because the Indians are still acutely dependent on 
Soviet-era technology for their reactors and are still in the 
process of buying reactor technology from the principal 
successor state Russia.
    First of all, I think this large-scale economic incentive 
program would run again into the same kinds of domestic 
opposition that I spelled out in my previous scenario. 
Secondly, the amounts involved would be extraordinarily high. 
North Korea is a fairly finite problem. Dealing with India, 
with a population of a billion, the amounts of money that have 
been transferred to North Korea, similar amounts would really 
amount to little more than a drop in the bucket in India, and 
probably not even that.
    Furthermore, even if one could somehow cobble together the 
money and a sufficient amount of money, at least one that we 
deem sufficient, it is unlikely that India would accept. 
Because the nuclear program could not be bargained away. There 
would be questions in parliament, saying that you are selling 
out the national sort of birthright for a mass of pottage. That 
would not be acceptable. And Pakistan of course would similarly 
follow suit. There would be a tremendous domestic outcry, 
saying that this is not something that we should simply give in 
to because of economic blandishments.
    Which takes me to my fourth option, what I call active 
management. This does not mean that we become cheerleaders for 
the Indian and Pakistani nuclear programs. Far from it. But we 
accept the existential reality that they have indeed crossed 
this Rubicon and they are not likely to be forced back.
    This strategy would involve keeping components of our 
present policy, not completely rolling over on our present 
policy. Most importantly, it would continue pressure on both 
India and Pakistan to accede to the Comprehensive Test Ban 
Treat, not merely sign but actually ratify the Treaty. 
Secondly, it would also continue the dialogue on the FMC 
Treaty, the Fissile Material Cutoff Treaty. But it would couple 
it with certain incentives.
    Because, currently, India and Pakistan have little or no 
incentive to behave differently. So far, we have hectored them, 
we have cajoled them, we have made condescending remarks about 
them, and we have threatened them. And we have imposed 
sanctions. But we really have not offered meaningful incentives 
to alter behavior.
    This would involve, particularly in the case of India--and 
I think India is the nub of the problem when we are dealing 
with South Asia--offer India sufficient material incentives, 
especially in the realm of high-technology exports, in the 
context that the Indian economy is reforming. And one area 
where they are acutely deficient are critical areas of high 
technology which only the United States can provide them. I 
think of electronics, I think of biotechnology and the like. 
And I would be happy to elaborate on that during the question 
and answer period.
    But having said all of this, I think we must make 
commensurate demands on the Indians and the Pakistanis. And one 
issue that is frequently neglected in the nonproliferation 
discussions with India and Pakistan, except in passing--and it 
is because of the very complexity of the issue that people 
elide over it--and that is the question of Kashmir. You cannot 
make significant progress on nonproliferation unless you 
forthrightly address the question of Kashmir. We have to push 
both India and Pakistan on initiatives on Kashmir that the 
current stalemate is a dangerous situation and it could flare 
up into conventional war and, God forbid, nuclear war.
    To this end, I suggest three distinct strategies under the 
aegis of pushing India and Pakistan to take initiatives. Number 
one, India has to accept the fact that it has corroded 
Kashmir's autonomy in the worst kind of way. It has broken a 
number of promises with the Kashmiri people, from 1953 onwards. 
And it needs to restore the fractured rule of law in Kashmir, 
to grant Kashmir the autonomy it possessed until 1952--to use a 
phrase from the Vietnam era--to win the hearts and mind of the 
Kashmiris once again. And I do not see any evidence of that 
strategy currently.
    By the same token, we need to pressure Pakistan, and it 
needs to be made very clear to General Musharraf or any of his 
successors that support for terrorism, whether it is in 
Afghanistan or in Kashmir or elsewhere is simply intolerable. 
We have to be categorical and unequivocal about this.
    Thirdly, I suggest, in a departure from present American 
policy, we push to make what is called the line of control the 
de jure international border. Initially, this is going to 
encounter opposition both in India and Pakistan, but for all 
practical purposes, that border has held, the 1999 Kargil 
conflict notwithstanding. And I believe it is in our interests 
to push the two countries to accepting that as an international 
border, as long as the other two clauses that I have spelled 
out are also given certain attention.
    Senator Biden. Professor, excuse me. What was the first 
point? You said the second was being categorical about 
terrorism with Pakistan. What was your first point with respect 
to India? I apologize. I turned to ask a question.
    Dr. Ganguly. That is fine, Senator Biden. The first is 
restore Kashmir's autonomy. Kashmir allowed itself to join the 
Indian union under certain constitutional provisions that 
protected its autonomy. The Indian state has systematically 
stripped Kashmir of its autonomy, which is why we need to go 
back to 1952.
    I am drawing to a close. I promise not to be a garrulous 
academic. These gentleman wear other hats, so they have to be 
more succinct.
    The last two points in this context. And I well realize 
that what I am saying is heresy, but academics are allowed the 
luxury of heresy. That is one of the joys of academic freedom.
    Senator Biden. Not unless you want to be in the Supreme 
Court.
    Dr. Ganguly. We should consider providing permissive action 
links to India and Pakistan. We should promote regional arms 
control. And these efforts at regional arms control must 
involve China, even if we have to drag them in kicking and 
screaming. Because they really do not want to be caught in the 
subcontinental jar. We have to push for doctrinal clarity. And 
here we actually have an advantage. If one looks at the Indian 
strategic doctrine with some care, you will notice that it is 
like people like Professor Ikle's work which has been 
shamelessly plagiarized, along with Bernard Brodie, along with 
Albert Woholstetter, and many of the other stellar American 
strategists of the 1950's and 1960's and beyond.
    Finally, we must also push India and Pakistan in the 
context of an arms control regime to exercise restraint on 
missile deployments, on not mating nuclear weapons with 
missiles, pushing for a range of confidence-building measures 
which currently exist but are only employed in the breach at 
the present time, to start making the existing confidence-
building measures regime work and also towards making it more 
robust.
    Let me end on this note. Thank you very much.
    [The prepared statement of Dr. Ganguly follows:]

                Prepared Statement of Dr. Sumit Ganguly

    Mr. Chairman, distinguished Members, thank you for inviting me here 
today. As an academic with an abiding interest in questions of 
nonproliferation, arms control and regional security in South Asia, I 
consider this opportunity to testify before the Senate Foreign 
Relations Committee as both a rare honor and a particular privilege.

         I. THE LIMITS OF THE PRESENT POLICY: STICKS DON'T WORK

    As Deputy Secretary of State Strobe Talbott has publicly noted, our 
current policy, which aims to roll back the Indian and Pakistani 
nuclear weapons and ballistic missile programs is making no headway. 
Though both sides have refrained from further testing of nuclear 
weapons since May 1998, they have shown little willingness to 
substantially meet the five U.S. benchmarks: a reduction in Indo-
Pakistani bilateral tensions, Indian and Pakistani accession to the 
Comprehensive Test Ban Treaty (CTBT), a moratorium on the further 
production of fissile material, restraint on the development of 
ballistic missile capabilities, and a strengthening of export control 
regimes. \1\
---------------------------------------------------------------------------
    \1\ 1.Dinshaw Mistry, ``Diplomacy, Sanctions, and the U.S. 
Nonproliferation Dialogue with India and Pakistan,'' Asian Survey, 
Volume XXXIX, Number 5, September/October 1999, pp.753-771.
---------------------------------------------------------------------------
    The American-led sanctions have had inconsistent effects on India 
and Pakistan. They have brought Pakistan's chronically mismanaged 
economy to the brink of disaster. \2\ And they have hobbled the growth 
of some of India's high-technology sectors. On the other hand, India's 
economic growth is still chugging along at about 6 percent annually. 
Beyond exacting economic costs, however, the sanctions regime has had 
little discernible effect on Indian and Pakistani behavior. Pakistan's 
continued fecklessness was evidenced by its infiltration in Kashmir 
last summer. India's initial inability to stop that infiltration has 
led it to significantly increase its defense budget for the coming 
year. \3\ More to the point, since the nuclear tests and the 
concomitant imposition of sanctions, India has started to forge a 
nuclear doctrine and has tested the intermediate-range Agni II missile. 
Pakistan, for its part, has actually created a Nuclear Command 
Authority and has flight-tested an improved version of its 
intermediate-range missile, the Ghauri. \4\
---------------------------------------------------------------------------
    \2\ Sumit Ganguly, ``Pakistan's Chronic Coups,'' Foreign Affairs, 
March/April 2000, Volume 79, Number 2, pp. 2-7.
    \3\ Jane's Defence Weekly, ``India's biggest ever increase in 
defence spending,'' available at:
http://www.janes.com/defence/editors/india--defence.html
    \4\ CNN.com, ``Scientists warn of advancements in Pakistani nuclear 
program,'' available at:
http://cnn.com/2000/ASIANOW/south/03/15/pakistan.nukes.01/index.html
---------------------------------------------------------------------------

                 II. SOUTH ASIA AFTER THE NUCLEAR TESTS

    Other developments in Indo-Pakistani relations since the nuclear 
tests have raised misgivings about the stability and security of the 
region. In May-June 1999, the nuclear-capable forces of India and 
Pakistan fought a bitter, sanguinary and costly battle at Kargil, Dras 
and Batalik, along the Line of Control (LoC), the de facto 
international border in the long-disputed state of Jammu and Kashmir. 
Other developments and events in the region have also contributed to 
increasing tensions. In October of 1999, an increasingly beleaguered 
democratic regime in Pakistan was overthrown in a military coup led by 
the mastermind of the unwise Kargil infiltration. Finally, in late 
December of last year, Islamist rebels connected to the insurgency in 
Kashmir hijacked an Indian Airlines flight from Kathmandu, Nepal, 
eventually winding up in Kandahar, Afghanistan. Indian spokespersons 
accused Pakistan of having masterminded the hijacking. Pakistani 
officials steadfastly denied any such connection. Nonetheless, the 
insurgency has been brought to the west's front door.
    The tensions in South Asia are too great and too immediate, now 
that both sides are nuclear powers, for the U.S. to ignore them or to 
think that simple sanctions will induce the two sides to address the 
real dangers of nuclear weapons.

                 III. OPTIONS, STRATEGIES AND SCENARIOS

    There are four principal strategies that the United States could 
pursue to tackle the proliferation problem in South Asia: continuing 
rollback, large-scale economic inducements, passive acceptance, and 
active management.
Continuing Rollback
    It is most unlikely that the present policy will meet with any 
greater success in the wake of the President's visit to the region. The 
reasons are not far to seek. Both Indian and Pakistani elites have 
pursued nuclear weapons because of perceived national security 
vulnerabilities and not, as is popularly argued, in a search for 
prestige or status, nor solely to gain domestic.support. Pakistan 
embarked upon its nuclear weapons program as early as 1972, in a direct 
response to its disastrous defeat at the hands of Indian forces in the 
1971 war that led to the creation of Bangladesh. The Indian program can 
be traced back to the late 1960s when India refused to accede to the 
Nuclear Nonproliferation Treaty (NPT), fearing, among other matters, 
the potential threat from a nuclear-armed China, with which it had 
fought a border war in 1962. \5\ In the intervening years, these 
programs have successfully weathered political upheavals, changes of 
regime, technological embargoes, and economic sanctions. Both sides 
have refused since 1998 to even countenance giving up their nuclear 
options. In the Indian case, Chinese saber-rattling over Taiwan has 
also reinforced deep-seated misgivings about future Chinese malfeasance 
against India. Such fears stem in part from China's continuing claim to 
some 90,000 square kilometers of Indian-administered territory along 
the Himalayan border. Consequently, it is most unlikely that further 
American economic pressures and political hectoring will lead to the 
abandonment of nuclear weapons.
---------------------------------------------------------------------------
    \5\ For an analysis of the origins of the Indian nuclear weapons 
program see: Sumit Ganguly, ``India's Pathway to Pokhran II: The 
Prospects and Sources of New Delhi's Nuclear Weapons Program,'' 
International Security, Volume 23, Number 4, 1999, pp. 148-177.
---------------------------------------------------------------------------
Passive Acceptance
    If the strategy of ``rollback'' is unlikely to work, should the 
United States simply pursue a policy of acquiescence: neither actively 
restraining the programs nor encouraging them in any fashion? The 
advantages of this strategy are that it would end an ongoing 
contentious exchange with India and Pakistan and would enable the 
United States to devote greater attention to other, more compelling 
foreign and security policy issues.
    This strategy, however, would not be acceptable for a number of 
reasons. Domestically, it would face understandable and significant 
opposition from the nonproliferation community. Externally, it would 
undermine the carefully constructed and American-led nonproliferation 
regime. Perhaps most dangerous, other incipient proliferators would 
derive comfort from the passive American stance. Consequently, this 
option is politically and strategically untenable.
Large-Scale Economic Incentives
    A third option would be for the United States to provide 
significant economic and military assistance to both India and Pakistan 
in return for abandonment of their nuclear and ballistic missile 
programs. The likely success of this strategy is exceedingly small. To 
begin with, this plan will face enormous domestic opposition, 
especially, I suspect, from Congress. The amounts of aid necessary 
would be enormous given the economic needs of both states. Military 
assistance would also be problematic, as neither state can afford to 
purchase most American weaponry. Even if they were able to acquire 
weaponry from the United States on concessional terms with long-term 
loans, other problems would remain. Both sides would insist on 
continuing their arms race, producing a further political and 
diplomatic deadlock. This strategy has the potential to make the United 
States an unwitting partner in a new South Asian conventional arms 
race. Worse still, substantial Indian conventional military 
modernization could also provoke Chinese security concerns.
A Preferred Policy: Active Management
    A new United States policy that would learn from history and 
acknowledge both sides' necessary positions would entail coming to 
terms with the reality of nuclear weapons and ballistic missile 
programs on the subcontinent without entirely abandoning current 
American efforts to contain proliferation. To this end, the United 
States should continue to urge India and Pakistan to accede to the 
Comprehensive Test Ban Treaty. In this regard, the Senate's 
ratification of the treaty would significantly enhance the ability of 
American interlocutors as they seek Indian and Pakistani accession to 
the treaty. The goal of obtaining Indian and Pakistani signatures on 
the CTBT must realistically be tied to some viable incentives, however. 
Toward this end, the United States should offer to lift a swath of 
sanctions against both countries as a quid pro quo for their adherence 
to the CTBT's expectations.
    Simultaneously, the United States should continue the negotiations 
seeking an end to the production of further fissile material. Achieving 
this objective will prove demanding. India will insist on 
``grandfathering'' its stockpile while Pakistan will insist upon a 
fuller accounting, given India's substantial lead. Nevertheless, this 
hurdle should not prove to be insurmountable.
    Despite these elements of continuity, a new policy will entail some 
fundamental changes in American perspectives: It is certainly not in 
America's interest to see an unbridled nuclear arms race (some would 
say ``crawl'' ) on the subcontinent. A nuclear exchange between India 
and Pakistan would amount to an unparalleled human catastrophe. It 
would also dramatically undermine the post-Hiroshima nuclear taboo with 
far-reaching consequences for the international system. Consequently, 
it makes more sense to confront the existential reality of their 
respective programs and find measures to stabilize and contain them.

                        STEPS TOWARDS A SOLUTION

    What are some possible measures that India and Pakistan could be 
urged to undertake? A number of confidence-building and risk reduction 
measures are apparent. First, the two sides could develop more robust 
``hotlines'' linking not only their respective Directors-General of 
Military Operations (DGMOs) but also their prime ministers and utilize 
them at appropriate moments. They could also strengthen and dutifully 
implement a panoply of existing confidence-building measures at the 
conventional level. For example, they could reaffirm and expand the 
list of nuclear facilities which both sides, under an earlier 
agreement, are enjoined from attacking. They could provide advance 
warning of all missile tests and avoid test trajectories that could be 
misconstrued as threatening. In effect, neither side would conduct test 
flights in the direction of each other's countries. The United States 
or other of its nuclear-armed allies could selectively offer both 
states permissive action links (PALs). These devices involve electronic 
codes and mechanisms which prevent the unauthorized use of nuclear 
weapons. The diffusion of such technology could be coupled with a 
willingness on the part of both India and Pakistan to demonstrate 
greater transparency about the size and deployments of their nuclear 
forces to the United States.
    American attempts to limit the growth of India's nuclear weapons 
and ballistic missiles must be sensitive to Indian concerns about the 
People's Republic of China. To this end, the United States must make 
clear to the PRC that coercive attempts to change the status quo along 
the Sino-Indian border would provoke a strong American response. 
Furthermore, instead of simply sanctioning India and Pakistan under the 
existing terms of the Missile Technology Control Regime (MTCR), it may 
prove more fruitful to draw these two states into the regime. Bringing 
them into the regime could actually enhance the U.S. goal of 
strengthening India and Pakistan's existing export control regimes on 
sensitive ballistic missile technologies. Such a move would not be 
construed as a dilution of the American commitment to the regime. And 
it could have the salutary effect of limiting Chinese violations of the 
existing regime through increased transparency.
    Finally, despite the terrible setback caused by the Kargil crisis 
of May-June 1999, the United States must urge India and Pakistan to 
break the Kashmir deadlock. The spiraling of the Indian and Pakistani 
weapons programs cannot be arrested without forthrightly addressing the 
Kashmir problem. Since the outbreak of an ethno-religious insurgency 
there in December 1989, this putatively ``low intensity'' conflict has 
consumed more lives than all the Indo-Pakistani wars and crises 
combined. \6\ Breaking the deadlock will require an imaginative and 
bold shift in American strategy.
---------------------------------------------------------------------------
    \6\ For a perceptive analysis of the Kashmir crisis see Jonah 
Blank, ``Kashmir: Fundamentalism Takes Root,'' Foreign Affairs, Volume 
78, Number 6, November-December 1999, pp. 36-53.
---------------------------------------------------------------------------
    India, the status quo power, can be easily persuaded to convert the 
Line of Control (LoC), the defacto international border, into a dejure 
international border. Pakistan will no doubt protest this decision. Yet 
Islamabad should realize that despite four wars (1947-48, 1965, 1971 
and 1999), several attempts at bilateral negotiations and endless 
rounds of multilateral negotiations Pakistan has made no progress 
toward the goal of seizing Kashmir. As India's conventional military 
capabilities continue to grow, Pakistan's ability to seize the 
territory through the use of force will become little but a cherished 
memory.
    To gain Pakistan's acquiescence to the LoC change, and to gain the 
support of the Kashmiri populace, India will also have to make 
substantial changes in its Kashmir policy. It will have to legally 
foreswear in perpetuity all claims to the original state borders, i.e. 
to the portion of Kashmir held by Pakistan, as well as the portion 
ceded by Pakistan to China. Simultaneously, it must restore the 
corroded autonomy of the state in the Indian Union, forthrightly 
address problems of human rights violations, reduce its military 
presence in the state, repair its crumbling infrastructure and secure 
employment for large sections of Kashmir's disaffected youth.
    Forging this new policy will not be easy. Indeed it is likely to be 
sharply criticized from many quarters. However, it is more than 
apparent that the present efforts to contain the nuclear genie in South 
Asia have yielded little.

    [Additional material submitted by Dr. Ganguly has been maintained 
in the committee's files.] \7\
---------------------------------------------------------------------------
    \7\ Two articles were submitted: (1) ``Pakistan's Never-Ending 
Story: Why the October Coup Was No Surprise,'' Foreign Affairs, March/
April, 2000, Volume 79, Number 2; (2) ``India's Pathway to Pokhran II: 
The Prospects and Sources of New Delhi's Nuclear Weapons Program,'' 
International Security, Volume 23, Number 4, Spring 1999, pp. 148-177.

    Senator Lugar. Thank you very much for that testimony.
    Let me just say at the outset that we are going to continue 
with questions. Senator Biden and I will initiate questions. 
And hopefully you will have answers. At about 10 minutes to 
11:00, I will ask to be excused. In my other role as chairman 
of the Agriculture Committee, we are managing the crop 
insurance bill on the floor. And peripherally, at 11:00, that 
debate will commence and we will have a vote probably about 
11:05 or 11:10. At which point I will ask the distinguished 
ranking member to chair the committee so that we can continue 
right on until he finally needs to leave for those votes.
    Let me just ask, first of all, Dr. Ikle, in giving these 
seven principles which have guided our nonproliferation policy, 
as you pointed out, for over a half a century, you came to the 
point, leaving aside the South Asia business today, of Iraq and 
their use of clearly a poison gas, at a conference in Paris in 
which all of the delegates pointedly tried to ignore the 
evidence or any censure of Iraq. That is probably not unusual 
in international diplomacy.
    You cited again North Korea, in which there probably, and 
sometimes pointedly, have been egregious breaches, but the 
world has essentially proceeded with a strategy of economic aid 
to the North Koreans, plus, as you say, a reactor that has some 
potential for difficulty. What does it take, in terms of this 
international regime, to bring about, as you suggested, 
punishment for Iraq? Let us say at that conference that the 
United States delegate has stood up, or somebody else, and 
said: You are guilty, clearly guilty. Therefore, the question 
before this conference is what penalty should be exacted. Or 
how do we stop this egregious violation?
    Obviously this implies potential military conflict. It 
implies probably somebody having the strength, if we are not to 
go into, as you point out, useless economic sanctions, other 
sanctions might be military sanctions, the use of force. And 
most nations, to say the least, have shied away from that with 
regard to Iraq and certainly with North Korea.
    I just pose the question as a student of this now for 
almost this 50-year period of the policy, who does the work? In 
other words, who provides the muscle or the credibility? I ask 
that very seriously, because we are heading down a path in 
which some of our testimony the other day implied that treaties 
alone are tremendously important, but probably not operative. 
You are making that point in a very dramatic way today with 
regard to the whole question.
    And let us take the case of South Asia now that is 
immediately before us. Despite all of the ministrations that we 
may attempt--and Dr. Ganguly's policies all might be 
attempted--but for some reasons of the politics, internal, of 
those countries, they step over the line, a crude weapon is 
dropped from an aircraft or some delivery of this variety, what 
do we do? And who does it? Can you help us out? And maybe 
others of you have thoughts.
    Dr. Ikle. You are clearly raising the correct and hard 
questions. It is much easier and nicer to have a treaty signing 
ceremony and clink the champagne glasses than to plan on 
sanctions, particularly military actions. I think we have to 
begin by changing the attitudes and the expectations, that we 
are less jubilant about another treaty being signed that is 
toothless and may even serve as a whitewash for violations, as 
has happened in the past, but prepare ourselves more to go for 
treaties where we have thought about the response if it is 
clearly violated.
    There are other international norms whose violation meets 
with a response of sanctions. The apartheid policy of South 
Africa comes to mind. Strong economic sanctions which, for that 
open, trading country, were painful, and surely, I would think, 
contributed to the change in the South African policies.
    The economic sanctions against Libya, and the aircraft 
sanctions may have had some impact on changing Qaddafi's mind 
on making at least partial accommodation on the sabotage 
against the Pan Am aircraft. So while sanctions are not a 
decisive powerful tool, they do have some effect. Yet, we see 
even extended military action, like the air campaign against 
Kosovo, has not yet removed the Milosevic regime.
    None of these answers are simple. But I think we ought to 
tilt our attitude to be less receptive of treaties which are 
simply a symbolic action to be celebrated when you sign them 
and to be forgotten when they are violated, and turn more to 
serious agreements, where we have thought at the beginning and, 
if possible, written into the treaty, the response to 
violation.
    We have United Nations provisions for sanctions which we 
might link together more effectively with future arms control 
treaties. And I would think this very committee would want to 
look at future treaties more from the point of view of what you 
do when the violation does occur. Having made that clear, you 
may help deter it.
    But then also we have to keep in a separate box of problems 
the states that have, with an honest policy, not agreed to our 
treaties, like India and Pakistan. They have said: you let 
China become a nuclear power; you helped the French and the 
British; we are a large country; we have our own reasons; and 
so on. So there you have to use other incentives. And as the 
Professor pointed out, I think there are subtle and helpful 
steps that can be taken in those situations.
    Senator Lugar. I would just make the point, for definition, 
the sanctions you spoke of, of course, were multinational as 
opposed to unilateral.
    Dr. Ikle. Right.
    Senator Lugar. So for the sake of this theoretical problem 
of this Paris conference, let us say the United States delegate 
had stood up and said we ought to do something about that, 
hopefully others would have agreed. Now, if they do not, then 
we have problems. Which we have with the Glenn amendments with 
regard to Pakistan and India. Very rapidly we were unravelling 
the amendment on the floor of the Senate within days after the 
test happened, largely because the rest of the world did not 
observe the Glenn amendment. So that problem is there.
    Dr. Ganguly, do you have a comment on this question?
    Dr. Ganguly. To the extent that the NPT is a norm and sets 
up certain kinds of expectations, even though India and 
Pakistan, which, as Dr. Ikle has pointed out, were not 
signatories to the NPT and thereby they did not technically 
breach the treaty agreement, nevertheless there was a sense 
that the world was going in a particular direction and India 
and Pakistan took a different direction.
    Having said that, it is not that India and Pakistan are 
completely insensitive to international opinion. Shortly after 
the Indian nuclear test, if I recall correctly, it was on the 
30th of May when the Prime Minister of India, Mr. Vajpayee, put 
before the Indian Parliament a draft document, spelling out the 
rationale for the test. And in that, he mentioned three 
distinct things, which clearly show a sensitivity to current 
prevailing international opinion: a test moratorium, no first 
use, no transfer of technology. And this is in a public 
document tabled before Parliament. And I do not think this was 
accidental. This was clearly with an eye towards the 
international community, saying that we can be a responsible 
state.
    Pakistan, because of much internal political turmoil, 
including the coup, has not come out with a similar document. 
But one certainly can make certain inferences from their 
behavior. They certainly have not talked about spreading their 
nuclear technology, despite dire economic need. They have 
backed away from a no first use policy because of India's 
overwhelming conventional superiority. And certainly they have 
not made any efforts to test a second time, and have said that 
they too will follow the Indian test moratorium.
    So the central point I am trying to make is that these 
countries are not insensitive. These are not North Koreas. They 
are sensitive to the climate of international public opinion, 
even if they may not be adherents to a particular treaty or set 
of treaties.
    Senator Lugar. Senator Biden.
    Senator Biden. Mr. Chairman, I would like unanimous consent 
that my opening statement be placed in the record.
    Senator Lugar. It shall be placed in the record.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I thank you for calling this hearing, the second in a 
series on nonproliferation. Tuesday's hearing was an important first 
step in examining the underpinnings of U.S. nonproliferation policy. 
Today we will focus on India, Pakistan, and North Korea--very dangerous 
places in the world today.
    Tackling the Korean peninsula and South Asia in one hearing is a 
tall order, but both these two regions face the twin dangers of nuclear 
weapons and long-range ballistic missiles.
    Just 10 years ago, our dominating nuclear concern was the Soviet 
Union and its massive arsenal. We are working to pare down that arsenal 
and to contain its potential for proliferation. Ron Lehman is serving 
his country well in his work on that--both as chair of the advisory 
board for the International Science and Technology Centers program, and 
within the last few weeks, as the U.S. representative helping Russia to 
plan the accelerated downsizing of one of its major nuclear weapons 
facilities.
    In the last decade, the world has grown considerably more complex. 
Today we also worry about a short fused, nuclear armed South Asia. As 
recently as six years ago, the U.S. and North Korea were heading down a 
path toward war over the very issue we are here to discuss today.
    Facing these prospects--a nuclear exchange in South Asia, or a 
conflict with North Korea--we have to take proliferation pretty 
seriously.
    And we have. Without the Agreed Framework and the efforts of Bill 
Perry, North Korea could have acquired enough bomb material for a dozen 
or more weapons and could have flight-tested a possible ICBM. Now we 
must maintain our resolve for the next steps--halting any further 
missile tests and the spread of missile technology from North Korea.
    South Asia is at an important crossroads. In just the past nine 
months, India and Pakistan have openly threatened each other with 
nuclear attack on at least two occasions--and these were not idle 
threats for nations that have gone to war three times since their 
independence.
    The U.S. has experience and expertise with reducing nuclear 
tensions. We learned the hard way over 50 years of nuclear checkmate. 
Perhaps we could bring that accumulated knowledge to bear in South 
Asia. It may be time to look at that option.
    That option, however, is just one of many. Our three distinguished 
witnesses are here today to help illuminate both the grave challenges 
we face and how we can limit the impact of the nuclear and missile 
proliferation that has occurred.
    I welcome them to this hearing, and I thank you, Mr. Chairman, for 
arranging their testimony.

    Senator Biden. Again, thank you for holding these hearings. 
I cannot think of anything that we could or should be doing 
that is more important than trying to figure out how to move 
beyond where we are. It is a trite expression, but this is an 
increasingly dangerous world, as ironic as it seems to most 
Americans, and my constituents, when I say that. They look at 
it and think, well, no, things are obviously much better.
    I feel less certain today about the prospect of--and I do 
not put it as a high probability--that a nuclear weapon will be 
used as a weapon of terror, accidentally, or as a consequence 
of something happening in Kashmir than I did in the midst of 
the Cold War. I have not been doing this as long as you have, 
Dr. Ikle, but Ron and I have been hanging around about the same 
amount of time. So I cannot thank you enough for doing this.
    I have a number of prepared questions, that our staffs 
dutifully write for us. But, Dr. Ikle, I was struck by your 
very instructive rendition of the major elements of our 
nonproliferation policy, how they would work and what worked 
and what did not work. One of the things that you said struck a 
chord with me. It crystallized a thought that I have been 
grappling with; and that is when you talked about what has 
worked and what has not worked in nonproliferation policy. You 
said it pretty clearly: With our friends, what has worked are 
security guarantees. The bottom line is it has not even been 
economic incentives alone. It has been basically guarantees. 
Japan, fully capable of being a nuclear power overnight; it is 
guarantees. Germany, fully capable of being a nuclear power, 
guarantees.
    Now, I have no answer to the question I am about to ask. 
Truly I am agnostic on this. I think I have mentioned this to 
you before, Ron. If you go back, Dr. Ganguly, and talk about 
what motivated India to move when they did with their most 
recent test, one of the many factors that are mentioned, 
whether it is the primary or secondary or even a factor, is 
China. And some have suggested, although you did not mention 
it, the lack of their guarantor being available, the former 
Soviet Union.
    Now, I am not suggesting it is that simple. We have not had 
a hostile relationship with India, but we have had a strained 
relationship with India for a long time. It is counterintuitive 
that the world's largest democracy and the United States would 
have a strained relationship. If you asked the average grade 
school or high school child studying world events, and you said 
this is the largest democracy, what do you think their 
relationship with the United States is? The instinct would be 
to say, oh, it is good.
    We have clearly had a relationship with Pakistan for some 
time that has been more commodious than the one with India. And 
I do not know that we have ever thought about it, and you may 
be able to tell me, Doctor, because you are the institutional 
memory on this whole area, whether we have ever contemplated 
some sort of guarantee, some security commitment to India that 
would be credible, whether we would provide one or not. Has 
that ever been discussed?
    Has that ever been debated? Because it has not been debated 
here. And it may be just a crazy idea. Talk to me about it. I 
am one of your students now. You are back in class. Tell me 
about that. I mean this sincerely. Tell me about how we would 
approach that notion and if we ever have.
    Dr. Ikle. You are on a key right question. The Chinese were 
a perceived or actual threat to India. They fought a war on the 
Himalayan border. The disappearance of the Soviet Union as a 
guarantor removed a deterrent to an attack on India when the 
Soviet Union might do things against China. And the question 
whether we could have stepped into that guarantee, or quasi-
guarantee (the alliance with the Soviet Union) after the 
collapse of the Soviet Union in 1991, I think was never 
addressed.
    That is a recent period. I cannot give you the historic 
memory that you credit me with on the earlier diplomatic 
considerations and maybe internal Presidential discussions here 
in the fifties and sixties about a guarantee to India. As I 
recall, we always felt that the closeness and friendship treaty 
and so on, the quasi-alliance with the Soviet Union, was quite 
dominant, particularly in the sixties and seventies.
    I do remember, in the eighties, we tried to have a closer 
relationship with India. As Under Secretary in the Pentagon, I 
went to India in the mid-eighties to arrange some of the 
technology transfers on aircraft design and to see whether we 
could work more closely together. I was invited to Bangalore, 
but not to the city where the MiG's are being built, which I 
cannot remember. And they promised to separate the tech 
transfer that we gave from the tech transfer that the Soviet 
Union gave. So there was a transition period there.
    I think, from hindsight, maybe more could have been done in 
that great period of turmoil in 1989, 1991, saying--we were in 
discussions with the Russians; we were quite open then with 
Gorbachev, moving over to the Yeltsin regime--that an attack on 
India would be a major concern of the major powers, and 
particularly the United States, and so on, and given India a 
legitimate feeling that the threat from the Chinese nuclear 
weapons program is not something that they had to carry on 
their own shoulders entirely alone.
    And that gets into, if I may take one more minute, into a 
larger question, which troubles me a great deal. What if the 
terrible thing should happen and there should be nuclear use in 
India, Pakistan, Iran, Iraq, what have you, Korea, where we do 
not have an immediate--Korea is not a good example--where we do 
not have an immediate alliance commitment? What will be the 
United States response? What should be the response? The world 
will change overnight.
    Senator Biden. Absolutely.
    Dr. Ikle. And how we pick up after that catastrophe and 
whether we can prevent it from becoming a 1914 on the one hand, 
or an opening to proliferation all over the world on the other, 
is a critical question. Maybe we could think about it more and 
therefore be better prepared should it ever happen.
    Senator Biden. In light of the fact that you are going to 
be leaving, why do not you take the rest of the time. Because I 
will have 10 to 20 minutes when you are gone.
    Senator Lugar. Thank you. I appreciate that. I will just 
ask this question.
    President Clinton has been visiting India. And as I recall, 
at least the press accounts, of the Indian President, or maybe 
others, have indicated that his attempt to mediate the Kashmir 
dispute would not be welcomed. That is a problem. If not 
President Clinton, who? The thought that you presented, Dr. 
Ganguly, is that clearly we ought to be vitally interested in 
this question, even to the point of signifying that the 
boundary, as you have suggested, be set.
    But, once again, by whom? Who does the heavy lifting in 
this situation? If not the President of the United States or 
our country, how do we put this thing together? This is more 
than just an academic question, because we are all talking 
about the fact that somehow or other, for a variety of 
motivations which sort of seep out in some of our conversation, 
India and Pakistan decided to test nuclear weapons. This 
shocked the world because we had had a long stretch in which 
people and countries did not do this.
    So now we face the increasing problem that, having tested, 
despite protestations, there are apparently elements in both 
India and Pakistan who are not averse to considering the use of 
these weapons, regardless of whether they are well-tested or 
developed. And as we have all said, if someone does use one of 
these weapons, the world changes dramatically and we enter a 
new phase in world history.
    How is this mediation or successful or constructive 
intervention by the rest of the world to occur? Now let me just 
add one more point about material incentives, including 
technology, which may be a good idea. We talked a little bit 
earlier, I think Dr. Ikle did and maybe others of you, that in 
the Atoms for Peace Program, we transferred a lot of 
technology.
    But, ultimately, this may have contributed to part of the 
problem we now have in some cases. And so technology of this 
sort has not only dual uses, but multiple uses. And we are 
having a big debate in this country about export controls. How 
much computer technology or whatever else we have, is it useful 
to trade, given all that we know in the world?
    So from your scholarship, can you give us any idea as to 
how any nation, or a group of nations, might make a 
constructive contribution given the rebuff at least our 
President I think has interpreted to have received as he tried 
to do this?
    Dr. Ganguly. Let me turn to the question of technology 
transfer and export controls first, and then I will turn to the 
question of mediation fairly quickly. Taking, for example, a 
country like India, export controls on technology actually have 
perverse effects. Because what it does is it pushes the very 
large Indian scientific establishment to say, fine, we will 
manufacture these things on our own. It may retard the growth 
of our programs but, in the end, the program is going to be 
ours, warts and all. We will not be dependent on the 
international community and the United States.
    So we may be able to defer a problem but, in effect, what 
we are doing is forcing them to develop this technology. Now, 
this would not be the case for less technologically developed 
states. We tend to forget, given our images of India as a land 
of vast poverty, snake charmers and elephants, that there is a 
parallel reality in India and one of extraordinary 
technological complexity and technological progress.
    A significant portion of our scientists are really of 
Indian origin today. And we tend to somehow elide over that. So 
there are limits to how much we can do with technology controls 
for a country like India.
    For a less technologically advanced country, it would work 
much better. And I would not be in favor of completely sort of 
dumping the regime, whether it is for India or for other 
countries. In the Indian case, I am making only a calibrated 
cases that in certain distinct areas we loosen the kinds of 
controls that exist.
    To turn to the question of mediation, one should perhaps 
avoid the term ``mediation,'' because that has taken on, that 
has accreted a certain sensitivity in India because of the 
experience during the Cold War. At least both my colleagues 
alluded to how India, particularly after 1971, was aligned with 
the Soviet Union while notionally maintaining a nonaligned 
posture.
    And because of that, we--and I am losing the thread of my 
argument. Let me retract here. On mediation, there is this 
sense that the United States was not really an honest broker in 
the Cold War. And the United States cannot be fully trusted to 
be an honest broker at the end of the Cold War. And this is 
largely the legacy of the Cold War mentality, which permeated 
New Delhi. It is time for India to jettison this mentality, but 
it does not go away easily. Because it has sort of really 
entered the warp and woof of Indian political life.
    We should not use the word ``mediation.'' But what we 
should do is to talk separately to people in Islamabad and to 
talk to people in New Delhi. We should eschew any form of 
grandstanding. We should quietly offer our services without 
making loud public statements, saying why do not we take all of 
you to Oslo or some other Scandinavian capital.
    Avoid that form of grandstanding altogether. But quietly, 
very directly, in a systematic fashion across party lines, we 
talk to them about the dangers and about the importance of 
lowering the temperature in Kashmir and calibrating it to 
particular things that they should do. Because this is not 
simply an India-Pakistan problem. Because if this thing flares 
up--this thing, I mean Kashmir--and if we do see the use of 
nuclear weapons, we are breaching a fundamental worldwide 
taboo.
    Senator Lugar. Dr. Lehman, do you have a thought about what 
we do in India?
    Dr. Lehman. I have a lot of them. I do not know how valid 
they are. My views of South Asia change over time. Because the 
more I learn, the more I decide that I do not really understand 
enough yet.
    My view of our relationship with India is that it has 
always been worse than the objective conditions warrant, and 
for reasons that are not very good on both sides. My opinion of 
our relationship with Pakistan is that it has always been 
better than the objective conditions warrant, and for reasons 
that are good on both sides.
    Take the Kashmir case that you have raised. Actually, from 
an Indian perspective, the situation in Kashmir is much better 
than it has been in the past. I can remember times when Indian 
officials would talk about having to take final solutions 
because they lost the war for the hearts and minds of the 
people of Kashmir, and this was going to mean the end of the 
Commonwealth. And that meant that they were going to have to 
take out the Pakistanis. That was years ago, but that is not 
the way they talk today.
    I wish I could say the way they talk today is encouraging. 
It is not. But it is at least better than it was. I am more 
worried right now about the Pakistani situation. I was there 
about 4 years ago, right after Nawaz Sharif was elected the 
last time. And I talked to a lot of Pakistanis, including 
Pakistani businessmen. It was kind of a strange, upbeat 
conversation, like it is our last chance, but at least we have 
one. By the next year, they were really down in the dumps. And 
by a year later, it was desperate. And by 6 months after that, 
well, you have seen it.
    I know we used to joke that India was the country of the 
future. And then some people said, and it always will be, and 
Pakistan is the non-country of the future. And then someone 
would say, but it always will be. It is serious. Indeed, a lot 
of the leverage I think that the Pakistanis think they have on 
us right now is their desperate situation. They just think that 
we will not leverage them too much, because, frankly, we will 
turn Pakistan over, as they say, to the ``Afghanis.''
    I think that it is a very dangerous situation. I think that 
both the Indians and the Pakistanis in the past have been 
overly self-confident. They, especially the older generation, 
love to talk about how they all went to school together. ``We 
know each other real well.'' Then, how come they have so many 
wars? By our standards, I do not think they understand each 
other well.
    What does that say about how we, the U.S., which is the 
heart of your question, deal with that? I think Sumit got it 
right. I do not think standing there lecturing is going to help 
much. If you lecture the Chinese in public, they stew in 
private. But if you lecture the Indians in public, they stew in 
public and they really make it miserable.
    I think what you have got to do is, in essence, change the 
objective conditions. And by that I mean, in essence, you have 
got to create the conditions where the Kashmir situation is not 
worth going to war over.
    Now, in part, that means of course reform, as Sumit has 
talked about, in Kashmir. And to some degree, the Indians make 
some progress, then they back off, and I think they are going 
to have to do a lot more. But, in the end, when the Indians are 
more focused on economics, more focused on other national 
demands, Kashmir will not be as symbolic as it has been in 
recent years.
    How you do that on the Pakistani side is a lot more 
difficult. But I think, in time, it could be done. But this 
ship will not turn around in any grand compromise, through any 
positive management or engagement. It is going to take a long 
time. And what we have got to do is kind of keep them off the 
shoals as best we can, help as best we can, while we try to 
really change the questions the parties ask.
    I think words have impacts. Most of the words that we speak 
in this region I think do harm. Especially many of the arms 
control proposals. We sometimes ask them to answer the 
questions right when they cannot give us yes for an answer. 
This is a region of spoilers, domestically, and in the region. 
Almost any time anything positive happens, somebody decides 
they have to spoil it.
    I think we have to be very careful. And that is why I think 
we focus low key, change the conditions. I could go on. I will 
stop there.
    Senator Lugar. Well, let me just ask one quick follow-up. 
And it is asked in the same spirit that Senator Biden was 
asking for instruction with proposals from outside the box. 
What would happen if somehow the international community 
decided to have a presence in Pakistan? For example, we have a 
lot of people in Kosovo now. And one reason is to prevent war, 
so that the Balkans do not go back into conflict. And here we 
have, and clearly in Kashmir, the possibility of not only 
conventional conflict, but nuclear war.
    Now, if this is that dangerous of a situation, and I think 
that it is, our intelligence people in their open testimony, 
when asked about the probability of war this year, list that 
right up near number one. So if that is the case, despite the 
fact that the Pakistanis and the Indians, combined, might say, 
well, we do not want the international community in Kashmir, we 
do not want reformers, economists, social scientists, all the 
people that might make some difference in the quality of life 
for these people.
    If we were to go out on the floor of the Senate right now, 
and Senator Biden and I were to suggest a mission of the United 
States to Kashmir to save the world from nuclear war, a lot of 
people would say, that is a bridge too far. It is an 
interesting idea, but there have been no hearings. The 
administration has not been heard, and all the rest of it. None 
of you have been heard, but now I ask you to be heard. What do 
you think about that?
    Dr. Ikle. We have an international force that people have 
almost forgotten in the Sinai. There is one in Lebanon and one 
in Cyprus. And conceivably, with the agreement of the two 
sovereign countries, India and Pakistan, you could have a 
sizable United Nations-sponsored contingent somewhere in 
Kashmir, particularly for the reaffirmation of the current 
dividing line the Professor recommended as a thing to focus on. 
So in that context, probably more with the United Nations' 
blessing than a direct U.S. unilateral action, that is 
conceivable.
    Apart from that, of course, as you know much better than I, 
Senator Lugar, we have extensive business and AID presence, or 
had an AID presence, in both countries. And they are not pariah 
states like North Korea. In that context, it is also worth 
recalling that, in 1950, when Kim-il-Sung started the attack on 
South Korea, there were United Nations observers on the 
demarcation line, or the dividing line, who confirmed in fact 
the attack from the North.
    Dr. Lehman. Mr. Chairman, police officers will be the first 
to tell you that they do not like to get into the middle of 
domestic disputes, and there is a real danger there. But I 
think Senator Biden hit the nail right on the head when he 
talked about security and the positive security aspects of 
that. As Dr. Ikle indicated, actually even after Bandung, we 
had explorations with India. We still thought of ourselves as a 
part of the same world. We all I think know the history of how 
things got off track, and we all understand the difficulties of 
getting them back on.
    In fact, at the time of the signing of the NPT, it was the 
Soviet position that pushed negative security assurances, no 
first use and all that stuff. It was actually the U.S. position 
that real security was all about the positive security 
assurance side, ``who stands up for us when it really 
matters.'' The problem was that it just happened to coincide 
with the end of the Vietnam War. And I think we all know the 
history of the Senate debates over what kind of commitment 
should the Nation be making? Where do we put our kids in harm's 
way? But that was then and this is now, and we already are much 
more involved than we have ever been before.
    Now, what does it mean for a place that you, and I think 
correctly, have said is very dangerous? Well, once before, when 
they had a war that led to the partition of Pakistan, the 
Indians were outraged that we sent an aircraft carrier to the 
Indian Ocean. And the Pakistanis were outraged that we did not 
use it. You have got that problem.
    But let me offer an interim step that I have been 
advocating for some years. It takes some development time, but 
suppose you had sort of a super JSTARS and a super AWACS. You 
could go into a region that is pretty dangerous and yet have 
your forces safe. And you could say, either publicly or 
privately as the scenario calls for, (A) nobody is going to 
surprise anybody; and (B) we know how to attribute and there 
will be consequences.
    Now, how much leverage do we get from something like that? 
I do not know. But at least something. But every time you go 
out there, you are taking a risk. And I think you have to have 
the capability to go with that as well.
    Senator Biden. Professor?
    Dr. Ganguly. Very quickly, a couple of different things to 
follow up on what these two gentlemen have said. There is a 
United Nations observer group for India and Pakistan currently 
in place, but its mandate is exceedingly limited. Its mandate 
is limited to monitoring cease-fire violations, compiling 
information on cease-fire violations, and making this clear.
    And there is an interesting twist over here. Joseph Korbel, 
our Secretary of State's father, was one of the United Nations 
Administrators of Kashmir and wrote a book which still holds up 
today, amazingly enough, called Danger in Kashmir, where much 
of the history of UNMOIP as it is referred to, the United 
Nations Observer Force in India and Pakistan, is detailed.
    The problem of expanding that force largely lies in New 
Delhi. Because New Delhi perceives that many of the United 
Nations resolutions tilted much too unfairly in favor of 
Pakistan and never categorically condemned Pakistan's initial 
aggression in Kashmir. Whether or not that perception is 
correct is another matter. But the fact is that perception does 
exist and perceptions do matter in international relations.
    And if I may take 30 seconds to go back to a question that 
you asked somewhat earlier. There was actually an Indian quest 
for a nuclear guarantee. And this is now much of the public 
record. It took place between 1966 and 1967, just before the 
onset of the Nuclear Nonproliferation Treaty of 1968. India 
sent one of its most brilliant and able civil servants, 
subsequently an Ambassador to the United States, a man called 
L.K. Jha, to the major Western capitals and to the Soviet 
Union, seeking a security guarantee. But eventually, nothing 
transpired. And the Soviets, interestingly enough, were the 
most intransigent.
    Senator Biden. There are a lot of things I want to touch 
on, but let me if I may, in the few minutes that remain--and we 
will not keep you very much longer, because there is going to 
be a vote. By the way, I sit on the Judiciary Committee, and 
one of the things we just have been dealing with is the visas, 
called H1-B visas, and the high-tech community in America tells 
us they are, at a minimum, 395,000 high-tech technicians short. 
The argument goes that could be as high as a million. That is 
in America.
    They are short a half a million jobs on average that 
Americans cannot fill, that we are not in a position to be able 
to fill. And so we are filling them with foreigners, who are 
given a temporary opportunity to work in the United States. And 
as you point out, Doctor, the vast majority of them are 
Indians. And so one of the ways to deal with the transfer of 
technology maybe is to give everyone citizenship. I do not 
know. It may be, instead of turning them from visas, maybe--I 
am going to get in trouble for having said that. And I do not 
mean that disrespectfully.
    But the point is there is a change and maturation in my 
views about the subcontinent here in ways that I have never, 
quite frankly, focused on it before. I thought I was informed. 
And for the last 3 years, I realized how much I am the rule and 
not the exception here on Capitol Hill. We tend to focus when 
there is a problem.
    But certain things seems to be emerging, certain strands 
that seem to be emerging. One is engage, regardless of how we 
do it. And second, it is going to be a long process. There is 
no short-term solution. It seems to me the experts, not only 
you three, but people including my staff, who have written 
about this subject, as well as people outside I have tapped for 
help are coming to similar conclusions.
    One, nothing is going to happen real soon of any dramatic 
consequence. Two, there is no substitute for engaging; there is 
a difference in definition of what constitutes engaging. Three, 
Ron, Doctor Ikle, said that it does not make a lot of sense to 
make our pronouncements publicly. The best chance of moving the 
ball down the field at all here is to the extent that we do not 
do this in a public chastising mode. And four, we have got to 
think outside the box here. There has got to be something 
different than what we have been doing.
    We run up against, Dr. Ikle, your point that we cannot be 
perceived as rewarding, even though there is no violation of an 
existing treaty--they did not sign on, so they did not 
violate--but we cannot be perceived as rewarding their 
activities on the nuclear front. So it gets to be a little 
difficult. Which leads me to this question.
    One of the points raised by Dr. Ganguly is that we should 
think about, if I understood you, the possibility of--all bells 
have rung. That happens so seldom, I think that means it is a 
prelude to going out of session. So you guys may be in deep 
trouble. [Laughter.]
    Dr. Lehman. It could be Kashmir.
    Senator Biden. That is a good point.
    But take the notion of regional arms control. Now, you did 
not sketch out what that would undertake, but let me just say 
one thing and ask a question. Unlike North Korea, all three of 
you have pointed out that neither India nor Pakistan is a, 
quote, pariah state. They are not in that same category. They 
have, by and large, with some notable exceptions, as Dr. Ikle 
pointed out, not totally flaunted the international norms that 
other of our friends and allies have subscribed to with regard 
to the transfer of technology, export, or proliferating 
themselves to other countries. There are exceptions, I might 
add.
    Does that mean that their mutual assertions, made some 
months ago, that they would sign--and I do not know whether 
they ever said ratify--the Comprehensive Test Ban Treaty have 
value? And I know your view on the Comprehensive Test Ban 
Treaty. I am not trying to get us into a side debate about the 
merits of the Test Ban Treaty.
    But is there a value, and are they countries that we 
believe, were they to sign on to the CTBT, which basically says 
no more tests, would we have reason to put them in the category 
of being something other than photo op signatories? In other 
words, could we, based on their past conduct and treatment of 
treaties, would there be reason for us to believe that they 
would likely adhere to that treaty?
    I realize that is a very generic and broad question, but 
you understand what I am driving at here. In other words, if we 
are going to have anything that remotely approaches a 
rapprochement between them and that somehow even brings in 
China somewhere along the deal, which I think you were 
implying, Doctor Ikle, are they parties relative not to one 
another but relative to the world norms that the treaty they 
would sign subscribes?
    Dr. Ikle. I would think the answer is yes. I would think 
their subscription to a treaty of this kind would be much more 
meaningful than if it came from Pyongyang. In fact, there, I 
would expect the opposite. In my view, if the North Koreans do 
not lie, it is an accident.
    But without getting into this in detail, we probably could 
make more out of their statement that they will abide by the 
moratorium. I do not see why we do not take this half loaf if 
it is a half loaf, and that is a separate issue. I think a 
moratorium is better than a treaty for a number of reasons, 
where I agree with Senator Lugar's statement on that issue.
    But in this particular case, let us build up on the 
moratorium. That is, essentially we are getting what we want.
    Dr. Lehman. For years, Indian opinion leaders said they 
wanted a CTB, that it was in India's interest. I think that if 
it is, that is fine, let India sign it. I think the more we ask 
them to sign it, the more the price Indian political leadership 
has to pay to sign it goes up. So what that means is the number 
they will deploy, the conditions under which they will operate 
will all be less desirable for us than they might have been 
otherwise.
    So I would urge, if they want to sign it, that is good. Let 
them. I will not go off on the issue of what does it mean, but 
let me say, on the whole question of regional arms control, I 
would urge a similar caution. There was a period not too long 
ago when it suddenly became a fad among South Asian-ologists to 
go run to the Indians and ask, well, okay, what is your number? 
How many do you need to have?
    And the effect was to drive the number out of sight. Even 
the Indians saw they could not afford it, and finally they shut 
everybody up. I think our policy ought to be, first, do no 
harm. See if you can find a way to engage them in which they 
actually start to think through what is really in their 
interest.
    And let me give you an example, although I am a bit 
reluctant to say it in public, except that I did that once 
before and it went okay. So I will do it. Some years ago, I was 
meeting with the Indians for a long period of time with some 
very good and influential and smart officials and non-
officials. And it is a conversation I followed for a number of 
years.
    We began talking about what, in essence, was the fissile 
material cutoff. And it was very interesting, because the 
Indians were beginning to come to the conclusion that this was 
a winner for them. And one could see how, if you worked it 
carefully, it would be a winner for us, a winner for them. You 
play it low key and it works. You had to work some issues, but 
most of those were falling into place.
    What is happening now on the fissile material cutoff? It 
has gotten thrown into the CD, where it is on a slow track, 
because everybody is mao-maoing it with all kinds of rhetoric. 
And basically, the Pakistanis want to stall for reasons that 
are not good, and the Indians are stalling not for the military 
reasons that the Pakistanis are stalling, I believe, but they 
are stalling because of the domestic political heat they will 
take if they sign something that is objectively in their own 
interest without extracting all kinds of abstract commitments.
    If there is some way to get India and Pakistan to go back 
and take a look at what is really in their interest, we should 
pursue it. And let me explain in a slightly different context, 
let me explain what I mean. North Korea should be about as hard 
as it is to do, but we got the Soviets to get the North Koreans 
to sign the NPT. We eventually got the Chinese to help us get 
the North Koreans to do an IAEA safeguards agreement. We 
eventually got the Chinese and the Russians to help us get the 
North Koreans to do the denuclearization agreement that 
everybody has now forgotten.
    My point is that when you get people quietly working the 
objective conditions, you can do things.
    Senator Biden. I agree.
    Dr. Lehman. The more we get out there and say, how much do 
we have to pay to get you to give us a no first use pledge, 
when they are the ones that are always saying, well, we have 
given you a no first use pledge. Why do I want to pay for that? 
Because I do not believe in it anyway.
    I was in conferences many times--sometimes with the 
Pakistanis, who really do not want to ever give a ``No First 
Use'' pledge for reasons we all understand--with the Indians 
privately, but also with the Chinese with the Indians, and also 
with all of them together. And usually if you have the 
Pakistanis, the Indians and the Chinese all together, they all 
beat up on the U.S. for not giving no first use pledges.
    But if you go to the Indians and say, well, wait a minute, 
the Chinese have given you a no first use pledge already. What 
do they do? Well, they fall into several categories. One is, 
well, they are the Chinese, you cannot believe them. Or, well, 
you know the Chinese, they are just using that as a cover for 
not doing any other arms control because they say, if they give 
you a no first use pledge, that is the same as not having made 
weapons at all.
    Then some of them will say, that, actually, what the 
Chinese really say if you push them is that they will not use 
it unless there is an attack on their soil. And since we, 
India, have disputed territory, the pledge really does not 
apply to us, although they will not say that anymore.
    Then you go to the Indians and say, okay, the Pakistanis 
agree that the Indian no first use pledge is good, is it worth 
something? They say no.
    So, I am not so sure I understand why we want to make No 
First Use, etc. a centerpiece. And I certainly do not want to 
pay for it. It is not that we have to pay so much, although the 
price may be too much. It is they have to pay, including 
domestically in ways that are in no one's interest.
    Senator Biden. I understand. I think you are making a very 
good point. I am not talking about radical solutions, thinking 
outside the box, but just sort of getting off the track. There 
has got to be a way to, in a sense, reshape the table here. 
There has got to be something that allows people, the 
representatives of these countries, to do what is intuitively 
the right thing for them to do in their naked self-interest, 
but they are unable to do because of the political interests 
that they face.
    My mom has an expression. She is an Irish woman. Her name 
is Finnegan. And since the time you were a kid, you do 
something against your own interest and you know it, she would 
say, Joey, do not bite your nose off to spite your face. And 
what you see a lot of is a lot of folks biting their nose off 
to spite their face here. They end up doing things that are 
counterintuitive. But when you step back and look at the 
political reality and the domestic situation, you say, I can 
understand how they got to that negative position.
    And, by the way, I might add, I am not that pessimistic. 
And I realize, in the interest of time, I have got 5-7 minutes 
left and I am jumping ahead, but I know you have always been 
available and I know I am going to get to follow up on this 
when I say it. I am not as pessimistic about the prospect of 
China playing a more positive role with regard to North Korea 
than they have already played, because, again, it is in their 
interest. And sometimes we have got to get the interest. And 
that is a hard place to get to.
    But, Professor, you wanted to say something. I am sorry. I 
went on, in response to what Ron was talking about. You were 
about to say something.
    Dr. Ikle. I am ready to say something on getting out of the 
box or expanding the envelope, your point, Senator. One area I 
would like us to explore quietly with military officials or 
retired military, going to Pakistan and India, is building more 
on the no hasty, no rapid use, no unintended escalation, no 
first use complex. We have sinned in that area in the fifties, 
and sixties still, in having really a rather accident-prone 
posture to deter the formidable Soviet Union with nuclear 
weapons all over the landscape in Europe, many ready to be used 
quickly under controls we would not be happy with today, and so 
on and so forth.
    While we obviously would like far fewer weapons in India 
and certainly in Pakistan, even those few weapons, or 
particularly those few weapons, ought not to be in a position 
of hasty use. And there are things we can talk to them about. 
There are things we can do where technology transfer would not 
be totally out of the box. We have considered that in 
connection with other countries, as well, and have done it with 
some countries.
    That gives us a further probability that they will not be 
used. And that is essentially what proliferation is all about.
    Senator Biden. I will let you close, Doctor.
    Dr. Ganguly. Thank you, Senator Biden.
    I guess I have a mild disagreement with my good friend and 
colleague, Dr. Lehman. I do believe it is not simply a matter 
of appeasing domestic constituencies. I think there are real 
threats: the Chinese sale of ring magnets to Pakistan, the 
Chinese sale of M-11 missiles to Pakistan, all of which have 
been documented in the Washington Post. Pakistan, in the 
1980's, virtually became a surrogate for China in South Asia.
    Unless we can get a grip on Chinese involvement in 
Pakistan, not Korean involvement in Pakistan, we are not simply 
talking about appeasing domestic constituencies. There are real 
threats that the Indians face. And they are not going to stand 
by and watch a steady accretion of Pakistan's nuclear and 
ballistic missile arsenals and not respond.
    I agree that these domestic constituencies that Ambassador 
Lehman alludes to do exist. But that is only part of the story. 
And the feckless behavior of the Chinese in this region in many 
ways contributed to India's anxieties, particularly the loss of 
the Soviet security guarantee in 1991.
    Senator Biden. I would think that it sometimes takes policy 
of big nations time to catch up to changed circumstances. And I 
kind of thought what Ambassador Lehman was saying was that the 
bottom line is to try to get each of these countries to look at 
their self-interest. And that what may have been perceived to 
be from Beijing in their self-interest--I mean if you are 
teaching, as you all do and have, a group of undergraduate 
students about this, and you said, look, you are sitting in 
Beijing and you are starting from scratch, how could it really 
be in your interest to move India into a position where it 
becomes a greater nuclear power? Why would that work?
    If you conclude that what you are doing in Pakistan in fact 
is what is propelling, at least in part, India's nuclear 
program, then it may be time to reconsider whether you are in 
fact doing that. Notwithstanding the fact that may seem logical 
to us, the only thing I do think I have a handle on that may be 
from a different perspective than you do is I find that 
political leaders in all systems are fundamentally the same in 
the way they approach problems.
    Some are brighter. Some are more informed. Some require or 
are forced to have input from citizens, and others are not. But 
the bottom line of it is it takes a while for the caboose to 
catch up to the train here. And if I sound strange here, it is 
because the caboose is usually hooked. But here is a situation 
where we are still trying to figure out how to deal with the 
fact that there is no Wall, the fact that Russia is not the 
Soviet Union. It is a different set of problems.
    I guess it is an occupational requirement, but I am 
optimistic, if we can deal with it. And I would like to ask to 
be able to at least pick up the phone and call you 
individually--confidence building measures. Because one of the 
things, Doctor, that it seems to me implied in what you said 
was, whether or not it relates to the rubric of all the things 
that fall under no first use is that kind of, in my view, falls 
under the rubric of confidence building measures.
    I know it is not literally that but, somehow to gradually 
build in the combination of confidence building measures and 
increased security guarantees, whether that is--the wrong word, 
``guarantee''--sense of security, that they are not sitting out 
there on the end of the Indian Ocean and nobody is paying 
attention. And, Mr. Ambassador, what I wanted to talk to you 
about is you are doing some really important work, shifting 
from Asia to Russia, on working with the Russian officials to 
accelerate the downsizing of their nuclear weapons centers.
    I want to at some time to convince--it will not be hard--
the chairman to get you back to talk to us, even if it is just 
in our offices. My sense is that we could and we should greatly 
increase the help to Russia to find nonmilitary jobs in their 
excess weapons experts. They tell me I have got 1 minute to 
vote, but I would like to talk to you about that at some point. 
And I appreciate what you are doing.
    Dr. Lehman. I am at your disposal, and I am very 
supportive. I think those programs have really matured and come 
along. We have learned some things that we do not want to do. 
We have also learned some things that really are helpful.
    Senator Biden. It would be instructive to us if we knew if 
any of it has any legislative consequence in terms of what we 
should be authoring.
    I cannot tell you how much I appreciate you, all three, 
being here. And I also, Dr. Ikle, can tell you that I cannot 
think of anybody we could have here that could give us more 
insight into this. I mean this sincerely. We have been on 
opposite sides of issues and the same side of some issues. But 
I have great respect for you and I truly appreciate you 
continuing to do this.
    And, Doctor, the bad news for you is, you were such a good 
witness, I am confident you will be invited back. That is the 
bad news.
    Dr. Ganguly. I would consider it a pleasure.
    Senator Biden. Thank you very much, gentlemen. I am sorry 
to run off and do this, but you guys are used to this.
    We are adjourned.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]


          IRAN AND IRAQ: THE FUTURE OF NONPROLIFERATION POLICY

                              ----------                              


                        Tuesday, March 28, 2000

                                        U.S. Senate
                             Committee on Foreign Relations
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 3:09 p.m., in 
Room SD-419, Dirksen Senate Office Building, the Hon. Richard 
Lugar presiding.
    Present: Senators Lugar and Biden.
    Senator Lugar. This hearing of the Senate Committee on 
Foreign Relations is called to order.
    Today the committee continues its series of hearings on 
United States' international nonproliferation policy. We turn 
our attention to the Middle East where the actions of Iran and 
Iraq continue to confound nonproliferation efforts.
    In our first hearing, the director of Central Intelligence, 
George Tenet, testified that ``over the next 15 years our 
cities will face ballistic missile threats from North Korea, 
probably Iran and possibly Iraq.''
    In fact, Director Tenet suggested that most analysts 
believe that Iran could test an ICBM capable of delivering a 
light payload to the United States in the next few years.
    Furthermore, he pointed out that the likelihood that Iraq 
has continued its missile development leads the Intelligence 
Committee to the conclusion that they could develop an 
intercontinental ballistic missile in the decade. Director 
Tenet's testimony provides an ominous introduction to what many 
consider are the most perplexing proliferation challenges the 
international community faces.
    The tension and hostility present throughout much of the 
Middle East is fertile ground for programs to develop weapons 
of mass destruction [WMD] and the means to deliver them. The 
United States and the international community have undertaken a 
number of different programs and polices to roll back, reverse 
or otherwise circumscribe proliferation in the Middle East.
    Unfortunately, to date few of these efforts have proven 
successful. Both Iran and Iraq are clearly attempting to 
continue to expand their weapons of mass destruction 
capabilities. Although these programs clearly violate 
international norms and, in some cases, international 
agreements, the world seems to have lost interest. 
International resolve is faltering with efforts to ensure and 
to verify that Iraq dismantles its weapons of mass destruction 
and missiles programs.
    Indeed, the degradation of UNSCOM sends a signal that 
transgressors can outlast international resolve. And similarly, 
although recent political developments appear promising, Iran 
continues to attempt to acquire long-range missile capabilities 
and an indigenous nuclear weapons capability in support of 
terrorism.
    The fear most often expressed is not only that these 
countries may utilize weapons of mass destruction again, and 
possibly against Americans, but that other states in the region 
could become disillusioned with the international community's 
limited capability and uneven political will to enforce 
international norms.
    If disillusionment leads to yet another increase in weapons 
of mass destruction development, the possibility of WMD use in 
the Middle East will rise exponentially.
    The purpose of today's hearings is to identify where U.S. 
and international nonproliferation programs have succeeded and 
where they have broken down.
    Where did our efforts succeed? And where did they fail? And 
does the fault lie in the policy or in the implementation? Or 
did the international community simply lose the will to 
continue doing the difficult work necessary to eliminate the 
threat of weapons of mass destruction? In short, does 
nonproliferation policy have a future in these countries?
    With the possibility that Iraq has utilized the absence of 
international inspectors to begin rebuilding its arsenal, how 
must our policies and efforts be altered to reflect this 
possibility and to remove these potential threats? Perhaps most 
important, how do we invigorate international will to restart 
international inspections and maintain multilateral sanctions 
until Saddam Hussein complies with the agreements?
    Military force has been viewed up until this time as a 
response of last resort in Iraq. But with the collapse of 
UNSCOM and the apparent lack of international will to maintain 
multilateral sanctions, should military force now be considered 
as a weapon of first resort in response to further evidence of 
WMD production in Iraq? We are constantly confronted with the 
growing risk of surprise in proliferation matters. In fact, 
Director Tenet suggested ``that more than ever we risk 
substantial surprise.''
    The Rumsfeld Commission rightly reminded us of the 
importance of addressing the implication of what we do not know 
in our analysis and policy. One potential vehicle for surprise 
was reported in the New York Times last week. The article 
suggested that Iraq may be conducting WMD and missile research 
through surrogates. Specifically, Sudan was cited as the home 
of the missile research center provided by North Korea and 
financed by Iraq.
    My personal opinion is that Saddam Hussein will continue to 
threaten the world with weapons of mass destruction and to 
spread instability through military force. And I am convinced 
that the only way to eliminate the threat Iraq poses to the 
Middle East and the United States is to encourage new 
leadership in Bagdad.
    Iran is an equally frustrating topic. U.S. and 
international nonproliferation policies have not proven 
successful in deterring or stopping WMD development. On a 
multilateral level, enforcement of nonproliferation policies 
toward Iran has proven very difficult. Foreign suppliers 
continue to provide Iran with WMD technology and know-how.
    These developments require careful consideration of several 
important questions. Has American and international diplomatic 
response to Iranian proliferation activities been adequate? 
What additional steps must be taken in the future?
    And can international efforts be enhanced to respond to the 
Iranian WMD programs, or have such international covenants and 
policies lost their moral persuasion because of impractical and 
incredible requirements or standards of evidence?
    Are improved western relations with Iran a substitute for a 
hard-nosed nonproliferation policy, or is modest success in one 
a prerequisite for the other? Currently in both the case of 
Iran and Iraq, the status quo is unacceptable. We must analyze 
how our current policies should be altered to reflect the 
current situation and what new policies should be employed in 
the future.
    It is my pleasure to welcome a most distinguished panel 
through our hearing. Witnesses will include Ambassador Rolf 
Ekeus, former executive chairman, United States Special 
Commission on Iraq, and currently the Ambassador of Sweden to 
the United States; the Honorable Richard Butler, former 
executive chairman, United Nations Special Commission on Iraq, 
and currently diplomat in residence at the Council on Foreign 
Relations; and Dr. Anthony Cordesman, senior fellow for 
Strategic Assessment and co-director of the Middle East Program 
at the Center for Strategic and International Studies.
    We are grateful that our witnesses have agreed to testify 
on these most important subjects. But before calling upon them, 
I ask my colleague, Senator Biden, for his opening statement.
    Senator Biden. Thank you, Mr. Chairman. In the interest of 
time, I would ask unanimous consent my statement be placed in 
the record.
    Senator Lugar. It will be placed in the record in full.
    Senator Biden. Mr. Chairman, we have three incredibly 
distinguished witnesses, who I suspect are going to be able to 
shed more light on the questions you raised and the choices we 
have than any other three people we could assemble. I am 
unabashed fan of Mr. Butler, and I have great respect for the 
other two witnesses. And I hope they will be, and I expect they 
will be, frank with us.
    It seems to me that almost any regime that relates to 
nonproliferation requires consent of the international 
community, whether or not it is the United Nations or just 
western nations, if we concluded, as we did in Bosnia, that we 
should move and act, and in Kosovo.
    It seems to me, to state the obvious, that does not exist 
either in Europe with France or in Russia or China. And so how 
do we move to a place where we can affect what seem to be 
inevitable outcomes if we just sit by? And I hope we will be 
open and frank about what the options of a President are, what 
the options of a country are at this point. And I look forward 
to their testimony.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, thank you for arranging this important hearing on 
nonproliferation in Iraq and Iran and permitting us to hear the 
testimony of the very distinguished witnesses before us today.
    It has been nearly a decade since Saddam Hussein illegally invaded 
Kuwait. Ironically, that invasion exposed the full extent of Iraq's 
horrifying biological, nuclear and chemical warfare programs to the 
world.
    The Gulf War also led to the establishment of UNSCOM. Despite 
constant harassment, obfuscation and intimidation, UNSCOM did its job--
with determination and some heroism--of rooting out and destroying 
Iraq's terror weapons. But that job is still unfinished, and may even 
have grown larger in the past year and a half since UNSCOM inspectors 
were forced out of Iraq.
    Saddam still remains in Bagdad, and dealing with his relentless 
pursuit of weapons of mass destruction remains one of our most pressing 
foreign policy tasks. The world has witnessed what his regime does when 
left unchecked.
    It is now our policy to seek a change in Iraq's regime, but that is 
easier said than done. On-the-ground inspections and our willingness to 
use force have been our best weapons against re-establishment of 
Saddam's weapons programs.
    UNMOVIC [un-mo-vick], the successor to UNSCOM, has yet to conduct 
an inspection. In my view, the only way to get Saddam to accept 
Security Council Resolution 1284 is through continued economic 
sanctions.
    Sanctions are not responsible for hurting the Iraqi people, the 
current Iraqi regime is. Saddam has made a clear choice between 
weaponry and his citizenry--and he has chosen weaponry. Tons of food 
sit rotting in warehouses in Iraq, while the regime stages photo-ops of 
starving children. This is a crime.
    It would also be a crime to let Saddam Hussein off the hook of 
sanctions before all his hidden arms programs are exposed and 
destroyed. If UNMOVIC inspectors ever do get into Iraq, it will be 
vital for them to show the same determination and professionalism that 
made UNSCOM such a model.
    When it comes to eliminating Iraq's weapons of mass destruction, 
there are no finer servants of humanity than Ambassadors Rolf Ekeus and 
Richard Butler. I look forward to their addressing these pressing 
issues.
    Turning to Iran, the Administration has taken a bold but cautious 
step in lifting imports on selected items, such as carpets, caviar and 
nuts. Sanctions lifting is a goodwill gesture towards the Iranian 
people, who have made remarkable progress toward democracy and reform 
as demonstrated in their February elections.
    The response to the U.S. action from Iran's religious leaders has 
not been encouraging, but we must look to Iran over the next months to 
see if our overture bears fruit.
    Our resolve has not softened one bit in regard to Iran's pursuit of 
weapons of mass destruction. Indeed, two weeks ago the President signed 
the Iran Non-Proliferation Act, which had passed the Senate by a vote 
of 97-0, to help prevent sensitive technologies from reaching the 
Iranian government.
    Dr. Tony Cordesman is well known for his encyclopedic expertise on 
weapons of mass destruction in both Iran and Iraq. I look forward to 
hearing his ideas, even if that means accepting the fact that there is 
no ``silver bullet'' to solve our problems.
    The issue of nonproliferation in Iraq and Iran are complex and 
interrelated. It is a pleasure to be assisted by such august witnesses, 
and I thank you, Mr. Chairman, for arranging their testimony.

    Senator Lugar. Well, thank you very much, Senator Biden. I 
share all the sentiments of the Senator, that we are indebted 
to all three of you for your service to the world, as well as 
to the countries that you have served and the witness that you 
offer here to our country today.
    I would like to call upon you in the order that I 
introduced you, and that would be Ambassador Ekeus, Ambassador 
Butler and Dr. Cordesman.
    Ambassador Ekeus.

   STATEMENT OF HIS EXCELLENCY ROLF EKEUS, FORMER EXECUTIVE 
 CHAIRMAN, UNITED NATIONS SPECIAL COMMISSION ON IRAQ (UNSCOM), 
                      AMBASSADOR OF SWEDEN

    Ambassador Ekeus. I have heard you and Senator Biden about 
the elimination of weapons of mass destruction in Iraq and the 
questions of how the system could work, how one could control 
such capabilities, how one should act on this problem, and what 
are the lessons.
    And I start with that, as I use my experience as chairman 
of the UNSCOM from 1991 to 1997, summer of 1997. What is 
special for UNSCOM? And I say up front that I think it was a 
success. It was the uniqueness in its approach and its capacity 
and effectiveness.
    What made the system work? I think it was a multilayered 
approach. And I emphasize that because the UNSCOM system was 
different from all known arms control arrangements, whether 
bilateral, unilateral or multilateral. It was based upon both 
inspections of declared facilities, and of undeclared 
facilities.
    In that respect there is a difference with the safeguard 
system adopted by IAEA. However, there are some modest 
additional possibilities in recent protocols with regard to 
undeclared facilities.
    In addition to those two types of inspections, there is no-
notice inspection. That means that inspections were carried out 
without any notice, not one hour, not half an hour. When we 
talk about safeguard inspections or when we talk about chemical 
weapons inspections under the Chemical Weapons Convention, we 
talk about solid pre-notice for any inspection.
    But in the case of UNSCOM, it was no notice. It was not 
only a matter of inspection of facilities, hardware, machines 
and machine tool and material, it was also control of 
personnel, individuals. It was a matter of identifying 
responsible people, cross-examine them, investigate pattern of 
organization, organizational structures in order to comprehend 
the inside the weapons production activities.
    In addition, the UNSCOM was using imagery. The major 
support provided by the United States was the operation of the 
U-2 high altitude reconnaissance plane with the high quality 
imagery it provided to the planners and the leadership of 
UNSCOM.
    This imagery was amplified through helicopter-based 
operations. At first the German Government provided 
helicopters, and later the Chilean Government. The helicopters 
were operated by courageous, high quality personnel. They 
constituted a platform for close range photographic imagery, 
which could amplify and clarify issues which looked suspect on 
the U-2 picture.
    Even more so these helicopters could land close to a 
suspect facility, and the personnel could enter the facility 
and get a close look at every piece of equipment. In that way 
UNSCOM obtained complete coverage through imagery of the 
country, from broad area coverage to high resolution and 
directed imagery to helicopter close range and to personnel 
eyeballing suspect items.
    In addition, sensors, cameras, stationary cameras, at 
suspect facilities pointing to suspect equipment and material, 
sending real-time picture continuously to the Baghdad 
monitoring center, which was established and controlled by 
UNSCOM.
    Chemical sensors around facilities that are down-wind or 
downstream, investigations of water and air flow, water testing 
regularly all over the country--or irregular, I would say, in 
order to surprise Iraqi, added to the sensor system.
    There was also air-based gamma ray detection system based 
on the platform of slow moving helicopters to identify hot 
spots where radiation was coming out from the soil of Iraq. 
Altogether a solid area coverage.
    There were other sensors I am prohibited, I guess for 
confidential reasons, to describe. In addition, there were 
field laboratories used, operating to give immediate feedback 
on sampling. A number of supporting international laboratories 
in U.S., France, Switzerland, Finland and Sweden, and Britain, 
of course, provided the UNSCOM people with in-depth, careful 
analysis of chemical and biological sampling.
    And finally, developed during the years was DNA technique, 
not only state of the art, but I would say ahead of the state 
of the art. This new technology was used for the first time in 
1994 in identifying biological warfare agents.
    One example, we took samples in 1991 at the notorious place 
called Al Hakom with a negative result. But the UNSCOM 
scientists saved these samples and a couple of years later, 
through the development of DNA techniques during the nineties, 
it could be proven that Iraq indeed was working in that case on 
anthrax and biological weapon development.
    This was the multilayer approach. That was supported by 
systematic analytical assessment of the material. And there I 
have to salute especially the quality of the personnel of 
UNSCOM, a high quality indeed, scientifically top notch, with 
great experience, and with a capability to develop, developing 
the process for further understanding.
    Another important supporting element was the capability of 
UNSCOM to block effectively imports, to block the procurement 
efforts by Iraq. Obviously, Iraq has to rely to a considerable 
degree on imports of certain sensitive, high-quality technical 
material for developing weapons of mass destruction. The key 
there was international cooperation. UNSCOM obtained 
intelligence from various countries. I emphasize many 
countries, not one, but many countries, including from customs 
services.
    And oddly enough, it is not always a terribly good 
cooperation between intelligence and customs. But UNSCOM fused 
these capabilities and created a tremendous synergy. UNSCOM 
also worked closely with several national law enforcement 
agencies and in that sense registered considerable success. 
These were the methods to identify Iraq's weapons of mass 
destruction and to weed out a substantial part of it.
    The positive lesson of that is the following: To achieve 
disarmament, the international approach is still superior 
because it is more effective and it delivers. Why is it more 
effective? It coordinates the many different routes to 
detection. The matter of import is especially sensitive. We 
have the money trail, the banking system, the payment system, 
which is possible to identify and intervene in with the help of 
international cooperation.
    No single country can, without an international approach, 
effectively block development of weapons of mass destruction. 
There is no possibility to prevent the procurement, and 
therefore there is no possibility to block proliferation 
without resort to broad international cooperation.
    International cooperation demands a very rare commodity, 
namely an almost lost art form, skilled diplomacy. That is in 
great demand. More and better diplomacy, more dynamic 
approaches to coordinate the international efforts are the key.
    Of course, Mr. Chairman, you know better than anyone that 
the bilateral approach with Russia and Ukraine has worked well. 
There is no doubt about that. This is the preferred approach. 
This is a special case. But if you are met with a less 
cooperative mode, the international approach is necessary.
    Finally, on the UNMOVIC possibilities, my judgment is that 
UNMOVIC may succeed if it can be constituted in an effective 
way with, first of all and key, high quality personnel. You do 
not get quality personnel out of thin air. You can only get it 
by searching very carefully the rosters around. And UNSCOM's 
personnel is of high quality.
    They know--they not only know the problem theoretically; 
they know it practically; they know the players inside Iraq. 
They know the individuals who are involved. They know the 
structure, the organization, and they know also the methods of 
concealment. This is number one.
    Second is imagery. Imagery collection must be restored. And 
the new organization, UNMOVIC, must have an independent access 
to imagery of the same type UNSCOM had. I know that there are 
disputes there about whether UNMOVIC be allowed to use American 
based aerial surveillance, or instead, Russian-based, high 
altitude reconnaissance.
    This is a matter which can be dealt with if the handling of 
the product is professional and serious. UNSCOM had a solid way 
to handle imagery.
    Thirdly, the collection of data from many sources. That is 
a matter which requires that UNMOVIC creates a credibility. No 
government is prepared to share data with an international 
organization, if it does not know that the data provided is 
treated with care and analyzed with professional skill.
    That creates some sensitive problems which I have 
experienced with the Congress. Governments are not prepared, 
and private companies are not prepared to cooperate with an 
institution like UNSCOM, if they feel that the name of 
companies involved in dealings with Iraq will be published.
    The policy of UNSCOM was to protect the names of the 
companies which had not violated law, but one way or the other 
had been involved in dual use deliveries to Iraq. The fear was 
that these companies would be exposed and punished one way or 
the other. If they had that fear, they refused to talk to 
UNSCOM; and the governments refused to give UNSCOM personnel 
access to these companies.
    This made it difficult for UNSCOM personnel to penetrate 
the secrecies there. But anyhow, this is a marginal problem, 
but it means--it demonstrates how sensitive these matters can 
be.
    Fourth, I think the sensors. I will not describe the sensor 
system, but an advance sensor system is necessary for success. 
So what one can do is to focus in the Iraqi case on preventing 
Iraq to do more. There are reason to believe that Iraq still is 
keeping some material, as we know.
    With a multi-layered inspection approach one can prevent 
Iraq from acquiring more. And that should be enough to prevent 
the country to get the full weapons capability.
    To my judgment, there is no concluding evidence that Iraq 
has decided to terminate any of its weapons programs. That goes 
for nuclear weapons, biological or chemical and missiles. It is 
clear that Iraq has still not disclosed important information 
in all these areas.
    That is a negative conclusion which is supported by many 
conversations with Iraqi officials, namely that the base for 
the whole situation in the Gulf is the matter of who dominates, 
who has the power in the Gulf, and who can control and be the 
leading actor in the Gulf. That does not mean an occupation of 
the Gulf states.
    Iraq's ambition finally is to present itself as the 
protector of the other Arabic states against the 
fundamentalists, as they see them, in Iran.
    In order to be a credible protector, Iraq feels it needs 
advanced weapons. So they see these weapons linked to the 
matter of who controls the Gulf. We may also fear that that 
Iraqi policy may inspire Iran to match these ambitions.
    And I stop there because I know my colleagues have a lot to 
say on this issue. Thank you.
    Senator Lugar. Well, thank you very much, Ambassador Ekeus. 
Ambassador Butler?

 STATEMENT OF HON. RICHARD BUTLER, FORMER EXECUTIVE CHAIRMAN, 
UNITED NATIONS SPECIAL COMMISSION ON IRAQ (UNSCOM), DIPLOMAT IN 
            RESIDENCE, COUNCIL ON FOREIGN RELATIONS

    Mr. Butler. Thank you very much, Mr. Acting Chairman, 
Senator Lugar. Thank you, Senator Biden, for being here and for 
asking me to be here again.
    I feel that we might be meeting again quite soon when Dr. 
Blix, the head of the new inspection organization, submits his 
proposal for resumed inspections in Iraq, and Iraq rejects it. 
And that proposal is due on the 15th of April.
    Or the Russians in the Security Council seek to so 
dramatically alter Dr. Blix's proposal to ensure that it has no 
serious impact and that we would then have, once again, an Iraq 
crisis on our hands. I think this is a timely meeting because I 
think we stand on the verge of such developments.
    Now, at the beginning--by the way--I have no formal text, 
because I do not want to speak that way to this committee 
today. I want to speak economically, especially as we have 
started a bit late, and as directly as I can. And I will take 
my lead from the remarks that both of you have made at the 
beginning of our meeting today.
    Senator Lugar, you asked the question: What went wrong? 
Where has it broken down? How do we fix it?
    And Senator Biden, you asked: What will happen if we do not 
fix it, if we do nothing?
    I have just concluded a book on what I did in the last 
couple of years following Rolf and dealing with Iraq. That book 
unfortunately will not be available before the 15th of April. 
It will be a little bit after that, in May. But Senator Biden, 
the epigraph I chose for that book, the motto of the book, is 
Edmund Burke's statement that all that is necessary for the 
triumph of evil is that good men do nothing.
    And Senator Lugar, evil is triumphing in Iraq again today, 
because good men have turned their back on the problem. That 
started two years ago, when Russia decided to break away from 
consensus in the Security Council on the need to make Saddam 
Hussein obey the law. And it has been downhill ever since that 
time.
    And I will not go into the weapons issues. Rolf has just 
discussed them. I will just say again, as economically as I 
can, there is clear evidence that Iraq is again seeking to 
develop a long-range missile capability. But missiles are 
vehicles. They have to carry something in their warhead to be 
of significance. Obviously, conventional explosives can be so 
carried.
    But there is also every reason to assume, it would be folly 
not to assume, that once again Iraq is seeking to make, if not 
in the making, chemical, biological and seeking to acquire 
nuclear loadings for the warheads for those missiles. That is 
all I want to say about that.
    We lack specific evidence of the order of magnitude because 
we are not there anymore, and this is how it works. We are not 
there anymore because we were thrown out. We were ejected 
because we were asking for the specific orders of magnitude in 
order to stop these developments from taking place. And so we 
were ejected.
    The logic is irrefutable. The delivery vehicles are being 
built again. And absent monitoring and control, the substances 
which would be carried in those, on the warheads of those 
delivery vehicles are obviously being made again.
    Now, Senator Lugar, to your question: Why did it break 
down? How can we fix it? How can we get good men to resume 
focus on this very serious problem?
    The breakdown occurred, in my view, because we never came 
to terms with or seized the opportunity presented us by the end 
of the Cold War. And that was to recognize that weapons of mass 
destruction should be the subject of an exception from politics 
as usual.
    Now the weapons I am talking about are nuclear, chemical 
and biological. Each of them have been the subject of a very 
clear moral consensus in the last 40 years that they should be 
controlled, that their proliferation should be prevented, and 
that, where possible, they should be eliminated. And that has 
been a global phenomenon, probably one of the great 
achievements of the second half of the 20th century. And that 
consensus was then expressed in treaties on the 
nonproliferation of weapons of mass destruction, which 
virtually all countries in the world have signed, by the way, 
including Saddam Hussein.
    And to make those treaties credible means of verification 
are created, not always good in the biological area, under the 
biological treaty, not even yet adequately completed. But this 
is the third leg of this tripod, remember, moral agreement that 
certain weapons must be controlled, political commitment in a 
treaty to do so. And the third leg is a means of verification 
to see that states are keeping the obligations that they 
entered into when they signed the treaty.
    Those things have been developed and have been, I think, 
one of the crowning achievements of the post-World War II 
period. But the last leg that would have turned this tripod 
into a four-legged solid table, not at all rocky, is the leg, 
is the piece that the end of the Cold War offered us an 
opportunity to create.
    And that is called enforcement. And that is where the 
powers with the power, those who are permanent members of the 
Security Council, would not play politics as usual with weapons 
of mass destruction, but would stand together and enforce the 
treaties, enforce the moral obligations, whenever a credible 
report of infraction is received.
    Now, we were doing that for most of the time after the Gulf 
War. Iraq was under the very specific strictures of the 
Security Council and UNSCOM was at work to divest Iraq of its 
weapons of mass destruction. And this great man, Rolf Ekeus, 
brought about a great deal of that. But he was able to do it 
because the powers stood behind him.
    But two years ago, a few months after I followed Rolf into 
the job, those powers split. They split for a variety of 
reasons that you know very well, and I have not got time to go 
into now. The beneficiary of that split was Saddam Hussein.
    And so what do we have today? We have a situation where 
there is no monitoring on arms control. He is clearly doing it 
again. And we have not yet taken up the single most important 
opportunity that the end of the Cold War offered us, which was 
to build that fourth leg to make a solid table of international 
arms control; that is, the great powers standing together and 
enforcing these treaties whenever there is a credible report of 
an infraction of them.
    And that means--and this is what I say in my book--that 
means agreeing to make weapons of mass destruction the subject 
of the principle of the exception, that they will be excepted 
from politics as usual. Lord knows, we all have lots of things 
to compete with each other about, in world trade, in 
globalization, spreading our ideas, our culture, our interests 
and so on. That is politics as usual.
    But I utterly refuse to accept--and I do not think this 
Senate or this government should accept--that weapons of mass 
destruction should be the subject of old-fashioned Cold War 
statism, as we have seen Russia for the last two years do with 
respect to Iraq, or should be the subject of politics as usual.
    Weapons of mass destruction are universally condemned. They 
threaten all human life. We must now, in the 21st century, be 
able to come to an agreement to deal with them as an 
exceptional case, no vetoes, but stand together and enforce the 
treaties.
    So, Senator Biden says, well, what will happen if we do 
nothing? And you have asked, Senator Lugar, what should we do? 
My proposal for what we should do is this. First of all, this 
government, the government of this single superpower, the 
world's most important democracy, the only superpower in the 
history of the world that has never been imperialist, this 
government must go now to the new President of Russia as he 
forms his government and put this proposal to him: Can we now 
resume our stand together to defeat weapons of mass 
destruction? Can you agree with us to accept weapons of mass 
destruction from politics as usual? Can we get our own nuclear 
arms control negotiations back on track? But secondly, can I 
have an assurance from you that you will stop this 
unrespectable nonsense of patronizing Saddam Hussein, when you 
are a great power, when you, Russia, are a permanent member of 
the Security Council? And can we stand together and deal with 
this menace of chemical and biological weapons in Iraq and 
elsewhere?
    And then beyond that, beyond the unique influence of these 
two singular powers, this one and the one that lives in Moscow, 
beyond that, I propose that we should complete the work that 
was not able to be done after 1945, when the charter of the 
U.N. was written, which only refers to arms control in two 
minor instances.
    But we know much more about weapons of mass destruction 
now. Can we complete the work that the end of the Cold War 
offers us as an opportunity? And can we now create an 
instrument for the control of weapons of mass destruction?
    I am talking about a United Nations council of weapons of 
mass destruction, a place to which credible reports, progress 
reports, on the prospering, or lack of it, of the work under 
the nonproliferation treaties would be forwarded, a place at 
which the nations of the world would sit and consider those 
reports and determine what action should be taken, including by 
way of enforcement, the vital fourth leg that we need.
    Can we do that? Can we give that answer to your question, 
Senator, what went wrong, and yours, how can we fix it, Senator 
Biden. Can we do that? No one's security would be threatened.
    No sane person in this world believes that you need 
chemical weapons, poisonous substances with which to defend 
yourself, or, for goodness sake, to bring back smallpox as a 
way of killing your neighbor? We have long since said that this 
is uncivilized, and no one should do it. But we have not 
created the mechanism where we sit together and make sure that 
we do it.
    Now, I do not believe that the security of this great 
nation or any would be threatened by behaving in this way. On 
the contrary, I believe the security of all would be enhanced. 
I do not believe that we would have to go to war very often 
against rogues like Saddam Hussein once it was clear that we 
are all together resolved that these weapons are inadmissible 
and, when there is a credible report of infraction of a treaty, 
that we will act together and put it down.
    That is what I think about where we are at. And as I said, 
I suspect we will back here again soon dealing with what will 
or will not happen with UNMOVIC. But I think we have to leap 
over that in the way that I have suggested.
    Thank you for your attention.
    Senator Lugar. Well, we thank you very much for that very 
important testimony. And we look forward to your book. I am 
hopeful that will arrive, if not before April 15, at least 
shortly thereafter as a way of guiding us.
    Dr. Cordesman.

  STATEMENT OF DR. ANTHONY H. CORDESMAN, SENIOR FELLOW AND CO-
    DIRECTOR, MIDDLE EAST PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Dr. Cordesman. Thank you very much, Senator. I would like 
to thank both you and Senator Biden, too, for the opportunity 
to testify, particularly about the threat proliferation poses 
in an area that has something like two-thirds of the world's 
oil reserves and about 40 percent of its known gas.
    I find myself, however, in a different position from the 
previous two witnesses. I have been dealing with the issue of 
proliferation in Iran and Iraq since the late 1960s. And I do 
not think it is a matter of restoring a stable structure or 
fixing something that was fixed.
    I have provided a formal statement, and I have provided two 
background papers, which describe my interpretation of what 
Iran and Iraq are doing by way of proliferation.
    Senator Lugar. It will be made a part of our record in 
full.
    Dr. Cordesman. Thank you, Senator.
    As I looked at the history and depth of those efforts, I 
think that the idea that we can create any kind of weapons of 
mass destruction free zone in the region is a noble goal. I do 
not think we should give up our efforts.
    But, quite frankly, I think there is very little chance 
that given the passage of time, the region's politics, and the 
pace of technology we have any choice other than to learn to 
live with proliferation in this region. The issue is to what 
extent can we control proliferation, limit it, and contain it.
    I think there are seven key forces involved here. One is 
obvious. The arms race between Iran and Iraq goes back more 
than 40 years. Chemical weapons have been used. I think from my 
own analysis of the Iran-Iraq war, that given another year, 
biological weapons would have been used as well.
    I do not believe that given the tensions that I have 
encountered in this region, these nations can be made to trust 
each other or that any inspection regime can keep them from 
proliferating at some level.
    It also is not simply a matter of their distrust for each 
other. They distrust us, they distrust the southern Gulf, and 
they distrust their other neighbors. It was not simply the 
legacy of the Gulf War that causes this distrust; it is the 
legacy of the tanker war we fought against Iran. It is the 
bitterness of other wars, and the memories go on. But the fact 
is that from history's perspective proliferation is rational. 
It is sane.
    According to the game of nations, proliferation is the only 
form of asymmetric warfare that Iran and Iraq can use to change 
the strategic map and counter the advantages that we do have in 
conventional warfighting.
    There are tensions which cut far across regional bounds. 
When I was in Iran a year ago a discussion of what had happened 
in India and Pakistan was quietly being used as an example of 
why they had to have missiles and, by proxy, proliferate.
    If one looks at other cases, proliferation is a matter of 
status. It is a matter of distrust. It is a matter of fear. We 
are a nuclear power. We used the tacit threat of the use of 
nuclear weapons in the Gulf War. No one is going to forget that 
fact.
    These nations see proliferation in Israel, and they see it 
in Syria. They see it in Algeria. They see it in the covert 
program in Egypt, a program in Libya and a lesser program in 
the Sudan. They interact constantly with China and North Korea, 
or at least entities in those countries, as suppliers.
    They see a Russia where, even if the government agrees to 
one thing, it is unclear that the entities in Russia agree to 
halt their programs that support proliferation.
    We may want a world of arms control, but Iran and Iraq live 
in a world of proliferation. I do not believe there are 
relevant international norms or laws that are based on equity, 
for which Iran and Iraq see as working to their advantage. For 
them, arms control agreements and U.N. resolutions favor other 
states and power blocks.
    And let me note, horrible as things like chemical and 
biological weapons are, I think the current estimate of the 
U.S. intelligence community is that there are at least 30 
nations in the world which have some kind of development or 
activity in this area. A number of them are significant allies 
of the United States.
    The only way out for Iran and Iraq, according to their 
power calculus, is to indulge in a liar's contest where they 
claim to accept arms control because that gives them access to 
exports and technology. They lie, they cheat and steal.
    I am not completely sure that if we were in their place, 
surrounded by an equivalent number of enemies, we would not do 
the same. One of our closest allies, Israel, was forced to go 
through a similar procedure in developing its missiles and 
nuclear weapons.
    There is the pace and scale of what is happening in 
technology. The saving grace for all of us has been that none 
of the so-called breakthroughs in producing fissile material 
have actually been effective. But if we look at what is 
happening in other areas of the technology base, the technology 
getting easier and cheaper to acquire; we cannot control such 
transfers. They already exist in both Iran and Iraq.
    There is also the reality that Ambassador Ekeus discovered 
that Iraq could take a pharmaceutical plant and convert it to 
the mass production of anthrax in less than six months. You can 
halt all visible signs of proliferation, and still not halt the 
activity. You can have invisible levels of technological effort 
that inspection can reduce, but not control or halt.
    And we have to understand in this region proliferation is 
relative. We are not talking about developing a capability to 
fight World War III. A very limited capability to proliferate 
gives power, the threat of proliferation intimidates and gives 
power. Even limited uses of weapons with fragile, basically one 
city states can have a major impact. Also, there are new highly 
lethal technologies here, which at least today are beyond 
control. We tend to forget that biological weapons are 
equivalent in lethality already to fission weapons.
    Advances in biotechnology inexorably mean that any state 
can conduct with great security a highly clandestine effort and 
bring to near readiness of deployment biological weapons. And 
as the years go by--and I am not talking decades, but five to 
ten years--advances in pharmaceuticals, food processing, 
biotechnology will make that something which almost any nation 
in the world can use almost regardless of whether we can 
control nuclear weapons.
    We already have failed to control the technology of 
ballistic missiles. And, if you look at what is happening in 
commercial engines and guidance systems that can be used for 
cruise missiles, the basic elements of cruise missiles will be 
for sale five to ten years from now. Controlling them is a good 
intention, but I do not believe it is technologically possible.
    And finally, we focus on Iran and Iraq today, but 
proliferation breeds proliferation. Already the Saudis have 
long-range missiles. Already Egypt is conducting a clandestine 
missile development program with North Korea. Israel has a 
strong missile and nuclear program.
    Who is going to turn away from proliferation unless they 
believe, in the Southern Gulf at least, that they can trust us 
to retaliate and to deter. And today, our credibility is an 
uncertain issue.
    In short, if we look at the patterns in the problem in the 
future, not simply in the past, we cannot create the kind of 
arms control regime that would prevent proliferation.
    Having said that, I do believe that there are important 
things we can do. Much of today's problem, as Ambassador Ekeus 
and Ambassador Butler have pointed out, has come about because 
we did not do enough to make our existing options work.
    I do not believe we need new laws, new organizations, new 
efforts in the U.S. Government. But, what I see again and again 
in practice is that it is very tempting for the United States 
to back off proliferation and counter proliferation and give 
other goals priority, whether it is China and a trade issue or 
trying to deal with the new regime in Iran or the political 
problems Russia.
    If you want a system to work, you have to make it work. And 
frankly, that means an interagency process which is committed 
to fighting proliferation. I do not believe that anyone here 
would say today that the United States Government has that 
interagency process. There is a great deal of bluster, but 
there are many shortcomings in terms of substance.
    I believe that arms control supplier agreements and 
sanctions are going to have to be treated as an extension of 
war by other means. The issue is how often you use them, and 
how ruthless you are in using them against opponents which will 
cheat, lie and do everything to avoid these agreements whenever 
they can.
    Fighting proliferation is not simply a matter of making the 
new inspection regime deal with Iraq. There is a question of 
whether the chemical weapons convention can be made to work. 
There is a question about whether the new inspection regime 
under the IAEA can be made to work. And beyond that, there is 
the issue of having no regime in biological weapons. This means 
that if you do get control of two out of three, proliferators 
will move into the third.
    When I look at the core of our activities to fight 
proliferation, it is often effort to control technology 
transfer that counts. This is particularly true of our efforts 
to control technologies which contribute to systems integration 
in the building of effective weapons systems. Nobody can stop 
the technology, per se. I now have a ``super computer'' at 
home. And, I know that there are at least two companies which 
are going to nearly double the power of commercially available 
computers by July. To talk about restricting technology in the 
traditional sense is to waste time.
    Right now we have an incredibly long, pointless control 
list used by the State Department and Department of Commerce, 
and a bureaucratic war over whether we should let industry 
triumph or control triumph. The first priority is to get this 
list down to a rationale length, both for our own purposes and 
so we can have allies.
    The second priority, quite frankly, is to enforce it. I 
agree with what Ambassador Ekeus said, you do not embarrass 
people who comply. You do not embarrass people who help you. 
However, I would note is, we have done a terrible job of 
embarrassing people who do not comply and of publicly naming 
companies and countries which violate. If you are unwilling to 
do that in controlling this technology, I do not believe 
anything can work.
    You have to stay focused. One of the problems I see in U.S. 
policy is we want to do everything at once. We want to solve 
human rights problems. We want to create democracy. We want to 
remove all ethnic problems. We want other nations to create a 
new legal system. And, somewhere in the process, we want to 
fight proliferation. That is not a policy. It is a set of pious 
hopes.
    In some areas we do things that are simply 
counterproductive. I believe, quite frankly, that legislation 
like the Iran-Libya Sanctions Act pushes nations like Iran to 
put their resources into the cheapest route to military power, 
which is proliferation.
    Such an act alienates our allies. It makes it difficult to 
get them to concentrate on proliferation. It makes our 
administration tacitly ignore the laws of the United States by 
granting waivers. It strengthens our enemies in Iran by 
providing them with evidence that their charges against us 
could be valid, and it blocks us from working with the people 
in Iran who might support our views.
    I have seen the problems in the way we deal with Iraq and 
``oil for food.'' We have not concentrated on fighting Iraqi 
proliferation and limiting their military capabilities. We have 
ended up with an ineffective effort to change the regime and a 
legalistic disaster that blocks or delays the transfer of many 
items that the Iraqi people really need.
    We have failed to understand that counter-proliferation is 
a battle of perceptions. I have spent more time reading United 
States Government documents designed to influence world opinion 
than anyone should. I have to say that most of them are 
terrible. They do not make a well-structured and detailed case. 
They do not say things in ways that convince people. They make 
broad general charges, but they do not back them up with 
substance. They do not provide the examples and the kind of 
information that, for example, ten years ago we would put into 
Soviet Military Power.
    We have a massive credibility problem. Even in this city 
there are many experts on Iran who do not believe what we say 
about proliferation, because they so desperately want to 
improve U.S. and Iranians relations, and because they do not 
find the details and the evidence to prove Iran is 
proliferating.
    In the case of Iraq, we have lost a propaganda war of 
massive proportions. When UNSCOM halted, we did not make the 
case that Iraq was a real danger. There were a few National 
Intelligence Council papers on the subject at the time, but 
almost nothing of substance and detail in the follow up. We had 
one terrible paper this year on how Saddam blocks the flow of 
aid for ``oil for food.''
    I invite any member of the committee, any member of the 
staff, to download that paper and look at the content. If any 
of you have ever taught, it earns an F- for effort in public 
relations. Ask yourself, as you read, who would this convince 
in a war of perceptions where you see daily charges and 
countercharges being made by Iran and Iraq. Quite frankly, we 
have failed to convince the world that we care about the Iraqi 
people, that we really want to fight proliferation rather than 
take a rigid legalistic approach to ensure compliance over 
everything on the control list.
    I believe that we do have a chance to use diplomacy with 
Iran. I believe that we need to provide carrots as well as 
sticks to get Iran to change. We need to be very, very 
cautious; and I have seen no evidence as yet that President 
Khatami has ended or reduced Iran's efforts to proliferate, but 
at least there is a political opportunity. In the case of 
Saddam, quite frankly, I do not believe that opportunity 
exists.
    You cannot afford to play games with political rollback. It 
is pretty silly to have a radio-free Iran. All that does is 
label anyone who uses it as an American puppet at a time when 
there are moderate factions and groups you can talk to in Iran.
    But in the case of Iraq, quite honestly, if you are going 
to have a covert program to overthrow him, have a covert 
program. Do not have public meetings of a weak and divided 
opposition that is despised throughout most of the Arab world 
and much of Iraq and publicly give it money from the United 
States. Do not have a radio-free Iraq. Have a covert radio 
station. Do not label people as traitors in Iraq because they 
happen to support what we support.
    And at the same time, you have to create incentives for the 
overthrow of Saddam Hussein. To my knowledge, we have never 
talked about creating incentives such as debt forgiveness, 
forgiving reparations or any other serious incentive that might 
create a new government that would indeed at least ease the 
pace of proliferation.
    I think another key to ``living with proliferation'' is the 
credibility of American military power in the Gulf, our 
offensive power, our willingness to retaliate, and our 
willingness to deter. The issue is the conviction that people 
have, both our enemies and our friends, that we will act 
militarily.
    If there is a willingness to use of chemical, biological or 
nuclear weapons against a city, the threat of American nuclear 
power must be there. This form of counter-proliferation is the 
least desirable I can think of, but I do not believe we can 
avoid it.
    As we look into the future, there is also a need for 
missile defense. Given what is happening with the Shehab 3, 
there is a need for something far more capable than the 
Patriot, like the wide area Aegis or wide area THAAD.
    But, I would also caution that the American obsession with 
missiles is like the American obsession with nuclear weapons. 
If you can deliver weapons of mass destruction by covert means, 
if you can send a Dhow across the Gulf, you do not need to have 
ballistic missiles. You do not need to use the visible symbols 
of an attack. If you can have dry, storable biological weapons, 
you do not need to deliver them on a missile warhead. In fact, 
there is virtually no worse way to deliver such weapons.
    Finally, two closing points. If what I describe is the 
future, that means we have to consider such threats from the 
viewpoint of homeland defense. There may well be proxy or 
covert threats from these countries or regimes against our 
territory at some point in the future.
    And finally, everything will come down to the quality of 
intelligence. The key is human intelligence of ``Humint,'' but 
I find that time and again the intelligence community thinks 
this means hiring more people for national technical means, or 
it means hiring in theory people who will be covert operatives. 
From my personal experience, I believe we are horribly 
understaffed in analysts in the American intelligence 
community.
    We have created a bureaucratic nightmare of sub-managers in 
counter-proliferation. But we are far too short of the people 
who can actually analyze and do the work and use unclassified 
sources and other materials. We are short of technologists. We 
are short of country specialists. If we cannot fix that, I 
think in the long run we are going to have some very, very 
unpleasant surprises.
    Thank you.

     [The additional documents submitted by Dr. Cordesman have 
been maintained in the Committee's permanent records.]

    Senator Lugar. Thank you very much, Dr. Cordesman.
    Let me state the objectives that you have recommended to 
our government. You have suggested that the United States must 
make tough decisions on priorities. You believe that 
nonproliferation should be our top priority, as opposed to 
human rights or religious persecution or trade issues or 
various other things.
    Otherwise, the U.S. might have many policies, many 
objectives, none of them paramount. This is something we have 
not wrestled with as a government, leaving aside our allies, 
because this is a very tough thing to do.
    Beyond that, our policy in a multilateral sense with Iraq 
has been to sanction almost everything, rather than 
discriminating against those things that might be effective on 
proliferation, as opposed to the problems of the Iraqi people 
or of others that were involved in the situation.
    But that requires, a refinement of decision making that is 
substantial, not impossible, but it has clearly not been in the 
matrix of debate as I have heard it.
    Second, Ambassador Ekeus stressed that UNSCOM worked 
because they had remarkable personnel. Now are you suggesting 
that additional candidates for this type of mission are 
available for the activities that you suggested are important 
but are being overlooked. Clearly this would require a very 
concerted focus and an agreement that these things were 
important and that we must not settle for second best.
    Unfortunately, our efforts were not successful. We have 
another opportunity in Iraq, and we must make the most of it.
    Now this committee has raised these issues with the 
departments in the past without much success.
    One of the benefits of these hearings may very well be to 
try to focus our own attention on reforms that are important to 
our national security.
    In our oversight capacity, perhaps this committee can be 
helpful. But what I am intrigued with is your analysis of why 
Iran and Iraq are going to continue their threatening 
activities.
    You have suggested that Iran and Iraq fear each other. 
Furthermore, you point out that both aspire to control the 
Persian Gulf, and both suffer from a complex about their status 
in the world. Meanwhile, they have taken advantage of 
opportunities provided by the proliferation of technology to 
elevate their status with threats of asymmetrical responses to 
superpowers and each other.
    I am curious, Ambassador Butler, do you share that 
pessimistic outlook, that come hell or high water Iraq and Iran 
will maintain the ambitions they have had for 40 years and 
persist in their current policies and strategies; and that 
therefore, the best we can do, although it is important, is to 
hold things down to a dull roar, to slow down or hinder their 
ambitions so they do not get out of hand?
    Do you have a view on that?
    Ambassador Butler. Yes, I do. But before stating it, let me 
just say quickly that there was a lot in what Dr. Cordesman has 
said with which I do agree. There are some things that I would 
want to discuss further. But I will make this point. Missiles, 
as such, are not illegal. Now there has been a lot of focus on 
missiles, especially in the last week with Iraq trying to break 
out of the strictures that were upon it.
    But I very much welcome the very blunt and very frank way 
in which Dr. Cordesman has put some of his concerns. And I 
think I want to add to that by making this point. Bear in mind, 
missiles are not illegal, as such.
    They are a delivery vehicle which, in most cases, states 
view as an economical and effective way of providing for their 
national defense. And by the way, the right to self defense is, 
among other things, found in, for example, the charter of the 
United Nations.
    What is of concern is who is getting them, what distances 
can they fly, and above all what warheads will they carry. Now 
my point in my earlier remarks and proposals was to highlight 
the chemical and biological warfare agents are substantially 
held by the nations of the world to be inadmissible, to be 
wrong.
    I would also add that they are not particularly effective. 
And I would argue about the point of asymmetrical motivations.
    However, having made that point, let me tell you a little 
story. And this, to some extent, backs up what Dr. Cordesman 
has said.
    In a private conversation with me, two and a half years 
ago, the deputy prime minister of Iraq, Tariq Aziz--and this is 
in my book, though I will say it out loud here--told me that as 
far as they were concerned, missiles and chemical weapons saved 
Iraq from Iran during the 1980s, when they were at war with 
each other. So here was a man--does that mean I have to stop?
    Senator Lugar. No. That means I have to stop after your 
response.
    Ambassador Butler. All right. Here was a man saying that--
well, it was probably one of the rare moments on which he told 
me anything that was true. [Laughter.]
    Ambassador Butler [continuing]. Here he was saying that 
when Iran was sending human waves of young men across the 
southern border in about 1995 and Iraq was finding it hard to 
defeat that, they used chemical weapons.
    In fact, one Iraqi general at the time in a shocking, 
shocking statement said, ``Well, you have an insect problem, 
what do you do? You use insecticide.''
    And then in the war of the cities, Iraq fired, what was it, 
Rolf, some 600 missiles, was it not? The war of the cities? A 
very--I am sorry. That is too many. About 200 missiles at Iran. 
And Tariq Aziz argued that these weapons saved Iraq.
    Now, the point I would like to add to what I have just said 
about missiles not in themselves being illegal, but to draw a 
distinction between them and the warhead that they carry, the 
next point I want to add to that is a far wider one, and it is 
this: That if we are serious about preventing the manufacture, 
deployment and use of what is widely considered to be 
inadmissible weapons, then our insistence on that will not be 
credible unless we start with ourselves.
    There is a very deep problem in arms control being for 
others, not for you. And I think the only chance we have of 
dealing with adversarial pairs, like Iraq and Iran are, and 
weaning them away from chemical and biological weapons, is if 
we accept the axiom of proliferation, which is that as long as 
any state has a given weapon, others will want to acquire it.
    And ourselves, as this country has, for example, with 
respect to chemical weapons, divest ourselves of them, and on 
that moral basis insist that others must also be divested of 
those weapons, and make a clear distinction between legitimate 
means of national defense, which could include missiles, and 
the inadmissible substances that are represented by chemical or 
biological warheads.
    Senator Lugar. Thank you.
    Senator Biden?
    Senator Biden. Gentlemen, a couple things seem to be 
remarkably clear. And we, at least we who hold public office, 
talk about issues being discussed today. We do not say them 
straight up.
    One is that if there is a decision made by the 
international community to ``stop proliferation'' of weapons of 
mass destruction, notwithstanding the fact that some of have 
them and some do not, and those who have them are not prepared 
to give them up, if that is one means by which to impact 
significantly on proliferation--that is, all the nations get 
together and say we are going to stop--that requires everybody 
in the tank.
    That requires the French and the Russians in this case, and 
the Chinese, in the tank in terms of Iraq, or Iran for that 
matter.
    If any one of them chooses not to participate and takes a 
contrary view, then that means you try to get not a committee 
of the whole, but a committee of part of the whole, 
theoretically, kind of thing, rightly or wrongly, done in the 
Balkans, where we did not wait for or rely upon a U.N. mandate. 
And then short of that, the only option is to act unilaterally. 
So that is one set of options that are available.
    It seems to me with regard to Iraq, it is pretty clear 
where the consensus in the international community is now 
relative to the enforcement piece, the fourth leg, the fourth 
leg here.
    So as a practical matter, I hate to sort of, as they say, 
cut to the chase here, but as it relates to Iraq--let us stick 
with Iraq for a minute--the only option on the enforcement side 
of the equation, as a practical matter, is the United States 
acting alone and possibly bringing along a few other nations 
with it, with all the consequences that would flow from that.
    The second option is for us to try to limit the speed with 
which the, limit, as we say in American baseball, the pace on 
the ball here, by having something that we all acknowledge is 
not a real enforcement mechanism, that is only partially 
effective, that is not likely to attract the ``remarkable 
people'' that we need because they know that it is not likely 
to have real teeth in it.
    And if they are stopped, no one is going to go in with 
force, either air power or ground power, to do something about 
it. At least I would assume that is the case. It is hard to get 
remarkable people to participate in something they believe is 
an unremarkable exercise.
    And then there is a third option. And that is--and I wanted 
to be corrected, if I am wrong about the options available--and 
that is to accept the inevitability and try to impact on the 
negative impulses of these nations through diplomatic 
initiatives and/or covert action to change the governments that 
possibly will alter the behavior.
    So I listen to each of you give a--there is nothing that I 
in broad strokes disagree with what any one of you said. But if 
you are sitting there and you are advising a policy maker or 
you are advising the President of the United States, the Prime 
Minister of England, the President of France, whoever you are 
advising who may be concerned, he or she will ask you, well, do 
we keep the--very practical questions: Do we sign on to this 
new regime? Do we give it some standing by saying we think it 
means something, this new U.N. resolution?
    When I think pressed, you would all say the bottom line is 
it does not mean much. It is not going to be able to determine, 
without the kind of broad consensus you had, Mr. Ambassador, 
behind your initiatives and the broad consensus initially you 
had behind yours initially.
    Absent that, we not going to do much to curtail the very 
thing we are most worried about. This is amassing of weapons of 
mass destruction probably biological and chemical at a minimum.
    Are we going to keep the embargo on? Does it make sense? 
Does it make sense to continue the embargo? Or should we be 
thinking in a whole new way? Because one of the things, Dr. 
Cordesman, you said that seems to me is pretty self-evident is 
that if we step back from it, if these guys were not all bad 
guys, if there was not a bad guy in Bagdad, there was a good 
guy in Bagdad and a good guy in Tehran, they both have problems 
with one another, it is a pretty rough neighborhood they live 
in, even if they were good guys, and if they were good guys, it 
seems to me you might very well find their instincts would be 
as strong to acquire these various weapons as they are bad 
guys.
    And so should we be thinking about something totally new? 
Should we be thinking about a new circumstance where the 
nations, the power nations, of the world offer guarantees to 
these countries? I know that is essentially a NATO article. I 
know you know this inside and out, Dr. Cordesman, with all your 
work with NATO. Should there be an article five commitment in 
effect to Iran and Iraq? This is bizarre, I realize.
    But the other option, should we be thinking totally outside 
the box here and say, okay, you know, if either of you attack 
the other, the rest of the world who signs onto this is going 
to go to your defense, and therefore, you do not need the 
weapons?
    The reason I raise this is not because I think that is 
likely or practical to happen. But I do not know how the hell 
we have an inspection regime that is able to have any 
enforcement piece without all the major powers signing on and 
be willing to use force if, in fact, they fail. And it seems 
self-evident that is not going to happen.
    So I have two specific questions. Mr. Ambassador, I would 
like to ask you, you mentioned this notion about sanctions.
    Some people, including United Nations officials, have 
argued that economic sanctions harm the people of Iraq. What is 
your view about that argument? Do they harm Iraq? Should we 
keep them in place?
    And the second question I have is, it seems to me, and you 
cannot say this, but I can--or you can, but you may not want 
to--a lot of money is owed Russia and France by Iraq. Is there 
a way to get around this deal? Is it their self-interest 
relating to their economic interests?
    That is, pushing them in a position, in a direction that 
seems to be totally counterintuitive to what their security 
interests are? And should we be thinking about something that 
is different, allowing them to sell oil if they pay back Russia 
and France?
    I mean, I know these sound like bizarre notions, but can 
you talk about those two items for me? One, do sanctions make 
any sense? And two, what is the motivation, if you are willing 
to say, in your view, for Russia and France taking the 
positions they have taken relative to Iraq? Let us stick with 
Iraq for a minute.
    Mr. Ambassador?
    Ambassador Ekeus. On the sanctions, yes. The sanctions have 
been used both as carrot and a the stick. In the original 
arrangement in the Security Council it was stated that if Iraq 
would fulfill its obligations with regards to weapons, the 
prohibition against all imports from Iraq should no longer be 
in force. So it was an automatic link there, which I believe 
played a substantial role in the early years of UNSCOM 
operations.
    Iraq was mesmerized by that promise and worked with the 
UNSCOM to some degree in the sense that it did not shut UNSCOM 
out; it did not block the inspectors completely, but it tried 
to hide discretely. The sanctions also had a punishing, ``the 
stick'' aspect.
    My sense is that what broke up the unity in the Council was 
the issue of sanctions, and indeed the money business. Both 
Iraq's debts, the outstanding debts, towards Russia, first of 
all, but also toward France, in addition to the prospect of 
great business deals ahead, made Russia and France insist upon 
the lifting of the sanctions.
    There is a major demand in Iraq for advance business 
adventures there, the water supply, the electric, the 
telecommunications. Fat, fat contracts are awaiting, because 
this is a country with a lot of cash flow.
    So indeed that created the impatience among some of these 
states. The obvious response to that would have been to invite 
Russia and France together with the U.S. to strengthen and 
sharpen the arms control aspect.
    UNSCOM showed that--in spite of Tony Cordesman's, I think, 
rather pessimistic view of what arms control can do, UNSCOM 
showed that Iraq had a major program. UNSCOM managed to shrink 
the weapons program and to diminish it to practically very 
little.
    And the concerns in Paris and Moscow, I am sure, and maybe 
also in Beijing, are the same. There is a genuine concern about 
Iraq acquiring weapons of mass destruction and delivery 
systems. However, the concerns about business is also there. So 
the obvious response I see would have been to create a system 
where you release--I think Tony was discussing that, also--
release essential goods or high quality goods, dual use items, 
for import into Iraq.
    But how can you provide Iraq with dual use items? Only if 
you have a an inspection system which gives assurances that 
these items are not misused inside the country. That is a key. 
Because we cannot stop transfer, I agree.
    When the item arrives into the country, you can define 
again, as Senator Lugar was saying, the personnel, the 
organizational structure. You can halt the production inside 
the country. You cannot eliminate it maybe, but you can stop 
it.
    So the deal would be to sharpen the weapons control and 
open possibility for the country to recover its economy, get 
the people back on their feet. However, eliminating sanctions 
is a tremendous problem. What are the sanctions today? 
According to 1284, Iraq is allowed to sell as much oil as it 
can according to what the marketplace tolerates.
    The funds generated by the oil export are put into an 
escrow account. Money taken out from that is controlled by the 
United Nations. The money there is used for food and medicine 
only.
    The question is, if the Security Council eliminated the 
restriction and gave the money to Saddam--and that would be a 
tremendous problem for all of us--do you believe, Senator, that 
if you gave the money to Saddam, that it will be used for food, 
medicine for the needy people, for the hospitals in the 
country? And that is a tremendous dilemma.
    We are attacked, or the U.N. is attacked, by well-meaning, 
fine people saying sanctions are punishing the Iraqi people. 
But the alternative to sanctions is to give the funds to 
Saddam. And that would punish the Iraqi's even more. That is 
the dilemma.
    So I think the only solution is something in the direction 
I indicated. Sharpen the control and demand that the new 
organization, UNMOVIC, is doing a serious job. I have outlined 
how it could be done. However, I am afraid UNMOVIC will be 
challenged by Iraq.
    If this is done seriously, one can be reasonably assured 
that the country would get its water supply, purification of 
water, improved health standards and transportation, 
communication. That would diminish the suffering of the people 
of Iraq. But to hand over the resources to Saddam is a highly, 
highly questionable proposition.
    Finally, I think it is wonderful to hear Tony Cordesman 
talk about forgiveness of debt. I wonder if they have told the 
Russians and the French, if they really are concerned about the 
hardship of Iraq, why not forgive them the tremendous debts 
that they have? [Laughter.]
    Ambassador Ekeus [continuing]. That would be a clear, 
generous and humanitarian goal. Now they are not that 
humanitarian, I am afraid.
    Senator Biden. I might add, by the way, we just did in this 
country with bipartisan support and with the leadership of some 
of this committee agree to a significant amount of debt 
forgiveness for third world countries. It was a major, major 
initiative. But somehow I do not find others being as likely to 
do that. But at any rate--
    Dr. Cordesman. One of the ironies here is that Russia has 
been perfectly willing to gradually forgive Syria its arms debt 
so it can sell more arms. I think a lot of this, let us 
remember what these debts were for. And it is not exactly as if 
they were approved in a sort of honorable humanitarian cause.
    That, I think, reinforces a point that Ambassador Ekeus 
made. I think in 1988 something like 48 percent of the gross 
domestic product of Iraq was being spent on arms. Now that was 
indeed the height of the Iran-Iraq war.
    But the lowest point in Saddam's history is such that if 
you take things out of control, you could almost immediately 
predict what is going to happen. In fact, the worst point in 
terms of welfare food revenues he was willing to buy at 
whatever cost they were, the guidance platforms for nuclear 
armed sea launched missiles from the former Soviet Union.
    I think our problem here is that we have not done two 
things. We have not pushed forward the kind of things Iraq 
really needs. We have been terribly legalistic about 
controlling these things. We have delayed them pointlessly.
    We have failed to explain to the world that a lot of the 
problem is Saddam and his unwillingness to use the money and 
even use the medicine or the other equipment stockpiled there.
    Senator Biden. Do you think anybody believes that, though? 
I mean, do you think anybody believes that he would use the--I 
admit. We have not been pounding the argument. But do you think 
that there is--I mean, even as I go through the Middle East, I 
do not find many Arab nations believing that.
    Dr. Cordesman. I agree, Senator. But if I may, I go back to 
that paper. The State Department was asked by a very wide range 
of people to put together the details of its case two years 
before that paper was issued. It then issued one short paper 
aside from the usual photo of the palaces. I think the entire 
Middle East does not care about photos of palaces. Such 
luxuries are part of the Middle East.
    When we did put a paper out, we did not publicize it well 
in the region. We sold the paper here in Washington to convince 
ourselves we were doing good. And we never followed it up with 
facts, details, and reiterations. Now, we have probably lost 
that propaganda battle at this point, because it does not seem 
recoverable.
    I cannot answer your question, because I think the United 
States Government and the State Department did not try. And 
when it did try, it looked like it was done by a PR person. 
With all due respect, the intellectual depth of this occupation 
is not all that high.
    If you want to succeed, you have to use USIA. You have to 
make a daily effort. You have to rebut Iraq's charges. You have 
to do it aggressively and make points out in the region. You 
have to get out of the new fortresses we are building as 
embassies and command and actually take the time to make the 
issue a key point of communication.
    Now I know a couple of ambassadors who have tried to make 
such points. I also know how little support they have gotten. 
If you do not engage in this battle of perceptions, you are 
absolutely right. You will lose it.
    But I would also make two other points. The opposition is 
not just France and Russia. The problem is not just sanctions. 
It is a combination of debt and reparations. Right now, Iraq 
faces a far worse economic situation than the Wymar Republic 
did after World War I, and we know what happened there. Exactly 
what we think the incentive for moderation is in Iraq today 
totally escapes me.
    And just one other point about the U.S. taking unilateral 
military action: A couple weeks ago, I was talking to the 
Israeli officer who planned the Osirak raid. I asked him if he 
could do that with Iran today. He said, ``No, it would be 
absurd. We could not find the targets. We could not hit them. 
Look at what you encountered in Desert Fox. Look how little you 
hit that was relevant in that set of military actions.''
    I think we have to do better in targeting proliferators. 
But today we do not have the option of preempting or destroying 
their capabilities. We might bomb the wrong thing, but I do not 
think we have the capability to bomb the right one.
    Ambassador Butler. Most of what I would have wanted to say 
about sanctions has already been said. I will just make this 
observation. Dr. Cordesman, in his earlier presentation, spoke 
about the loss by us of the propaganda war. And there is no 
doubt that that is true, a key sign of which is that most 
people in the West who think about sanctions upon Iraq and 
their impact on the ordinary Iraqi people are far more 
concerned about that impact than is Saddam Hussein.
    It was made clear by his behavior that he does not care 
about that in comparison with his concern to maintain weapons 
of mass destruction. So that is a tragic inversion in fact.
    Now the other question you asked, Senator Biden, was about 
Russian and French motivation. I am not sure about the balance 
of their economic and financial motivation as distinct from 
their political motivation. I would tend to think that the 
latter is actually more important.
    The sums of money involved from the past are large-ish. 
Yevgeny Primakov, whom I visited once when he was Foreign 
Minister of Russia in Moscow a year and a half ago, spoke of $8 
billion. And he said--quite bluntly, he said to me across the 
table, ``And we want it.''
    But as the Syrian example indicates and the opposite 
remarks that were made about Russian debt forgiveness, you 
know, they would set that $8 billion aside, I think, if they 
thought there would be future contracts. So certainly it is the 
case with French oil companies.
    And I think it is the case in Russia, too, that the sight 
is more on an economic future with Iraq rather than being paid 
back what they are owed from the past. But partly because I do 
not accept the Marxian view that says that economics is the 
elemental substructure of which politics is the superstructure.
    I actually see things the other way around, certainly in 
international politics. I think power and influence is the 
substructure, the palpable thing that states want and seek to 
protect.
    And in this context, I have no doubt that Russia, 
contemporary, post-Cold War Russia, has seen the Iraq situation 
as it has gone on almost a decade now, the post-Gulf War 
situation, as one which provides it an almost unique 
opportunity to exercise power again on the world stage as 
almost a co-equal superpower with the United States, where 
there has been no other since the fall of the Berlin Wall, no 
other comparable situation.
    With the fall of that wall, Russia was knocked off the 
stage, to some extent, pretty much so, I think, as a 
superpower. And there has really only been one situation where 
a combination of things like the absence of the United States 
role and influence and historic factors--read the book The 
Great Game. This has been going on for two millennia--of 
Russian influence and knowledge of this part of the world has 
provided them an opportunity to exercise power.
    And I think--
    Senator Biden. But they tried that in the Balkans. And 
because of the resolve and the insistence that we were going to 
go forward anyway, quite frankly, the French had no choice but 
to go along.
    And we basically ignored--whether it was the right policy 
or not. I will not argue the policy--that we basically said to 
the Russians: You do not like it? No problem. You are on your 
own, Jack.
    Ambassador Butler. Well, you can draw conclusions, Senator, 
for your own administration here with respect to what that 
means about resolve. And I am sure you will. And you may well 
be right. My point, however, was in answer to your question 
about motivation.
    My throw-away line about Marxian thought was in order to 
demonstrate that I think at least equal with future economic 
gain, and maybe even more important in the Russian mind has 
been to seize the opportunity that it is historic standing in 
Bagdad, together with the absence of the United States and the 
difficulty that the United States has had with this, with this 
country, has provided it to get a foothold back on the 
superpower stage.
    And I think the loss of that status has been something of 
deep concern in Russia. And it will be very interesting to see 
what President Putin does with that.
    And secondly with respect to France, although they do not 
have comparable aspirations to superpower status as comparable 
with those of Russia, France on the other hand does have deep 
antipathy to a unipolar and Anglo-phonic world.
    Senator Biden. That is a mild understatement.
    Ambassador Butler. Well, I thought I put that rather 
splendidly.
    Senator Biden. I think you did. [Laughter.]
    Ambassador Butler. And they have seen this as--they have 
seen, too, the Iraq situation as an opportunity for that. What 
happened in the few days before the adoption of Resolution 1284 
that created UNMOVIC--you know, some wits are calling it 
UNMOVICH. I will leave you to figure that out. [Laughter.]
    Ambassador Butler [continuing]. But in the machinations 
that took place about postponing the vote for the last few days 
before that vote took place on 17 December last, France asked 
for a postponement of the vote. In its own exquisite way, this 
tells the story.
    France's trepidation was that it might be not on the same 
side as the Russians. And France is a member of the Western 
Alliance. But that was its main concern. And so it called for a 
postponement to try to persuade Russia to come to the yes vote. 
And when it did not, it went to the abstain vote with Russia, 
knowing that we will forgive France. We always do. We say, ah, 
well, that is the French.
    But what was really interesting about that was that it was 
more important for them, for there to be no daylight between 
them and Russia.
    Senator Biden. I agree.
    Ambassador Butler. And I think that reflected on what I am 
saying to you. For them, this allergy they have to a unipolar 
world is not a small matter.
    Senator Biden. Thank you.
    Senator Lugar. Let me just follow up briefly. The analysis 
that you have all given indicates that reviving a consensus in 
the Security Council would be very difficult, because of the 
various motivations of the five permanent members.
    You are probably right that there maybe even a debate in 
our government from time to time as to whether the economic 
superstructure is more important than the threats from 
proliferation.
    Some suggest that the most important competition in the 
world at this time is economic. Therefore, national defense and 
security issues are interesting, but less important than the 
economic struggle. Others may feel the same way. The Russians 
may have a different view, things have not gone well for them 
economically.
    So perhaps if you have nothing going for you at all, you 
try to move in a different way with real politick, as they 
have.
    You have suggested that we approach President-elect Putin 
and propose that nonproliferation or the development of weapons 
of mass destruction, particularly in Iran and Iraq, is too 
important for us to work together toward a common goal. And he 
may take a different view from previous regimes.
    In conversations with members of the Russian government, 
such as the head of the Russian space agency, I've been told 
that they believe that proliferation is serious and they have 
taken some limited steps. But they suggest the Duma is 
difficult, and the lack of communication with President Yeltsin 
in those days impeded progress.
    Furthermore, it is now a free country, and it is extremely 
difficult to watch actors in universities and in research 
centers. These individuals, the Russian Government suggests, 
are beyond the pale of control of a weakened central 
government.
    Beyond that, they argue that Iran is pursuing a peaceful 
domestic nuclear industry. At least that was often the argument 
from officials of the Russian Government.
    Furthermore, they point out that many of these rogue states 
are closer to Russia than they are to the United States. 
Nevertheless, they do not believe these developments are as 
threatening as we do. So we have gone around and around. Now 
maybe Mr. Putin sees it differently, and maybe he does not. It 
is hard to tell. But whether his priority is the same as ours, 
and by ours I mean the threat of proliferation and long-range 
missiles has on the American people is a difficult stretch.
    So we finally come to the problem we have in this country, 
and that is to what extent is the U.S. prepared to respond to 
these threats, considering the resentment you mentioned from 
the French and others?
    Ambassador Butler. We forget about the Chinese.
    Senator Lugar. Yes, the Chinese.
    Ambassador Butler. That is quite unkind of us, because they 
have a whole--
    Senator Lugar. Right. They take a very dim view of this. So 
if we took a look around the world as to how many nations share 
our views and are cheering us on, this might be a fairly small 
crowd.
    Now having said that, do we say, well, then, that is the 
way the world works? You just have to accept that. Now none of 
us want to do that. The whole purpose of the hearing today is, 
where do we go and how do we put it together.
    And I think there have been good suggestions about 
reorganizing some of our own priorities in decision making in 
our government. But even after we do all of that, we still must 
make the case with our allies and the other nations of the 
world.
    This requires perhaps, as I think Ambassador Ekeus has 
said, a very different kind of diplomacy. If we take a look at 
what we have been doing vis-a-vis these countries, maybe our 
message needs to be a different one. I do not know what it 
would be, but I am just of a mind, listening to all of this, 
that we have not been particularly effective with any of these 
parties.
    And at the U.N., our role there has been sort of spasmodic, 
occasionally indifferent, back and forth. Maybe we need to take 
another look at that. If we were to look at the Security 
Council seriously, perhaps we should alter our tactics. If this 
is not possible, then we must figure out what is the forum in 
which we will operate. Clearly, this means something beyond 
NATO and Europe.
    I do not necessarily request answers to these questions, 
but they are ones that are suggested by the quest of these 
hearings. We must try to once again have some oversight of what 
is happening in our own policy as it reverberates around the 
world, or as it attracts allies.
    Dr. Cordesman, you presented your analysis, and a very good 
one, how would you proceed, if you were President or Secretary 
of State, given this disarray? How would you begin an orderly 
process of reconsidering our policies, given the dictum that 
you cannot solve it all at one time, although there are many 
fora that we have talked about?
    Dr. Cordesman. I think the first thing is to fight and win 
the battle for perceptions. By that, I mean the first thing you 
have to do is to make it clear to the world that you are 
committed to the struggle against proliferation. That means 
giving the U.N. the support it needs when it moves forward. It 
means, frankly, criticizing it when it does not.
    It means making a really convincing case to the world that 
proliferation is a real threat and exactly who is doing what 
and how dangerous it is. It means using the tools we have, and 
making a case that goes beyond a few pages in the National 
Intelligence Council report. It means using tools like USIA and 
other instruments to constantly communicate. Now, such actions 
do not solve any problems, they do provide a very clear 
demonstration.
    Senator Lugar. Because you are saying in essence, and I 
agree, the world does not see this as the threat we see it here 
today.
    Dr. Cordesman. No, it doesn't. And, Senator, I would 
suggest that you hold a hearing on the full list of countries 
with chemical and biological weapons. Now, I have not seen the 
list--it is classified--so I am going to speculate about a few 
countries we have not named today that are on that list.
    My speculation would be that countries which have a 
``breakout'' capability to rapidly deploy chemical and 
biological warfare include South Korea, Taiwan, Egypt, 
Thailand, Israel, Turkey, India and Pakistan, and that the list 
is a great deal longer. So when we talk about arms control 
regimes, it is necessary to understand how broad the problem 
really is.
    Now, it is easy to downgrade biological weapons, but having 
been DARPA's last program manager for such weapons--and this 
was after arms control treaties were in place--the technology 
we had in the late sixties that used dry anthrax spores had 
nuclear lethalities.
    Some of that lethality data is in the attachments to the 
handout I have given you. It is in the OTA report, which is now 
by itself ten years old, which should tell you about the ease 
of acquiring the technology. And if you want to talk about 
lethality, the U.S. government now has this little handbook it 
now gives out to response groups in the U.S. military on 
lethality of biological weapons which shows that the lethality 
is very high.
    The reason I say that is, I would not give up on any 
international control efforts. But, I think supply regimes are 
likely to be more effective. They also need to be backed by 
dialogue so it is quite clear to Russia that we really see 
supply controls as a top priority.
    And here, I have to agree completely with Ambassador 
Butler. If you do not communicate that priority diplomatically, 
then you are going to see more and more violations.
    In addition to those measures, I go back to the fact that 
the willingness of the proliferator to use weapons of mass 
destruction, the willingness to deploy them openly, the 
willingness to go from a covert capability to a large deployed 
capability, is in many ways dependent on the perception of the 
risk proliferators face in dealing with the U.S. military.
    We cannot preempt them. But unless we have strong offensive 
capabilities backed, ultimately by the threat of using nuclear 
weapons, and we can and do retaliate if weapons are used 
against our allies; I do not think we have the essence of a 
control regime.
    Senator Lugar. Would you refine that quickly? Because we 
have had testimony suggesting that the chances of a nuclear 
exchange between India and Pakistan have increased in recent 
months.
    What should we say to those regimes? Do not do it? And do 
we issue consequences if they do it? Do we unilaterally 
indicate that the United States of America is going to take a 
dire action with regard to those countries, if they ever 
consider letting the genie out of the bottle?
    Dr. Cordesman. Senator, in the region where I work, the 
United States is constantly accused of having a dual standard. 
Well, I have a dual standard. You worry about your allies, and 
you worry about your friends, but you do not make strategic 
commitments to countries which are not your allies and which do 
not serve your strategic interests.
    Now the plain truth of the matter is that a nuclear India 
and Pakistan--tragic and horrible as an exchange would be--is 
not something we can or should preempt or threaten to deter by 
force. But Iran and Iraq which do effect our strategic 
interests and are nations which believe that a U.S. threat does 
exist, partly because of what Secretary Baker said years ago to 
Tariq Aziz during the time of the Gulf War and partly because 
it is inconceivable to them, at least at the moment, that we 
would not use that power to defend our access to oil.
    Certainly I think that a U.S. deterrent is something North 
Korea never fails to consider in planning its chemical and 
biological weapons.
    So when I say we have to have the military strength, I am 
talking about the military strength to protect our allies, 
whether it is Israel or Saudi Arabia in the Southern Gulf or 
Turkey. But, we should only use this strength it is to serve 
our vital interests and those of our allies, not to try to 
police the world.
    Senator Lugar. So, in the case of India and Pakistan, you 
believe that if they want a nuclear war, horrible as it may be, 
that it is beyond our unilateral capabilities to stop them.
    Dr. Cordesman. Well, in all honesty, I do not see how we 
can deter them by threatening to bomb the loser.
    Senator Lugar. Senator Biden?
    Senator Biden. I get a little confused. Proliferation or 
nonproliferation policy, as you say, Doctor, has to be backed 
up by real threat, real tools, real capacity to respond, if it 
is ignored.
    And yet, I do not know how--how do we make the 
nonproliferation argument when we conclude that the 
Comprehensive Test Ban Treaty should not be ratified, when we 
conclude that we are the only nation with the potential in real 
time to have a limited nuclear defense, a defense against 
nuclear attack, or weapons of mass destruction delivered by 
missiles anyway, that we are going to go ahead and construct 
that even if it means we end the regime of the anti-ballistic 
missile treaties?
    How can we argue that we are--that nonproliferation is a 
big deal for us, when we conclude what we apparently, at least 
a significant number of us seem to be concluding, that the 
restraints that exist upon us, either in terms of national 
defense or in terms of testing of nuclear weapons, should not 
apply?
    Dr. Cordesman. Senator, I think in all honesty we have 
never argued in such documents as the U.S. National Strategy 
Document or the Pentagon's Definition of Counter-Proliferation, 
that the search for nonproliferation means giving up U.S. 
military capabilities or retaliatory capabilities.
    Senator Biden. No one is saying that. And the two things I 
just said do not encompass either of those.
    Dr. Cordesman. But, the only way I can see that we could 
make a case that would say, we will give up everything, would 
be if we seriously believed it would result in our opponents or 
threats giving up everything.
    Senator Biden. Well, you set up a strawman. That is not the 
question I asked you.
    Dr. Cordesman. Well, then I do not understand.
    Senator Biden. Okay. Let me ask it again.
    We signed on to a anti-ballistic missile treaty. We, the 
United States. No one made us do it. We signed on to it. 
Without arguing the merits of whether or not it has any utility 
any longer, whether it is in our interest or not, I am just 
making a larger point.
    How do we say that we are prepared to violate, not violate, 
to give notice that we are abandoning our commitment, which we 
are able to do under the treaty, abandoning our commitment to 
the anti-ballistic missile treatment in order for us to be able 
to build a limited or a thin national missile defense?
    And then, while we are doing that, go to other countries 
and say: By the way, you are going to have imposed upon you the 
status quo by us and others, the status quo meaning you will 
not possess a missile capacity that can strike us. We are going 
to stop you from doing that. And you are not going to be able 
to build any weapons of mass destruction. And we expect you to 
abide by that. And furthermore, we do not want you to go out 
and test nuclear weapons. We do not want you to test the 
efficacy of the systems you have. But we are not going to sign 
on not to test what we already have or what we might want.
    That is the message that confuses me. If we are going to 
exercise the raw power, which I have not been reluctant to do, 
then that is fine, as long as we do not make any bones about 
it. We are saying we are going to have one standard for us and 
another standard for the rest of the world. That is one thing.
    But if we expect to attract any support for our position 
that we are going to impose, if need be, a restriction on the 
acquisition of weapons of mass destruction by other countries, 
or a missile technology that could long term threaten us, short 
term threaten our allies, how do we do that in the face of 
concluding that we are not going to be bound any longer?
    No one ever said--it has been our doctrine thus far that we 
would abide by a combination of offense and defense, as defined 
in the nuclear side of the equation, as defined by the ABM 
treaty. That is what we have said so far. That has been the 
doctrine for the last 30 years or thereabouts. It has not been 
unilateral dropping anything. That has been our position.
    It may make sense not to have that position any longer. But 
how do you sell abandoning that position at the same time we 
are selling the idea that we want you, India, Pakistan, Iraq, 
Iran, anyone else, (a) do not test missiles; (b) do not acquire 
technology; (c) do not test the new weapons of mass 
destruction? How do you sell that? Or do you do it just by raw 
force, which is not a bad idea either?
    Dr. Cordesman. I think it is certainly true, again, we have 
a dual standard. I think that dual standard is successful with 
most countries in the world, because they are willing to accept 
the nuclear club as it is, without rushing out to join it.
    Senator Biden. Right.
    Dr. Cordesman. And no one is publicly rushing out to join 
the chemical and biological club, which are the other two 
clubs. I would not by any means recommend that we go into 
national missile defense without making every conceivable 
effort to talk to the Russians, restructure the START 
agreements, and use our decision on WMD as part of a broader 
effort to secure the nuclear balance as a whole.
    I do not know if Ambassador Butler would agree or not. But 
certainly in talking to President Putin, you are going to have 
to talk about the whole issue of missile defense, if you are 
going to talk about proliferation.
    Senator Biden. I agree.
    Dr. Cordesman. I think in terms of other arms control 
regimes, the argument with other nations cannot be that you 
will be equal to us or we will become equal to you. But, rather 
that if you accept these arms control agreements, you will 
become more secure in your area, because the people around you 
are the threat, not us. And, because these regimes will help 
other nations in the world act both in ways that aid your 
security and put pressure on the relatively few nations which 
actively and openly proliferate.
    And I think these are the convincing arguments.
    Senator Biden. Well, I just say, Mr. Chairman, I do not 
doubt there is a dual standard. And I do not expect that 
countries should have difficulty for the ultimate self-interest 
reason you have stated to accept the dual standard. I think 
there is a difference between a dual standard and a dual moving 
standard.
    And that is the only point I am making. There is a bit of a 
moving standard here that we are at least enunciating, we are 
prepared to move.
    I cannot think of anything that would be of any greater 
interest of the rest of the world, than Iran's interest or 
Iraq's interest or Russia's interest or Pakistan's interest or 
India's interest, if in fact nobody could test any longer. It 
seems to me that is the best guarantee, and it is the easiest 
to detect among them; that is, the testing capacity.
    And yet, we have made a decision, at least temporarily, 
that no, we do not want a formal moratorium on testing nuclear 
weapons underground. I find that to be counter even to your 
larger point, which I agree with, that the ultimate reason why 
these countries would accept the duality of the positions in 
the world would be that at the end of the day they are more 
secure.
    At the end of the day they are more secure relative to 
their neighbors. I just think it gets kind of hard to make some 
of these arguments.
    But at any rate, I appreciate your answer.
    Senator Lugar. Ambassador Butler?
    Ambassador Butler. I do not know what your timing is, Mr. 
Chairman. I guess we are getting towards the end of this.
    Senator Lugar. yes.
    Ambassador Butler. But if I may just very quickly say that 
I do share in very large measure the views that Dr. Cordesman 
has just put, including with respect to the approach that 
should be made to the President of Russia.
    I think the questions that Senator Biden has just raised 
about incentives, disincentives to acquire weapons of mass 
destruction, the double standard, et cetera, et cetera, are 
absolutely central questions.
    It is the case, as I said earlier on, there is such a thing 
that I call the axiom of proliferation--and it is neither good 
nor bad. It is just true--which says that as long as any state 
has these weapons, others will seek to acquire them.
    Second, the main reason why states seek to acquire any 
given weapon system are apprehensions of their security or 
insecurity. And I think that is a fundamental motive.
    But third, we must not ignore the folly of the dual 
standard; that is, to assert that arms control is not for you. 
It is always for the other fellow. Our security requires that 
we have these weapons, but yours does not. This position is not 
credible.
    Now, lest that add up to a picture where the United States 
or United Kingdom or anyone else would be expected to 
unilaterally disarm or strip themselves naked of their means of 
national defense, let me make very clear that I do not support 
that.
    That would be folly, especially in a democracy. It would 
not work, and let us not waste our time talking about it. And 
it would be insecure. Because just as I said, the main reason 
why states seek to acquire weapons of mass destruction is 
apprehensions of their own security. Surely that same principle 
applies to this great nation, for example.
    So what I have proposed for your consideration today is 
something that I would like you to think of as a pond, if you 
throw a stone into it, you get concentric circles. On the 
perimeter of this pond [the pond is called weapons of mass 
destruction] on the perimeter of it are biological weapons, and 
then one step in, one ring in, are chemical weapons.
    And what I am saying is that they are on the perimeter, 
they are really rather useless; but they are horrible. And we 
are broadly agreed in the world that no one should have them. 
Let us start taking some action there collectively. And 
Anthony, you are absolutely right when you said earlier that we 
will go nowhere unless we get agreement amongst the permanent 
five.
    But my proposal is, let us take these horrible weapons out 
of politics as usual, and let us start to really get rid of 
them. And I do not think anyone's security is going to be 
greatly harmed, if that is accomplished on a global basis. And 
I do think it is doable.
    Then, as you move closer to the center of the pool, of 
course, you start to approach certain kinds of nuclear weapons. 
And we have already gotten rid of a lot of those. And there are 
good proposals to get rid of a lot more and to stop testing, 
which I strongly support, unsurprising given that I brought 
that treaty to the floor of the General Assembly in 1996. But 
never mind.
    Then not all in quantity or quality, but certain kinds of 
nuclear weapons are obvious candidates to go first, to be 
reduced in number in the name of improved global security. And 
you see where I am going. Ultimately, theoretically, to a day 
when, if we are not entirely free of all weapons of mass 
destruction, but we have a world that is characterized not by 
proliferation of them, but by a controlled very small number of 
them.
    And we are all agreed, we are all agreed, that that is how 
we prefer to live. And we get on with our politics as usual in 
other areas of trade and art and culture and ethnic stuff and 
refugees and whatever the human family wants to do otherwise. 
And God bless it for wanting to do those things.
    That is my proposal. And I think that is doable. But step 
by step and always with national security at the core.
    Senator Biden. Mr. Chairman, would you permit me two 
minutes?
    Senator Lugar. Sure.
    Senator Biden. One of the perverse impacts that I believe 
occurred or has burst into the fore as a consequence of our 
action in Kosovo has been, as I travel the world and visit 
``third world countries,'' who are not our allies, or even deal 
with our allies, is that it seemed to establish the idea that 
the phrase I hear in other countries is, if Yugoslavia, if 
Milosevic, had chemical weapons or biological weapons or 
nuclear weapons, you would have never done that, that the only 
way we have to deal with you is to have possession of those 
weapons.
    Secondly, we were told by previous witnesses, well-
respected witnesses, in the first or second of these hearings 
that they believed--two said they believed that the reason why 
Saddam believes we did not go to Bagdad was because they 
possessed chemical weapons, and we were fearful of them, and 
that is why we stopped.
    That was an assertion. Am I correct? That was an assertion 
made by one very well-respected witness before us. I did not 
realize that was part of it. And I did not think that was it, 
but let us assume that it is.
    If either of those propositions are true, that is, that our 
overwhelming conventional force has made it clear to other 
nations that--and they believed we would not use such force for 
whatever reason, if they possessed a weapon of mass 
destruction, maybe what we should do is take out a country with 
weapons of mass destruction.
    I am not being facetious. You think I am being facetious. I 
am not. I think it might raise the question if in fact--and 
there is a distinction, Doctor. The ability to hide weapons of 
mass destruction is fairly clear. The ability to hide 
intermediate range missiles is not so clear at all.
    So maybe what we should do is just wait around until they 
possess those missiles, and then go in and unilaterally take 
them out at that time to demonstrate that that is not a way in 
which to have to deal with us.
    A bizarre proposition. Can you respond to that?
    Dr. Cordesman. Let me respond first. We did not destroy a 
single intermediate range missile during the Gulf War, although 
we claimed to. And, that was actually a fairly exposed and open 
target environment, because they had created a detailed 
doctrine for concealing the weapons.
    Yet, we found ourselves making military claims, if you go 
back to what USCENTCOM said before Ambassador Ekeus and 
Ambassador Butler started their work, that we had essentially 
destroyed all weapons of mass destruction capability in Iraq. 
This was the message communicated to President Bush and one of 
the reasons for the timing of the cease fire.
    It turned out that none of those claims were correct. The 
most valuable single target that we hit during the Gulf War in 
terms of Iraqi weapons of mass destruction was one we hit as a 
diversionary effort basically where the pilot did not have the 
faintest idea what he was aiming at.
    In the case of Kosovo, let me note that the Department of 
Defense has sent an unclassified report to Congress. In that 
report there is not one word about the effectiveness of our 
bombing effort in terms of the targets in Serbia proper. And 
you will notice that that report very carefully provides almost 
no detail on the effectiveness of our strikes except to 
replicate an unintelligible NATO table in dealing with the 
effectiveness of our strikes on Serbian forces in the field.
    We have never had anyone explain what, if anything, we 
accomplished in Desert Fox. I believe we had one convincing 
strike on missile facilities, and we had strikes on something 
like 17 other facilities which were God knows what.
    Senator Biden. Why do you keep talking about a credible 
military response then?
    Dr. Cordesman. I think that a credible military--
    Senator Biden. What are you talking about?
    Dr. Cordesman [continuing]. A credible military response 
does not mean being perfect, and it does not mean doing the 
impossible. You are not going to be able to reply in kind to a 
country which uses a covert attack by attacking the covert 
force. You are going to have to attack its leadership or its 
economic targets or its general military capabilities. But we 
should not have ideas of false precision and false targeting 
capabilities.
    Senator Biden. I do not disagree with that. But let me ask 
you: Do you believe that Desert Storm was a credible military 
response? Do you believe that the bombing campaign in Kosovo 
was credible? Or were they not credible? I mean, I am trying to 
figure out what you mean by credible response. Is a credible 
response, we are going to blow you away with a nuclear weapon? 
That is credible? Or is a credible response the kinds of things 
that occurred? What constitutes credible?
    Dr. Cordesman. All right. They were perfectly credible. 
They achieved their strategic goals. But the point you raised 
is--
    Senator Biden. I got it. I understand your point. And that 
is a valid point, that you cannot do what I am suggesting would 
be possible to do. Precision. Thank you. That is very helpful.
    Senator Lugar. Gentlemen, we thank you very much for your 
testimony and for staying with us for this hour. And I 
appreciate your plan, Ambassador Butler, with regard to the 
ripples in the pond and so forth. You know, we do have the 
Chemical Weapons Convention. In this country we are destroying 
our chemical weapons in ten years.
    It does raise a question with regard to Russia, because 
they have indicated their intent to destroy their chemical 
weapons. But they have testified to some of us they have no 
money or very little resources to do that, which makes a very 
interesting public policy question for us. And that is, to what 
extent should the United States supply funding for the purposes 
of destroying Russian chemical weapons.
    Senator Biden. Maybe we need a Lugar-Biden amendment.
    Senator Lugar. Well, perhaps. But nevertheless, that is a 
problem.
    In Russia, you have 40,000 metric tons of chemical weapons 
that is stored in seven places, but is not being destroyed 
despite the treaty and the pledges by the Russians. There are 
others beyond that, but the United States and Russia in this 
respect are on the same track. So you have some possibilities 
of some confluence of interest.
    We thank you very much for contributing so much to our 
understanding, and the hearing is adjourned.
    [Whereupon, at 5:22 p.m., the hearing adjourned.]


         ADAPTING NONPROLIFERATION POLICY TO FUTURE CHALLENGES

                              ----------                              


                        Thursday, March 30, 2000

                                        U.S. Senate
                             Committee on Foreign Relations
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 9:31 a.m., in 
Room SD-430, Dirksen Senate Office Building, the Hon. Richard 
Lugar presiding.

    Present: Senators Lugar and Biden

    Senator Lugar.  This hearing of the Senate Committee on 
Foreign Relations is called to order. Today, the committee 
concludes its series of hearings on U.S. and international 
nonproliferation policy.

    The purpose of today's hearing is to engage in an analysis 
of U.S. and international multilateral nonproliferation 
theories and policies, of continuing relevance, and to propose 
some policy innovations where state ambitions have succeeded 
despite our efforts, as well as to consider new means of policy 
implementation.

    The proliferation of weapons of mass destruction and their 
means of delivery is the number one national security threat 
facing our country, whether it be a lone terrorist, or a nation 
state promoting asymmetric war-fighting tactics, our country 
must continue to concentrate on this threat by allocating our 
best minds and requisite resources to America's defense.

    We must acknowledge that U.S. and international 
nonproliferation programs have experienced both success and 
failure. We must learn from our experiences, and identify why 
they have succeeded or why they have failed. Damage assessments 
and policy innovations are essential if we are to continue to 
protect the American people from the myriad of proliferation 
threats that confront our Nation. We must reexamine our 
policies with an eye toward determining whether our setbacks 
lie in the policies themselves or with their implementation.

    It is true there is no silver bullet with which to battle 
proliferation. Nonproliferation policies are webbed with 
various layers that require the utilization of different tools.

    I have come to the conclusion that we cannot depend on any 
one strand too much. Rather, we must spread our efforts over 
the totality of our options and our capabilities. If any one 
layer or strand is overly burdened, the entire web may collapse 
to the detriment of our objectives and America's national 
security.

    In some cases, the best answers may be international arms 
control treaties; in others, a nonlegal, multilateral effort 
may be necessary to meet common security threats. In still 
other cases, the United States may have to act unilaterally.

    This committee has received testimony both praising and 
criticizing our nonproliferation efforts, and some have 
suggested that too much emphasis has been placed on one tool in 
our efforts to the detriment of other instruments.

    They point out that the United States must continue to 
expand its nonproliferation and counterproliferation toolbox, 
and that each has strengths and weaknesses, but over-reliance 
on any single proliferation tool is unlikely to bring about 
success.

    I have been particularly intrigued with the discussion of 
enforcement of nonproliferation policies. If a country violates 
a treaty norm or international law, we must carefully consider 
our response; but any response must have teeth, should 
preferably be multilateral, and any other reaction would signal 
transgressors that they could outlast or even trump 
international resolve.

    It is fitting we end this series on nonproliferation with 
the discussion of proposed policy innovation designed to 
improve the prospect of achieving our goals and reducing 
threats to America.

    It is my hope the committee can contribute to this 
important national security debate this series of 
recommendations that might assist further administrations in 
the formulation and implementation of these important national 
security and foreign policy efforts.

    We are pleased to welcome today a very distinguished panel 
to assist us in these efforts. Our witnesses include the 
Honorable Donald H. Rumsfeld, former Secretary of Defense, and 
currently head of Rumsfeld and Associates; the Honorable 
Stephen Hadley, former Assistant Secretary of Defense; and now 
with the law firm of Shea and Gardner, and the Honorable Ashton 
Carter, former Assistant Secretary of Defense and currently the 
Ford Foundation professor at the John F. Kennedy School of 
Government at Harvard University. We are grateful that our 
witnesses have agreed to testify at this time.

    Before asking them to do so, I will yield to my senior 
ranking member, Senator Biden.

    Senator Biden.  Thank you very much, Mr. Chairman.

    And thank you, gentlemen, for being here.

    I want to compliment you, Mr. Chairman, for this set of 
hearings and cooperating with the minority as well on the 
witness list. I quite frankly think we have had the best 
battery of witnesses that this committee has seen in a long 
time on an important subject, and none more impressive than 
today's witnesses.

    Once again, this is the end of the series of 
nonproliferation hearings, but it certainly is not the end of 
the subject matter. We are at a stage in our strategic policy, 
debate of our strategic doctrine, where the next president of 
the United States is going to have his hands full.

    There has been, I guess it would be wrong to say breakdown, 
there has been such a change in the world over the last ten 
years, that much of what was considered to be nondebatable 
about our strategic doctrine for the previous 40 years is now 
up for grabs, and that is as it should be. To have the men we 
have before us today, who know a great deal about what our 
strategic doctrine should be, and have expressed their views, 
is important.

    Part of what I have observed in our initial hearings, Mr. 
Chairman, is that witnesses tend to come to these hearings with 
a certain consensus that exists on certain basic elements of 
what a policy should be and what the world is like, but it is 
interesting to me, and this is just purely me, they tend to 
approach this whole question on nonproliferation in terms of 
whether they see the glass half empty or half full.

    Very few have come and said the policy thus far has been a 
total failure, but some come and emphasize how much we have 
been able to do and what has not happened, and others tend to 
emphasize what has gotten--what genie has gotten out of the 
bottle and where the problem is, and understandably, has, at 
least in my observation, changed their view as to what we 
should do from here. I am sure today will be no different, and 
I am sure all of us on this committee approach it in similar 
ways.

    Over the past week and a half, many distinguished people 
have come before this committee and have described the scope of 
the proliferation problem.

    We have heard about a series of concerns regarding North 
Korea, Iran, Iraq, South Asia, generally. We have discussed 
such potential supplier countries as Russia, China, North 
Korea, and even inadvertently, the United States. We have heard 
that the world is a fast-changing place, in which the rapid 
diffusion of technology, political and economic change, and 
advances in biotechnology, in particular, contribute to the 
threat.

    We have also heard that countries like India, Pakistan, 
Iran, and Iraq are impelled, in part, at least, by regional 
security concerns that are unlikely to be alleviated by the 
creation of any worldwide nonproliferation regime.

    We have discussed some of the tools available to us, such 
as sanctions, preemptive military action, U.N. resolutions, 
arms control regimes, inspections, cooperative threat reduction 
programs, and we discussed the need for a blend of offensive 
and defensive weapon systems to deter and combat proliferation.

    Today's hearing, as I have said already, features three of 
the most eminent witnesses. Secretary Rumsfeld, who needs no 
introduction, except to note that his commission has had, I 
suspect, a greater influence on national policy and strategic 
policy than any other commission in recent years; and Ashton 
Carter and Stephen Hadley offer us, from the previous 
perspective of having had the same job in two different 
administrations between them, seven years of experience as 
assistant secretaries for defense for international security 
policy.

    Mr. Hadley has also been an arms control negotiator, and 
Professor Carter is involved in the Perry Process, which I 
think has been, given the options, an incredibly successful 
undertaking thus far, without either offers by Secretary Perry 
or Ash Carter as to what the future holds with any willingness 
to predict with any great certainty.

    Gentlemen, what I seek from you today is to help us 
understand your vision for how we should move forward. We 
understand the threat. We have some sense of the tools 
available to us, but how should we use those tools and how can 
we improve our nonproliferation strategies.

    For example, Mr. Chairman, in a series of questions I am 
going to have for Mr. Hadley, relate to everyone, because I 
think Mr. Hadley lays out more clearly than anyone that I have 
read thus far.

    Two years ago in the Duke Journal of Comparative 
International Law, you set forth an arms control and 
nonproliferation agenda, tying them very closely, speaking of 
them in the context of you cannot very well have one without 
the other, and you lay out, and I say this for all the 
witnesses, a number of specific propositions.

    You talk about improved measures, we need to improve 
measures to prevent against undetected cheating in the world of 
radically fewer nuclear weapons, but I want you all to talk 
with me about how that runs into the resistance we get here in 
this country from some quarters here, as well as in the Defense 
Department, that they are too intrusive for our own good.

    I mean we talk about the need for better inspection 
regimes, and then we conclude many times, many of us, that, no, 
not such a good idea. You indicate we should be resolving the 
underlying security concerns and regional tensions that cause 
the countries to seek nuclear weapons.

    We have talked about that at some length, and as I know you 
know, Steve, these are very controversial propositions. I mean 
should we be supplying a nuclear umbrella to overstate the 
case, an Article V guarantee, not necessarily NATO, but someone 
in the world for India or Pakistan, or how do we deal with 
that, more extensive and--and verification, export control 
regimes?

    Here we are now talking about--we talk about the need, 
those of us who approach, at least I do, foreign policy 
initiatives, particularly on the security side and the 
strategic side, from the standpoint of our security, we talk 
about tightening these regimes.

    Well, the Banking Committee right now is marking up a 
proposal that will significantly loosen the regimes, and 
emphasize the debate for the next president in this place about 
trade versus security issues.

    It is kind of like, Mr. Secretary, the domestic debate we 
have, the way in which information can be transmitted now. And 
telephony changes are taking place so quickly, the FBI does not 
know how it is going to be able to have legal wiretaps, because 
of the encryption capability of--I mean these are tough, tough, 
tough, questions.

    I will not go through the rest, but I thought you outlined, 
Mr. Secretary, clearly what is the ideal, in my view, the ideal 
approach, but I do not know how the hell we get from here to 
there, and I want to discuss some of this.

    So the bottom line--and I apologize for going on so long, 
Mr. Chairman. But the bottom line, as we have all acknowledged, 
is security.

    Nations will agree to give up arms programs, or at least 
slow them down, only if they conclude they will be safer or 
their particular position is enhanced, from their perspective. 
So there are a number of conundrums we face in reshaping the 
consensus which, I think most of us acknowledge, is at least, 
if not falling apart, dissipated, on what our strategic 
doctrine should be, and again, I say I do not think we could 
have three more informative witnesses than we have today.

    And a point of personal privilege, let me say, Mr. 
Chairman, that at about five of 10:00 I will be leaving, 
because I have to introduce someone at another committee who is 
in a confirmation hearing.

    With a little bit of luck, that will only take me ten to 
twelve minutes, and then I will be able to come back, but then 
I will have to leave again at 11:00, because Chairman Helms has 
a one-man rapprochement with the United Nations going on.

    I say that in a complimentary way. I mean that sincerely. 
He has done a--I think the first time in American history, in 
the history of the U.N., Mr. Chairman, the Security Council, 
and the permanent representatives of the Security Council, are 
coming to Washington, D.C., to spend the day with Senator Helms 
and me, and the committee, and others, but I mean--but I am 
required, not required, part of my responsibility as the 
ranking member is to be there, so if I have to leave around 
11:00 again, that is the reason.

    Again, thank you, gentlemen, very, very much for being 
here, and I look forward to hearing your testimony.

    Thank you, Mr. Chairman.

    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, thank you once again for calling this series of non-
proliferation hearings. Today's hearing is perhaps the most important, 
as we will focus on how to meet the challenges we face as a nation to 
slow, stop, or even reverse the spread of weapons of mass destruction 
and the means to deliver them.

    Over the past week and a half, many distinguished people have come 
before this committee and described the scope of the proliferation 
problem. We have heard about serious concerns regarding North Korea, 
Iran, Iraq, and South Asia, and have discussed such potential supplier 
countries as Russia, China, North Korea, and even--inadvertently--the 
United States.

    We have heard that the world is a fast-changing place, in which the 
rapid diffusion of technology, political and economic change, and 
advances in biotechnology contribute to the threat. We have also heard 
that countries like India, Pakistan, Iran and Iraq are impelled in part 
by regional security concerns that are unlikely to be alleviated by the 
creation of world-wide non-proliferation regimes.

    We have discussed some of the tools available to us, such as 
sanctions, pre-emptive military action, UN resolutions, arms control 
regimes, inspections, and cooperative threat reduction programs. We 
have discussed the need for a blend of offensive and defensive weapons 
systems to deter or combat proliferation.

    Today's hearing features three most eminent witnesses. Secretary 
Rumsfeld needs no introduction, except to note that his commission has 
had a greater influence on national policy than any other commission in 
recent years. Ash Carter and Stephen Hadley offer us, between them, 
seven years of experience as Assistant Secretary of Defense for 
International Security Policy. Mr. Hadley has also been an arms control 
negotiator, and Prof. Carter is also involved in the ``Perry process'' 
regarding U.S. policy toward North Korea.

    Gentleman, what I seek from you today is to lay out a vision of how 
we can move forward. We understand the threat. We also have some sense 
of the tools available to us. But how should we use those tools? How 
can we improve our non-proliferation strategies and policies?

    One of my greatest concerns is that our non-proliferation and arms 
control policies be coordinated. If the United States is to lead 
successfully on non-proliferation, we must also move forward on arms 
control, so as to reassure the world's non-nuclear weapons that non-
proliferation will contribute to their own security, rather than merely 
buttressing the military superiority of nuclear weapons states.

    The bottom line is security. Nations will agree to give up arms 
programs, or at least slow them, only if they conclude that they will 
be safer doing so.

    These are the conundrums before us today as we seek to continually 
reshape and improve our non-proliferation policies. I look forward to 
hearing from our distinguished guests to help us grapple with these 
issues. I welcome them to this hearing, and I thank you, Mr. Chairman, 
for arranging their testimony.

    Senator Lugar.  Well, thank you very much, Senator Biden. 
Let me just reiterate the thoughts that you have expressed. 
This really has been a bipartisan quest. I think this has been 
a remarkable set of hearings, and today's panel is no 
exception. Usually we just read the witnesses names and their 
titles and let them go to it. But I have had, as you have had 
Senator Biden, personal experiences with each of these three 
witnesses.

    I can recall Secretary Rumsfeld, when I was mayor of 
Indianapolis, going with him to the Air Force Academy. He was 
serving our national government in another role that point, and 
serving so well.

    Senator Biden and I attended a luncheon that Secretary 
Cohen had not long ago on missile defense, in which the 
Rumsfeld Commission and Secretary Rumsfeld were frequently 
mentioned, as Senator Biden said, he has had a profound 
influence on our defense policy.

    Steve Hadley was a member of the task force that the 
Council on Foreign Relations pulled together, and that I was 
asked to chair, on NATO expansion. We met frequently in this 
building, and tried to bring together a consensus that led to a 
very favorable vote on the part of the United States Senate on 
that important issue. Ash Carter brought an important message 
to the very first Nunn-Lugar breakfast, a bipartisan group of 
Senators. I think 15 or 16 Senators met to discuss 
proliferation.

    Ash had just completed a paper at Harvard on many of the 
subjects that were instrumental in that congressional 
initiative. He then followed through in due course, not only as 
an academic, but as a member of the Department of Defense team 
in the nonproliferation area, and the Nunn-Lugar program, in 
particular.

    So I appreciate each one of you and the contributions you 
have made to our country's national security. We look forward 
to your testimony today, and I will ask that you testify in the 
order that I introduced you. That would be Secretary Rumsfeld, 
Secretary Hadley, and then Secretary Carter.

    If you can, summarize your statement. Your remarks and 
comments will all be made a part of the record in full, and 
then we will have questioning. I will be joining Senator Biden 
and Senator Helms for lunch with the ambassadors, but I will be 
able to maintain some continuity of the hearing in the 
meanwhile.

    Secretary Rumsfeld.

   STATEMENT OF HON. DONALD H. RUMSFELD, FORMER SECRETARY OF 
      DEFENSE, RUMSFELD AND ASSOCIATES, CHICAGO, ILLINOIS

    Secretary Rumsfeld.  Thank you, Mr. Chairman. I have had a 
chance to see some of the testimony before your committee, and 
quite agree that it has been a useful set of hearings on an 
enormously complex and important subject.

    You are quite right, there is no silver bullet. I find it 
very complex, and I am particularly pleased to have these two 
experts here, Ash Carter and Steve Hadley, with me.

    My comments will be based on my background in both 
government and business, particularly focused by the work of 
the Ballistic Missile Threat Commission, where we were 
intensely looking at the subject of proliferation as a part of 
the missile threat. We issued our report, and there are 
sections on that subject. I would refer members to the full 
classified report.

    I have attached a few excerpts from the unclassified 
version, but a fuller discussion is available. It was a 
unanimous report.

    We also prepared an intelligence side letter, which was 
classified, where we talk about the subject of proliferation. 
There is practically nothing that is unclassified in that 
regard, although there were a couple of paragraphs that I have 
included as an appendix to my remarks.

    I would begin by saying that there were two major events in 
the 1990s that I think shifted the ground on this subject. One 
was the Gulf War. There is no question but that the lesson of 
the Gulf War was: Do not compete with U.S. armies, navies, and 
air forces. Therefore, if you want to assert influence in a 
region, and deter and dissuade the West from being involved, 
the way to do it is with, as you suggested, a symmetrical 
capability, such as ballistic missiles, weapons of mass 
destruction, and I am sure very soon, cruise missiles and UVAs, 
and terrorism.

    That was the lesson, and it is a correct lesson. Look at 
the difference between the way we are treating North Korea and 
the way we bombed in Sudan and Afghanistan, in Iraq and Serbia. 
The lesson is there for the world to see.

    The second significant event in the 1990s was the end of 
the Cold War. It led to a relaxation in the world. People said, 
``Well, that significant threat that we focused on so 
successfully for so long is gone, therefore, we can relax,'' 
and we have seen an increase in international symposia, block 
declassifications, all kinds of student exchanges, and a 
feeling that we can shift away, as was suggested, from the 
national security interests toward commercial interests; 
because we are in a, quote, ``safer world.''

    The result of that, of course, has been that there has been 
an acceleration and proliferation of these technologies. The 
commission came to two unanimous, overarching conclusions. The 
first was that proliferation of these technologies is 
pervasive. If you want them, you can get them.

    We all know the leading proliferating countries. We know 
how it works. It comes from Western countries, including the 
United States. There is legal, in many instances, as well as 
illegal proliferation.

    To the extent countries embark on a cause of getting 
ballistic missiles or weapons of mass destruction over a long 
period of time, one time they are going to get closer to their 
goal. Enough time has passed in this new world of the 1990s--
our new national security environment--that countries are 
getting closer, and in fact, achieving their goals.

    ere are a lot of reasons why nations proliferate. Some are 
economic. There is no question that some countries get hard 
currency that way. North Korea does, for example.

    There are strategic motivations, which I would submit is 
the case with China's assistance to Pakistan. And also historic 
reasons that countries like Italy with a 2,000-year 
relationship with Libya are unlikely to change dramatically. 
And there are war-fighting reasons.

    We are in a new national security environment.

    In the past, if we were to be surprised, it would be a 
surprise essentially involving a conventional capability. Today 
if we are going to be surprised, it could be a surprise 
involving a weapon of mass destruction, and could affect the 
homeland of the United States, our friends and allies, or 
forces overseas.

    The power of these weapons is dramatically different. And, 
they are in the hands of countries that are dramatically 
different.

    The second conclusion of our commission was that the 
capability of the U.S. intelligence community to track and 
monitor what is taking place in the world, and the pace of 
development programs, and proliferation, has eroded.

    There are many more countries to monitor. Sophisticated 
methods of deception and denial have proliferated, because of 
espionage. The result is that we do not have the ability to 
know everything that is going on every place in this globe, and 
there are going to be surprises. The only thing that ought to 
be surprising is that we are surprised that there are 
surprises.

    The effect of the accelerated proliferation and the reduced 
capability of the U.S. intelligence community to monitor what 
is taking place in the world reduces the warning time that we 
will have. Previously, we believed we had an adequate threat 
warning period. Today our commission concluded that we had 
moved into an environment of potentially little or no warning, 
because of the circumstances that I have described.

    I understand that the director of the Central Intelligence, 
George Tenet, testified here recently and echoed that exact 
point. I would underline it.

    The question is: What do you do about all of this? I have 
suggested in my remarks that we need to focus on what is 
important and not use up capital on things that are less 
important.

    We ought not to be trying to stop things that are not 
stoppable. I use the word triage, suggesting we take the top 
tier of the most serious matters and focus our efforts getting 
our allies to agree to stop those things from moving around the 
world to the extent it is humanly possible. I would, by way of 
example, include plutonium and other fissile materials in that 
category, as well as complete weapons.

    A second tier would be the things that should be delayed, 
but probably cannot be stopped, where you do not want to use up 
political capital trying to stop them, but it is important to 
delay them.

    A delay of even four, or five, or seven years, can make a 
difference; because there are so many moving parts in the 
equation. We have diplomatic initiatives taking place, and 
shifts in relationships. So in many instances, delay can be 
helpful.

    The last category, I would say, is where the Genie is out 
of the bottle. We cannot stop it, we cannot delay it. What we 
need to do here is select the things we wish to track.

    It is helpful to our government, and the intelligence 
community to be able to know who is doing what. So, the process 
of having to get a license in key countries can be very helpful 
in terms of knowing what is taking place.

    There needs to be a balance between our national security 
interests and commercial interests.

    I do not think it is a difficult issue. Most involved in 
the commercial side do not want to do something that is harmful 
to our national security, but a good case needs to be made. We 
need to be able to explain why something is important.

    There are issues as to when it is best to act alone, when 
is it best to act with a group of like-thinking countries, and 
when it is best to act with much larger groups. In the latter 
case, we obviously have less influence; and the effort is less 
focused.

    Our government is not well arranged to function in this new 
environment. One of the recommendations of our commission was 
that because of the significant increase in proliferation with 
the end of the Cold War, and the reduced capability of the 
intelligence community, we need to see that the government is 
properly organized and arranged. We recommended that we review 
our policies, strategies, procedures, and priorities to fit our 
new circumstance. Government organizations do not like to do 
that.

    What your committee is doing is a part of that process, and 
I congratulate you for it. However, I would submit that it's 
not taking place throughout the government at the pace that it 
needs to take place.

    In closing, what to do? The first thing is to understand 
that we are in a new national security environment, and set 
about this task of rearranging ourselves to live in that world. 
We are perfectly capable of living reasonably safely in this 
world--more than any other nation on earth--but we will not, 
unless we get about the task of doing it.

    Second, we need to establish proper priorities. As Dr. 
William Schnieder, who served on our commission, said, ``we 
ought not to be attempting to enforce the unenforceable while 
ignoring the obvious.''

    Third, we need to recognize that sanctions can be 
important, but they are best if other like-thinking industrial 
countries are participating. To the extent they are 
misdirected, they can be counterproductive and weaken support 
for our policy.

    And, importantly, we have to provide the appropriate 
resources for the intelligence community so that we can track 
proliferation of weapons of mass destruction and development 
programs to a better extent than we are currently capable of 
doing.

    I understand that other witnesses have mentioned this. I 
know you serve on the intelligence committee. It is something 
that we must do.

    It is hard for people to recognize the importance when so 
many are so relaxed about the threats, but given the movement 
of these weapons around the world, I think that we have to have 
the appropriate resources, and I do not believe we currently 
do.

    Let me make a comment about fudging, which is a problem. 
The President of the United States, not too long ago, said the 
sanctions legislation caused the Executive Branch to ``fudge,'' 
because the penalty required was not appropriate to the wrong. 
The idea was that if we had prison terms for parking 
violations, no one would get arrested for a parking violations, 
because the punishment was not appropriate to the crime. Fair 
enough.

    However, there are problems with that. It has an adverse 
effect. There are many ways government can fudge. One is to not 
study something, so you do not know the answer, if the answer 
is likely to be unpleasant. Another is to delay studying 
something if the result would be unpleasant.

    Another is to study something but send it back to be 
restudied. We see this throughout government. If you do not 
like the message that is going to come back, if your boss is 
not going to like, do not do it. Figure out a way around it.

    Another way to fudge is to select some assumptions that 
will force an outcome that is desired. For example, one could 
study carefully whether or not the United States will have 
adequate warning of indigenous ballistic missile development 
programs, even though there are not any indigenous ballistic 
missile development programs in the world today.

    Fudging has the effect of warping the intelligence process. 
It is corrosive. It corrupts the process. Leaders have a 
responsibility to create an environment that is hospitable to 
the truth, and that accepts news, good or bad. We need to 
encourage people in the intelligence community to be truthful 
and provide answers, regardless of whether or not they happen 
to fit our prejudgments, biases, and preferences.

    With that, I will stop.

    [The prepared statement of Secretary Rumsfeld follows:]

                Prepared Statement of Donald H. Rumsfeld

    Mr. Chairman, Members of the Committee, I thank you for the 
opportunity to offer some observations on the important subject of 
proliferation. My observations are based on my experiences in 
government, private business and my recent work on the U.S. Ballistic 
Missile Threat Commission.

    The Commission, established by Congress, issued its classified 
report to Congress and the Executive Branch on July 15, 1998. In 
addition, we were able to release a brief unclassified executive 
summary. I have provided some excerpts from that summary which bear on 
the subject proliferation in Attachment I. I would also refer the 
Committee to the full classified report for a more detailed discussion.

    After we issued our report, at the request of the Speaker of the 
House and the Director of Central Intelligence we prepared some 
classified observations on the U.S. Intelligence Community. I have 
provided a brief excerpt of the unclassified version in Attachment II, 
but I refer the Committee to the classified version.

    During the 1990s two major events occurred which have contributed 
to an acceleration of proliferation.

  <bullet> The first event, the Gulf War, taught the world the lesson 
        that regional nations are unwise to try to compete with western 
        armies, navies, and air forces; they lose. Rather, they are 
        best advised to acquire less costly asymmetrical capabilities 
        which they can leverage against the U.S. and our friends--
        specifically terrorism, cruise missiles, ballistic missiles, 
        and weapons of mass destruction, and, soon one can surmise, 
        cyber attack capabilities and UAV's. It is increasingly well 
        understood that nations that have weapons of mass destruction 
        and the ability to deliver them are nations that have to be and 
        are treated differently; witness the way the U.S. deals with 
        North Korea in contrast to U.S. bombing in Sudan, Afghanistan, 
        Iraq and Serbia.

  <bullet> The second event which has made it progressively easier for 
        countries to acquire weapons of mass destruction and missiles 
        was the end of the Cold War. With it has come a relaxation of 
        tension in the world, an attitudinal change, that because the 
        old threats have receded we can all relax. International 
        symposia have increased, economic intercourse has accelerated, 
        security has been relaxed, and a shift in the balance towards 
        commercial interest and away from national security interests. 
        Moreover, the pace of technological evolution and the rapidity 
        that information and know how is disseminated has increased.


    The result is that during the decade of the 1990s, there have been 
both incentives for countries to acquire these types of asymmetrical 
capabilities and an environment which has facilitated it.

    The U.S. remains unquestionably the most powerful nation on earth. 
Unfortunately, our capabilities do not deter all kinds of activities 
which can be dangerous to us, our friends and allies. Since we first 
developed nuclear weapons, we've seen the wars in Korea and Vietnam and 
numerous other conflicts where nations smaller and weaker, for a 
variety of reasons, have not been deterred from opposing the U.S. 
Clearly our substantial capabilities do not deter against every kind of 
risk to the U.S. Indeed, in some cases our lack of deterrence and 
defense with respect to some threats incentivise countries to acquire 
those capabilities.

    Our Commission came to two unanimous overarching conclusions.

    The first was that the proliferation of technologies relating to 
weapons of mass destruction and ballistic missiles is pervasive. That 
proliferation is from many sources:

  <bullet> The leading proliferating countries--Russia, the People's 
        Republic of China and North Korea--are providing vital 
        assistance to each other as well as to other nations;

  <bullet> Proliferation among the so-called ``rogue'' states--North 
        Korea, Iran and Iraq--is extensive, to the point that it is 
        becoming self-sustaining. Each has comparative advantages they 
        can and do barter to each other. We have seen recent press 
        accounts of Iraqi, North Korea and Sudan missile cooperation 
        for example; and

  <bullet> Proliferation also comes from Western nations, not the least 
        of which is the U.S., and that is a key part of the problem 
        since Western nations have the most advanced technologies.


    There are legal as well as illegal paths for technology transfer. 
They include use of technologies rejected or cast aside by us decades 
ago, block declassification by the U.S. government of information 
which, while dated, none the less reveals important technical 
information, dual-use technologies, student exchanges, even the 
internet, as well as espionage and secret sales through intermediaries.

    There are several motivations for countries to proliferate, and in 
some cases there are multiple motivations. They include economic, as in 
the case of North Korea; strategic, as with China's assistance to 
Pakistan, where their goal is to make life difficult for their neighbor 
India and their aid to Iran to make life difficult for the U.S. and the 
West, and historic reasons, as with Italy's 2000 year relationship with 
Libya.

    Recently there was a report that Iran was considering providing 
missiles to the Congo, of all places. This illustrates the problem. 
Think of it. Ballistic missiles were first developed by Dr. Robert 
Goddard in the U. S. Germany took his ideas and developed the V-1 and 
V-2 rockets used against England in World War II. After World War II, 
the Soviet Union captured German scientists and missiles and developed 
Scud missiles. Later the Soviets put Scuds in Egypt. Then Nasser sold a 
Scud missile to North Korea and the North Koreans reverse engineered it 
and scaled it up, much as Iraq did with Scuds. Then they sold what they 
call Roe Dong or No Dong missiles to Iran among others. And now the 
recent report about Iran and the Congo. That round trip indicates the 
pace of proliferation.

    These realities lead to the inescapable conclusion that the U.S. 
and the West face a new national security environment. Specifically, 
more nations unfriendly to the West, and even non-nation entities, will 
have weapons of mass destruction--biological, chemical and nuclear, as 
well as cyber attack capabilities--weapons of enormous destructive 
power--and the capability to deliver them. This is a problem of a new 
order. Given the power and reach of these weapons, it is a major 
problem that requires prompt attention.

    Our Commission's second overarching conclusion was that the ability 
of the U.S. Intelligence Community to monitor weapons of mass 
destruction and missile programs in target countries has eroded as the 
pace of proliferation has accelerated. This is true for a variety of 
reasons.

    First, there are more countries to try to monitor. Second, more 
sophisticated deception and denial capabilities are in the hands of 
more countries. This is partly a result of the proliferation of 
information about U.S. intelligence gathering capabilities and how to 
deceive us resulting from espionage, and partly the availability of 
various advanced technologies such as fiber optics and new tunneling 
equipment. Russia, China, North Korea, Iran, Iraq, Serbia, Libya have 
all dug underground, making observation and surveillance more 
difficult.

    These two conclusions lead to a third; namely, that because of 
these new threats to our safety--threats of a different order than in 
the past, and our reduced capability to track such developments, we 
have moved from having ``adequate threat warning'' to an environment of 
potentially ``little or no warning.'' The Director of Central 
Intelligence echoed this concern when he testified here last week. It 
is both true and important.

    It is for these reasons that I have concluded that we are in a new 
national security environment, an environment where the demand for 
these weapons is powerful and proliferation assures their availability.

    Because of reduced warning times we face a greater risk of 
surprises. The U.S. intelligence community cannot know everything 
that's going on every place in the world, at every time. We have been 
surprised repeatedly over past decades and will be surprised in the 
future. Knowing that, it should not be a surprise that there will be 
surprises.

    The big difference is that today a surprise is likely to involve 
weapons of mass destruction and a direct threat to the U.S. homeland 
and/or our friends, allies or forces overseas. This is a major change 
in our circumstances. And, I should add that the risks involve not only 
the nations we worry about and track, but could involve non-nation 
actors as well.

    Given that we cannot control everything of concern, I believe we 
need to triage so that our counter-proliferation efforts and those of 
our allies are focused and effective. I see three categories:

  <bullet> In the top tier are capabilities so dangerous in the wrong 
        hands that, with leadership, there can be broad agreement to 
        stop their proliferation among a limited number of key 
        countries. Our political and economic capital should be used 
        vigorously to achieve that goal. This tier would, for example, 
        include plutonium, highly enriched uranium or other fissile 
        materials, or any complete weapon of mass destruction. It is 
        these capabilities which Richard Butler cautioned this 
        Committee should not be subject to politics as usual.

  <bullet> In a second tier, where the risks involved are not quite as 
        great, are capabilities that are dangerous and merit serious 
        efforts to delay their proliferation. A delay of even three or 
        five years can make an enormous difference in the risks to us 
        and our friends and allies, given the fact that there are so 
        many other moving parts to the world equation at any given 
        time, including diplomatic initiatives, alliance adjustments, 
        and the like; and

  <bullet> A third tier involves technologies where the genie is pretty 
        much out of the bottle, and therefore it is probably fruitless 
        to use much effort or political capital trying to stop or delay 
        their proliferation, but where it nonetheless is useful to 
        track and know who is buying, selling or trading them. An 
        example might be some, but not all, dual use technologies--
        those that really can't be stopped or delayed much because they 
        are too valuable for civilian use. These are commodities which 
        should be licensed and tracked, but allowed for unrestricted 
        trade.


    I recognize that there are many complexities with respect to 
proliferation issues. I would cite as examples:

  <bullet> How to achieve the right balance between national security 
        interests and commercial interests, and to know how and when to 
        adjust them as events occur, technologies evolve and 
        circumstances change;

  <bullet> How to determine which technologies belong in tiers 1, 2 and 
        3 and how and when to make adjustments in the items in each 
        tier as time passes, events occur and technologies evolve;

  <bullet> How to balance U.S. interests with the interests of our 
        allies, with whom we need to work, in many instances, if we are 
        to be successful;

  <bullet> When is it best to act alone, when best to act with only a 
        small number of like-thinking industrialized nations, or on 
        those rarer occasions, with a larger group of nations which are 
        not as like-thinking;

  <bullet> What international groups are appropriate for the U.S. to 
        work with on which issues (Certainly we lost something when Co-
        Com was discarded in 1994) and what changes might be 
        appropriate with respect to the various existing international 
        entities;

  <bullet> What adjustments need to be made in how the U.S. government 
        is organized and deals with these varied and complex issues;

  <bullet> How to assure the proper balance between the essential 
        management role of the executive branch and oversight role of 
        the Congress; and

  <bullet> How to fashion mechanisms so the knowledge that exists only 
        in the business community can be blended with the needs of 
        government decision makers, who have little of that knowledge, 
        and in a process that is constructive and timely.


    These complexities and more exist. The knowledge necessary to deal 
with them wisely and with appropriate speed and efficiency lead me to 
the conclusion that there needs to be a careful review of how the U.S. 
government is arranged to deal with these issues and what might be done 
to adjust our current arrangements to better fit our new national 
security environment.

    One of the key recommendations of the Ballistic Missile Threat 
Commission was that the Departments of State and Defense, the 
Intelligence community, and other related governmental entities need to 
review all policies, practices, strategies, equipment, approaches and 
organizational arrangements and adjust them to fit the new 
environment--an environment where proliferation is pervasive, where 
warning time is reduced and where surprise is likely--surprise not with 
the conventional weapons of old, but weapons more deadly than ever 
before.

    If that, then, is our world, and I am convinced it is, what might 
we do about it? I have these thoughts:

    First is to understand the changes that have taken place, recognize 
that new complexities have been injected into the world equation and 
resolve to rearrange ourselves so we can live in reasonable safety in 
that new world.

    Next, it will require a sharp focus on priorities, an approach that 
triages to see that our maximum efforts are focused on the important 
and that we do not waste time, effort and political capital on the less 
relevant. As Dr. William Schneider, Jr. has said, we ought not to be 
attempting to enforce the unenforceable, while ignoring the obvious.

    Third, I agree with those who believe that we should place more 
emphasis on gaining the cooperation of smaller groups of like-thinking 
nations, principally our NATO allies and key industrialized nations 
such as Japan, rather than dealing with much broader groups of less 
like-thinking nations.

    Sanctions are important and can be effective, even in some 
instances when unilaterally applied, although they are vastly more 
effective when applied by the nations with the most advanced 
technologies. But it is counterproductive for the U.S. to sanction 
nations unreasonably.

    Export controls are useful, but the system needs to be refashioned 
to fit the new world.

    Importantly, the capabilities of the U.S. intelligence community to 
monitor what is taking place need to be strengthened. That was a 
unanimous conclusion of our bipartisan Ballistic Missile Threat 
Commission. The problems today are more difficult, there are more 
nations to track, and the progress of proliferation and of foreign WMD 
development programs are more advanced. The intelligence community must 
be given the resources necessary to do a better job of tracking and 
monitoring what is taking place, if we are going to be even reasonably 
successful in stopping, delaying, and/or tracking the flow of these 
dangerous technologies. Each month we delay, given the long lead times 
involved, adds to the risk of an unpleasant surprise. Tony Cordesman's 
testimony on this subject was right on target.

    Also, because of the complexities, and because the knowledge to 
deal with them wisely and efficiently is spread far and wide, across 
government as well as outside, we need to fashion new mechanisms to 
better fit our new national security environment.

    Fudging: President Clinton recently said that sanctions legislation 
causes them to ``fudge.'' It was an honest statement. However, 
``fudging'' can have a dangerous effect.

    There are several ways to ``fudge.''

  <bullet> One is to simply not study or analyze a matter if the answer 
        might put your superiors in an uncomfortable position;

  <bullet> Another is to delay studying or reporting information that 
        could be ``bad news'';

  <bullet> Still another is to narrowly construe an issue, so that the 
        answer will not be adverse to your administrator's view; and

  <bullet> Another is to select assumptions that assure that the answer 
        will lead to your desired conclusions. For example, you could 
        study carefully whether the U.S. will have adequate warning of 
        ``indigenous'' ballistic missile development programs, even 
        though there are no more ``indigenous'' ballistic missile 
        development programs.


    In short, ``fudging'' warps and corrupts the intelligence process. 
It is corrosive. Leaders must create an environment that is hospitable 
to the truth--whether the news is good or bad,--not an environment that 
forces subordinates to trim, hedge, duck and, as the President said, 
``fudge.''

    A comment on the importance of deterrence, which should be a key 
element of U.S. counter-proliferation policy. In some cases, we may 
prompt nations to reconsider pursuit or use of weapons of mass 
destruction. U.S. deterrents undoubtedly prompted Iraq to think twice 
about plans to employ their chemical weapons. The strength and 
credibility of U.S. deterrence is essential to provide confidence to 
close allies whose safety is reliant upon the effectiveness of U.S. 
security guarantees. Nowhere is this clearer than in Asia, where Japan, 
South Korea, and Taiwan all depend upon a U.S. security commitment. 
These are nations with vigorous scientific and technical communities, 
each of which could acquire, overnight, all categories of weapons of 
mass destruction, and the requisite delivery vehicles. That they have 
not done so, or that they have discontinued their programs at our 
urging, is a reflection of the fact that they put great stock in U.S. 
security guarantees and in the credibility of our armed forces. Their 
behavior is dependent upon their confidence in both our capabilities 
and our reliability. But before our eyes, we can see the strategic 
balance being altered in Asia as a result of proliferation by 
industrial countries to rogues and by rogues among rogues, driven 
significantly by Russia, China and North Korea, each in different ways.

    Thus, anything which would undermine confidence in U.S. deterrence 
or our ability or willingness to ``make good'' on our security 
commitments is a recipe for proliferation. There are some paths by 
which the U.S. could erode that credibility and prompt a spate of 
weaponization, principally, in Asia. The Comprehensive Nuclear Test Ban 
Treaty was one such path. Were we to weaken confidence in existing U.S. 
weapons designs, and inhibit the development of new designs to respond 
to a changing world, could have begun a slow erosion of U.S. and allied 
confidence in our stockpile. Sooner or later, our own insecurities 
would become clear to the world, emboldening those who are pursuing 
WMD, and panicking those whose security depends on the U.S.

    I also believe that credible U.S. missile defense could prompt some 
nations to rethink their missile development programs. One reason 
ballistic missiles are so attractive today is that there is currently 
no defense against them.

    It is my view that some countries--and China may fall in this 
category--will do what they are going to do largely independently of 
U.S. behavior. I also believe India's and Pakistan's weapons program 
are premised on matters largely unrelated to the U.S. I suspect that an 
expansion in the Chinese nuclear arsenal as a result of deployment of 
new systems and MIRVing is inevitable. Other countries will have WMD 
force structures largely dictated by economic realities for the 
foreseeable future. Some nations, North Korea among them, are limited 
by their resources. I suspect that North Korea will invest its time and 
attention into whatever asymmetric capability will give them the 
biggest threat for the fewest dollars. If that is the case, U.S. 
missile defense could well have an effect on North Korean decision-
making and its missile program. If it did, they would likely pursue 
other dangerous capabilities more aggressively and we will have to 
address each as it arises. The security world is not static.

    In my view U.S. nonproliferation policy should emphasize a mix of 
both offensive and defensive U.S. military capabilities. It should 
emphasize these capabilities to both allies and potential opponents 
alike, in a manner that demonstrates our commitment to our friends, and 
our resolve to dissuade potential enemies.

    I have some additional comments on U.S. proliferation strategy 
which I have included as Attachment III.

    To conclude, we live in a dangerous and untidy world. The 
destructive power of weapons is greater than ever and growing. These 
weapons are coming into the hands of more countries unfriendly to the 
U.S. and the West. That is the new national security environment we 
face and will be facing in the years ahead.

    The U.S., more than any nation on earth, is capable of living in 
that new world in reasonable safety. But we can do so only if we admit 
that that is the nature of our world and get about the task of 
providing sufficient resources so that we will have the ability to 
dissuade and deter others from developing and using WMD capabilities 
against us, our friends and our allies. Weakness is provocative.

    We must heed the now clear warning signals. It will be tragic--
enormously costly in American lives--if we fail in our responsibilities 
to our fellow citizens. The warning signals are unambiguous. We must 
not foolishly follow the path we have seen before in history of being 
inattentive, blind if you will, and willing to act to respond only 
after a major tragedy shocks us into action. Given the power of weapons 
today, that is too late.

    We read and hear arguments about the defense budget that we cannot 
afford more. Nonsense. Our country may not be wealthy enough to do 
everything in the world that everyone might wish--we shouldn't try. But 
the first responsibility of government is to provide for the national 
security. And let there be no doubt, our country is more than wealthy 
enough to do everything we need to do to provide for the safety of our 
people.

    Defense and intelligence expenditures at 3 percent of GNP and 
heading south are the lowest percent in my adult lifetime. We need to 
stop the decade-long series of defense and intelligence community 
reductions, force the national security community in the Executive 
Legislative Branch to rearrange our diplomatic, defense, deterrence and 
intelligence to fit the post-cold War world, and invest every dollar 
necessary to assure that future Presidents will have the capabilities 
needed to contribute to peace and stability in this still dangerous and 
difficult world.

    I wish you well in your work and thank you.

          Additional Material Submitted by Secretary Rumsfeld

                              ATTACHMENT I

REPORT OF THE COMMISSION TO ASSESS THE BALLISTIC MISSILE THREAT TO THE 
                             UNITED STATES

                           EXECUTIVE SUMMARY
     EXCERPTS ON THE SUBJECT OF PROLIFERATION FROM THE UNCLASSIFIED
          * * * * * * *
C. New Threats in a Transformed Security Environment

    The commission did not assess nuclear, biological and chemical 
weapons programs on a global basis. We considered those countries about 
which we felt particular reason to be concerned and examined their 
capabilities to acquire ballistic missiles armed with weapons of mass 
destruction.

    All of the nations whose programs we examined that are developing 
long-range ballistic missiles have the option to arm these, as well as 
their shorter-range systems, with biological or chemical weapons. These 
weapons can take the form of bomblets as well as a single, large 
warhead.

    The knowledge needed to design and build a nuclear weapon is now 
widespread. The emerging ballistic missile powers have access to, or 
are pursuing the acquisition of, the needed fissile material both 
through domestic efforts and foreign channels.

    As our work went forward, it became increasingly clear to us that 
nations about which the U.S. has reason to be concerned are exploiting 
a dramatically transformed international security environment. That 
environment provides an ever-widening access to technology, information 
and expertise that can be and is used to speed both the development and 
deployment of ballistic missiles and weapons of mass destruction. It 
can also be used to develop denial and deception techniques that seek 
to impede U.S. intelligence gathering about the development and 
deployment programs of those nations. (page 7)
          * * * * * * *
            1. Geopolitical Change and Role for Ballistic Missiles

    A number of countries with regional ambitions do not welcome the 
U.S. role as a stabilizing power in their regions and have not accepted 
it passively. Because of their ambitions, they want to place restraints 
on the U.S. capability to project power or influence into their 
regions. They see the acquisition of missile and WMD technology as a 
way of doing so.

    Since the end of the Cold War, the geopolitical environment and the 
roles of ballistic missiles and weapons of mass destruction have both 
evolved. Ballistic missiles provide a cost-effective delivery system 
that can be used for both conventional and non-conventional weapons. 
For those seeking to thwart the projection of U.S. power, the 
capability to combine ballistic missiles with weapons of mass 
destruction provides a strategic counter to U.S. conventional and 
information-based military superiority. With such weapons, these 
nations can pose a serious threat to the United States, to its forward-
based forces and their staging areas and to U.S. friends and allies.

    Whether short or long-range, a successfully launched ballistic 
missile has a high probability of delivering its payload to its target 
compared to other means of delivery. Emerging powers therefore see 
ballistic missiles as highly effective deterrent weapons and as an 
effective means of coercing or intimidating adversaries, including the 
United States. (page 8)
          * * * * * * *

    . . . Russia poses a threat to the U.S. as a major exporter of 
enabling technologies, including ballistic missile technologies, to 
countries hostile to the United States. In particular, Russian 
assistance has greatly accelerated Iran's ballistic missile program. 
(page 9)
          * * * * * * *

    China also poses a threat to the U.S. as a significant proliferator 
of ballistic missiles, weapons of mass destruction and enabling 
technologies. It has carried out extensive transfers to Iran's solid-
fueled ballistic missile program. It has supplied Pakistan with a 
design for nuclear weapons and additional nuclear weapons assistance. 
It has even transferred complete ballistic missile systems to Saudi 
Arabia (the 3,100-km-range CSS-2) and Pakistan (the 350-km-range M-11).

    The behavior thus far of Russia and China makes it appear unlikely, 
albeit for different reasons--strategic, political, economic or some 
combination of all three--that either government will soon effectively 
reduce its country's sizable transfer of critical technologies, experts 
or expertise to the emerging ballistic missile powers. (page 10)
          * * * * * * *

    North Korea also poses a major threat to American interests, and 
potentially to the United States itself, because it is a major 
proliferator of the ballistic missile capabilities it possesses--
missiles, technology, technicians, transporter-erector-launchers (TELs) 
and underground facility expertise--to other countries of missile 
proliferation concern. These countries include Iran, Pakistan and 
others. (page 12)
          * * * * * * *
D. A New Non-Proliferation Environment

    Since the end of the Cold War a number of developments have made 
ballistic missile and WMD technologies increasingly available. They 
include:

  <bullet> A number of nations have chosen not to join non-
        proliferation agreements.

  <bullet> Some participants in those agreements have cheated.

  <bullet> As global trade has steadily expanded, access has increased 
        to the information, technology and technicians needed for 
        missile and WMD development.

  <bullet> Access to technologies used in early generations of U.S. and 
        Soviet missiles has eased. However rudimentary compared to 
        present U.S. standards, these technologies serve the needs of 
        emerging ballistic missile powers.

  <bullet> Among those countries of concern to the U.S., commerce in 
        ballistic missile and WMD technology and hardware has been 
        growing, which may make proliferation self-sustaining among 
        them and facilitate their ability to proliferate technology and 
        hardware to others.


    Some countries which could have readily acquired nuclear weapons 
and ballistic missiles--such as Germany, Japan and South Korea, have 
been successfully encouraged not to do so by U.S. security guarantees 
and by non-proliferation agreements. Even though they lack such 
security guarantees, other countries have also joined non-proliferation 
agreements and abandoned development programs and weapons systems. Some 
examples are Argentina, Brazil, South Africa and the former Soviet 
republics of Belarus, Kazakhstan and Ukraine. (page 17)
1. Increased Competence of and Trade Among Emerging Ballistic Missile 
        Powers

    Conversely, there are other countries--some of which are themselves 
parties to various non proliferation agreements and treaties--that 
either have acquired ballistic missile or WMD capabilities or are 
working hard to do so. North Korea, Iran and Iraq, as well as India and 
Pakistan, are at the forefront of this group. They now have increased 
incentives to cooperate with one another. They have extensive access to 
technology, information and expertise from developed countries such as 
Russia and China. They also have access through commercial and other 
channels in the West, including the United States. Through this trade 
and their own indigenous efforts, these second-tier powers are on the 
verge of being able to provide to one another, if they have not already 
done so, the capabilities needed to develop long-range ballistic 
missiles. (page 18)
          * * * * * * *
2. U.S. as a Contributor to Proliferation

    The U.S. is the world's leading developer and user of advanced 
technology. Once it is transferred by the U.S. or by another developed 
country, there is no way to ensure that the transferred technology will 
not be used for hostile purposes. The U.S. tries to limit technology 
transfers to hostile powers, but history teaches that such transfers 
cannot be stopped for long periods. They can only be slowed and made 
more costly, and even that requires the cooperation of other developed 
nations. The acquisition and use of transferred technologies in 
ballistic missile and WMD programs has been facilitated by foreign 
student training in the U.S., by wide U.S. designs and equipment and by 
the relaxation of U.S. export control policies. As a result, the U.S. 
has been and is today a major, albeit unintentional, contributor to the 
proliferation of ballistic missiles and associated weapons of mass 
destruction.

3. Motives of Countries of Concern

    Recent ballistic missile and nuclear tests in South Asia should not 
be viewed as merely a share but temporary setback in the expanding 
reach of non-proliferation regimes. While policymakers may try to 
reverse or at least contain the trends of which these tests are a part, 
the missile and WMD programs of these nations are clearly the results 
of fundamental political calculations of their vital interest. Those 
nations willing and able to supply dangerous technologies and systems 
to one another, including Russia, China and their quasi-governmental 
commercial entities, may be motivated by commercial, foreign policy or 
national security interests or by a combination thereof. As noted, such 
countries are increasingly cooperating with one another, perhaps in 
some instances because they have reciprocal needs for what one has and 
the other lacks. The transfer of complete missile systems, such as 
China's transfer to Saudi Arabia, will continue to be available. Short 
of radical political change, there is every reason to assume that the 
nations engaged in these missile and WMD development activities will 
continue their programs as matters of high priority. (page 19)

4. Readier Market Access to Technology

    In today's increasingly market-driven, global economy, nations so 
motivated have faster, cheaper and more efficient access to modern 
technology. Commercial exchanges and technology transfers have 
multiplied the pathways to those technologies needed for ballistic 
missiles and weapons of mass destruction. These pathways reduce 
development times and costs, lowering both technical and budget 
obstacles to missile development and deployment.

    Expanding world trade and the explosion in information technology 
have accelerated the global diffusion of scientific, technical and 
industrial information. The channels--both public and private, legal 
and illegal--through which technology, components and individual 
technicians can be moved among nations have increased exponentially.

5. Availability of Classified Information and Export-Controlled 
        Technology.

    Trends in the commercial sector of a market-driven, global economy 
have been accompanied, and in many ways accelerated, by an increased 
availability of classified information as a result of:

  <bullet> Lax enforcement of export controls.

  <bullet> Relaxation of U.S. and Western export controls.

  <bullet> Growth in dual-use technologies.

  <bullet> Economic incentives to sell ballistic missile components and 
        systems.

  <bullet> Extensive declassification of materials related to ballistic 
        missiles and weapons of mass destruction.

  <bullet> Continued, intense espionage facilitated by security 
        measures increasingly inadequate for the new environment.

  <bullet> Extensive disclosure of classified information, including 
        information compromising intelligence sources and methods. 
        Damaging information appears almost daily in the national and 
        international media and on the Internet. (pages 18-20)

          * * * * * * *
H. Summary

    Ballistic missiles armed with WMD payloads pose a strategic threat 
to the United States. This is not a distant threat. Characterizing 
foreign assistance as a wild card is both incorrect and misleading. 
Foreign assistance is pervasive, enabling and often the preferred path 
to ballistic missile and WMD capability.

    A new strategic environment now gives emerging ballistic missile 
powers the capacity, through a combination of domestic development and 
foreign assistance, to acquire the means to strike the U.S. within 
about five years of a decision to acquire such a capability (10 years 
in the case of Iraq). During several of those years, the U.S. might not 
be ware that such a decision had been made. Available alternative means 
of delivery can shorten the warning time of deployment nearly to zero.

    The threat is exacerbated by the ability of both existing and 
emerging ballistic missile powers to hide their activities from the 
U.S. and to deceive the U.S. about the pace, scope and direction of 
their development and proliferation programs. Therefore, we unanimously 
recommend that U.S. analyses, practices and policies that depend on 
expectations of extended warning of deployment be reviewed and, as 
appropriate, revised to reflect the reality of an environment in which 
there may be little or no warning. (page 25)

                             ATTACHMENT II

 COMMISSION TO ASSESS THE BALLISTIC MISSILE THREAT TO THE UNITED STATES
   INTELLIGENCE SIDE LETTER--UNCLASSIFIED EXCERPTS ON THE SUBJECT OF 
                             PROLIFERATION

    The proliferation of WMD and ballistic missiles is a global 
problem, with nations that are buyers of either or both often sellers 
of either or both as well.

    Considerably less attention is given to:

  <bullet> the motivations of those who seek to acquire such 
        capabilities;

  <bullet> the leverage the capability might impart to the buyer in 
        local, regional or global affairs;

  <bullet> the doctrine that the buyer might develop to guide the 
        deployment and employment of the capability;

  <bullet> the technical state, pace and potential growth paths for 
        ballistic missile and WMD programs in countries of concern;

  <bullet> the likelihood that buyers are cooperating among themselves 
        to enhance their respective capabilities;

  <bullet> the effects of foreign deception and denial activities on 
        the ability of the U.S. to monitor and assess the threat.


    We believe that the DCI needs to direct the relevant analytic 
centers to assess ballistic missile and WMD capabilities as strategic 
programs that pose a threat to the United States. Proliferation of 
technology should be treated as one factor affecting the strategic 
calculations of a given country. The analysts in these cells need to be 
able to task collection assets, have access to information wherever it 
may be held within the IC, encouraged to challenge each other's 
findings and instructed to employ analytic methodologies more 
comprehensive than those often used in the IC. Using outside expertise 
should be encouraged. Creating dedicated cells is not a matter of 
organization alone. In addition more, and more broadly trained, 
analysts are needed to identify tasking requirements and opportunities, 
perform the required analyses, and fashion the finished intelligence. 
(page 5)
                             ATTACHMENT III

 ADDITIONAL COMMENTS ON U.S. PROLIFERATION STRATEGY BY HON. DONALD H. 
                                RUMSFELD

March 30, 2000


    I am persuaded that U.S. nonproliferation strategy needs to place 
greater emphasis on the role of direct and indirect action by the U.S., 
its allies, and ad hoc coalitions of willing, like-thinking, generally 
industrialized nations, and less emphasis on the broad inclusive 
conditions. We need to be willing and capable of acting in concert with 
like-minded countries or unilaterally when U.S. interests are affected. 
A desire for international validation prior to the initiation of action 
has led to some overly broad, nonverifiable, nonenforceable treaties.

    Broad multilateral approaches should not be at the expense of less 
global initiatives that can often be highly effective precisely because 
they are less broad. One example is the Missile Technology Control 
Regime (MTCR). Established in 1987, it initially consisted of seven 
``like minded'' nations: the U.S., Canada, France, the Federal Republic 
of Germany, Italy, Japan, and the United Kingdom. The underlying 
premise was that the acquisition or development of ballistic missile 
capability could either be averted or delayed and rendered more 
difficult and expensive if the major producers of ballistic missile 
systems and technologies agree to control the exportation of such 
items. Thus the MTCR was created as an informal supply-side arrangement 
under which the members agreed to heavily restrict trade in missile-
technologies beyond their membership. Within the group, trade would be 
relatively unrestricted.

    Accordingly, expansion of the group was to be only if would-be 
participants would agree to forgo their missile programs. To expand 
without such an agreement made no sense. Were countries to join the 
club with nascent missile programs intact, thereby gaining access to 
missile technology as a new member of the regime, the number of 
countries with viable missile programs would likely go up, not down. 
The early success of the MTCR is clear. Argentina slowed its Condor II 
missile program and then terminated it. The U.S. sponsored Argentina 
for membership once the Condor II program material had been disposed of 
by an international group. Likewise, South Africa dropped its space-
launch vehicle program and was rewarded with membership in the club.

    However, the current Administration shifted policy towards the MTCR 
in an important and I believe counter productive manner. U.S. policy 
has been redirected to turn the regime into a more global missile 
regime. Instead of following the earlier model for South Africa and 
Argentina in discouraging nations from pursuing missile or space-launch 
programs, the Administration changed the policy and began offering 
membership in the MTCR to countries with their programs intact. The 
logic of the regime was turned on its head. Nations such as Ukraine and 
Brazil were allowed to join, and gain access to missile technology as 
members of the regime, but without dismantling their missile 
infrastructure. It was argued that a greater good was served by 
bringing countries inside the tent, rather than leaving them outside 
and free to trade with the ``real'' threats, the pariah nations.

    If it made sense to bring nations such as Brazil into the MTCR to 
prevent their potential proliferation to Iran, then it seemed to also 
make sense to bring countries that actually were proliferating to Iran. 
As a result, Russia became an MTCR member. Further, in becoming an MTCR 
member, Russia gained immunity from the unilateral MTCR sanction laws 
that threatened to upset U.S.-Russian relations and jeopardize business 
contracts.

    Regrettably, Russian missile assistance to Iran has continued 
during the years since Russia became a member. It has ranged from 
provision of missile components engines to engineering capabilities, 
wind-tunnel testing and other know-how. As a result, Iran's missile 
programs have leap-frogged key development hurdles, and the timeframe 
for deployment of an ICBM capable of striking the U.S. has been 
shortened. Rather than being used to effectively leverage Russia out of 
the missile proliferation business, MTCR membership was simply offered 
up. Little has been gained and an opportunity was lost. The U.S. should 
be cautious about allowing China in the MTCR, a country that 
consistently ranks among the most active proliferators.

    A second problem created by basing counter-proliferation policy on 
the involvement of large numbers of nations is that it gives leverage 
to those countries who do not share U.S. goals, but who are positioned 
to deny the U.S. the multilateral endorsement it seeks. That leverage 
can and has been used by countries such as China, Iran, and India to 
codify principles and practices which can be counterproductive to other 
nonproliferation initiatives.

    I understand that it was under the ``atoms for peace'' program that 
various countries such as Iran, North Korea, and India received the 
initial infusion of nuclear technology that got them started on a 
weapons program. The provisions of the Nuclear Nonproliferation Treaty, 
which specify that peaceful nuclear cooperation is not to be impeded, 
can be invoked by countries to justify their sale of nuclear technology 
to Iran and others.

    The International Atomic Energy Agency (IAEA) was established to 
monitor peaceful nuclear programs to ensure that they do not contribute 
to the development of nuclear weapons. But, pursuant to the ``atoms for 
peace'' provisions of the NPT, the IAEA also manages a ``Technical 
Assistance'' program that the U.S. General Accounting Office has warned 
is making financial and technical contributions to programs of concern, 
such as Iran's Bushehr plant, North Korea's program, and Cuba's nuclear 
program. Nonproliferation treaties which contain this formulation can 
carry within them the risk that the very opposite of what is intended 
and expected will result.

    Some time back, together with others, I cautioned this Committee 
against the Chemical Weapons Convention for this reason, among others 
Article XI of that treaty, is similar to the notion found in the NPT 
and the BWC. Article XI states that trade in dual-use commercial 
commodities cannot be impeded by the U.S. or anyone else, as long as it 
is not proven that such trade is assisting a weapons program. Of 
course, given the impossibility of verifying the CWC, this treaty-
provision has the potential to result in legitimating trade in chemical 
weapons precursors between proliferating regimes.

    Article XI has the effect of creating an international norm of 
unfettered trade in dangerous commodities, which has been used by 
countries with both legitimate commercial motives and illegitimate 
weapons interests to batter the U.S. and those allies who maintain 
vigorous export controls, both unilaterally and pursuant to the 
Australia Group.

    The CWC has given momentum to third world efforts to abolish the 
Australia Group. I am pleased that, to date, those efforts have not 
been successful. No member of the supply-side group has ``broken 
ranks'' with the regime. The members of the group are sensitive to the 
perils of relaxing their controls. Indeed, pursuant to the resolution 
of ratification, an annual certification must be made stating whether 
the Australia Group is as effective today as it was when the CWC was 
ratified. Presumably Senate support for the CWC will be in question if 
this certification cannot be made.

    To conclude as Richard Perle has noted, the idea of putting both 
the cops and robbers together inside the same regime is intellectually 
unsound. There is a reason why such regimes are not effectively 
verifiable. There is a reason why these regimes do not have effective 
enforcement mechanisms. Certain countries are not going to agree to 
such provisions. It is contrary to their interests and inimical to 
their clandestine weapons programs. My preference for U.S. 
nonproliferation policy is that it de-emphasize broad multilateral 
endeavors in favor of strengthening smaller, more workable coalitions 
such as the MTCR and the Australia Group.

    There are other aspects of U.S. nonproliferation policy, which need 
to be given greater emphasis. Specifically, the administration has been 
reluctant to use economic sanctions as a tool for combating 
proliferation. For instance, no MTCR sanctions have been imposed on 
Russia for its repeated failure to prevent the spread of missile 
technology to Iran. Nor have chemical or biological warfare sanctions 
been applied. China has not been sanctioned for the M-11 missile 
transfer, despite the fact that U.S. intelligence community believes 
that the missiles are in Pakistan. Congress has given the executive 
branch a useful tool. The ability to deny trade in various commodities 
and to reinitiate that trade through the use of a waiver of the 
sanction could be helpful tool if applied correctly. Indeed, most of 
the positive steps the PRC and Russia have taken on proliferation 
matters have been the result of sanctions or the fear of them. We need 
to reactivate the Arms Export Control Act, where these authorities are 
codified, and makes better use of this capability.

    Also, export controls can be a useful counter-proliferation tool. I 
have mentioned the value of the MTCR and the Australia Group. But 
unilateral export controls, if applied judiciously, can also be 
helpful. There are several categories of items where only the U.S. and 
its closest friends--and in some cases, just the United States--are the 
source of availability. Controls over these types of commodities are 
warranted and can be effective.

    I do not suggest blanket denials of exports. The requirement for a 
U.S. company to secure a license does not and should not mean that a 
proposed export will automatically or even likely be turned down. The 
process of securing a license can be a useful one in that it enables 
the government to know, for example, where dual-use commodities are 
being sold. It can allow for the denial of an export if it would aid a 
foreign weapons program. The vast majority of U.S. exports are 
unlicensed. Only a fraction--perhaps four or five percent--are subject 
to any form of control, and of that number, only handfuls of licenses 
are denied. I do not think that the idea of eliminating licenses 
altogether, as proposed by some, would be wise. The U.S. government 
needs to know what various countries are seeking to acquire in the way 
of dual-use equipment and technology. As the Ballistic Missile Threat 
Commission noted, the U.S. has become--albeit unintentionally--a 
nontrivial source of proliferation.Finally, we also need to shorten the 
time government takes to process license applications. I appreciate the 
efforts of this committee to establish an internet-based filing system 
for shipper's export declarations. I hope that system, as recommended 
by the Deutch Commission, which could obviate the current onerous 
paper-based system, can be expanded to cover both Munitions List 
applications and Commerce Control List license applications. I also 
support the Committee's efforts to apply additional resources to the 
Department of State's licensing office. More needs to be done to 
streamline and accelerate the process.

    Senator Lugar.  Thank you very much, Secretary Rumsfeld.

    Secretary Hadley.

STATEMENT OF HON. STEPHEN J. HADLEY, FORMER ASSISTANT SECRETARY 
         OF DEFENSE; SHEA AND GARDNER, WASHINGTON, D.C.

    Secretary Hadley.  Thank you, Mr. Chairman. It is a great 
pleasure to have an opportunity to participate and testify 
before this committee again. I am going to focus on the 
elements of an effective policy against further proliferation.

    The beginning of an effective policy is knowing who is 
seeking weapons of mass destruction and why. It is true that 
most countries are not, and that a number of countries that 
were have given up the game, and that is an evidence of success 
of our efforts against proliferation.

    But if you look at the list of the countries that are 
currently seeking weapons of mass destruction, they really fall 
into two categories.

    The first are states that seek these weapons to intimidate 
or coerce their neighbors, even to the point of waging war, or 
potentially waging war. These are countries such as Iraq, Iran, 
North Korea, and Syria, and as Secretary Rumsfeld pointed out, 
if their neighbors are allied with the United States or friends 
of the United States, then the incentive to obtain weapons of 
mass destruction becomes even greater as a way of neutralizing 
the United States from interfering with their efforts against 
their neighbors.

    The second category of states are in some sense states who 
are unfortunate enough to have as a neighbor one of the 
countries in the first category, a country that is seeking 
weapons of mass destruction to intimidate, and such a concern 
is clearly one that has motivated the national security policy 
of the State of Israel. Similarly, I think India's efforts to 
acquire these weapons reflects a concern about China.

    The difference in these two categories of states points out 
one of the great problems with a proliferation policy, and that 
is to say not all proliferation are--are equal, but I think the 
most interesting thing is that this second category is much 
smaller, and so much smaller than the first, and I think this 
is evidence of the fact that the United States has largely 
succeeded in offering states that might potentially fall into 
this category of states, an alternative means of safeguarding 
their security.

    That nations like Japan, Taiwan, South Korea, and Turkey 
have not sought weapons of mass destruction I think is in large 
measure due to the fact that the United States has maintained 
strong security ties with these countries, backed up by the 
U.S. nuclear deterrent.

    These countries have found these security arrangements an 
acceptable alternative to seeking to obtain their own weapons 
of mass destruction in order to deal with a troublesome 
neighbor, and this, of course, is why a key element of an 
effective nonproliferation policy or policy against 
proliferation has to start with continuing U.S. engagement in 
the world, standing by our friends and allies, and having the 
military capability to do so.

    The most difficult challenge, of course, for an effective 
policy against proliferation is the first category of the 
states, those states that are looking for these weapons as a 
means to intimidate or impose their will on their neighbors. I 
think an effective policy of dealing with these states needs to 
have three elements.

    First, it needs to be a tailored policy appropriate to the 
particular country of concern.

    Second, it needs to be comprehensive, using all the 
available political, economic, and diplomatic tools available 
to us, and using them in a coordinated and effective way.

    Finally, it has to be global. We have to enlist our friends 
and allies, and other potential supplier states in the effort, 
if ultimately we are going to be successful. Let me talk 
briefly about each of these points.

    Tailored strategies. There are maybe a dozen or so 
countries of real concern. Each of them has a different 
politics, a different geography, and in some cases, a different 
level of technical sophistication. North Korea is a different 
problem than Iran, which is a different problem than India and 
Pakistan. What we need is a tailored strategy that deals with 
each of these individual states.

    These tailored strategies, of course, are going to operate 
under the rubric of some of the international regimes that deal 
with the proliferation problem, things like the chemical 
weapons convention, the nonproliferation treaty, and the like.

    I talk in my statement about some of the problems with 
these regimes, the fact that they are sort of a one-size-fits-
all, that they encompass both states that have no interest in 
getting weapons of mass destruction and those countries that 
are dedicated to doing so, and, in fact, some countries that 
are using or have used the cover of membership in these 
international regimes, in order to facilitate their effort to 
obtain weapons of mass destruction.

    These international regimes I think have a role in 
reinforcing a consensus behind the effort to prohibit and 
prevent proliferation, but I think as tools in the battle 
against proliferation, for the reasons others have talked 
about, they are marginal players.

    I think we need much more a targeted strategy, focused on 
the individual states of concern, and that takes full array of 
all available instruments we have to deal with those problems.

    One of the reasons why an effective policy against 
proliferation is so difficult is that it does require 
integration of a lot of different tools and a lot of different 
agencies of government, and not only in our government, but 
other governments as well. As we all know, the hardest thing 
for the governments to do is to integrate. We are all stove 
piped with our narrow concerns.

    So this most difficult problem, in some sense, requires the 
most difficult thing for governments to do, which is have not 
only integrated policy, but integrated execution. Of course, it 
is not just within our own government, we need to involve other 
countries as well.

    The United States must take the lead in the fight against 
proliferation. It represents a clear and present danger to us, 
and to our forces overseas, and our allies overseas, but it is 
a problem that should be of equal concern to a number of our 
friends and allies.

    I think many times we have the impression that our friends 
and allies view proliferation as a United States problem, and 
that any efforts they make to support us in our efforts against 
proliferation, in some sense, are a favor they are doing to us.

    In fact, of course, as Secretary Rumsfeld pointed out, the 
United States is probably better able to live in a proliferated 
world than any other country. So in some sense, the effort 
against proliferation is a common interest that is very much in 
our allies' interest. I do not think that we have succeeded in 
convincing our allies of this point, and I think that it is 
partly our fault.

    I do not think that we have invested the time required to 
convince these countries, our friends and allies, that the 
risks associated with proliferation are real, that they 
threaten them, and convince them of the difficult task that is 
required to deal with that problem.

    I think one of the reasons we have had so much difficulty 
with Europeans about Iran is precisely because we have a 
different perception of the threat that Iran with weapons of 
mass destruction would pose to the international community.

    I think we have to have a consistent effort of quiet, 
intensive, and systematic communication between the relevant 
intelligence and policy communities, with our allies and 
friends in order to gain the common consensus for action.

    We also have to reach out to Russia and China. An effort 
against proliferation cannot be successful if those two 
countries are bent on proliferation. It just cannot. The 
willingness to invoke sanctions against these countries in 
appropriate cases certainly is an important element of our 
approach, but I think we also need to provide positive 
incentives for Russia and China to participate in the effort 
against proliferation, convincing them that it is in their own 
security interests, and it has benefits to them, political, 
economic, and diplomatic.

    Sanctions against Russia, for example, for its cooperation 
in the nuclear missile fields, with countries like Iran, must, 
in my judgment, be coupled with the prospect for Russian 
companies of being able to participate actively in legitimate 
markets with the United States and its allies, both in, for 
example, nuclear matters, civilian nuclear programs, and in 
space launch fields.

    I think, otherwise, we run the risks of really literally 
forcing Russia and China into the arms of the bad actors of the 
world.

    So when a new administration comes into office of January 
of 2000, I would have them do four things. I would have them 
conduct a major review of our proliferation policy, something I 
think, Senator Lugar, you were suggesting, focusing on the 
countries of concern, looking at how successful we have been in 
dealing with that problem, what has worked, what has not 
worked, and developing a revised strategy tailored to each 
particular country of the sort that I have described.

    Then once these strategies are developed, execution needs 
to be a high priority at all levels, and particularly at the 
highest levels within the government.

    Second, a new administration must begin the kind of quiet, 
intensive, and systematic dialogue with our friends and allies 
about the threat, and what to do about it, that I have 
described.

    Third, I think we need a new beginning with Russia and 
China on this issue. The effort against proliferation needs to 
take a higher priority on the agenda of matters that we deal 
with these countries about. Finally, I think we need to make a 
greater investment in what I would call the new tools of an 
effective effort against proliferation. I will summarize them 
briefly, and then I will stop.

    First is a new approach to export controls. Other witnesses 
have explained how the environment has changed. I think export 
controls are a critical element of the effort against 
proliferation, but I think we need a new approach, and I think 
a high priority for any new administration in January of 2001 
will be to conduct a comprehensive review of the export 
controls.

    My own view is that the system that is appropriate to the 
new environment is going to focus on a modest list of military 
capabilities, not the underlying commercial technologies which 
are virtually uncontrollable.

    Military capabilities that are critical to the ability of 
the United States to defend its interests at acceptable costs, 
that can be effectively controlled by the United States and 
countries that share our concerns about proliferation, and for 
which there is no ready substitute in the world market. I think 
we need to focus less on the sources of supply, which have 
proliferated in the world, and more on the bad guys that are 
trying to get these weapons, and I think that is an 
intelligence challenge, a law enforcement challenge, and a 
military challenge.

    Second, I think we need effective defenses against these 
threats. They are the things that are very familiar to you, 
passive measures, active measures. The point is, these are not 
simply hedges against the failure of our efforts against 
proliferation.

    They will, in fact, enhance the effectiveness of that 
effort by showing countries that even if they acquire these 
capabilities, they will not have the political and diplomatic 
effects that they hope for.

    Finally, I think we need effective capabilities that will 
allow the United States and its friends of allies to eliminate 
weapons of mass destruction and the means to deliver them 
before they are used. Again, this is enhanced intelligence 
capabilities, strike weapons, the ability to effectively target 
underground targets, and enhance special operations.

    Again, I think these will not undermine the proliferation 
effort. I think they will strengthen it, once again, by showing 
countries that even if they make this effort to get these 
weapons, we have the ability to eliminate such weapons even 
before they are used. This is the kind of agenda I think we 
need to pursue if we are going to have an effective policy 
against proliferation.

    Thank you, Mr. Chairman.

    [The prepared statement of Secretary Hadley follows:]

                Prepared Statement of Stephen J. Hadley

    It is a great pleasure to have the opportunity to appear before you 
today to discuss the proliferation threat and the elements of an 
effective policy against the further spread of weapons of mass 
destruction (WMD) and the means to deliver them.

    My understanding is that you have already heard from government and 
outside experts about the details of the proliferation threat and the 
particular case studies of Iran, Iraq, India, and Pakistan. In my 
comments, therefore, I will focus on what are the elements of an 
effective policy against further proliferation.

              WHO SEEKS MASS DESTRUCTION WEAPONS AND WHY?

    The beginning of an effective policy against proliferation is to 
know who is seeking weapons of mass destruction and why.

    It is important to recognize that most countries are not seeking 
these weapons. The overwhelming majority of nation states have found no 
need to seek these weapons and a number of states (South Korea, Brazil, 
Argentina, and South Africa) that initially sought to acquire these 
weapons have been persuaded that it was not in there interest to do so. 
These facts taken together are evidence of the considerable success 
that our nation has had over the last three decades in its fight 
against proliferation.

    If one looks at the list of states that are currently seeking 
weapons of mass destruction and the means to deliver them, they fall 
into two broad categories:

    The first contains states that seek these weapons in order to 
intimidate or coerce their neighbors, even to the point of waging war 
against them. Countries such as Iraq, Iran, North Korea, and Syria fall 
within this category. When the effort to intimidate or coerce is 
directed at a friend or ally of the United States, then weapons of mass 
destruction and the means to deliver them become critical tools in an 
effort to dissuade the United States from coming to the aid of its 
threatened friend or ally. As many commentators have written, the 
demonstration of U.S. conventional military dominance first in the Gulf 
War and then in the Kosovo Operation has lead aggressor nations to 
conclude that the only way they can successfully stand up against the 
United States is if they possess weapons of mass destruction.

    The second category of states seeking these weapons are states 
unfortunate enough to have as a neighbor one of the countries in the 
first category, a state that seeks to coerce or intimidate particularly 
with weapons of mass destruction. Such a concern is clearly one that 
has motivated the national security policy of the state of Israel. 
Similarly, India's effort to acquire these weapons reflects in part its 
concerns about Chinese intentions and nuclear capabilities.

    The difference in these two categories of states points up one of 
the great problems for an effective policy against proliferation. For 
some of the states that either are or could be in the second category 
of states are close friends and allies of the United States facing 
neighbors that present them with security concerns which we would find 
largely legitimate. For this group of states, the United States needs 
an anti-proliferation policy that is more than ``just say no'' but 
offers these states alternative means of meeting their legitimate 
security needs.

    The fact that this second category of states is so much smaller 
than the first is evidence that the United States has largely succeeded 
in offering these states alternative means to safeguard their security. 
That nations like Japan, Taiwan, South Korea, and Turkey have not 
sought weapons of mass destruction is in large measure due to the fact 
the United States has maintained strong security ties and alliances 
with these states, backed up by the U.S. nuclear deterrent. These 
countries have found such security arrangements to be an acceptable 
alternative to the acquisition of weapons of mass destruction as a 
means of assuring their own security against real external threats. 
This is why an America that remains engaged in the world, that stands 
by friends and allies, and has the military capability to do so, is a 
critical element of an effective policy against further proliferation 
of weapons of mass destruction.

    The most difficult challenge for an effective policy against 
proliferation is, therefore, dealing with the first category of 
states--those state that seek these weapons in order to intimidate or 
impose their will upon their neighbors.

    An effective policy for dealing with these states must have three 
elements. It must be:

    (1) Tailored, appropriate to the particular country of the concern;

    (2) Comprehensive, using all the available political, economic, and 
diplomatic tools available to us; and

    (3) Global, enlisting our friends, allies, and other potential 
supplier states in the effort.

                    THE NEED FOR TAILORED STRATEGIES

    Because the vast majority of nation states are not seeking to 
acquire weapons of mass destruction and the means to deliver them, 
proliferation is less a ``global'' problem than one focused on the 
couple dozen states that are actively seeking these weapons. Each of 
these states is unique, with its own geography, politics, motivations, 
and different levels of technical sophistication. On the issue of 
proliferation, North Korea is different from Iran, and both are 
different from India/Pakistan. An effective policy against 
proliferation requires a separate strategy for each country of 
proliferation concern, tailored to its particular situation.

    The success of U.S. efforts against proliferation is likely to 
depend more on the success of these tailored strategies than on the 
international legal regimes erected to deal with this problem.

    These international legal regimes (such as the Biological Weapons 
Convention, the Chemical Weapons Convention, the Non-Proliferation 
Treaty, and the Missile Technology Regime) have their place. They help 
to establish and re-enforce an international consensus against 
proliferation of weapons of mass destruction. While not self enforcing, 
these regimes can provide the basis for international collective action 
to prevent and possibly redress proliferation. In addition, the 
existence of these regimes helps facilitate the international 
cooperation that is required if the effort against proliferation is to 
succeed.

    The principal problem with these regimes is their ``one size fits 
all'' character. Because they are open to virtually all nations, they 
lump together states that have no interest or need to acquire these 
weapons with states that desperately want and seek them. Indeed, in the 
case of Iraq, membership in the nuclear Non-Proliferation Treaty regime 
before the Gulf War provided a ``cover'' for Iraq's effort to obtain 
nuclear weapons and may even have helped Iraq obtain the relevant 
technology without detection.

    Some of these regimes have verification and inspection procedures. 
But often these procedures fall between two stools: unduly intrusive 
and costly for innocent states that have no interest in acquiring these 
weapons, but inadequately intrusive and effective for states bent on 
acquiring them covertly. While we need to strengthen these regimes 
where we can, such as by strengthening the powers of the International 
Atomic Energy Agency (IAEA) under the Non-Proliferation Treaty regime, 
such efforts alone are not sufficient. The international community had 
for some time the most intrusive inspection regime in history in place 
in Iraq. Yet it clearly failed to uncover all of Iraq's chemical, 
biological, and missile weapons.

                 THE NEED FOR A COMPREHENSIVE APPROACH

    An important element of the success of any strategy tailored to a 
particular country of proliferation concern will be its ability to take 
advantage of the full array of available instruments--political, 
economic, diplomatic and legal--and to integrate them in a coordinated 
way. These countries are very serious about obtaining weapons of mass 
destruction, and to dissuade or prevent them from doing so will be 
extremely difficult. It will require all the leverage and tools we can 
bring to bear.

    This is one reason why an effective policy against proliferation is 
so difficult to achieve in practice. The integration of all these 
instruments into a single, successful strategy requires a high degree 
of coordination among a number of different agencies of the United 
States government and with agencies of many other governments. This has 
been extremely difficult to achieve. It may require a significant 
change in how the United States does business as a government if the 
United States is going to achieve the necessary level of effectiveness.

    These comprehensive approaches also need to be designed to be 
effective, not simply to make us feel good. They need to be a blend of 
both positive and negative incentives, and the mix has to be right. It 
is now widely agreed, I believe, that the U.S. approach throughout the 
last two decades to the problem of nuclear proliferation involving 
Pakistan both failed to prevent Pakistan from pursuing weapons of mass 
destruction and reduced U.S. leverage to influence its behavior.

                      THE NEED FOR GLOBAL APPROACH

    The United States must take the lead in the fight against 
proliferation. For it represents the most clear and present danger to 
U.S. forces and allies overseas--and to the territory of the United 
States itself. The acquisition of weapons of mass destruction by states 
and subnational groups hostile to the United States, its friends and 
allies, could revolutionize the security situation in regions of vital 
importance (including Asia and the Middle East) in ways highly 
prejudicial to U.S. interests and to international stability.

    But the effort against proliferation is seen by too many of our 
friends and allies as an effort largely benefiting the United States. 
Yet, the United States is probably better situated to deal with a 
proliferated world than most of these countries. Most of those states, 
particularly those with hostile neighbors who are actively seeking 
these weapons, do not have the financial or military resources that the 
United States has for dealing with this problem. They are very 
vulnerable to intimidation, coercion, or attack. For these countries, a 
common effort against proliferation is an investment in their own 
future and very much in there own security interest.

    It is also true that the United States needs the support of other 
nations in its effort to fight proliferation. For the technology, know 
how, technical personnel, and hardware and materials required for these 
weapons is widely available from a large number of countries. While 
unilateral U.S. efforts have their place, they will be more effective 
if joined with the efforts of other countries.

    The most important of these countries are U.S. friends and allies. 
Yet often these countries have not given us the kind of support that 
they should have. That is partly our fault. In many instances we have 
not invested the time required to convince these countries of the risks 
associated with the proliferation of weapons of mass destruction and 
what is required to discourage or prevent it. The difficulty the United 
States has traditionally had with its European allies on Iran, for 
example, results from a difference in the assessment of the security 
risks posed by Iran. This gap can only be remedied by working quietly, 
intensively, and systematically with the relevant intelligence and 
policy communities of these countries in order to come to a common 
assessment of the problem and what can be done about it.

    Cooperation is also required from countries with whom we have a 
much more problematic relationship. Russia and China are potentially 
formidable sources of the technology, personnel, and material required 
for weapons of mass destruction and the means to deliver them. The 
effort against the proliferation of these weapons will not be effective 
unless we can find some way to enlist Russia and China. The willingness 
to invoke sanctions against these countries in appropriate cases 
certainly must be an important element of our approach. But the U.S. 
also needs to offer positive incentives for Russian and Chinese 
participation in the effort against proliferation--convincing them that 
it is in their own national security interest, and that it can have 
positive benefits for them politically, economically, and 
diplomatically. Sanctions against Russia for its cooperation in the 
nuclear and missile fields with countries like Iran must be coupled 
with the prospect of Russian companies being able to participate 
actively in legitimate markets with the United States and its allies--
in both the nuclear and space launch fields. Otherwise, the U.S. runs 
the risk of driving Russia and China into the arms of these troublesome 
regimes.

                   AN AGENDA FOR A NEW ADMINISTRATION

    First, any new Administration entering into office in January of 
2001 needs to conduct a major review of U.S. proliferation policy. It 
needs to begin by taking each country of major proliferation concern, 
evaluating the success or failure of past efforts to discourage or 
prevent proliferation, and developing a revised strategy tailored to 
that particular country, one that integrates in an effective way all 
the various tools at our disposal for influencing the behavior of that 
nation. Once such strategies are developed, their execution needs to be 
a high priority throughout the Administration, commanding energy and 
attention from the highest levels of government.

    Second, any new Administration must begin a quiet, intensive, and 
systematic dialogue with our friends and allies to impress upon them 
the serious proliferation risks to their own security, and the kinds of 
measures that must be adopted if the problem is going to be adequately 
addressed. U.S. representatives must focus on the hard cases, the 
countries of greatest proliferation concern, and enlist friends and 
allies in developing and then executing the targeted strategies 
appropriate to each of these countries.

    Third, the U.S. needs a new beginning with Russia and China on this 
issue. The effort against proliferation must take on a higher priority 
in our relations with these two countries. To the extent possible, we 
need to develop with them an affirmative agenda that offers them a 
positive incentive to participate with us--and our friends and allies--
in this effort. Any unilateral sanctions or penalties must be targeted 
and advance the overall approach.

    Finally, the United States needs to make a greater investment in 
the new tools required for an effective effort against proliferation.

                         THE NEED FOR NEW TOOLS

    If the United States is to have an effective policy against the 
proliferation of weapons of mass destruction and the means to deliver 
them, it needs to develop new, improved tools for the effort. At least 
three categories of tools come to mind.


    1. A New Approach to Export Controls. There was a time when the 
most critical elements of weapons of mass destruction and the means to 
deliver them were generally military in origin and the province of a 
handful of states. But that is certainly not the case today. The 
relevant technology, know-how, trained personnel, and key hardware and 
components are increasingly available through the Internet, through a 
highly mobile technical work force, and through a globalized commercial 
marketplace. Indeed, a recent report of the Defense Science Board Task 
Force on Globalization and Security concludes that ``a majority of 
militarily-useful technology will eventually be available commercially 
and/or outside the United States.'' In the future, military advantage 
will come not from developing military-specific technology and denying 
it to our adversaries, but from being able rapidly to integrate 
commercial technology into military equipment that can be promptly 
delivered to and exploited by a well-trained and well-led military 
force.

    Despite this new environment, export controls can continue to make 
a valuable contribution to the effort against proliferation. But we 
need a new approach to export controls if they are to be effective.

    A high priority for any new administration in January of 2001 will 
be to conduct a comprehensive review of the current U.S. approach to 
export controls in order to develop a more effective system. Such a 
system should focus on:

  <bullet> a modest list of military capabilities--not the underlying 
        commercial technologies--that are critical to the ability of 
        the U.S. to defend its interests at acceptable costs;

  <bullet> that can be effectively controlled by the United States and 
        those countries supporting the effort against proliferation; 
        and

  <bullet> for which there is no ready substitute on the world market.


    The U.S. approach to export controls needs to focus less on 
controlling the sources of supply of technology and components, which 
have generally become so numerous as to be virtually uncontrollable in 
the global economy, and more on those relatively less numerous ``bad 
end users'' to whom we want to deny these capabilities. The United 
States needs to target its intelligence-gathering, law enforcement, and 
military resources in a constant, proactive program of disruption of 
the efforts of these ``bad end users'' to acquire the critical elements 
of weapons of mass destruction and the means to deliver them.


    2. Effective Defenses Against These Threats. The United States 
needs to be pursuing a host of measures to defend and protect itself 
from the threat of weapons of mass destruction. The United States needs 
better methods for protecting its military and civilian population 
against the potential use of weapons of mass destruction. This means 
better detection devices, vaccines, antidotes, protective clothing, 
decontamination equipment, sophisticated medical treatment protocols, 
building protection measures, civil preparedness. But in addition to 
these passive defenses or ``consequence management'' measures, the 
United States also needs active defenses against these threats and 
particularly the means to deliver them. This means defenses against 
ballistic missiles and cruise missiles, enhanced surveillance and 
control over potentially dangerous items and suspected terrorists 
coming into the country, and other similar measures.

    It is true that such measures represent a ``hedge'' against the 
failure of U.S. efforts to thwart proliferation. But of equal 
importance, the ability to deal with the consequences of the failure of 
these efforts actually increases the prospect of their success. Rather 
than undermining the effect against proliferation, protective measures 
actually discourage proliferation by reducing the likelihood that a 
would-be proliferator could achieve the intimidating or coercive 
effects that motivate the effort to acquire these weapons in the first 
place. Similarly, by developing defenses and protective measures, the 
United States can make them available to its friends, allies, and other 
states threatened by a proliferating neighbor. This allows these states 
to cope with a neighbor seeking to acquire weapons of mass destruction 
without having to acquire those weapons itself. It is just this 
argument, for example, that supports the deployment of theater 
ballistic missile defenses to Japan to help cope with the ballistic 
missile threat from North Korea, so as to forestall the temptation for 
Japan to develop similar offensive capabilities itself.


    3. Effective Counterforce Capabilities.  The United States needs 
capabilities that would allow it, and its friends and allies, to 
eliminate weapons of mass destruction or the means to deliver them 
before proliferating states are able to use them. This will require 
enhanced intelligence capabilities, long-range strike weapons able to 
attack without warning, the ability effectively to attack underground 
targets, and enhanced special operation forces. Again, these 
capabilities are not a threat to the traditional non-proliferation 
approach. Rather, as in the case of active and passive defenses, 
possession of these capabilities will reduce the incentives to 
proliferation, thereby enhancing the traditional non-proliferation 
effort. For countries will be discouraged from seeking weapons of mass 
destruction if they know that the United States has the ability to 
eliminate such weapons even before they are used.

                               CONCLUSION

    In summary, an effective policy against further proliferation needs 
to have the following elements:

  <bullet> Strengthening the international consensus against acquiring 
        weapons of mass destruction and the means to deliver them.

  <bullet> Strengthening the ability of key international organizations 
        such as the International Atomic Energy Agency (IAEA) 
        effectively to monitor and enforce prohibitions against 
        acquiring these weapons.

  <bullet> Developing for each country of proliferation concern a 
        comprehensive and coordinated strategy tailored to that 
        particular country and making use of all the political, 
        economic, military, and diplomatic tools available to the 
        international community.

  <bullet> Enlisting the active participation of U.S. friends, allies, 
        and other potential suppliers in support of these tailored 
        strategies.

  <bullet> Adopting a new and more effective approach to U.S. export 
        controls, which can provide the basis for enlisting other 
        countries in an effective multilateral export control regime.

  <bullet> Continued strong security ties with friends and allies 
        threatened by proliferation, to give them a way to assure their 
        security without pursuing the course of proliferation 
        themselves.

  <bullet> Maintenance of the U.S. nuclear deterrent as part of these 
        strong security ties, a deterrent friends and allies continue 
        to accept as an effective substitute for having their own 
        weapons of mass destruction, and which helps to deter 
        proliferation by others.

  <bullet> Strengthened intelligence capabilities so that the United 
        States can frustrate the efforts of those countries seeking to 
        acquire weapons of mass destruction and have the option to 
        eliminate those weapons and the means to deliver them should 
        their efforts to acquire them succeed.

  <bullet> Developing active and passive measures to deter and defend 
        against weapons of mass destruction and to cope with the 
        consequences of their use, both to protect America and its 
        troops overseas and to provide protection to its friends and 
        allies.

  <bullet> Developing counterforce capabilities that would give the 
        United States and its allies the ability to eliminate weapons 
        of mass destruction and the means to deliver them before they 
        are used.

    Senator Lugar.  Thank you very much, Secretary Hadley. 
Secretary Carter.

STATEMENT OF HON. ASHTON B. CARTER, FORMER ASSISTANT SECRETARY 
 OF DEFENSE FOR INTERNATIONAL SECURITY POLICY; JOHN F. KENNEDY 
     SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY, CAMBRIDGE, 
                         MASSACHUSETTS

    Secretary Carter.  Thank you, Mr. Chairman. Thank you very 
much for this opportunity to appear before you and other 
members to discuss this issue of preventing and countering 
proliferation, which has replaced the Soviet Union as the 
central threat to the survival, way of life and position in the 
world for Americans.

    A lot of wisdom has preceded me already, and also some time 
has preceded me, and, therefore, I am going to endeavor to be 
very brief. I have a written statement here in which I 
developed six main points, which are the main ones I would 
bring to the attention of you and the committee, and I think 
with your leave what I would like to do is simply encapsulate 
very briefly each of these six.

    The first one you might call, and I called in my statement, 
the importance of the evidence of the dogs that do not bark. 
Senator Biden used a different metaphor, a glass half full and 
a glass half empty, and Secretary Hadley spoke to this point as 
well.

    The point is, we are not successful at all times in all 
places, that preventing proliferation, and obviously, our 
policy discussions tend to focus on those places where the 
outcome seems in doubt, but to paraphrase Sherlock Holmes, we 
must not ignore the evidence of the dogs that do not bark.

    The states that have forsworn weapons of mass destruction 
far outnumber those that challenge the nonproliferation regime. 
Among them figure many friends and allies of the United States. 
These are nations of great power and authority.

    They could easily put their hands on the resources and the 
technology to make weapons of mass destruction, but they have 
nevertheless decided that it is in their security interest not 
to have weapons of mass destruction, and why is this.

    Well, it is, because, and Secretary Hadley made this point 
very forcefully, and I associate myself with it, an important 
measure, their sense of security, stability, safety, and 
justice in the world, that sense is contributed to by the 
broader foreign policies and defense policies of the United 
States.

    Said differently, all of our foreign and defense policy, 
and in particular our defense alliances, are nonproliferation 
policy, and we ought not forget, while we are trying to empty 
the half of the glass that is full, that we need to keep empty 
the half that is already empty.

    Well, what is the decade scorecard? Let me take the nuclear 
field. I said we were not successful in preventing 
proliferation in all places at all times, but U.S. policy under 
the last two administrations that have spanned this decade have 
made some remarkable successes.

    A decade ago, if you had had a hearing like this, Mr. 
Chairman, a reasonable person testifying before this committee 
at that time would have been justified in forecasting no fewer 
than six new entrants to the roles of nuclear proliferators in 
the course of this decade now passed, but Ukraine, Kazakstan, 
and Belarus are nonnuclear states, due principally to the 
success of the Nunn-Lugar program.

    South Africa dismantled its nuclear weapons after a change 
of regime. Iraq began the decade on a path that would surely 
have led to nuclear weapons by this time, but defeat in war, 
and the pressure of inspections have at least slowed their 
efforts.

    North Korea's plutonium production program, which was 
forecasted to have yielded by this time dozens of nuclear 
weapons worth of plutonium, is frozen. So the effort is 
worthwhile, does produce results, but not in all places and all 
times.

    The second point has to do with priorities really, and 
strategy. Recently, former Secretary of Defense Bill Perry and 
I wrote a book called Preventive Defense, in which we argued 
for American security strategy focused on what we call the A-
list of dangers to the very survival way of life and position 
in the world of this country.

    Proliferation of weapons of mass destruction, including to 
substate terrorists, was on our A-list. Also on our A-list were 
the future evolutions of Russia and China, which evolutions 
could be either deeply beneficial or deeply dangerous for U.S. 
security.

    Now, we contrasted this A-list of problems to such problems 
as the conflict in the Balkans, which, while tragic and 
important, does not threaten America's vital interests 
directly. We put such problems on a strategic C-list.

    Our B-list we reserved for the two major theater wars 
around which our force structure is largely built, necessarily 
so. The major theater wars in Southwest Asia and Northeast Asia 
that made up our B-list do threaten American vital interests, 
and we do not have the option to pick and choose among them, as 
we have the option for the C-list, but neither do they threaten 
the survival way of life or position in the world of the United 
States in the manner that A-list proliferation does. Therefore, 
as we struggle towards a conception of strategy for the post-
Cold War world, we have to keep our priorities firmly before 
us, even though CNN makes that difficult at times.

    George Marshall was bothered by the same problem of 
priorities at America's last great strategic transition after 
World War II, and he said something that I think is very 
important, at Princeton, in 1947.

    He said this, ``Now that an immediate peril is not plainly 
visible, there is a natural tendency to relax and to return to 
business as usual, but I feel that we are seriously failing in 
our attitude toward the international problems whose solution 
will largely determine our future.''

    The outcome of the struggle to prevent and 
counterproliferation will, I believe, as Marshall said, largely 
determine our future, and, therefore, the priority that you are 
giving this subject and this committee is, in my mind, entirely 
appropriate.

    The third point I would like to make has to do with 
counterproliferation. Because we are not successful in 
preventing proliferation in all places at all times, it is 
pretty important that proliferation problems figure in our 
defense as well as our diplomacy.

    Desert Storm was deeply deceptive in this regard, and I 
believe I am echoing here a point made by Secretary Rumsfeld. 
Americans got the impression in Desert Storm that wars of the 
post-Cold War era would be purely conventional affairs, won 
handily by our fearless conventional forces. But future 
opponents will pose asymmetrical counters to our forces rather 
than taking them on frontally with symmetrical opposing 
conventional forces. It was in recognition of this danger that 
the Department of Defense began the counter-proliferation 
initiative in 1993.

    Counterproliferation has gradually assumed greater 
importance in our defense plans and programs, but I think a 
great deal more remains to be done. Our revolution in military 
affairs, as we call it, still spends more effort and money 
perfecting the hammer for a nail, like Desert Storm, but the 
next war might be a screw instead.

    The counterproliferation approach completes the nation's 
portfolio of counters to proliferation. I sum up this portfolio 
in eight D's, which apply progressively as the situation gets 
more dangerous: dissuasion, diplomacy, disarmament, denial, 
through export controls, defusing, deterrence, including 
nuclear deterrence, destruction, and defense, both active and 
passive.

    Rather than arguing about which of these D's is most 
important, we need to be better at implementing each, and my 
first point has to do with that implementation, which really 
has to do with the organization and management of this issue 
within the government.

    It is remarkable that as the world has changed so 
profoundly in the last decade, the structure of the national 
security establishment has not. That structure was set in 1947 
and 1949 by the National Security Act, and it is as if we are 
trying to manage the Internet now with the corporate structure 
of Ma Bell.

    The upcoming presidential transition, as has been noted, 
offers an opportunity to make basic changes in management and 
organization, and in the American system this opportunity comes 
up only every four or eight years.

    Within the White House, to take one example, from time to 
time, a proliferation czar has been proposed as a replacement 
for the current National Security Council system of policy 
coordination. But the central problem at the White House is not 
policy coordination among agencies, but program coordination.

    For example, early in the Nunn-Lugar program, 
implementation was slowed by problems coordinating spending and 
program engineering among departments, but the policy was 
perfectly clear and agreed on by all departments.

    In cases like this, the White House NSC system has neither 
the right powers nor the right personnel, and another mechanism 
needs to be found. Today, both the programs for 
counterterrorism and cyber protection, and the programs for 
developing technology and capabilities for the battle against 
proliferation would benefit from a better mechanism for program 
coordination among departments at the White House.

    Fifth, Mr. Chairman, is a point I need scarcely make to 
you, but I cannot pass over, which is that the disintegration 
of the Soviet Union and the continuing ongoing social and 
economic revolution in Russia is the most fateful event of the 
proliferation age.

    All the witnesses and all the hearings you have had have 
remarked upon the unprecedented specter of a superpower arsenal 
engulfed in change its designers could never have imagined, and 
also on the stunning results obtained by the Nunn-Lugar 
program.

    I just want to repeat these warnings, and sum it up in the 
following way. The half-life of plutonium 239 is 24,400 years. 
The half-life of uranium 235 is 713 million years. That is a 
lot of election cycles in the Russian democracy.

    The Nunn-Lugar program is the single most creative new 
foreign policy tool devised since the Cold War ended, but the 
current program's scale and scope are still much smaller than 
the opportunities to reduce this threat. Both the DOD and DOE 
programs have unfunded opportunities in the nuclear field, and 
much more could be done in the chemical, and above all, the 
biological weapons field.

    The sixth and last point has to do with biological weapons. 
Ten years from now, if a hearing like this is held, I predict 
that rather than nuclear weapons and ballistic missiles being 
front and center, biological weapons will be front and center.

    Nuclear weapon is a fearful technology, but it is a mature 
technology. In more than 50 years, the essentials of nuclear 
effects have not changed, and these effects are well understood 
all around the world. Not so with biotechnology. Biotechnology 
is at the dawn of a revolution that will produce a succession 
of dramatically new capabilities that will surprise us all.

    All of us concerned about proliferation need to move 
biological weapons to the top of our agenda. We need stronger 
diplomatic tools than the biological weapons convention for 
prevention, as Secretary Hadley has noted, and because 
biological proliferation has occurred in many places and many 
times already, we need much better counter-proliferation and 
counterterrorism protections.

    In this connection, it is of some concern to me that the 
biotechnology revolution, unlike the nuclear revolution, is 
taking place outside of defense laboratories and companies. The 
nonproliferation community, including DOD, will need to make a 
strong effort to develop a base of expertise in biotechnology, 
which it does not now possess. It possesses a very rich base of 
technology in nuclear weapons.

    Let me close with a word about North Korea. Mr. Chairman, 
as you know, it has been my privilege to serve the 
administration and Secretary William Perry as senior advisor to 
the North Korea Policy Review. The review's recommended 
strategy, a tailored strategy, to use Secretary Hadley's 
phrase, for dealing with the DPRK, was detailed in both 
classified and unclassified reports.

    I will not repeat the logic or conclusions of that review 
here, but I request that the report be entered into the record 
of this hearing along with my statement, and I would be pleased 
to answer questions about it.

    Thank you.

    [The prepared statement of Secretary Carter follows:]

                 Prepared Statement of Ashton B. Carter

                        countering proliferation

    Mr. Chairman and members of the Committee on Foreign Relations, 
thank you for the opportunity to appear before you today to discuss the 
vitally important issue of preventing and countering proliferation. 
Proliferation has taken the place of the Soviet Union as the number one 
threat to the security of Americans. Your efforts to explore and 
promote policy solutions to proliferation are therefore much 
appreciated by citizens like myself.

    I have some brief remarks to make and then would be pleased to take 
your questions.
Dogs That Don't Bark

    The effort to prevent proliferation is not successful in all places 
at all times. Policy understandably focuses on those places where the 
outcome seems in doubt. But to paraphrase Sherlock Holmes, we must not 
ignore the evidence of the ``dogs that don't bark.'' The states that 
have forsworn weapons of mass destruction (WMD) far outnumber those 
that challenge the nonproliferation regime. Among them figure many 
friends and allies of the United States. Nations of great power and 
authority that could easily put their hands on the needed technology 
and funds nevertheless make the decision that their own security is 
best preserved without WMD. Why is this? In important measure it is 
because of the sense of stability, safety, and justice in their region 
and in the world as a whole--a sense to which the broader foreign 
policies of the United States make an essential contribution. Said 
differently, all of U.S. foreign and defense policy contributes to 
nonproliferation policy.

    While we are not successful at preventing proliferation in all 
places and times, U.S. policy has had some remarkable successes under 
the two administrations that have spanned this decade. As the decade 
opened, a reasonable person testifying to this Committee would have 
been justified in forecasting no fewer than six new entrants into the 
rolls of nuclear proliferators during the 1990s. But Ukraine, 
Kazakstan, and Belarus are today non-nuclear due to the farsightedness 
of the Nunn-Lugar program. South Africa dismantled its nuclear weapons 
after a change of regime. Iraq began the decade on a path that would 
have led to a nuclear arsenal by this time, but defeat in war and the 
pressure of inspections have slowed its efforts. North Korea's 
plutonium production program, forecasted to yield dozens of weapons 
worth of plutonium by decade's end, is frozen. So the effort is well 
worthwhile and produces results, even if not in all places and all 
times.
Strategy and Priorities

    Recently former Secretary of Defense William Perry and I wrote a 
book entitled Preventive Defense: A New Security Strategy for America 
in which we argued for an American security strategy focused on what we 
called the ``A-List'' of dangers to the very survival, way of life, and 
position in the world of this country. Proliferation of WMD (including 
possibly to sub-state terrorists) was on our A-List. Also on the A-List 
were the future evolutions of Russia and China, which could be either 
beneficial or deeply dangerous for U.S. security. We contrasted the A-
List problems to such problems as the tragic conflict in the Balkans, 
which, while important, does not threaten America's vital interests 
directly. We put such problems on a strategic ``C-List.'' The B-List 
contained the two Major Theater Wars (MTWs) around which much of our 
defense spending is organized. The MTWs do threaten American vital 
interests, and we do not have the option to pick and choose among them. 
But neither do they threaten the survival, way of life, and position in 
the world of the United States in the manner that A-List proliferation 
does.

    Therefore, as the United States struggles toward a conception of 
strategy for the post-Cold War world, we must keep our priorities 
firmly before us, even though CNN makes that difficult at times. George 
Marshall was bothered by the same problem of priorities at America's 
last great strategic transition. In an address at Princeton University 
in 1947, he said, ``Now that an immediate peril is not plainly visible, 
there is a natural tendency to relax and to return to business as 
usual. But I feel that we are seriously failing in our attitude toward 
the international problems whose solution will largely determine our 
future.'' The outcome of the struggle to prevent and counter 
proliferation will, as Marshall said, ``largely determine our future.''
Counterproliferation

    Because we are not successful at preventing proliferation in all 
places at all times, it is important that proliferation problems figure 
in our defense as well as our diplomacy. Desert Storm was deeply 
deceptive in this regard: Americans got the impression that wars in the 
post-Cold War era would be purely conventional affairs, won handily by 
our peerless conventional forces. But future opponents will pose 
asymmetrical counters to our forces rather than taking them on 
frontally with symmetrical opposing conventional forces. It was in 
recognition of this danger that Secretary of Defense Aspin and then 
Secretary Perry began the Counterproliferation Initiative in DOD. 
Counterproliferation has gradually assumed greater importance in U.S. 
defense plans and programs, though a great deal more remains to be 
done. Our Revolution in Military Affairs (RMA) still spends more effort 
perfecting the hammer for a nail like Desert Storm; but the next war 
might be a screw instead.

    The counterproliferation approach completes the nation's portfolio 
of counters to proliferation. In DOD briefings (and now to my class at 
Harvard), I used to sum up this portfolio in the ``8D's'': dissuasion, 
diplomacy, disarmament, denial, defusing, deterrence, destruction, and 
defense.
Organization and Management Within the Government

    It is remarkable that as the world has changed so profoundly in the 
past decade, the structure of the national security establishment has 
not. That structure was established in its essential design in 1947 and 
1949, when Congress passed and amended the National Security Act. It is 
as if we were trying to run the Internet with the corporate structure 
of Ma Bell. The upcoming presidential transition offers an opportunity 
to make basic changes in management and organization. In the American 
system this opportunity comes only every four or eight years. Early in 
a presidential transition, civilian jobs are not yet filled with new 
officials who might resist a change in their functions. The new 
administration has not yet settled into a pattern of making do with 
``the system'' it inherited. Politically, the Congress and the voters 
are expecting change.

    Within the structure to deal with proliferation's A-List threat, 
DOD has made an important initial move by creating the Defense Threat 
Reduction Agency (DTRA), and one can only hope that further innovation 
will take place to give solid managerial focus to A-List problems in 
the Pentagon. Within the White House, from time to time a 
``proliferation czar'' has been proposed as a replacement for the 
current National Security Council system of policy coordination. But 
the central problem at the White House is not policy coordination among 
agencies, but program coordination. For example, early in the Nunn-
Lugar program, implementation was slowed by problems coordinating 
spending and program engineering among departments. But the policy was 
perfectly clear and agreed upon by all agencies. In cases like this the 
White House NSC system has neither the right powers nor the right 
personnel, and another mechanism needs to be found. Today, both the 
programs for counter-terrorism and the programs for developing 
technology for the battle against proliferation would benefit from a 
better mechanism for program coordination among departments.
A Once-in-the-Nuclear-Age Event

    The disintegration of the Soviet Union and the continuing social 
and economic revolution in Russia is the most fateful event of the 
nuclear age. All the witnesses in these hearings have remarked upon the 
unprecedented specter of a superpower arsenal engulfed in change its 
designers never could have imagined, and the stunning results obtained 
by the innovative Nunn-Lugar program. Their warnings bear repeating. 
The half-life of Plutonium-239 is 24,400 years, and the half-life of 
Uranium-238 is 713 million years. That is a lot of election cycles for 
a young democracy.

    The Nunn-Lugar program is the single most creative new foreign 
policy tool devised since the Cold War ended. Its many concrete 
accomplishments are well known to this Committee. But the current 
program's scale and scope are still much smaller than the opportunities 
to reduce this threat. Both the DOD and DOE programs have unfunded 
opportunities in the nuclear field, and much more could be done in the 
chemical and above all biological weapons fields.
Biological Weapons

    The nuclear weapon is a fearful technology, but it is at least a 
mature technology. In more than fifty years since the first 
thermonuclear explosion in 1949, the essentials of nuclear weapons 
effects have not changed. These terrible effects are also well 
understood by people all over the world. Biotechnology, by contrast, is 
at the dawn of a revolution that will match and probably eventually 
dwarf the nuclear revolution and even the ongoing information 
revolution. Like all new technologies, it will be exploited for ill as 
well as good.

    All of us who are concerned about proliferation need to move 
biological weapons to the top of our agenda. We need stronger tools 
than the Biological Weapons Convention for prevention. Because 
biological proliferation has occurred at some places and times already, 
we also need much better counterproliferation (including 
counterterrorism) protections. In this connection, it is of some 
concern that the biotechnology revolution, unlike the nuclear 
revolution, is taking place outside of defense laboratories and 
companies. The information revolution is also spearheaded by non-
defense commercial firms, but at least it had its beginning in defense-
sponsored research, so DOD has a strong technological base in this 
field. The nonproliferation community, including DOD, will need to make 
a strong effort to develop a base of expertise in biotechnology.
North Korea

    The nuclear weapons and ballistic missile related activities of the 
Democratic Peoples Republic of Korea (DPRK) are a triple concern. 
First, they occur in a theater of possible large-scale and catastrophic 
war in which American soldiers would be directly and immediately 
involved. Second, they take place in an area where a regional arms race 
is looming. And third, they threaten the fabric of the nonproliferation 
norm worldwide.

    Mr. Chairman, as you know, it has been my privilege to serve the 
administration and Secretary William Perry as Senior Adviser to the 
North Korea policy review. The review's recommended strategy for 
dealing with the DPRK was detailed in its unclassified report. I will 
not repeat the logic or conclusions of that report here, but I request 
that the report be entered into the record of this hearing along with 
my statement. I would be pleased to answer questions about it.

                                 ______
                                 
                          UNCLASSIFIED REPORT

        North Korea Policy Review: Findings and Recommendations

    A North Korea policy review team, led by Dr. William J. Perry and 
working with an interagency group headed by the Counselor of the 
Department of State Ambassador Wendy R. Sherman, was tasked in November 
1998 by President Clinton and his national security advisers to conduct 
an extensive review of U.S. policy toward the DPRK. This review of U.S. 
policy lasted approximately eight months, and was supported by a number 
of senior officials from the U.S. government and by Dr. Ashton B. 
Carter of Harvard University. The policy review team was also very 
fortunate to have received regular and extensive guidance from the 
Secretary of State, the Secretary of Defense, the National Security 
Advisor and senior policy advisors.

    Throughout the review the team consulted with experts, both in and 
out of the U.S. government. Dr. Perry made a special point to travel to 
the Capitol to give regular status reports to Members of Congress on 
the progress of this review, and he benefited from comments received 
from Members on concepts being developed by the North Korea policy 
review team. The team also exchanged views with officials from many 
countries with interests in Northeast Asia and the Korean Peninsula, 
including our allies, the ROK and Japan. The team also met with 
prominent members of the humanitarian aid community and received a 
wealth of written material, solicited and unsolicited. Members of the 
policy review team met with many other individuals and organizations as 
well. In addition, the team traveled to North Korea this past May, led 
by Dr. Perry as President Clinton's Special Envoy, to obtain a first-
hand understanding of the views of the DPRK Government.

    The findings and recommendations of the North Korea Policy Review 
set forth below reflect the consensus that emerged from the team's 
countless hours of work and study.
The Need for a Fundamental Review of U.S. Policy

    The policy review team determined that a fundamental review of U.S. 
policy was indeed needed, since much has changed in the security 
situation on the Korean Peninsula since the 1994 crisis.

    Most important--and the focus of this North Korea policy review--
are developments in the DPRK's nuclear and long-range missile 
activities.

    The Agreed Framework of 1994 succeeded in verifiably freezing North 
Korean plutonium production at Yongbyon--it stopped plutonium 
production at that facility so that North Korea currently has at most a 
small amount of fissile material it may have secreted away from 
operations prior to 1994; without the Agreed Framework, North Korea 
could have produced enough additional plutonium by now for a 
significant number of nuclear weapons. Yet, despite the critical 
achievement of a verified freeze on plutonium production at Yongbyon 
under the Agreed Framework, the policy review team has serious concerns 
about possible continuing nuclear weapons-related work in the DPRK. 
Some of these concerns have been addressed through our access and visit 
to Kumchang-ni.

    The years since 1994 have also witnessed development, testing, 
deployment, and export by the DPRK of ballistic missiles of increasing 
range, including those potentially capable of reaching the territory of 
the United States.

    There have been other significant changes as well. Since the 
negotiations over the Agreed Framework began in the summer of 1994, 
formal leadership of the DPRK has passed from President Kim Il Sung to 
his son, General Kim Jong Il, and General Kim has gradually assumed 
supreme authority in title as well as fact. North Korea is thus 
governed by a different leadership from that with which we embarked on 
the Agreed Framework. During this same period, the DPRK economy has 
deteriorated significantly, with industrial and food production sinking 
to a fraction of their 1994 levels. The result is a humanitarian 
tragedy which, while not the focus of the review, both compels the 
sympathy of the American people and doubtless affects some of the 
actions of the North Korean regime.

    An unrelated change has come to the government of the Republic of 
Korea (ROK) with the Presidency of Kim Dae Jung. President Kim has 
embarked upon a policy of engagement with the North. As a leader of 
great international authority, as our ally, and as the host to 37,000 
American troops, the views and insights of President Kim are central to 
accomplishing U.S. security objectives on the Korean Peninsula. No U.S. 
policy can succeed unless it is coordinated with the ROK's policy. 
Today's ROK policy of engagement creates conditions and opportunities 
for U.S. policy very different from those in 1994.

    Another close U.S. ally in the region, Japan, has become more 
concerned about North Korea in recent years. This concern was 
heightened by the launch, in August 1998, of a Taepo Dong missile over 
Japanese territory. Although the Diet has passed funding for the Light 
Water Reactor project being undertaken by the Korean Peninsula Energy 
Development Organization (KEDO) pursuant to the Agreed Framework, and 
the government wants to preserve the Agreed Framework, a second missile 
launch is likely to have a serious impact on domestic political support 
for the Agreed Framework and have wider ramifications within Japan 
about its security policy.

    Finally, while the U.S. relationship with China sometimes reflects 
different perspectives on security policy in the region, the policy 
review team learned through extensive dialogue between the U.S. and the 
PRC, including President Clinton's meetings with President Jiang Zemin, 
that China understands many of the U.S. concerns about the deleterious 
effects that North Korea's nuclear weapons and missile activities could 
have for regional and global security.

    All these factors combine to create a profoundly different 
landscape than existed in 1994. The review team concurred strongly with 
President Clinton's judgment that these changed circumstances required 
a comprehensive review such as the one that the President and his team 
of national security advisors asked the team to conduct. The policy 
review team also recognized the concerns of Members of Congress that a 
clear path be charted for dealing with North Korea, and that there be 
closer cooperation between the executive and legislative branches on 
this issue of great importance to our security. The review team shared 
these concerns and has tried hard to be responsive to them.
Assessment of the Security Situation on the Korean Peninsula

    In the course of the review, the policy team conferred with U.S. 
military leaders and allies, and concluded that, as in 1994, U.S. 
forces and alliances in the region are strong and ready. Indeed, since 
1994, the U.S. has strengthened both its own forces and its plans and 
procedures for combining forces with allies. We are confident that 
allied forces could and would successfully defend ROK territory. We 
believe the DPRK's military leaders know this and thus are deterred 
from launching an attack.

    However, in sharp contrast to the Desert Storm campaign in Kuwait 
and Iraq, war on the Korean Peninsula would take place in densely 
populated areas. Considering the million-man DPRK army arrayed near the 
DMZ, the intensity of combat in another war on the Peninsula would be 
unparalleled in U.S. experience since the Korean War of 1950-53. It is 
likely that hundreds of thousands of persons--U.S., ROK, and DPRK--
military and civilian--would perish, and millions of refugees would be 
created. While the U.S. and ROK of course have no intention of 
provoking war, there are those in the DPRK who believe the opposite is 
true. But even they must know that the prospect of such a destructive 
war is a powerful deterrent to precipitous U.S. or allied action.

    Under present circumstances, therefore, deterrence of war on the 
Korean Peninsula is stable on both sides, in military terms. While 
always subject to miscalculation by the isolated North Korean 
government, there is no military calculus that would suggest to the 
North Koreans anything but catastrophe from armed conflict. This 
relative stability, if it is not disturbed, can provide the time and 
conditions for all sides to pursue a permanent peace on the Peninsula, 
ending at last the Korean War and perhaps ultimately leading to the 
peaceful reunification of the Korean people. This is the lasting goal 
of U.S. policy.

    However, acquisition by the DPRK of nuclear weapons or long-range 
missiles, and especially the combination of the two (a nuclear weapons 
device mounted on a long-range missile), could undermine this relative 
stability. Such weapons in the hands of the DPRK military might weaken 
deterrence as well as increase the damage if deterrence failed. Their 
effect would, therefore, be to undermine the conditions for pursuing a 
relaxation of tensions, improved relations, and lasting peace. 
Acquisition of such weapons by North Korea could also spark an arms 
race in the region and would surely do grave damage to the global 
nonproliferation regimes covering nuclear weapons and ballistic 
missiles. A continuation of the DPRK's pattern of selling its missiles 
for hard currency could also spread destabilizing effects to other 
regions, such as the Middle East.

    The review team, therefore, concluded that the urgent focus of U.S. 
policy toward the DPRK must be to end its nuclear weapons and long-
range missile-related activities. This focus does not signal a narrow 
preoccupation with nonproliferation over other dimensions of the 
problem of security on the Korean Peninsula, but rather reflects the 
fact that control of weapons of mass destruction is essential to the 
pursuit of a wider form of security so badly needed in that region.

    As the United States faces the task of ending these weapons 
activities, any U.S. policy toward North Korea must be formulated 
within three constraining facts:

    First, while logic would suggest that the DPRK's evident problems 
would ultimately lead its regime to change, there is no evidence that 
change is imminent. United States policy must, therefore, deal with the 
North Korean government as it is, not as we might wish it to be.

    Second, the risk of a destructive war to the 37,000 American 
service personnel in Korea and the many more that would reinforce them, 
to the inhabitants of the Korean Peninsula both South and North, and to 
U.S. allies and friends in the region dictate that the United States 
pursue its objectives with prudence and patience.

    Third, while the Agreed Framework has critics in the United States, 
the ROK, and Japan--and indeed in the DPRK--the framework has 
verifiably frozen plutonium production at Yongbyon. It also served as 
the basis for successful discussions we had with the North earlier this 
year on an underground site at Kumchang-ni--one that the U.S. feared 
might have been designed as a substitute plutonium production facility. 
Unfreezing Yongbyon remains the North's quickest and surest path to 
nuclear weapons. U.S. security objectives may therefore require the 
U.S. to supplement the Agreed Framework, but we must not undermine or 
supplant it.
Perspectives of Countries in the Region

    The policy review team consulted extensively with people outside of 
the Administration to better understand the perspectives of countries 
in the region. These perspectives are summarized below.

    Republic of Korea. The ROK's interests are not identical to those 
of the U.S., but they overlap in significant ways. While the ROK is not 
a global power like the United States and, therefore, is less active in 
promoting nonproliferation worldwide, the ROK recognizes that nuclear 
weapons in the DPRK would destabilize deterrence on the Peninsula. And 
while South Koreans have long lived within range of North Korean SCUD 
ballistic missiles, they recognize that North Korea's new, longer-range 
ballistic missiles present a new type of threat to the United States 
and Japan. The ROK thus shares U.S. goals with respect to DPRK nuclear 
weapons and ballistic missiles. The South also has concerns, such as 
the reunion of families separated by the Korean War and implementation 
of the North-South Basic Agreement (including reactivation of North-
South Joint Committees). The U.S. strongly supports these concerns.

    President Kim Dae Jung's North Korea policy, known as the 
``engagement'' policy, marked a fundamental shift toward the North. 
Under the Kim formulation, the ROK has forsworn any intent to undermine 
or absorb the North and has pursued increased official and unofficial 
North-South contact. The ROK supports the Agreed Framework and the 
ROK's role in KEDO, but the ROK National Assembly, like our Congress, 
is carefully scrutinizing DPRK behavior as it considers funding for 
KEDO.

    Japan. Like the ROK, Japan's interests are not identical to those 
of the U.S., but they overlap strongly. The DPRK's August 1998 Taepo 
Dong missile launch over the Japanese islands abruptly increased the 
already high priority Japan attaches to the North Korea issue. The 
Japanese regard DPRK missile activities as a direct threat. In 
bilateral talks with Japan, the DPRK representatives exacerbate 
historic animosities by repeatedly referring to Japan's occupation of 
Korea earlier in this century. For these reasons, support for Japan's 
role in KEDO is at risk in the Diet. The government's ability to 
sustain the Agreed Framework in the face of further DPRK missile 
launches is not assured, even though a collapse of the Agreed Framework 
could lead to nuclear warheads on DPRK missiles, dramatically 
increasing the threat they pose. Japan also has deep-seated concerns, 
such as the fate of missing persons suspected of being abducted by the 
DPRK. The U.S. strongly supports these concerns.

    China. China has a strong interest in peace and stability on the 
Korean Peninsula and is aware of the implications of increased tension 
on the peninsula. China also realizes that DPRK ballistic missiles are 
an important impetus to U.S. national missile defense and theater 
missile defenses, neither of which is desired by China. Finally, China 
realizes that DPRK nuclear weapons could provoke an arms race in the 
region and undermine the nonproliferation regime which Beijing, as a 
nuclear power, has an interest in preserving. For all these reasons the 
PRC concerns with North Korean nuclear weapons and ballistic missile 
programs are in many ways comparable to U.S. concerns. While China will 
not coordinate its policies with the U.S., ROK, and Japan, it is in 
China's interest to use its own channels of communication to discourage 
the DPRK from pursuing these programs.

    The DPRK. Based on extensive consultation with the intelligence 
community and experts around the world, a review of recent DPRK 
conduct, and our discussions with North Korean leaders, the policy 
review team formed some views of this enigmatic country. But in many 
ways the unknowns continue to outweigh the knowns. Therefore, we want 
to emphasize here that no U.S. policy should be based solely on 
conjectures about the perceptions and future behavior of the DPRK.

    Wrapped in an overriding sense of vulnerability, the DPRK regime 
has promoted an intense devotion to self-sufficiency, sovereignty, and 
self-defense as the touchstones for all rhetoric and policy. The DPRK 
views efforts by outsiders to promote democratic and market reforms in 
its country as an attempt to undermine the regime. It strongly controls 
foreign influence and contact, even when they offer relief from the 
regime's severe economic problems. The DPRK appears to value improved 
relations with US, especially including relief from the extensive 
economic sanctions the U.S. has long imposed.
Key Findings

    The policy review team made the following key findings, which have 
formed the basis for our recommendations:

    1. DPRK acquisition of nuclear weapons and continued development, 
testing, deployment, and export of long-range missiles would undermine 
the relative stability of deterrence on the Korean Peninsula, a 
precondition for ending the Cold War and pursuing a lasting peace in 
the longer run. These activities by the DPRK also have serious regional 
and global consequences adverse to vital U.S. interests. The United 
States must, therefore, have as its objective ending these activities.

    2. The United States and its allies would swiftly and surely win a 
second war on the Korean Peninsula, but the destruction of life and 
property would far surpass anything in recent American experience. The 
U.S. must pursue its objectives with respect to nuclear weapons and 
ballistic missiles in the DPRK without taking actions that would weaken 
deterrence or increase the probability of DPRK miscalculation.

    3. If stability can be preserved through the cooperative ending of 
DPRK nuclear weapons- and long-range missile-related activities, the 
U.S. should be prepared to establish more normal diplomatic relations 
with the DPRK and join in the ROK's policy of engagement and peaceful 
coexistence.

    4. Unfreezing Yongbyon is North Korea's quickest and surest path to 
acquisition of nuclear weapons. The Agreed Framework, therefore, should 
be preserved and implemented by the United States and its allies. With 
the Agreed Framework, the DPRK's ability to produce plutonium at 
Yongbyon is verifiably frozen. Without the Agreed Framework, however, 
it is estimated that the North could reprocess enough plutonium to 
produce a significant number of nuclear weapons per year. The Agreed 
Framework's limitations, such as the fact that it does not verifiably 
freeze all nuclear weapons-related activities and does not cover 
ballistic missiles, are best addressed by supplementing rather than 
replacing the Agreed Framework.

    5. No U.S. policy toward the DPRK will succeed if the ROK and Japan 
do not actively support it and cooperate in its implementation. 
Securing such trilateral coordination should be possible, since the 
interests of the three parties, while not identical, overlap in 
significant and definable ways.

    6. Considering the risks inherent in the situation and the 
isolation, suspicion, and negotiating style of the DPRK, a successful 
U.S. policy will require steadiness and persistence even in the face of 
provocations. The approach adopted now must be sustained into the 
future, beyond the term of this Administration. It is, therefore, 
essential that the policy and its ongoing implementation have the 
broadest possible support and the continuing involvement of the 
Congress.
Alternative Policies Considered and Rejected

    In the course of the review, the policy team received a great deal 
of valuable advice, including a variety of proposals for alternative 
strategies with respect to the security problems presented by the DPRK. 
The principal alternatives considered by the review team, and the 
team's reasons for rejecting them in favor of the recommended approach, 
are set forth below.

    Status Quo. A number of policy experts outside the Administration 
counseled continuation of the approach the U.S. had taken to the DPRK 
over the past decade: strong deterrence through ready forces and solid 
alliances and limited engagement with the DPRK beyond existing 
negotiations on missiles, POW/MIA, and implementation of the nuclear-
related provisions of the Agreed Framework. These experts counseled 
that with the Agreed Framework being verifiably implemented at 
Yongbyon, North Korea could be kept years away from obtaining 
additional fissile material for nuclear weapons. Without nuclear 
weapons, the DPRK's missile program could safely be addressed within 
the existing (albeit to date inconclusive) bilateral missile talks. 
Thus, as this argument ran, core U.S. security objectives were being 
pursued on a timetable appropriate to the development of the threat, 
and no change in U.S. policy was required.

    While there are advantages to continuing the status quo--since to 
this point it has served U.S. security interests--the policy review 
team rejected the status quo. It was rejected not because it has been 
unacceptable from the point of view of U.S. security interests, but 
rather because the policy team feared it was not sustainable. Aside 
from a failure to address U.S. concerns directly, it is easy to imagine 
circumstances that would bring the status quo rapidly to a crisis. For 
example, a DPRK long-range missile launch, whether or not in the form 
of an attempt to place a satellite in orbit, would have an impact on 
political support for the Agreed Framework in the United States, Japan, 
and even in the ROK. In this circumstance, the DPRK could suspend its 
own compliance with the Agreed Framework, unfreezing Yongbyon and 
plunging the Peninsula into a nuclear crisis like that in 1994. Such a 
scenario illustrates the instability of the status quo. Thus, the U.S. 
may not be able to maintain the status quo, even if we wanted to.

    Undermining the DPRK. Others recommend a policy of undermining the 
DPRK, seeking to hasten the demise of the regime of Kim Jong Il. The 
policy review team likewise studied this possibility carefully and, in 
the end, rejected it for several reasons. Given the strict controls on 
its society imposed by the North Korean regime and the apparent absence 
of any organized internal resistance to the regime, such a strategy 
would at best require a long time to realize, even assuming it could 
succeed. The timescale of this strategy is, therefore, inconsistent 
with the timescale on which the DPRK could proceed with nuclear weapons 
and ballistic missile programs. In addition, such a policy would risk 
destructive war and would not win the support of U.S. allies in the 
region upon whom success in deterring such a war would depend. Finally, 
a policy of pressure might harm the people of North Korea more than its 
government.

    Reforming the DPRK. Many other analysts suggest that the United 
States should promote the accelerated political and economic reform of 
the DPRK along the lines of established international practice, 
hastening the advent of democracy and market reform that will better 
the lot of the North's people and provide the basis for the DPRK's 
integration into the international community in a peaceful fashion. 
However much we might wish such an outcome, success of the policy 
clearly would require DPRK cooperation. But, the policy team believed 
that the North Korean regime would strongly resist such reform, viewing 
it as indistinguishable from a policy of undermining. A policy of 
reforming, like a policy of undermining, would also take time--more 
time than it would take the DPRK to proceed with its nuclear weapons 
and ballistic missile programs.

    ``Buying'' Our Objectives. In its current circumstance of 
industrial and agricultural decline, the DPRK has on occasion indicated 
a willingness to ``trade'' addressing U.S. concerns about its nuclear 
weapons activities and ballistic missile exports for hard currency. For 
example, the DPRK offered to cease its missile exports if the U.S. 
agreed to compensate it for the foregone earnings from missile exports. 
The policy review team firmly believed that such a policy of trading 
material compensation for security would only encourage the DPRK to 
further blackmail, and would encourage proliferators worldwide to 
engage in similar blackmail. Such a strategy would not, and should not, 
be supported by the Congress, which controls the U.S. government's 
purse strings.

A Comprehensive and Integrated Approach: A Two-Path Strategy

    A better alternative, and the one the review has recommended, is a 
two-path strategy focused on our priority concerns over the DPRK's 
nuclear weapons- and missile-related activities. We have devised this 
strategy in close consultation with the governments of the ROK and 
Japan, and it has their full support. Indeed, it is a joint strategy in 
which all three of our countries play coordinated and mutually 
reinforcing roles in pursuit of the same objectives. Both paths aim to 
protect our key security interests; the first path is clearly 
preferable for the United States and its allies and, we firmly believe, 
for the DPRK.

    The first path involves a new, comprehensive and integrated 
approach to our negotiations with the DPRK. We would seek complete and 
verifiable assurances that the DPRK does not have a nuclear weapons 
program. We would also seek the complete and verifiable cessation of 
testing, production and deployment of missiles exceeding the parameters 
of the Missile Technology Control Regime, and the complete cessation of 
export sales of such missiles and the equipment and technology 
associated with them. By negotiating the complete cessation of the 
DPRK's destabilizing nuclear weapons and long-range missile programs, 
this path would lead to a stable security situation on the Korean 
Peninsula, creating the conditions for a more durable and lasting peace 
in the long run and ending the Cold War in East Asia.

    On this path the United States and its allies would, in a step-by-
step and reciprocal fashion, move to reduce pressures on the DPRK that 
it perceives as threatening. The reduction of perceived threat would in 
turn give the DPRK regime the confidence that it could coexist 
peacefully with us and its neighbors and pursue its own economic and 
social development. If the DPRK moved to eliminate its nuclear and 
long-range missile threats, the United States would normalize relations 
with the DPRK, relax sanctions that have long constrained trade with 
the DPRK and take other positive steps that would provide opportunities 
for the DPRK.

    If the DPRK were prepared to move down this path, the ROK and Japan 
have indicated that they would also be prepared, in coordinated but 
parallel tracks, to improve relations with the DPRK.

    It is important that all sides make contributions to creating an 
environment conducive to success in such far-ranging talks. The most 
important step by the DPRK is to give assurances that it will refrain 
from further test firings of long-range missiles as we undertake 
negotiations on the first path. In the context of the DPRK suspending 
such tests, the review team recommended that the United States ease, in 
a reversible manner, Presidentially-mandated trade embargo measures 
against the DPRK. The ROK and Japan have also indicated a willingness 
to take positive steps in these circumstances.

    When the review team, led by Dr. Perry as a Presidential Envoy, 
visited Pyongyang in May, the team had discussions with DPRK officials 
and listened to their views. We also discussed these initial steps that 
would create a favorable environment for conducting comprehensive and 
integrated negotiations. Based on talks between with Ambassador Charles 
Kartman and DPRK Vice Foreign Minister Kim Gye Gwan in early September, 
the U.S. understood and expected that the DPRK would suspend long-range 
missile testing--to include both No Dong and Taepo Dong missiles--for 
as long as U.S.-DPRK discussions to improve relations continued. The 
DPRK subsequently announced a unilateral suspension of such tests while 
talks between the two countries continued. Accordingly, the 
Administration has taken steps to ease sanctions. This fall a senior 
DPRK official will likely visit Washington to reciprocate the Perry 
visit and continue discussions on improving relations. Both sides have 
taken a bold and meaningful step along the first path. While it is only 
an initial step, and both sides can easily reverse this first step, we 
are hopeful that it begins to take us down the long but important path 
to reducing threat on the Korean Peninsula.

    While the first path devised by the review holds great promise for 
U.S. security and for stability in East Asia, and while the initial 
steps taken in recent weeks give us great hope, the first path depends 
on the willingness of the DPRK to traverse it with us. The review team 
is hopeful it will agree to do so, but on the basis of discussions to 
date we cannot be sure the DPRK will. Prudence therefore dictated that 
we devise a second path, once again in consultation with our allies and 
with their full support. On the second path, we would need to act to 
contain the threat that we have been unable to eliminate through 
negotiation. By incorporating two paths, the strategy devised in the 
review avoids any dependence on conjectures regarding DPRK intentions 
or behavior and neither seeks, nor depends upon for its success, a 
transformation of the DPRK's internal system.

    If North Korea rejects the first path, it will not be possible for 
the United States to pursue a new relationship with the DPRK. In that 
case, the United States and its allies would have to take other steps 
to assure their security and contain the threat. The U.S. and allied 
steps should seek to keep the Agreed Framework intact and avoid, if 
possible, direct conflict. But they would also have to take firm but 
measured steps to persuade the DPRK that it should return to the first 
path and avoid destabilizing the security situation in the region.

    Our recommended strategy does not immediately address a number of 
issues outside the scope of direct U.S.-DPRK negotiations, such as ROK 
family reunification, implementation of the North-South Basic Agreement 
(including reactivation of North-South Joint Committees) and Japanese 
kidnapping cases, as well as other key issues of concern, including 
drug trafficking. However, the policy review team believed that all of 
these issues should be, and would be, seriously addressed as relations 
between the DPRK and the U.S. improve.

    Similarly, the review team believed the issue of chemical and 
biological weapons is best addressed multilaterally. Many 
recommendations have also been made with respect to Korean unification; 
but, ultimately, the question of unification is something for the 
Korean people to decide. Finally, the policy review team strongly 
believed that the U.S. must not withdraw any of its forces from Korea--
a withdrawal would not contribute to peace and stability, but rather 
undermine the strong deterrence currently in place.
Advantages of the Proposed Strategy

    The proposed strategy has the following advantages:

    1. Has the full support of our allies. No U.S. policy can be 
successful if it does not enjoy the support of our allies in the 
region. The overall approach builds upon the South's policy of 
engagement with North Korea, as the ROK leadership suggested to Dr. 
Perry directly and to the President. It also puts the U.S. effort to 
end the DPRK missile program on the same footing with U.S. efforts to 
end its nuclear weapons program, as the Government of Japan 
recommended.

    2. Draws on U.S. negotiating strengths. Pursuant to the recommended 
approach, the United States will be offering the DPRK a comprehensive 
relaxation of political and economic pressures which the DPRK perceives 
as threatening to it and which are applied, in its view, principally by 
the United States. This approach complements the positive steps the ROK 
and Japan are prepared to take. On the other hand, the United States 
will not offer the DPRK tangible ``rewards'' for appropriate security 
behavior; doing so would both transgress principles that the United 
States values and open us up to further blackmail.

    3. Leaves stable deterrence of war unchanged. No changes are 
recommended in our strong deterrent posture on the Korean Peninsula, 
and the U.S. should not put its force posture on the negotiating table. 
Deterrence is strong in both directions on the Korean Peninsula today. 
It is the North's nuclear weapons- and long-range missile-related 
activities that threaten stability. Likewise, the approach recommended 
by the review will not constrain U.S. Theater Missile Defense programs 
or the opportunities of the ROK and Japan to share in these programs; 
indeed, we explicitly recommended that no such linkage should be made.

    4. Builds on the Agreed Framework. The approach recommended seeks 
more than the Agreed Framework provides. Specifically, under the 
recommended approach the U.S. will seek a total and verifiable end to 
all nuclear weapons-related activities in the DPRK, and the U.S. will 
be addressing the DPRK's long-range missile programs, which are not 
covered by the Agreed Framework. In addition, the U.S. will seek to 
traverse the broader path to peaceful relations foreseen by both the 
U.S. and the DPRK in the Agreed Framework, and incorporated in its 
text.

    5. Aligns U.S. and allied near-term objectives with respect to the 
DPRK's nuclear and missile activities with our long-term objectives for 
lasting peace on the Korean Peninsula. The recommended approach focuses 
on the near-term dangers to stability posed by the DPRK's nuclear 
weapons- and missile-related activities, but it aims to create the 
conditions for lasting peace on the Korean Peninsula in the longer run, 
as the U.S. seeks through the Four Party Talks. As noted above, the 
recommended approach also seeks to realize the long-term objectives of 
the Agreed Framework, which are to move beyond cooperation in the 
nuclear field to broader, more normal U.S.-DPRK relations.

    6. Does not depend on specific North Korean behavior or intent. The 
proposed strategy is flexible and avoids any dependence on conjectures 
or assumptions regarding DPRK intentions or behavior--benign or 
provocative. Again, it neither seeks, nor depends upon, either such 
intentions or a transformation of the DPRK's internal system for 
success. Appropriate contingencies are built into the recommended 
framework.

Key Policy Recommendations

    In the context of the recommendations above, the review team 
offered the following five key policy recommendations:

    1. Adopt a comprehensive and integrated approach to the DPRK's 
nuclear weapons- and ballistic missile-related programs, as recommended 
by the review team and supported by our allies in the region. 
Specifically, initiate negotiations with the DPRK based on the concept 
of mutually reducing threat; if the DPRK is not receptive, we will need 
to take appropriate measures to protect our security and those of our 
allies.

    2. Create a strengthened mechanism within the U.S. Government for 
carrying out North Korea policy. Operating under the direction of the 
Principals Committee and Deputies Committee, a small, senior-level 
interagency North Korea working group should be maintained, chaired by 
a senior official of ambassadorial rank, located in the Department of 
State, to coordinate policy with respect to North Korea.

    3. Continue the new mechanism established last March to ensure 
close coordination with the ROK and Japan. The Trilateral Coordination 
and Oversight Group (TCOG)--established during this policy review and 
consisting of senior officials of the three governments--is charged 
with managing policy toward the DPRK. This group should meet regularly 
to coordinate negotiating strategy and overall policy toward the DPRK 
and to prepare frequent consultations on this issue between the 
President and the ROK President and Japanese Prime Minister. The U.S. 
delegation should be headed by the senior official coordinating North 
Korea policy.

    4. Take steps to create a sustainable, bipartisan, long-term 
outlook toward the problem of North Korea. The President should explore 
with the majority and minority leaders of both houses of Congress ways 
for the Hill, on a bipartisan basis, to consult on this and future 
Administrations' policy toward the DPRK. Just as no policy toward the 
DPRK can succeed unless it is a combined strategy of the United States 
and its allies, the policy review team believes no strategy can be 
sustained over time without the input and support of Congress.

    5. Approve a plan of action prepared for dealing with the 
contingency of DPRK provocations in the near term, including the launch 
of a long-range missile. The policy review team notes that its proposed 
responses to negative DPRK actions could have profound consequences for 
the Peninsula, the U.S. and our allies. These responses should make it 
clear to the DPRK that provocative actions carry a heavy penalty. 
Unless the DPRK's acts transgress provisions of the Agreed Framework, 
however, U.S. and allied actions should not themselves undermine the 
Agreed Framework. To do so would put the U.S. in the position of 
violating the Agreed Framework, opening the path for the DPRK to 
unfreeze Yongbyon and return us to the crisis of the summer of 1994.
Concluding Thoughts

    The team's recommended approach is based on a realistic view of the 
DPRK, a hardheaded understanding of military realities and a firm 
determination to protect U.S. interests and those of our allies.

    We should recognize that North Korea may send mixed signals 
concerning its response to our recommended proposal for a comprehensive 
framework and that many aspects of its behavior will remain 
reprehensible to us even if we embark on this negotiating process. We 
therefore should prepare for provocative contingencies but stay the 
policy course with measured actions pursuant to the overall framework 
recommended. The North needs to understand that there are certain forms 
of provocative behavior that represent a direct threat to the U.S. and 
its allies and that we will respond appropriately.

    In this regard, it is with mixed feelings that we recognize certain 
provocative behavior of the DPRK may force the U.S. to reevaluate 
current aid levels.

    Finally, and to close this review, we need to point out that a 
confluence of events this past year has opened what we strongly feel is 
a unique window of opportunity for the U.S. with respect to North 
Korea. There is a clear and common understanding among Seoul, Tokyo, 
and Washington on how to deal with Pyongyang. The PRC's strategic 
goals--especially on the issue of North Korean nuclear weapons and 
related missile delivery systems--overlap with those of the U.S. 
Pyongyang appears committed to the Agreed Framework and for the time 
being is convinced of the value of improving relations with the U.S. 
However, there are always pressures on these positive elements. 
Underlying tensions and suspicions have led to intermittent armed 
clashes and incidents and affect the political environment. Efforts to 
establish the diplomatic momentum necessary to withstand decades of 
hostility become increasingly difficult and eventually stall. 
Nevertheless, the year 1999 may represent, historically, one of our 
best opportunities to deal with key U.S. security concerns on the 
Korean Peninsula for some time to come.

    Senator Lugar.  Well, thank you all very much. Let me just 
make some comments and commence the questioning. Secretary 
Carter, in the book that you and Secretary Perry have authored, 
and you have reiterated these priorities today, you have 
mentioned an ``A,'' ``B,'' and ``C''-list category. The ``B''-
list theater wars, for which much of our defense establishment 
was created and continues to be maintained, you put, 
interestingly enough, in the ``B'' category, and I think 
correctly so.

    At least my own analysis would jive with that, but I would 
just mention that we are going to have monumental hearings, 
debates, days, maybe weeks on the floor, all discussing the 
defense budget, most of which will deal with Category ``B.''

    The secretaries of defense have periodically suggested base 
closings, so that we could utilize the savings for research and 
development we need to be conducting. Congress has resisted 
because some view the defense budget as a jobs program or a 
community building program. It reflects what all of you have 
said: We are in a period of relaxation, in which we deal with 
the conventional issues each year, plus or minus an issue.

    At the other end of the scale, we are exercised for the 
moment, with a supplemental appropriation in the House, dealing 
with Kosovo, and maybe the drug war in Colombia. Those both fit 
under Category ``C'' in your book that you have mentioned, 
because they affect the national security interests of the 
United States, and in a sense, our European allies. Europe is 
always important, and certainly the drug issue in the United 
States is important, but not in terms of annihilation of the 
country or of civilization.

    We come to Category ``A,'' and this becomes very murky for 
the public, quite apart from members of Congress, as to what 
proliferation really means. As Secretary Rumsfeld has said, our 
intelligence means of keeping track of all of this have not 
kept track at all. We should not be surprised that we are often 
surprised. There may be very little warning.

    Around here, even as we discuss portions of the Rumsfeld 
report dealing with North Korea and that situation, we discuss 
whether it is 2005, or 2008, or when this will develop. The 
fact is that we are continually surprised by developments. It 
may not fit the normal conventional development of anything 
that we do.

    Given that, as Secretary Rumsfeld said, you take a look and 
see what you can stop, what you can delay, and what you finally 
track as inevitable. Each of you has, in a way, indicated that 
that is what we have had to do, and when we are continually 
surprised. As a result, we try to play a catch-up game and do 
the best we can improvising.

    But, our government, both executive and legislative 
branches, are not well suited to do this very well. You have 
cited, from your own experience, Secretary Carter, the earlier 
years of the Nunn-Lugar program, in which the policy may have 
been valid, but the government was really not set up to 
implement the policy effectively.

    So as a result, some monies that were appropriated were 
never spent, because it was physically impossible to move 
forward. As a result, those funds not spent by the end of the 
fiscal year were taken off the table and the projects were 
terminated or delayed.

    A well-managed corporation would handle things in this way. 
But in our checks and balances system we do, and we must adapt 
and improve our processes and policies to complete the job.

    But at this moment, in my judgment, and I think our 
government is not really set up to deal with ``A,'' ``B,'' and 
``C'' in this way. We are working hard on the C's with great 
frustration. The B's rumble along. And the ``A,'' which we all 
agree is the major threat, is not very well understood.

    Now, let me pay tribute to the Chairman of this committee, 
Senator Helms, and the ranking member, Senator Biden, who 
thought up the idea of these hearings, and the able staffs. 
This subject is clearly not the minds of most people, and I 
appreciate that; and it seems to me it is very important that 
the forum for you three gentlemen and others is provided so 
that somebody publishes papers and somebody asks questions of 
you that might get somebody interested in this subject.

    As responsible Americans all of us have to be interested, 
but the fact is that there is still a minimal amount of 
interest in what we are talking about this morning, and we are 
talking about the fate of the country.

    This hearing is not overloaded with people and press, and 
as a matter of fact, even the internal TV system does not cover 
this room. So maybe some microphone picks up a little bit of 
it, but here we are talking about the fact that the whole 
country might be destroyed and how we deal with this threat. 
And our efforts garner minimal interest.

    Having said that, the fact is, life does go on, and some of 
us have responsibilities. Each of you three have had a lot of 
it at various times. Senator Biden and I this morning are 
trying to assume our portion of it.

    So in that spirit, let me ask you some specific questions 
about our government. What should be done at the State 
Department--for example, applications for export licenses are 
piled up there now, largely because of an intramural battle 
because the Commerce Department was found to be unreliable, 
presumably willing to sell anything to anybody at any time. As 
a result, we move things over to State, where they move very 
slowly.

    Our space-launch companies and others involved in the 
satellite business routinely complain that they have not only 
lost the business, there is no prospect of ever getting it 
under these circumstances. Maybe they should not have it. Maybe 
we just tell our defense firms to sort of get lost, because 
clearly we are going to restrict all of this.

    You have suggested that the next administration must sort 
of sort this out. But how do you do it? Despite all the 
admonitions by this committee and others to look at the 
problem, nothing is accomplished. What should we do?

    How does this issue relate to what we are talking about 
today? What are the legitimate interests of American business? 
Do we want our defense people doing business abroad, and do 
they need to have markets in order to succeed? Does anybody 
have any comment about the State Department? Ash?

    Secretary Carter.  I will take a crack not only at the 
State Department shop, but at the entire system, Mr. Chairman. 
This is a case where in the case of export controls, not only 
is the program which implements policy I think less than it 
should be, but the policy itself is less than it should be. Let 
me make a comment on each of those.

    I think it is true, and on the basis of the observations I 
have made of the system, that simply in terms of basic 
management, doing things electronically rather than on paper, 
giving the participants in the process the adequate training, 
because they are dealing with quite complex technological 
things, the career path upward, rather than a career path to 
nowhere.

    If you want to have a system that competently administers 
such a complex idea as export controls really are, you need one 
that is managed and staffed in a way that encourages expertise 
and dedication, and with no intended slight at the people who 
do it, I do not think they have been managed in that way. So 
simply, mechanically, the system could use a lot in the way of 
streamlining.

    But there is another point about export controls, which 
Secretary Hadley touched on, which is really the conceptual 
crisis there. We used to say during the Cold War that the trick 
to export controls was balancing economic incentives on the one 
hand and security incentives on the other, and that is still 
true, but that is not the principal dilemma today.

    The principal dilemma today in administering export 
controls is to know what is controllable, what is practically 
controllable. Let me try to sharpen that by looking out 20 
years from now.

    Twenty years from now, almost all of the technology of 
importance to military systems will originate in a globalized, 
commercialized technology base. Twenty years ago, almost all 
the technology of importance to military systems originated in 
defense or defense-related companies that were American, so old 
world American defense, new world commercial global. So we need 
to ask ourselves in that environment how we administer expert 
controls, and I would make a simple analogy that I think should 
be our guide.

    In the old world, when everything was in identifiable 
places, if you wanted to keep the technological edge, which is 
the American way of waging war, you put a hermetic seal around 
that which was ours and made sure nobody else got it. That is 
not practical in the new world. In the new world, you need 
something that I would analogize more to an immune system.

    Your immune system--nature does not protect you from 
infection by telling you you should not breath, and you should 
not eat, and you should not come in contact with anything else. 
Instead, your immune system has a mechanism for looking for 
threats and responding adaptively to threats. We need an immune 
system and not an hermetic seal for the future.

    A last observation on export controls, in that world, where 
everybody has access to much of the technology upon which 
military prowess can be based, we will continue to have the 
best military technology, because we are the best at 
exploiting, at adapting.

    We are running faster than our opponents, who have access 
to the same technology. So we need an agile Department of 
Defense that can feed upon the global technology base better 
than others. Thank you.

    Secretary Rumsfeld.  I will make a comment on the question 
of what should be done about the Department of State. I do not 
disagree that management, staff, electronics, and a variety of 
things can be done to improve it. But when you see something 
that is not working, frequently there are some underlying 
reasons that are bigger and broader than that. In this case, I 
would submit it is a lack of clarity, a lack of understanding, 
a lack of agreement. When you do not have agreement as to what 
the priorities ought to be, then it is very difficult for 
discretion to be used, because there is constantly a tug of 
war.

    In this instance, for example, we were talking about the 
three tiers, if you were going to triage. It is not static. 
What belongs in one tier today may not belong there the next 
year, or in five years. The world is dynamic. It is constantly 
changing.

    Competence to deal with these issues, an enormously complex 
set of issues, is not in the State Department. It is no one 
place. It is spread across government, and quite honestly, it 
is outside of government, increasingly outside of government. 
People in government can understand what is going on in the 
private sector intellectually, but it is difficult for them to 
understand three-dimensionally.

    I did not when I was in government, and I was certain I 
did. I could talk about it. I could use the words. But until 
you get out there and see what delay does to a company, how it 
sucks the energy out of people who have everything at risk. Not 
so much the big companies that have lobbyists and all kinds of 
representation here in town but the smaller companies that do 
not have that.

    Now, government has to be involved in this issue, there is 
no question. This is not something you privatize. This affects, 
as you say, the future of our country. But we are not close to 
having the right organizational arrangements. The right 
organizational arrangements will flow if we provide clarity as 
to what it is we are trying to do and what our priorities ought 
to be. And today, we do not have that kind of an agreement. So 
I agree with you. However, one thing I do not think I agree 
with is that we ought to be thinking about the next 
administration.

    I think we ought not piddle away another eight, ten, twelve 
months. Time is passing. Things are happening out there in the 
world. It would be a mistake to not have that kind of a review 
take place now, so that information is available for the new 
administration.

    Secretary Hadley.  I will be very brief. There is a 
terrific report, which you have seen, and I think actually Ash 
may have served on this panel, the Defense Science Board Task 
Force on Globalization and Security, which lays out very 
clearly the new context for export controls.

    The second is a historical footnote. I think the last major 
review of export controls was 1990-1991, and then we had a task 
force led by the Joint Chiefs of Staff to look at the military 
environment and identify what kinds of capabilities were going 
to be critical, and that we could protect, and that we should 
protect, and it led to a streamlining and focusing of the list. 
I think that needs to be done again.

    I think DOD needs to be part of it, but we need to do it in 
a way that brings in the knowledge and understanding from the 
commercial world as well, for the reasons that these folks have 
spoken. That is what really needs to be done. It has not been 
done for ten years.

    Senator Lugar.  Those are very, very helpful answers. Let 
me turn to Senator Biden, because he is going to have a time 
constraint.

    Senator, would you proceed?

    Senator Biden.  Mr. Chairman, let me state a broad 
proposition and see whether you all agree with it. One of the 
things that has been clear in the last two years, actually, in 
my view, is that, as I alluded to in my opening statement, 
there is a lack of consensus on a whole range of these issues.

    I think, Mr. Secretary, you are dead right, I mean we can 
organizationally change everything in this administration, the 
next administration, Democrat, Republican, whatever it is, and 
until we figure out what the hell it is our policy is, and get 
a consensus on it, I think it is awfully hard, not suggesting 
that we do not have to structurally change the way in which we 
deal with these issues.

    I am going to ask a few structural questions, but before I 
do, I want to ask a broader question. In the last four years, 
on the part of Democrats and Republicans, outside think tanks, 
lean left, right, and center, there has been sort of the 
following conundrum that has become pretty clear in the 
politicizing of this issue, and that is, you either view these 
days as pro business or not, based upon your view on export 
controls. There is very little in between.

    I have observed this. I have done, quite frankly, 
gentlemen, more work on this on the telephony issue, as 
chairman of the Judiciary Committee for years, than I have on 
this issue, but the same thing, I watch, for example, what 
happens.

    To go to Silicon Valley and sit with these guys and say, 
hey, look, there has to be maybe some key here, whereas, if 
there is a probable cause that some terrorist act is taking 
place, or in the making, and/or a federal judge says there is 
probable cause that a crime is being committed, that the FBI 
should be able to tap these, and they say, no, no, no, there is 
no way we can do anything, because if you do that, they are not 
going to buy our computers, they are going to buy somebody 
else's computers, they are going to buy someone else's 
equipment, and, therefore, even though we have the key, and 
only to the encryption, and only with a federal judge, cannot 
have it at all.

    So the line kind of gets drawn, you either are pro business 
or you are pro law enforcement here.

    The same kind of thing is happening in export controls. I 
deal with a few small companies in my state, Mr. Secretary, and 
they are very, very anxious that things not move to State, that 
it stay in Commerce, and so on. And the same with regard to the 
issue of strategic doctrine, the way we debate it, not you all, 
we debate it, you are either pro defense, or you are pro 
nonproliferation.

    I mean we have actually had very intelligent witnesses come 
before us and say, hey, look, proliferation, the game is over, 
there is nothing you can do about proliferation, the only thing 
you can do is defend, so let us move in that direction.

    There are others who have come and said, hey, look, you 
cannot think about, you cannot even think about a thin missile 
defense, a thick missile defense, theater missile defense, it 
all is contrary to the move toward nonproliferation, therefore, 
it is a--so one of our problems, and Mr. Secretary, you, having 
been on this side of the bench before, know that these take on 
a life of their own.

    So my first question relates to the possibility that you 
think exists that we could actually get some bi-partisan 
consensus in the form of, I do not know how to do this, that 
says there is a connection. The reason I was impressed, Steve, 
by your article was, you make a very clear connection between 
proliferation, arms control, and defense. I mean it is not like 
you have either/or choices.

    What is your sense among the think tank folks, the people, 
Mr. Secretary, who you called on in the Rumsfeld Commission, 
the, quote, ``experts,'' the scientists, the foreign policy 
types, the defense policy types, as to whether or not there is 
an ability to generate a consensus, not about every single 
piece of the puzzle, not whether or not we use an Aegis option, 
as opposed to the option we are considering now for North Korea 
and missile defense, not whether or not--not having to choose 
among them, but reaching some consensus about the combination 
of all the pieces.

    I do not want to put words in the Chairman's mouth, but I 
think it is kind of where he is and where I am, we may come 
down differently on pieces of it, but that is not how it is 
being debated up here. That is not how it is being debated out 
there, with the talking heads on television, the people who 
come before our committee.

    I realize that is a very broad question, but maybe you 
could just--first of all, does it make sense? Do you think we 
could make much progress, unless we reach that kind of generic 
consensus, and if you do not, then how do we get about the 
point down to, where I think you are dead right on, until we 
have a policy, all this other stuff does not matter much. I 
realize that is very rambling, but maybe you could talk to me 
about it, if there are any thoughts you have.

    Secretary Rumsfeld.  Well, let me begin. Our commission had 
Republicans and Democrats, uniformed ex-military and former 
civilian officials, people that were young and not so young, 
technical people and non-technical people.

    Every time we found that people were seeming to come to 
different conclusions, we said, look, this is not theory, this 
is fact. Let us have another hearing. Let us get people back in 
the room and talk about it.

    Ultimately, as Larry Welch said, the facts overrode our 
biases, preferences, and opinions; and we ended up all agreeing 
on very complicated matters. Now, how did it happen?

    Senator Biden.  Can I stop you there for just a second, 
because this is--I am going to get very specific. You have 
reached a clear consensus on the threat.

    Secretary Rumsfeld.  Exactly.

    Senator Biden.  What I did not get a sense of from the 
commission report, and having spoken to Welch at length, for 
example, you mentioned his name, the way your commission report 
is characterized by those who have not read it all is that the 
threat is so severe that it is worth jettisoning all of the 
arms control or nonproliferation regimes out there if we have 
to, to meet the threat. That is how it is characterized.

    For example, let me be precise.

    Secretary Rumsfeld.  I have never heard that--

    Senator Biden.  No. That is how--let me explain what I mean 
by that.

    The theory being that the threat was made so clear by the 
Rumsfeld Commission, that if, in fact, the Russians do not 
agree to an amendment to the ABM, if it means that we are going 
to have to give up on START II and START III, if it means that 
we have to abandon ABM, so be it.

    That is the context in which it is being argued, not by 
you, at least not that I am aware of, but by those who are 
pushing and believe that that is a better option, those who 
believe--because what we do not--we have two kinds of folks up 
here who are knowledgeable about arms control and about 
strategic doctrine, and they tend to fall in one or two 
categories, with notable exceptions.

    Either ABM is a bad deal, period, we should get out of ABM, 
it does not matter. I mean regardless of what the threat is, 
ABM is a bad deal. But they use the threat as their compelling 
rationale to abandon ABM.

    For example, there are many, Mr. Secretary, who believe 
that it is very worrisome that the President may very well 
negotiate an amendment to ABM, and they do not want that to 
happen, because ABM is alive. So that is what I mean by the 
context in which it is placed.

    There was very little discussion, not that there should 
have been, but there was very little discussion by the Rumsfeld 
Commission of what the world looks like if there are 800 or 
1,000 strategic weapons in China, and if Japan does go nuclear, 
and if--maybe none of this happens. Maybe it would happen 
anyway. But you understand the context in which--I mean I am 
not being--I do not say this to be critical, because I am not.

    I am just trying to explain to you, just like you said when 
you--I am not in the business world, even though I think I 
understand the jargon, I talked to everybody, I think I know 
what the private sector is facing. The truth is, I do not, and 
like you said, you thought you knew the answers until you were 
out there.

    I think people back on the other side of the equation think 
they know the politics of this and what is happening here, and 
they are not sitting here, and do not understand what the 
drivers are up here.

    Secretary Rumsfeld.  I do not disagree at all. There is no 
question that I am not an expert on the politics as I used to 
be when I was involved in it every day. I do not think--

    Senator Biden.  Oh, by the way, I think you are a hell lot 
more informed in the politics than I am in the business, so I 
am not suggesting that--

    Secretary Rumsfeld.  But the reality is that there are a 
lot of very reasonable people who are not all tangled up in 
theology that is outdated on these subjects. And when they sit 
down in a room and look at things, ultimately, honest people 
admit that those are the facts. It is perfectly possible to do 
that in this area.

    I have seen some of the testimony you have received. There 
are some very bright people, some very knowledgeable people. 
The two people who have just testified here today have--

    Senator Biden.  Now, let me ask you this question.

    Secretary Rumsfeld  [continuing]. --a very good grasp of 
this subject.

    Senator Biden.  I am sorry I am not being articulate enough 
to try to get--and this is the last try I will make.

    If Senator Lugar--and I am not being facetious when I say 
this--if Senator Lugar were elected president, and he were 
foolish enough to ask me to be his Secretary of State, the 
first thing I would do, and I mean this sincerely, is give you 
a call and say, without any fanfare, can you reassemble your 
commission for a private meeting with me, because I want to 
report to the president on the following.

    I have read your report, I understand the threat, but I 
want to pose the following question to your commission members.

    If the option that President Lugar is faced with is 
abandoning ABM, abandoning START II, abandoning any prospect, 
therefore, for START III, and being a tabula rasa on whether or 
not--what impact that will have on China, and India, and an 
arms race in Asia, if that is the option he is given, what 
would your commission members recommend?

    This thin missile defense system, with that abandonment, or 
not, because that is the real world, as you know better than, 
Mr. Secretary, having been a secretary. That is what the next 
president may be faced with.

    Nobody on your commission, or any other commission, that I 
am aware of, has said, given those options, the option papers, 
like you do it all the time when you are Secretary, option one, 
missile defense, as outlined, the following response, what does 
the President choose?

    Option two, amend ABM. They go along with it. An amendment, 
it means this. Option three, do not amend ABM, cannot get it 
done, stick with it, do not deploy.

    I mean what are--they are real, as you said, real-life 
things. The President of the United States calls me and asks me 
my opinion, and he does. I mean that may worry you all, but he 
does, and I sit there, and honest to God, Mr. Secretary, I do 
not know with any certainty what to tell him.

    What happens, Joe, if I am--he did not ask me this--but 
what happens, Joe, if I am faced with, from September, a 
decision. You put me on a fast track here, you guys in the 
Congress.

    I had your former commission members come in and saying, 
``You know, look, the testing is going on. I have been asked to 
be on this outside commission to overlook the testing.'' He 
says, ``Let us get something straight. All the testing being 
done, even if the tests went off on time, and even if it works, 
it only works from two azimuths. You cannot tell me that it 
will work.''

    It does not mean the system works. We cannot test it, how 
it may be used. It does not mean I am against it, but let us 
just be straight about what it does mean.

    I sit down with other people, Mr. Secretary, and they say, 
people in the Defense Department now, people out of the Defense 
Department and former administrations saying, hey, look, the 
easiest option is a hell of a lot better than the option you 
are talking about now, more doable, more certain. I do not know 
why we took it off the table.

    All those are the things we get wrapped up in up here, but 
we do not get wrapped up in the President of the United States, 
you are faced with the option, end of START, end of ABM, and 
with deployment of the system. What is the right choice? That 
is what I am getting at.

    Secretary Hadley.  I think if you had that option, you 
should do just what you said. I did not serve on the Rumsfeld 
Commission, but I talked to a lot of people who did, and they 
are very complimentary of the service of the chairman, and one 
of the things I am told he did was, he made them get into the 
facts--

    Senator Biden.  Yes.

    Secretary Hadley. --kept them in the facts, and then kept 
them meeting after meeting, working over the issues, and they 
developed this remarkable consensus among a wide range of 
views. Going into that session, they got a consensus. I think 
you can do that. It is hard work. It takes a strong chair, and 
it takes a lot of time.

    On the issue you talked about being pro defense or pro 
nonproliferation, I chaired a group in 1995, a council on 
foreign relations task force, very broad range of people, did 
roughly the same thing, not as effectively as he did. We got a 
report where we got people really to agree that some commitment 
to defenses was not undermining nonproliferation, but would 
actually reinforce nonproliferation--

    Senator Biden.  I happen to agree with that.

    Secretary Hadley. --and we got a rather robust list of 
measures that this fairly diverse group would agree on. I think 
there is room for that kind of thing, and, indeed, a crying 
need for that kind of effort, but it requires a strong chairman 
and a lot of time to force people really to get into the 
details, and work at it not once a quarter, but once a week.

    Secretary Carter.  If I may, let me just second that, 
because Secretary Rumsfeld cannot say this himself, but there 
are a lot of commissions established and a lot of panels, and 
the Rumsfeld Commission has a reputation in the circles in 
which I travel of being the most effective commission in 
reporting on any important issue in a long time, so you could 
not want better people than that to assemble.

    Secretary Hadley.  Now, for one other thought on your broad 
point, which troubles me a lot, and I am afraid I do not have a 
good answer for it, and it does not fall in my area of 
expertise, but it has to do, Senator, with the salience of 
these issues out there in the country in which we live. 
Everybody in this room is a believer; otherwise, they would not 
be here.

    Senator Biden.  Nobody even knows we are having this 
debate.

    Secretary Hadley.  Exactly right. They are trading their 
dot-coms stocks out there--

    Senator Biden.  You bet.

    Secretary Hadley. --and we are worried about the fate of 
the world, and we just do not get it. That is a deeply 
troubling problem to me, and I feel that although there are 
debates within the community that cares, the importance of 
those debates is small in comparison to the great gulf that 
separates those who care from those who do not care at all.

    Senator Biden.  I do not think it is that they do not care, 
I think they either think there is no threat, as the Secretary 
said, he said--Mr. Secretary, you said two things in the very 
beginning. You said two significant things have changed, and I 
could not agree with you more.

    The two significant things were: One, do not fool with us. 
Conventionally, we have demonstrated it. And I would argue that 
the perverse impact of our overwhelming display of power in 
Kosovo did not even put a rift with our allies. I think that is 
the reason why you have this new French proposal that is being 
embraced for an alternative force within the context of NATO, 
because they cannot catch up.

    The second one was, people think, well, you know, 
everything is okay. There is not a problem. I mean let us move 
on. I do not think it is they do not care, they just do not 
know. By the way, the other part is, I talk to my colleagues 
who say, this is slam dunk, if we all agreed on a national 
missile defense, this is slam dunk.

    Hey, I do not know about you, I am not a bad politician. I 
represent a state that is mostly Republican. I get elected 
pretty well over the years, and I know my state pretty well. I 
want to tell you, I get to pick which side of the argument I 
want in this election, in my state where I am running. Do I 
want to do $30 billion front end for this new system, and then 
promise to do more, or do I want to say, why do we need it? I 
know which one I would take.

    I think my Republican friends are missing the political 
boat on where the politics of this are. I may be wrong, but I 
know which debate I would take in my state. The point is they 
have not even thought about it when we present the bill to them 
on this stuff.

    I mean they do not even think about it. I do not mean that 
should not drive us one way or another. I really mean it, it 
should not be the driver, but what I do think it does reflect 
is that we have not arrived at any consensus, and one of the 
reasons why, and I will end with this, Mr. Chairman, one of the 
reasons why we do not talk about it much, I mean you and I talk 
about it all the time, most of our colleagues, they do not know 
from shinola about this. I mean they do not.

    And it is not because they are uninformed or not bright 
guys and women. It is not up on the table, you know; it is not 
up there yet. So what do they do? They get faced with a 
political judgment.

    Are you for a defense system or are you against it? After 
that, they have not quite thought it through, because it is not 
up there yet.

    So if there is any way we could have a Rumsfeld Commission 
that was tasked to answer two or three very practical questions 
that the President of the United States is going to have to 
decide, not merely the threat as it exists in North Korea, 
Iran, and Iraq, and what their capabilities will be, but what 
is the threat overall to our strategic balance, if the equation 
changes by our actions, so a president has at least a plate. I 
know just as a plain old Senator, I like the staff to give me 
options that I choose from.

    I sure would like, if I were the president, to sit there 
and have people like you, Don, having said, okay, look, given 
the option, I still think it is better to go ahead and build 
this system, notwithstanding the fact--and I would want to 
classify it.

    I would not want this an open discussion or anything, 
because, obviously, if they conclude we do not have the will to 
do it, then no one is going to amend anything anyway to deal 
with this. I mean it is a very tricky device.

    But anyway, that is where I keep, after all these hearings, 
after spending as much time as I possibly can trying to 
understand it, I get down to thinking that we need more input 
from people like you on where the rubber is meeting the road 
right now on some of the decisions we have to make.

    Senator Lugar.  Well, I think the comments you have made, 
Senator Biden, are very important. I suspect that some fateful 
decisions are about to be made by the President--

    Senator Biden.  Yes.

    Senator Lugar. --and if in your colloquies with him, he is 
in need of some further options and guidance, we need to 
consider additional recommendations. Maybe we need to task the 
panel today to assist us, but it is a serious issue, and I 
appreciate your raising it in that way.

    Senator Biden.  I did not mean to imply that I am his main 
source. I mean I do not want it to go out of here that he calls 
Biden when he wants to know what to do, but in truth, I am sure 
I am one of fifteen people he has asked their view about, both 
the politics of it, the efficacy of what has happened. For 
example, one of the questions raised, Mr. Chairman, is: What 
happens if he gets a deal? Can it get passed this year?

    One of the reasons I have suggested putting off the 
decision is, I think it puts us in an awful position. He gets a 
deal at the end of the day, with all due respect, Mr. Chairman, 
not to you, but to your party, I am not at all certain that we 
are going to have an amendment to an ABM treaty that is going 
to get the two-thirds vote, you know, an overwhelming vote, 
even if it is negotiated.

    I think the last thing I want to have happen, a new 
president of Russia, actual hard-baked agreement, a consensus 
reached between them, an agreement submission here, and 
rejection. They are the kind of questions I get asked, as well 
as, what do you think, but I am not his main guy, so you can 
rest easy that I am not the one he is listening to on this.

    Senator Lugar.  Well, without extending this colloquy 
beyond where it should go, the problem, as I see it, Joe, is 
that the President might get a deal, and you may be right, the 
Congress is not really prepared to deal with it, because we are 
tied up in the appropriations cycle, or a variety of other 
reasons.

    This really makes it incumbent upon the President and his 
people to begin to engage some members of the Congress in some 
preparation for this. In other words, we all know some 
decisions are going to have to be made. There are fateful 
negotiations proceeding with the Russians, maybe with others. 
It should not come then as a total surprise to us that some of 
this is plopped on the table, and someone anticipates some 
activity is going to occur.

    Senator Biden.  As you know, we are doing that with that 
special commission you and I have been put on that is chaired 
by Thad Cochran and Bob Byrd, so we are trying that, but it 
is--anyway, I just--

    Senator Lugar.  It needs some energy.

    Senator Biden.  Yes.

    Secretary Rumsfeld.  Senator Biden made a comment earlier 
about the discussions he has in Silicon Valley with business 
people. They say this will happen somewhere else. It is a fair 
comment, and I would like to comment on it.

    The tools we have used in the past tended to be used at a 
time when the world was quite different than it is now 
becoming. When I was at G.D. Searle, and deciding where I 
wanted to do research and development, we had R & D facilities 
in England, in France, in the United States. I could sit in my 
office and say, I will do this there, or there. Where would I 
go? Well, I would go where the environment was hospitable.

    Today, I know a company that has scientists in probably 
eight or ten different countries, large numbers of them, a 
number of them in Russia. They can decide what they want to do 
where.

    I know another company that is a virtual company. They have 
scientists from Vladivostok to Palo Alto. They do not even know 
each other. So the point that you are told by those people is 
real--

    Senator Lugar.  I agree, it is.

    Secretary Rumsfeld  [continuing]. --Competence can move off 
shore, if an environment is created that is not hospitable to 
having that competence in our country. It is a very real 
serious problem with respect to the subject we are here to talk 
about, proliferation.

    How do you manage that situation? In my view, the only way 
you can do it is to work with other key countries, and to make 
sure that we know what is important and why it is important, 
and use our political capital, our time, and energy on that, 
and not run around trying to stop things that are out of the 
bottle.

    Senator Lugar.  Just on that point, Secretary Rumsfeld, you 
made the point, or maybe one of your colleagues did, that we 
are a country that can adapt. Just to be the devil's advocate, 
why do we have controls over any of this intellectual property? 
Given this virtual company, with the site at Vladivostok, and 
elsewhere, all communicating and working together, but not 
knowing each other. While at the same time we have applications 
for export licenses waiting for action in the State Department. 
Why would you not just scrap the need for export licenses, and 
say, in essence, we are stronger, because we have more 
intellectual ferment here and greater freedom and the capital 
to deploy. Why not just sell our good ideas to the rest of the 
world knowing that in all likelihood we will stay ahead of the 
competition. Philosophically, is there a case to be made?

    Secretary Rumsfeld.  I think there is a case to be made for 
that. As everyone here has said, that has to be a part of how 
we are arranged. It does not mean it is all, because I do think 
there is still an important role for efforts to avoid 
proliferation, but the world is not and has never been static.

    For every offense, there has been a defense, and for every 
defense there has been an offense. Things are moving, evolving, 
and becoming more sophisticated.

    We, above any nation on earth, have the ability to live in 
this world, but we need to make the necessary investments so 
that we can live in reasonable safety, and that we can do. The 
cost is less, in my view, if we, at the same time, make an 
effort against proliferation, and do these other things as 
well, but we certainly cannot just rely on antiproliferation 
efforts, because the world is moving under us. We are going to 
have to invest in defense.

    Some say we cannot afford it. We are spending three percent 
of GNP and heading south. We can afford to do anything we need 
to do to provide for the security of our people. And we ought 
to.

    Senator Lugar.  Let me ask two questions that deal 
specifically with the Russian situation. One I asked the panel 
the other day, and let me ask it again of you.

    In Russia, after various Nunn-Lugar efforts, we have 
corralled their chemical weapons in seven areas. Secretary 
Carter has been involved there, and knows where they are.

    Russia has signed the Chemical Weapons Convention. 
Diplomacy worked, and they are cooperating with us on 
discovering the best way to destroy these dangerous weapons. 
But we still face a Russian stockpile of 40,000 metric tons 
that is no closer to destruction than is was at the end of the 
cold war.

    Now, last year, as a part of the Nunn-Lugar program, it was 
suggested that we destroy 500 tons per year of the 40,000. Some 
in the House of Representatives suggested that the Russians 
made these weapons, let them clean them up. In other words, the 
utilization of taxpayer funds from America in fulfilling 
Russian obligations under the CWC was not a very good idea.

    There were other arguments as to how we would destroy these 
weapons, but the fact is these weapons still pose a threat to 
America. The 40,000 metric tons of chemical weapons are still 
there, untouched.

    Now, given all the things we have talked about today--the 
development of Russia, the proliferation problem--do the 40,000 
metric tons mean anything to our security, and if they do, what 
should our policy be? It does not appear that the Russian 
budget this year is going to be any better than the last one, 
and even 500 tons per year is a small effort. Should we do 
more? Should we do less? Should we get into it at all? In the 
real world, this is left over, and it is dangerous stuff, and 
it is very deadly. What advice would you have? Ash?

    Secretary Carter.  Well, I think you are quite right that 
the existing stocks are very large, they are much larger than 
the existing Nunn-Lugar program aims to eliminate itself, but I 
would still argue that the program has a value, and the value 
lies in keeping the government of Russia focused on this 
international obligation, which it has, which in the fullness 
of time it is going to need to carry out, yes, it is in 
straightened circumstances now, but eventually they need to get 
around to it, makes us a partner, rather than an antagonist of 
them in this process. That is good for us in the long run.

    It creates a collaborative environment between our experts 
in that field and their experts in that field, which has 
spillovers into other cases, proliferation elsewhere in the 
world of chemical weapons, protection against chemical attack, 
counterterrorism involving chemical weapons.

    The point was made earlier, I think, by Secretary Hadley, 
that without the cooperation of Russia and also China, that 
large producers and large stocks of intellectual capital in 
these weapons of mass destruction fields, without their 
cooperation, we cannot win the war against proliferation around 
the world.

    So this is an opportunity to have that as collaborators, 
and to make small, but tangible contribution to keeping them on 
the rails, eventually to getting rid of all that, that 40,000 
tons. For all those reasons, I think the program is appropriate 
and should be supported.

    Secretary Hadley.  I think it is not an issue of priority. 
I think it ought to have a high priority. I think it is an 
issue of effectiveness. I mean I am no politician. You folks 
are. There is a problem of having money go to Russia, but 
particularly, people do not want to be--I think the American 
people do not want to be played for a sucker.

    So one of the things that is difficult is, I think we have 
only imperfect visibility into the Russian CW programs and BW 
programs. We have been struggling with them on BW for a long 
time, with a lot of priority, and we still do not have 
visibility there.

    So the kinds of questions you want to ask are, will the 
money go to the right folks to actually destroy these stocks? 
Are these real stocks out of weapons that are being destroyed? 
There are some people who say 40,000 metric tons is a very low 
estimate of what is really out there in Russia?

    Senator Lugar.  Low estimate?

    Secretary Hadley.  Low estimate. That there is more there 
than the 40,000 tons they have declared. Are we sure that what 
we are not doing is, in fact, feeding their industry, you know, 
they make more CW and we destroy it?

    So I think the issue is not priority. I think the issue is 
effectiveness and visibility in the program. I may be out of 
date. I struggled with this issue in 1991 and 1992. It may be 
different from then now, but I think that is really the issue, 
is can we do it in an effective way that is defensible to the 
American people so that we are not being played for a sucker.

    Senator Lugar.  Plus the fact that the argument is made 
that if we supply those funds, then their use the funds for 
something else.

    Secretary Hadley.  Right.

    Secretary Carter.  Well, I would like to comment on that, 
because I think Secretary Hadley is absolutely right, that we 
can only participate in this Nunn-Lugar program, or any Nunn-
Lugar program, with the Russians, with the understanding that 
we have the appropriate visibility into the uses to which the 
funds are committed.

    In the case of chemical weapons, and even more so in 
biological weapons, I think the Russian governments going back 
to the Soviet governments have been deceptive in that regard, 
and we have been peeling back an onion there.

    But it is the case, to my knowledge, that in all of the 
Nunn-Lugar programs, the process of audits and examinations is 
sufficient so that we know where our assistance is going. 
Remember, these programs do not take the form of us giving cash 
to them, which they then go and spend in some way. In the case 
of the chemical weapons destruction program specifically, we 
are building a facility to destroy chemical weapons.

    Now, it is hard for them to divert a facility designed to 
destroy chemical weapons. There is nothing else they can do 
with that assistance except what we intend for them to do. So I 
think a program has been and can be built to meet the 
strictures that Secretary Hadley rightly would impose on it.

    Senator Lugar.  Eighty-three percent of the funds are paid 
to American contractors.

    Secretary Carter.  That is true, too.

    Senator Lugar.  But let me just ask a question on the 
biological weapons issue. A year ago I visited one of the 
biological plants, and met with directors of thirteen others. 
Take Secretary Hadley's point that there may be more than 13, 
but, nevertheless, it was somewhat of a revelation there were 
13. The directors had a common problem, no money, and a lot of 
scientists in white coats, and staff, and no place to go. So 
they were interested in us, because we have money and 
opportunities for commercial partnership.
    Now, the Russian government still denies they were involved 
in biological weapons in anyway, even while we are visiting the 
former production plants viewing large amounts of weapons in 
storage. While I was there a scientist asked me to look through 
a microscope and see Anthrax. I would not know what Anthrax 
looked like. They assured me that was what was on the slide 
crawling around.
    Having said that, I came back and suggested privately to 
some American pharmaceutical firms that there might be an 
opportunity for a merger or an acquisition. The Russian 
scientists showed me e-mails that they were sending to U.S. 
firms, universities, and think tanks. This is an interesting 
proposition, but a very difficult one.
    In the real world, if an American firm was to buy the place 
that I visited, they are not really sure what they have, given 
commercial law in Russia, adjudication of these disputes, where 
equities lie, and so forth. Yet at the same time, if we are 
thinking of bolder measures, it occurs to me that U.S. 
commercial investment should be pursued, if not by 
pharmaceutical firms, chemical firms.
    In other words, we are busy supporting the scientists. They 
get stipends, 17,000 of them, to do things that are peaceful, 
and that is internationally supported. But, nevertheless, these 
scientists are in a quandary. The central government is saying, 
continue on, but the central government has no money to support 
any of this. They are looking to us for another path and new 
peaceful opportunities.
    Do any of you have any creative suggestions in the 
biological arena. I know it is much more murky, and Russia is 
still in denial on many of these subjects.
    Secretary Carter.  Well, in my judgment, whether the Nunn-
Lugar program should try to make inroads into the Soviet former 
BW program, in my judgment, the answer to that, that is not 
really a question of whether, but how.
    To the question of whether, I would say absolutely, we 
should be trying to make inroads, but we have to proceed a 
little bit delicately, because the assessment I would make of 
the residue of their BW program is that there are some people 
who are associated with those facilities, because that is where 
they have spent their entire lives and careers, and they have 
nowhere else to go.
    There are others who are there, because they came to 
believe in the course of their careers in the unique value, 
military value of biological weapons, and are still committed 
to that. So we should not imagine that there are not different 
camps in that complex.
    What you would like to do is have some way of supporting 
those who would like to take their skills elsewhere, eroding 
the loyalty of those who are still committed to a biological 
weapons program, stopping people from ending up in Tripoli, or 
Pyongyang, and staying where they are. I think these are 
objectives that a carefully structured Nunn-Lugar program aimed 
at the biological weapons complex could have.
    I think it ought to have the same rules that the rest of 
the Nunn-Lugar program has, which is that we get visibility 
into the results of any assistance we offer, that we see 
concretely what we are getting, that is what we are getting in 
all the other Nunn-Lugar programs, but biological weapons--if 
what I said earlier is true, biological warfare in the long run 
will be seen as a much more fearsome type of warfare, even the 
nuclear warfare.
    This is the largest, most sophisticated program the world 
ever saw. They kept going long after we stopped, and it has to 
be a central security concern to the United States to make sure 
that this complex has a destiny which is different from a 
destiny which causes it to be defeat of proliferation, some 
other destiny. If we have the opportunity to participate in 
that cooperatively, with Russians who will cooperate with us, 
it is a hell of a bargain.
    Senator Biden.  I just want to second, if they are sending 
e-mails to companies, chemical companies, they sure have a lot 
of feelers out other places. It just seems to me to be kind of 
a no-brainer. Within the context that you and Ash--the way you 
have set up Nunn-Lugar and the way Ash talked about it, and 
Steve talked about it, about transparency--I mean I just do 
not--I do not quite get why that is difficult.
    By the way, again, on the politics of it, I do not know 
many Americans who would say it is a bad deal, even if they 
are, quote, ``using us,'' if the end result is we are 
destroying their chemical weapons, or their biological weapons, 
if that occurs.
    Mr. Chairman, I know they are three incredibly busy men. I 
have three questions for each that are not very--will not take 
much to answer, but I have to leave now to be at another place 
at 11:30. I would like to ask that they would be able to be 
submitted to the witnesses, and at your leisure. This is not 
one of those things I am looking for you to have to give back 
anytime soon.
    I would like Mr. Secretary, for you to--because I know 
you--I am flattered that you take seriously the considerations, 
the questions, and the suggestions that are made by some of us 
up here, I would like you to seriously consider maybe for me to 
be able to pick up the phone and call you in a couple of weeks 
as to whether or not there is a way to figure out, whether or 
not you do it, or someone else does it, that there be a 
bipartisan group of experts who deal with even some narrower 
option points that might be available to this president or the 
next president about what reasonable options occur, because as 
I talked to people, when I was out, Ash, at the conference, I 
found that the strongest supporters of a robust national 
missile defense system had to say honestly, well, I do not know 
what will happen in terms of proliferation if we do this And 
maybe we say the consequences are worth the risk, I mean even 
if those things occur.
    I keep going to the intelligence community and saying, 
``Okay, tell me, what do you think is going to happen in these 
other places,'' and they look at me like I have asked them 
about is there a God.
    I mean they say, ``Well, they might do this anyway,'' and I 
say, ``Well, wait a minute now, they might''--I mean--and I 
just think to myself, the next President of the United States, 
whoever it is, is going to be sitting there and I do not get 
the sense that we have a real handle on this.
    You do not even have to take my call, but in the next 
couple of weeks, I am going to pick up the phone and maybe just 
brainstorm with me, and I promise it can be off the record. I 
will not repeat anything you tell me. You can tell me to go 
away.
    I would like to ask, Mr. Chairman, that I would be able to 
send in a couple of questions, and hope that you are able to, 
and count me in, if you so choose, pursue ways in which to deal 
with the whole threat reduction issues that goes beyond what we 
are talking about here, some of which is under way, and I have 
a couple of questions about that.
    Senator Lugar.  Senator Biden, your questions will be 
submitted to the witnesses--
    Senator Biden.  I apologize for leaving, gentlemen. Thanks 
a million.
    Senator Lugar  [continuing]. --and the witnesses should 
respond to the questions, and likewise should respond to the 
telephone calls that you might make.
    Senator Biden.  You have an option not to take the call. 
Mr. Chairman, I should not say this, I will never forget one 
time, I was a young Senator, and the Senator from Arkansas, a 
powerful chairman of the appropriations committee, had just 
passed away, and he was the number two guy on the Judiciary 
Committee, and I went to then-Chairman Eastland--and you will 
get a kick of this, Don.
    I said, ``Mr. Chairman, the Senator had chaired the 
criminal law subcommittee. I would very much like to chair that 
committee, and I wonder if I could get your support.''
    He looked at me and he said, ``Son, you count.''
    I said, ``I beg your pardon, Mr. Chairman.''
    He said, ``You count.''
    I said, ``Count?'' I said, ``No, no, no, I have not done 
that,'' meaning have I surveyed the other members, and I said, 
``No, but I will go do that,'' and I said, ``Well, when I get 
the results, should I send you a letter, Mr. Chairman?''
    I will never forget what he said. He said, ``Son, a piece 
of advice. Never send a chairman a letter he does not want to 
receive.'' [Laughter.]
    Senator Biden.  Well, you can put the telephone call in 
that category, if you would like to. [Laughter.]
    Senator Lugar.  Let me add that last year legislation was 
passed to require the State Department to do a study on export 
licensing, so that we might have a database on their efforts 
and timeliness on export licenses.
    The State Department stoutly resisted doing any study on 
this subject. This committee does have oversight over the 
Department, but in the real world I suspect that if they do not 
want to do the study they will find countless ways not to do 
the study or to delay it for extended periods of time.
    So I reiterate the request today, using this hearing as an 
opportunity, we must find a way to improve our efforts at 
considering export licenses. I agree with Secretary Rumsfeld, 
we ought to act quickly. Sometimes, maybe in despair, we say 
there will be an election, and there will be another 
administration, another fresh start, but we need to move now.
    There are nine months left in this year, and a lot is going 
to occur. So despite whatever discouragements there may be, we 
need to proceed, and we will do so.
    Let me just thank each of our witnesses for their 
testimony, likewise, for the published works that you have been 
responsible for, and have meant so much to our foreign policy 
and the security policy of the country.
    The hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]


</pre></body></html>
